<html>
<title> - PAVING THE WAY FOR SELF-DRIVING VEHICLES</title>
<body><pre>[Senate Hearing 115-279]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-279

                PAVING THE WAY FOR SELF-DRIVING VEHICLES

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
                
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-767 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>                 
                
                

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 14, 2017....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Peters......................................     3
    Prepared statement...........................................     4
Statement of Senator Moran.......................................    31
Statement of Senator Cortez Masto................................    33
Statement of Senator Gardner.....................................    36
Statement of Senator Young.......................................    38
Statement of Senator Inhofe......................................    39
Statement of Senator Hassan......................................    41
Statement of Senator Blumenthal..................................    43
Statement of Senator Klobuchar...................................    44
Statement of Senator Cantwell....................................    46
Statement of Senator Udall.......................................    47
Statement of Senator Markey......................................    49

                               Witnesses

Mitch Bainwol, President and Chief Executive Officer, Alliance of 
  Automobile Manufacturers.......................................     6
    Prepared statement...........................................     7
Rob Csongor, Vice President and General Manager of Automotive 
  Business, NVIDIA Corporation...................................    11
    Prepared statement...........................................    13
Colleen Sheehey-Church, National President, Mothers Against Drunk 
  Driving........................................................    15
    Prepared statement...........................................    16
John M. Maddox, President and Chief Executive Officer, American 
  Center for Mobility............................................    18
    Prepared statement...........................................    20

                                Appendix

Jacqueline S. Gillan, President, Advocates for Highway and Auto 
  Safety, prepared statement.....................................    53
Statement from American Car Rental Association...................    74
Statement from Continental.......................................    76
Statement from Property Casualty Insurers Association of America.    78
Letter dated June 13, 2017 to Hon. John Thune and Hon. Bill 
  Nelson from Eric Meyhofer, Head of Advanced Technologies Group 
  (ATG), Uber Technologies, Inc..................................    79
Article from Reuters dated March 29, 2016, entitled ``Moody's 
  forecasts U.S. adoption of self-driving cars `several decades' 
  away '' by Reuters Staff.......................................    83
Letter dated June 13, 2017 to Hon. John Thune and Hon. Bill 
  Nelson from Electronic Privacy Information Center: Marc 
  Rotenberg, EPIC President; Caitriona Fitzgerald, EPIC Policy 
  Director; and Kim Miller, EPIC Policy Fellow...................    84
John Bozzella, President and CEO, Association of Global 
  Automakers, Inc., prepared statement...........................    87
Statement from the National Association of Mutual Insurance 
  Companies......................................................    88
Letter dated June 14, 2017 to Sen. John Thune and Sen. Bill 
  Nelson from Consumer Watchdog: Harvey Rosenfield, Founder; John 
  M. Simpson, Privacy Project Director; and Joan Claybrook, 
  Former President, Public Citizen and Former NHTSA Administrator    90
Response to written question submitted by Hon. Brian Schatz to:
    Mitch Bainwol................................................   114
Response to written question submitted by Hon. Tammy Duckworth 
  to:
    Rob Csongor..................................................   115
Response to written questions submitted to John M. Maddox by:
    Hon. Ron Johnson.............................................   115
    Hon. Brian Schatz............................................   116
    Hon. Tammy Duckworth.........................................   117

 
                          PAVING THE WAY FOR 
                         SELF-DRIVING VEHICLES

                              ----------                              


                        WEDNESDAY, JUNE 14, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Fischer, 
Moran, Heller, Inhofe, Capito, Gardner, Young, Cantwell, 
Klobuchar, Blumenthal, Markey, Booker, Udall, Peters, Baldwin, 
Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Before we begin this morning, our thoughts 
and prayers are with the members, staff, Capitol Police, and 
others who were at the congressional baseball practice this 
morning. Capitol Hill is something of a community, and while 
details are still coming in, we already know that this 
despicable act has affected people that we know and their 
families.
    I know that many of us in this room have already sent and/
or received text messages or e-mails to and from friends and 
family that are checking in. So we obviously want to know what 
happened, but the well-being of our friends and colleagues, 
especially those wounded, are first in our minds. We're also 
very grateful to the Capitol Police, who work diligently to 
protect us and, as I understand, saved many lives this morning.
    This morning, we're here to talk about self-driving 
vehicles. Self-driving vehicles have the potential to make 
transportation smarter, safer, and more accessible. A little 
over a year ago, we held the first hearing ever in Congress 
focusing on this technology and had the opportunity to see some 
of these new vehicles in action.
    Today, we'll be discussing the great potential of this 
technology, but also the numerous policy questions we will need 
to address in order to facilitate the testing and safe 
deployment of these vehicles without delay. Self-driving 
vehicles are poised to bring enormous disruption to our 
transportation networks that will improve our lives and our 
society. Indeed, the CEO of General Motors has said that she 
envisions more change in the auto industry in the next five 
years than have occurred in the last 50.
    For many Americans, that change can't some soon enough. In 
2015, over 35,000 people died in motor vehicle crashes in the 
United States, or nearly 100 people per day. That includes car 
and truck drivers, passengers, motorcyclists, and pedestrians. 
Worldwide, we lose on average 3,500 people per day.
    With more than 90 percent of those deaths attributable to 
human error, self-driving vehicles--which, after all, can't 
fall asleep, use drugs or alcohol, or get distracted by 
texting--have the potential to reduce these tragic numbers 
dramatically. Drunk driving, in particular, has been a 
significant challenge, and I appreciate Mothers Against Drunk 
Driving for being here today to discuss this issue.
    Self-driving vehicles also have the potential to improve 
mobility for many Americans and fundamentally change the way 
many of us get around. Offering a new means of accessible 
transportation, including for our nation's seniors, and 
lessening congestion will improve productivity and efficiency 
in all of our lives. Strategy Analytics and Intel predict self-
driving technology will enable a new global passenger economy 
worth $7 trillion by the year 2050, representing an incredible 
transformation of the world economy.
    Self-driving vehicles are no longer a dream of science 
fiction. The stepping stones to self-driving vehicles are 
already in cars on the road today. Technologies like automatic 
emergency braking and lane keeping are proving their worth.
    While technology challenges still exist, manufacturers are 
becoming increasingly confident that the technology for fully 
self-driving vehicles will be ready by 2021, just a few short 
years away. In fact, just last week, I rode in a Level 3 Audi 
A7 prototype. The company plans to release a Level 3 vehicle to 
the public next year.
    Manufacturers are asking for regulatory certainty now so 
that when the time comes, they will be able to deploy these 
vehicles. These great changes are coming fast, and the Federal 
Government must be ready to keep pace. As other countries 
devote significant attention and effort to stimulating this 
technology, strong Federal leadership will be necessary to 
maintain our position as a global leader of this innovation. 
There are several hurdles to achieving this goal, and Senator 
Peters, Ranking Member Nelson, and I are working together on 
possible legislative solutions. In fact, just yesterday, we 
released principles for bipartisan legislation to guide this 
effort.
    The transportation laws and regulations currently on the 
books did not contemplate the concept of self-driving vehicles. 
Current Federal motor vehicle safety standards do not address 
automated technologies, and in some cases directly conflict 
with them. We are looking for ways to address these conflicts 
in dated rules without weakening the important vehicle safety 
protections they provide.
    We also must be careful to avoid picking winners and losers 
in this space. Self-driving vehicles may employ different 
technologies, and their deployment may follow varying business 
models. So it is important for Congress not to favor one path 
before the market figures out what really works best.
    While we look for ways to help self-driving vehicles get on 
the road quickly, we need to make sure that safety remains our 
number one priority. Industry must find ways to show the 
technology is safe and reliable to address public skepticism.
    The Federal Government must also recognize that it does not 
have all the answers. Instead, it must seek outside technology 
expertise to begin the hard work of updating existing standards 
and setting new rules. As I've said before, government needs to 
challenge itself to overcome the traditional 20th century 
conception and regulation of a car and a human driver.
    AVs will, over time, bring changes to jobs, insurance, law 
enforcement, infrastructure, and many other things we cannot 
yet foresee. Similar to when the car was first invented, these 
challenges are not insurmountable. I remain committed to a 
thoughtful discussion with today's panelists, who share my goal 
to maintain American innovation leadership and make safety 
paramount.
    I look forward to working with my colleagues on this 
committee as we move forward with potential legislation, and I 
now turn to our Ranking Member for the hearing today, Senator 
Peters from Michigan, for his opening statement.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Chairman Thune. It's an honor to 
be here, and I appreciate the opportunity to sit in for Senator 
Nelson. Unfortunately, Senator Nelson needed to attend to some 
other matters and could not be here. But I know he is very much 
committed to this issue, and I appreciate him working with you, 
Mr. Chairman, to bring this hearing together.
    I also appreciate the opportunity to work very closely with 
you and your staff, who have been intimately involved in these 
sometimes very complex issues, to bring this technology 
forward. I'm looking forward to, hopefully, introducing 
bipartisan legislation very soon to create a space for this 
incredible innovative technology to move forward while also 
being very concerned about safety as we move down that path.
    As Chairman Thune mentioned, this technology is without 
question one of the most transformative technologies to come 
out of the auto industry probably since the first car came off 
of the assembly line. I believe it is in every way equal to 
that innovation, we know what happened when that first 
automobile came off of the assembly line. It literally 
transformed America. It created the American middle class. It 
changed the places where we live, how we get from point A to 
point B. It created new industries, creating jobs all 
throughout the economy and driving incredible innovation in the 
process.
    That's going to happen again here at the beginning of the 
21st century, and as the Senator representing the great state 
of Michigan, the center of the auto industry, it definitely 
brings great pride to me and fellow Michiganders. When we think 
about this history, it's interesting to think that in the 
beginning of the 20th century, it was the automobile that 
really propelled incredible innovation in the economy, and, 
once again, it's going to be the automobile that moves 
innovation forward in the 21st century.
    I say that because the technology necessary to move these 
vehicles through a very complex environment on the street with 
all sorts of potential hazards will mean incredible computer 
power, particularly developments in machine learning and 
artificial intelligence, and I look forward to hearing from the 
panel as to where they see this technology moving beyond 
automobiles. What is happening in the auto industry today will 
have transformative effects in nearly every industry. 
Certainly, safety is paramount. If we can save the lives of the 
nearly 40,000 people dying on our highways, that's perhaps the 
most significant factor of this great technology.
    I will have further comments entered into the record, if I 
may, Chairman Thune, because of my unexpected assuming of this 
position here with an opening statement. We will have 
additional comments put into the record.
    [The information referred to follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    When Henry Ford first installed a moving assembly line in a 
Michigan factory in 1913, he couldn't have predicted how this 
technology would transform American mobility, help to create the 
American middle class, create new industries and jobs, and drive 
innovation for the next several decades. Self-driving vehicles have the 
potential to be the next transformative technological development in 
the automotive industry, and perhaps the most significant since the 
assembly line over 100 years ago. As a senator from Michigan, I take 
great pride in representing a state that was the center of the 
automotive revolution in the early 1900s and which promises to be the 
center of innovation in the self-driving vehicle revolution in the 
early part of the 2000s.
    Self-driving vehicles represent the proverbial ``moon shot'' of the 
automotive industry. They have the potential to save tens of thousands 
of the more than 35,000 lives lost each year on the road, the vast 
majority of which are caused by driver error. They will provide 
mobility for those who cannot drive themselves to the grocery store or 
to a doctor's appointment, greatly improving the quality of life of 
millions of Americans and making them less dependent on assistance for 
routine travel. The development of self-driving vehicles will require 
increases in computing power, development of advanced machine learning 
and artificial intelligence technologies, and increased cybersecurity. 
These technologies have the potential to impact a broad number of 
industries beyond just the automotive industry, and could lead to new 
products and jobs that we haven't even imagined yet.
    I believe that it is critical that we ensure American leadership as 
the center for automotive innovation in the world. We must act now to 
solidify our Nation's position as the world leader in the future of 
mobility. Congress can help by making sure that efforts to develop 
self-driving vehicles aren't unnecessarily delayed or deterred by 
regulations that were designed for a different generation of 
automobiles, while remaining primarily focused on the safety of 
passengers.
    I appreciate the opportunity to work with Senator Thune and his 
staff on this matter. We plan to introduce bipartisan legislation that 
will allow self-driving technology to continue moving forward while 
ensuring that it is done in a safe, responsible, and secure way. The 
current regulatory regime requires that carmakers certify that their 
vehicles comply with the Federal Motor Vehicle Safety Standards, which 
assume the presence of a driver and refer to components like steering 
wheels, brake pedals, and rearview mirrors--all of which may be 
unnecessary in a self-driving vehicle. Left unchanged, these standards 
would make it challenging for manufacturers to test and deploy these 
potentially life-saving vehicles, threatening America's position as the 
global leader in automotive innovation.
    Yesterday, Chairman Thune, Ranking Member Nelson and I released 
principles for bipartisan legislation that will address these problems. 
This legislation will create a space for innovators to develop new 
self-driving vehicle designs while prioritizing innovation and 
remaining tech-neutral, allowing for a variety of different forms or 
technologies in the vehicles of the future. It will remove barriers to 
development that exist today, while working towards a more 
comprehensive set of standards as the industry develops and matures. I 
greatly appreciate the constructive efforts of the Chairman and Ranking 
Member throughout the process of developing this legislation, and I 
look forward to its introduction.
    A key part of the process of developing new safety standards and 
industry norms will be research, development, and testing of self-
driving vehicles in more realistic environments. This will require 
proving grounds like the American Center for Mobility in Ypsilanti, 
Michigan that can simulate the variety of conditions that these 
vehicles will have to deal with, including busy streets, weather 
conditions, pedestrians, and more. I believe that public-private 
partnerships between the Department of Transportation, industry, 
academia, and proving grounds will help ensure continued American 
leadership in innovation while speeding the process of developing 
safety and testing standards.
    America's great innovation engine is poised to lead the world into 
a new age of mobility with the development of self-driving vehicles. 
Michigan's automotive manufacturers and suppliers, excellent 
educational institutions, and now the American Center for Mobility will 
be at the center of this disruptive technological revolution. I look 
forward to continuing to work with this committee and Chairman Thune to 
develop legislation that will help transform mobility and create jobs 
in Michigan and around the country.

    Senator Peters. I want to take this opportunity to 
introduce one witness, and then Chairman Thune will introduce 
the other three witnesses.
    As I mentioned, my home state of Michigan is definitely 
leading the way in innovation, and we have an incredible 
concentration of both automotive industry manufacturers and 
suppliers. We have engineering talent and research and 
development facilities, and I think these are really the focal 
point of this technological development.
    That's why I'm honored to welcome to the Committee Mr. John 
Maddox, who is the President and CEO of the American Center for 
Mobility in Ypsilanti, Michigan. This facility is a U.S. 
Department of Transportation designated automated vehicle 
proving ground and one that will play an essential role in 
testing and validating the technologies powering connected and 
self-driving cars.
    John brings a suite of unique experiences to his leadership 
at the American Center for Mobility. John started his career in 
automotive safety engineering in NHTSA's Office of Defect 
Investigation and later served as Associate Administrator for 
Vehicle Safety Research from 2008 to 2012. Originally from 
Baltimore, John has strong ties to Michigan, living there with 
his wife, Magda, and son, Ben, and working at several 
companies, Ford Motor Company, Volkswagen Group, as well as now 
at the University of Michigan's Mobility Transformation Center.
    John, we're lucky to have you testify today. Because of the 
expertise of the American Center for Mobility, we'll definitely 
save thousands and thousands of lives every year and 
fundamentally change the way we get from place to place in the 
future. Thank you for sharing your expertise, and I know the 
entire Committee looks forward to your testimony today.
    Thank you.
    The Chairman. Thank you, Senator Peters, and I'll mention 
the other panelists we have before us today: Mitch Bainwol, who 
is President and CEO of the Alliance of Automobile 
Manufacturers, Incorporated; Mr. Rob Csongor, who is Vice 
President and General Manager of automobile business for NVIDIA 
Corporation; and Ms. Colleen Sheehey-Church, who is the 
National President of Mothers Against Drunk Driving.
    We want to welcome you all here as well and appreciate you 
taking the time to inform this committee in our deliberations 
with your thoughts about this important subject. So we'll start 
on my left and your right with Mr. Bainwol, and if you could 
confine your oral remarks to five minutes or as close as 
possible, that will give us time to ask questions.
    So, Mr. Bainwol, please proceed. Welcome.

             STATEMENT OF MITCH BAINWOL, PRESIDENT

                  AND CHIEF EXECUTIVE OFFICER,

              ALLIANCE OF AUTOMOBILE MANUFACTURERS

    Mr. Bainwol. Thank you, Chairman Thune, Senator Peters, and 
members of the Committee. I testify here today on behalf of 
auto manufacturers who built 80 percent of the cars on the road 
today and who are investing billions of dollars in automation.
    I've got to confess I'm a bit distracted by the events that 
occurred earlier. Our thoughts and prayers are with the members 
and the staff and the security. It puts everything into 
perspective.
    Let me start by commenting on the bipartisan principles. I 
just want to say thank you. It is a wonderful first start. It 
frames the debate and the discussion perfectly. So it's a great 
start and we're heartened by your leadership.
    I'd like to make five broad points as this Committee 
continues its work to craft legislation. Point one: four 
independent trends are emerging to dramatically reshape 
mobility as we know it--increase in automation, connectivity, 
ride sharing, and electrification. The move toward autonomy 
during this past decade has accelerated, with Driver Assist 
that offers important automated functionality, like adaptive 
cruise control and active lane keeping. The more consumers 
experience Driver Assist, the more they are favorable toward 
full automation.
    Trend two is connectivity, characterized both by growing 
built-in Internet access, as well as communication between cars 
and between cars and infrastructure. Trend three is the various 
forms of ride sharing. While we think of Uber and Lyft, Car2Go, 
Maven, Chariot, and ReachNow, there are many new entrants in 
this space, all predicated on the notion that car sharing can 
be more efficient use of a high-cost asset than personal 
ownership.
    And, finally, the fourth trend is electrification. 
Electrification has been adopted more slowly than we had 
expected and environmentalists hoped, but as range increases 
and battery prices fall, the electric power train will become 
more competitive. We'll see a tipping point, particularly as 
business-owned, self-driving ride sharing fleets emerge.
    Point two: the future is here but will take time to fully 
kick in. Few debate where we're headed, but there's significant 
debate about the length and nature of the journey. The first 
automated driving system, so-called SAE Levels 1 and 2, are on 
sale today. Level 3 will be for sale, as Senator Thune 
indicated, in about a year or so. Introduction of Level 4 
probably will begin before 2021, but retail sales to consumers 
of Levels 4 and 5 is unlikely to occur before 2025.
    Given vehicle cost and how long cars last today, about 20 
percent of the cars on the road now were built before 2000. AVs 
are not anticipated to be the majority of the fleet for about 
three decades, and ubiquity won't come for another 10 years, so 
2055, ubiquity. It's equally tricky to predict the percentage 
of VMT that will be by personally owned vehicles versus ride 
hailing services, but we know this. Change is coming rapidly.
    Point three: AVs will usher in a mobility era of profound 
social good. Thousands of lives every year can be saved because 
technology, while never perfect, can correct for human errors 
responsible for so much loss on our roadways. AVs also offer 
huge quality of life advantages, access for the disabled and 
elderly and time saved for everyone. And, crucially, AVs offer 
massive net economic benefits, lower insurance premiums, lower 
fuel cost, increased personal productivity, faster commerce, 
and better land use.
    Yes, AVs will generate disruptions and challenges. No 
transition is ever easy, but accelerating this transition 
should be our goal.
    Point four: the rate of technology innovation is faster 
than the rate of regulation and also confuses traditional 
regulatory responsibilities. The last NHTSA administrator, Mark 
Rosekind, often said government had to be nimble and flexible--
he always said nimble and flexible--because the regulatory 
process could not keep up with technological change, and he was 
right. The foundation of the Federal AV policy issued last 
September was fundamentally sound, relying on guidance rather 
than strict rules and seeking to clarify the division of 
responsibilities between the Federal Government and the states.
    With conventional vehicles, the states regulated the driver 
and the feds regulated the vehicle. When the car becomes the 
driver, regulatory chaos ensues. A patchwork of different 
requirements across states is a recipe for delayed deployment 
and delayed realization of the enormity of the benefits that 
autonomy offers. There are now 70 bills in 30 states addressing 
AVs. So Federal leadership and clear rules are vital.
    Fifth and final point: given the enormity of benefit to the 
social good, the key question for this Committee is how to 
forge public policy that optimizes the safe deployment of these 
vehicles. So we have three suggestions toward that end.
    First, pass legislation significantly expanding the number 
of FMVSS exemptions NHTSA can grant to facilitate more robust 
real-world testing, generating the data necessary to refine the 
technology before wide scale deployment. Second, pass 
legislation clarifying Federal versus State responsibilities to 
foster innovation by creating uniformity through a single 
Federal framework. And, third, work with DOT to refresh and 
modernize existing safety standards to remove obstacles to the 
safe deployment of automated vehicles.
    The fact that we're here today having this conversation is 
tremendously encouraging. Auto makers are eager to work with 
you to achieve the remarkable public good within our grasp when 
we combine the brilliance of innovation with responsible and 
forward-leaning public policy.
    I look forward to answering your questions.
    [The prepared statement of Mr. Bainwol follows:]

            Prepared Statement of Mitch Bainwol, President 
   and Chief Executive Officer, Alliance of Automobile Manufacturers
    Chairman Thune, Ranking Member Nelson, and Members of the Commerce 
Committee. Thank you for inviting me to testify today on pathways to 
deployment of self-driving vehicles and related technologies. I am here 
on behalf of twelve iconic manufacturers who produced 80 percent of the 
cars now on American roads and are investing billions of dollars 
annually on R&D to improve fuel efficiency and enhance safety. Self-
driving technologies have the potential to do both. I would like to say 
from the outset that the Alliance and its members are deeply 
appreciative that this Committee, and its House counterpart, have 
invested so much time and focus on the various issues implicated by 
self-driving cars. We are grateful for your interest in our views and 
want to continue being collaborative partners in the process.
    Although the automotive sector is highly competitive, we are 
unified in recognizing the transformative impact that self-driving 
technologies will have on society and the importance of Federal 
leadership in removing barriers to their safe development and 
deployment.
    Unfortunately, we are all familiar with government statistics 
regarding highway fatalities: 35,092 people died in traffic crashes in 
2015 \1\ an increase over 2014. Preliminary results for 2016 show 
another increase. This is a disturbing trend.
---------------------------------------------------------------------------
    \1\ NHTSA 2015 Quick Facts
---------------------------------------------------------------------------
    The 2015 increase in fatalities is a 7 percent increase from the 
prior year. The National Highway Traffic Safety Administration's 
(NHTSA) early estimates for calendar year 2016 suggest a possible 10 
percent increase. These numbers are concerning and warrant attention, 
especially since 94 percent of car crashes are attributable to human 
behavior or error (see attached charts). These figures are particularly 
relevant to today's hearing and the role that self-driving technologies 
can play in possibly reducing overall crashes and fatalities.
    I would like to make five broad points to frame the issue and then 
close with three recommendations for the Committee to consider as it 
works to craft bipartisan legislation to help spur additional 
technological and safety advances.
    Point 1--Four trends are merging to dramatically reshape mobility 
as we know it: increasing automation, connectivity, ride sharing and 
electrification. These trends are mutually reinforcing but not mutually 
dependent. The move toward autonomy during this past decade has 
accelerated significantly--with advanced driver assist systems that 
offer important features--like adaptive cruise control and active lane 
keeping. Effectively, these technologies have a multiplier impact: the 
more consumers experience driver assist systems, the more excited they 
become about the prospect of self-driving technologies.
    The Alliance has conducted several public opinion surveys that show 
the generational shift that is emerging with acceptance of these 
technologies. A sample is provided below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Almost two-thirds (62 percent) of those under 29 years of age are 
open to self-driving technology, including 23 percent who view the 
technology as ``awesome.'' Only 5 percent of people over 65 years of 
age think the technology is ``awesome,'' and almost a third believe 
self-driving technologies are a ``terrible idea''--three times higher 
than the views of those under 29 years of age. But, importantly, 
experience with driver assists has a profound impact on attitudes. 
Drivers who have cars with at least two driver assists are dramatically 
more favorable (63-35) about autonomy than those who have none (43-54). 
Thus, as these technologies make their way into the national fleet, 
consumer acceptance will grow materially.
    Trend two is connectivity--characterized by growing technological 
capabilities that improve the driving experience, vehicle performance 
and safety. Trend three is ride sharing--and while we think of 
companies like Uber, Lyft, Car2Go, Chariot, Maven and ReachNow to name 
a few, there are a huge number of new entrants in this space, all 
predicated on the idea that in certain instances car sharing and ride 
hailing is a more efficient use of a high cost asset versus personal 
ownership. Finally, trend four is electrification. Adoption of 
electrification has been slower than some predicted and other experts 
hoped--including in California. However, we expect that as range 
increases and battery costs fall, EV powertrains will become more 
competitive with internal combustion engines. Other coming market 
forces, like self-driving ride share fleets, may further spur electric 
vehicle deployment. We will see a tipping point--we just do not know 
when this will occur.
    Point 2--For self-driving technologies, the future is here but will 
take a while to be fully realized. Few debate where we are headed. 
However, there is significant debate about the length and even nature 
of this journey. Keep in mind, even small introductions of self-driving 
technologies can reduce fatalities and traffic congestion. The first 
driving automation systems--so called SAE Levels 1 and 2--are on sale 
today. Introduction of Levels 3, 4, and 5 self-driving technologies, or 
Highly Automated Vehicles (HAVs), has yet to begin. Level 3 features, 
such as automated driving in freeway traffic jams, are expected to be 
introduced soon, perhaps within a year. Level 4 geo-fenced self-driving 
vehicles that can only be operated by an Automated Driving System will 
probably begin around 2021. But, retail sales to consumers of so-called 
Level 5 vehicles that can operate anywhere a person can drive a 
conventional vehicle today is unlikely to happen until around 2025 or 
after. Given how much vehicles cost and how long they last--more than 
20 percent of cars on the road today were produced before 2000 \2\--
vehicles equipped with Level 5 systems will likely not be a majority of 
the fleet for three more decades. Ubiquity is not projected to occur 
for at least four decades largely due to the fact that over 260 million 
light duty vehicles are registered in the U.S. It is also difficult to 
predict the percentage of vehicle miles traveled in personally owned 
cars versus ride hailing services. But we do know this: change is 
coming--and it is coming rapidly.
---------------------------------------------------------------------------
    \2\ IHS data compiled by the Auto Alliance
---------------------------------------------------------------------------
    Point 3--Self-driving vehicles will usher in a mobility era that 
offers profound social benefits. Self-driving technologies will 
potentially save thousands of American lives annually, addressing a 
large portion of roadway fatalities and crashes associated with human 
error. Cars with self-driving features also offer huge quality of life 
benefits--access for the disabled and elderly; time saved by being 
driven rather than driving so the commuting time can be spent on more 
productive activities; and the increased freedom that comes from 
quicker trips due to less congestion. Moreover, these technologies 
offer massive economic benefits--less congestion, fewer injuries and 
medical claims, lower fuel costs, increased personal productivity, and 
better land use. The impact on cities may well be enormous. New 
communities and municipalities are eager to modernize their mobility 
patterns and hunger to learn where new mobility options are headed so 
they can begin the infrastructure build-out that could take a decade to 
complete. They want to prepare for tomorrow, today. The Commerce, 
Science and Transportation Committee has a long history of 
understanding the need for and benefits related to uniformity as a 
building block for innovation--just look at the railroad, aviation, 
telecommunication sectors and the Internet--all of which have spurred 
tremendous innovation, social benefits and U.S. leadership.
    Point 4--The rate of technology is faster than the rate of 
regulation and also confuses traditional regulatory responsibilities. 
Self-driving vehicle technologies will generate disruptions and 
challenges; no transition is ever easy. However, this is a transition 
government and this Committee in particular should seek to accelerate, 
because the greater societal good is clear.
    The last NHTSA Administrator, Mark Rosekind, was fond of saying 
that government must be nimble and flexible because it is difficult for 
the regulatory process to keep up with the rapid pace of innovation. 
Furthermore, not enough data is in hand to initiate the rulemaking 
process to create new standards for self-driving vehicles. If NHTSA 
were to prematurely set rules today, it would stifle innovation. The 
foundation of the Federal Automated Vehicle Policy (FAVP) that the 
Department of Transportation released last September is sound--relying 
on overarching guidance rather than rigid rules and seeking to clarify 
the division of responsibilities between states and the Federal 
Government. Nevertheless, additional Federal leadership is required 
here.
    With conventional vehicles, the states regulate the driver and the 
Federal Government regulates the vehicle. This division of 
responsibility still generally makes sense today for self-driving 
vehicle technologies, especially since a patchwork of differing safety 
and performance standards or other impediments from state to state, and 
even city to city, is a recipe for delayed deployment and realization 
of the safety and mobility benefits these technologies offer. Take for 
instance the fact that so far this year, there have been 70 different 
legislative proposals in 30 states that address self-driving vehicles. 
As we meet today, the U.S. lacks a critical uniform national framework 
to advance these technologies as was established before in the 
development of other key innovations.
    Federal leadership and clear rules of the road are essential, 
especially to underscore NHTSA's authority to issue nationwide safety 
and performance regulations for motor vehicles. America is the true 
innovation leader in this field. It is in the national interest to 
protect that advantage. More importantly, members of the Auto Alliance 
share the belief that lives could be lost and that safety improvements 
will be delayed without your help.
    Point 5--The key question this Committee must ask--is how to use 
public policy to optimize the safe deployment of these vehicles and 
their promise of social good, while continuing to let innovation spur 
economic growth?
    Here are three recommendations:

        Recommendation 1: Pass legislation significantly expanding the 
        number and duration of the Federal Motor Vehicle Safety 
        Standard (FMVSS) exemptions NHTSA can grant under the Safety 
        Act. There are existing safety standards that serve as direct 
        barriers to the deployment of self-driving vehicles. Without 
        providing NHTSA expanded authority to grant exemptions from 
        these standards, developers will not be able to deploy the 
        technology at a scale necessary to collect more robust real-
        world data to inform future regulatory action.

        Recommendation 2: Direct NHTSA to collect the data and 
        information needed to promptly refresh and modernize the FMVSS 
        to facilitate the safe deployment of self-driving vehicles. The 
        Agency should commence such rulemaking without delay after the 
        necessary data is collected. The existing FMVSS for 
        conventional vehicles have served the public well. Because they 
        were intended for vehicles with human drivers, however, they 
        are ill-suited for vehicles with self-driving technologies. 
        Alliance members appreciate the need for safety standards and 
        also believe the process to modernize them for self-driving 
        vehicles needs to be informed by data generated from increased 
        exemptions.

        Recommendation 3: Pass legislation clarifying Federal versus 
        state regulatory roles to facilitate innovation and the 
        expeditious deployment of life-saving self-driving 
        technologies. This will provide certainty for all stakeholders 
        in this area and ensure that the United States remains the 
        leader in self-driving innovation.

        We support Federal clarity that will remove or eliminate 
        impediments to the testing, development, and deployment of 
        self-driving vehicles--particularly any state laws or 
        regulations related to the design or performance of these 
        vehicles. We recognize and continue to support the important 
        role states play in insurance, licensure, and traffic laws and 
        enforcement. However, Congress and this Committee should be 
        aware that state and local laws could still unduly burden or 
        restrict the use of self-driving vehicles in the future.

        Providing Federal clarity on rules governing automated motor 
        vehicle design, performance and safety does not mean there will 
        be a vacuum in oversight of the development and deployment of 
        the technology for both automakers and new entrants. NHTSA has 
        broad enforcement authority under existing statutes and 
        regulations to address current and emerging automated safety 
        technologies. As evidence, look no further than the Enforcement 
        Bulletin for Emerging Technologies that NHTSA published in 
        concert with the FAVP last September. That document, which is 
        still operative, outlines NHTSA's authorities and how they 
        apply to self-driving technology including software, hardware, 
        sensors, GPS and vehicle electronics. For example, NHTSA 
        recently used its extensive investigatory authorities with an 
        aftermarket self-driving technology company named--Comma.ai--to 
        ensure it was compliant with regulations before product could 
        be offered for sale.

    The fact that we are all here today having this conversation is 
tremendously encouraging. I would like to reiterate the Alliance's and 
its members' appreciation of the Committee's work and leadership to 
date and indicate our eagerness to continue being a collaborative, 
thoughtful partner. The Alliance and its members look forward to 
providing constructive feedback on your ideas with a view towards 
passing bipartisan legislation. We can achieve remarkable public good 
when we marry the brilliance of innovation with responsible and forward 
leaning public policy.
    Thank you and I look forward to answering your questions.
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
				[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 

    The Chairman. Thank you, Mr. Bainwol.
    Mr. Csongor?

            STATEMENT OF ROB CSONGOR, VICE PRESIDENT

          AND GENERAL MANAGER OF AUTOMOTIVE BUSINESS,

                       NVIDIA CORPORATION

    Mr. Csongor. Thank you, Chairman Thune, Senator Nelson, 
distinguished of the Committee--I'm sorry, Senator Peters. My 
name is Rob Csongor. I'm Vice President and General Manager of 
NVIDIA's automotive business.
    NVIDIA is one of the world's leading computer technology 
companies. We're headquartered in Silicon Valley with more than 
10,000 employees across the country and worldwide. I appreciate 
your invitation to give testimony today on the important 
subject of self-driving. In particular, I'm grateful for the 
opportunity to introduce you to the breakthrough work NVIDIA is 
doing in artificial intelligence.
    Along with hundreds of our partners, we believe AI is the 
new computing model, the game changer that makes autonomous 
vehicles possible. By understanding how AI works, we can 
achieve better regulatory decisions and accelerate our progress 
to what we all want, deployment of safe, self-driving vehicles 
that will save lives.
    NVIDIA's computer innovation is focused at the intersection 
of visual processing, high-performance computing, and 
artificial intelligence. It's a unique combination that's at 
the heart of the world's next-generation computer systems. This 
new form of computing is based on our invention of the GPU, or 
graphics processing unit, nearly two decades ago. The GPU was 
originally designed to power computer graphics, but it has 
evolved into a powerful computer brain that processes massive 
amounts of data at extraordinary speed.
    Ten years ago, researchers began to use GPUs to accelerate 
mathematically intense applications, such as mapping the human 
genome and predicting weather. More recently, scientists 
working in a new field of AI called ``deep learning'' 
discovered that GPUs are critical to creating algorithms that 
enable computers to learn from experience and data, similar to 
how the human brain works. In a short period of time, AI 
algorithms rapidly outperformed code written manually by 
programmers.
    As a result, deep learning has become a strategic 
imperative across many industries. Consumer services from 
companies like Google, Amazon, Microsoft, and Facebook powered 
by our technology are now available to millions. In the 
healthcare industry, AI is accelerating the search for cancer 
cures. For scientists and researchers, NVIDIA delivers 
supercomputing solutions used at the Department of Energy, the 
Department of Defense, the National Institutes of Health, among 
other organizations.
    The automotive world is next. A self-driving car is an 
immense computational challenge. The car must be able to detect 
and perceive objects everywhere around it in motion and in 
diverse weather and lighting conditions. The car must determine 
its precise position, plan safe paths from one point to 
another, and then drive while navigating complex situations 
such as construction zones. We simply cannot get there with 
conventional programming science. AI technology can solve these 
problems.
    To this end, NVIDIA has created an open computing platform 
comprised of powerful processors which are optimized for AI in 
both the car and the data center. In addition, NVIDIA is 
developing a full open software stack that the automotive 
ecosystem can build around.
    Today, we are working with virtually every automaker on 
research and development of advanced self-driving vehicles 
using AI. Our technology is being used by more than 225 
automotive companies worldwide, including Audi, Tesla, Toyota, 
Volvo, Mercedes, and others. The Audi A7 that you took a ride 
in, Senator Thune, is based on our technology.
    We're now at the point where we can create AI systems that 
have levels of perception and performance far beyond humans 
and, importantly, do not get distracted, fatigued, or impaired. 
Much like humans gain knowledge through a lifetime of 
experience, AI systems improve over time with additional 
training data and testing.
    An AI system works by training a deep neural network with 
large amounts of data in a data center, monitoring and testing 
accuracy. Once validated, the car is updated with new 
algorithms over the air, like any modern computer or mobile 
device. The car runs the algorithms on real road conditions. 
The results are then sent back to the data center, where the 
new data can be used to retrain and improve the algorithms. And 
then the cycle continues, making the entire fleet better with 
each iteration.
    Our methodology along with our partners will combine 
multiple layers of testing in a data center, on proving 
grounds, and on public roads. In addition, leveraging NVIDIA's 
experience in visual computing, we can use computer simulation 
to accelerate the training and testing process.
    So, in conclusion, we believe new regulations are 
necessary, but, clearly, there are opportunities to streamline 
development and testing. Ideally, we would be able to test cars 
and collect diverse data from any state. The patchwork of 
different regulations across regions hampers that. It would be 
enormously beneficial to have a unified set of regulations 
across all states.
    It would also be constructive to ensure the standards for 
compliance are set correctly. The bar we are comparing against 
is a human driver. A system that is significantly safer than a 
human driver can save lives once deployed. Conversely, 
unrealistic compliance targets runs the risk of costing lives. 
And, finally, the deployment of a fleet on real roads 
collecting lots of data is the path to achieving safety for the 
entire fleet.
    Self-driving holds the promise to change our lives. Through 
our inventions, our research, and the incredible work of 
development partners innovating on our technology, NVIDIA 
believes this promise is achievable. We look forward to working 
with this committee, the Department of Transportation, NHTSA, 
and other groups to ensure the safe deployment of autonomous 
vehicles through game-changing technology paired with effective 
policy and regulation.
    Thank you for the opportunity to tell you of our work.
    [The prepared statement of Mr. Csongor follows:]

 Prepared Statement of Ron Csongor, Vice President and General Manager 
               of Automotive Business, NVIDIA Corporation
    Thank you, Chairman Thune, Senator Nelson and distinguished members 
of the Committee.
    I appreciate your invitation to give testimony today on the 
important subject of self-driving vehicle technology.
    My name is Rob Csongor. I am vice president and general manager of 
NVIDIA's Automotive business. NVIDIA is one of the world's leading 
computer technology companies, headquartered in Silicon Valley, with 
more than 10,000 employees around the country and the world.
    NVIDIA is focused on computer innovation at the intersection of 
visual processing, high performance computing, and artificial 
intelligence or AI--a unique combination at the heart of the world's 
next-generation computer systems. Our work has pioneered a supercharged 
form of computing relied on by the world's most demanding computer 
users including scientists, engineers, designers, and artists.
    This form of computing is based on our invention nearly two decades 
ago of the GPU or graphics processing unit. The GPU was originally 
designed to power computer graphics, the pixels on our computer 
screens, but it has evolved into a powerful computer brain that 
processes massive amounts of data at extraordinary speed.
    Ten years ago, researchers began to use GPUs to accelerate 
mathematically intense applications, such as mapping the human genome 
and predicting weather. More recently, scientists working in a new 
field of AI called deep learning, discovered that GPUs are critical to 
creating algorithms that enable computers to learn from experience and 
data, similar to how the human brain works. In a short period of time, 
AI algorithms rapidly outperformed code written manually by 
programmers. As a result, deep learning has become a strategic 
imperative for companies across many industries.
    Google, Amazon, Microsoft, and Facebook use our AI technology in 
thousands of consumer applications. In the healthcare industry AI is 
accelerating the search for cancer cures. For scientists and 
researchers, NVIDIA delivers supercomputing solutions used at the 
Department of Energy, the Department of Defense, and the National 
Institutes of Health among other organizations. Our nation's fastest 
supercomputer, at Oak Ridge National Lab, is powered by over 18,000 
NVIDIA GPUs. And we are working with them to upgrade the system later 
this year to our newest processors, which should help the United States 
recapture the title of the world's fastest supercomputer.
    Self-driving is an immense computational challenge. The car must be 
able to detect and perceive many objects, determine its precise 
position, plan safe paths from one point to another, and then drive 
while navigating complex situations. AI is the new breakthrough in 
computing that can solve these problems, and NVIDIA is focused on 
delivering this technology.
    To this end, NVIDIA has created an open computing platform 
comprised of powerful processors in both the car and the data center, 
as well as a full, open software stack that carmakers and the ecosystem 
are building on.
    Today, we are working with virtually every automaker on research 
and development of advanced self-driving vehicles using AI. Our 
technology is being used by more than 225 automotive companies 
worldwide. Audi, Tesla, Toyota, Volvo, and Mercedes have announced they 
will deploy vehicles using our technology.
    We are now at the point where we can create AI systems that have 
levels of perception and performance far beyond humans, and 
importantly, do not get distracted, fatigued or impaired.
    Much like humans gain knowledge through experience, AI systems 
improve over time with additional training data and testing.
    The ability to create and test new features and functions, then 
securely update the car over the air like a smartphone or personal 
computer, enables us to quickly provide cars with safer algorithms and 
add more autonomous capabilities once they are proven.
    Borrowing from our expertise in visual computing, we can use 
computer simulation to test challenging conditions like snow or 
blinding sun, as well as potentially hazardous situations without 
putting anyone in harms way. Our methodology, along with our partners, 
will combine multiple types of testing--in a data center, on proving 
grounds, on the road, and in computer simulations.
    While we are working with our partners in industry to develop these 
technologies, NVIDIA looks forward to working with this Committee, the 
Department of Transportation, and NHTSA to ensure the safe deployment 
of autonomous vehicles.
    With safety as the top priority, we believe new regulations are 
necessary. But we also believe there are opportunities to facilitate 
development and testing for companies developing these solutions. Safe, 
robust AI algorithms are improved through the collection of large 
amounts of data. Ideally, we would be able to test fleets across all 
states with their diverse driving conditions. A patchwork of different 
regulations in different regions hampers development and progress. It 
would be enormously beneficial to have a unified set of regulations 
across all states.
    Together, as industry and government, we will work to safely and 
expeditiously bring autonomous vehicles to market and realize their 
enormous benefits: saving lives, improving traffic flow, increasing 
productivity, and providing mobility to the elderly, the blind and 
others who do not have it today. We are committed to this important 
mission and to driving the safe development and deployment of 
autonomous vehicles in the United States and the world.
    Thank you for your time and consideration. I look forward to 
answering any questions.

    The Chairman. Thank you, Mr. Csongor.
    Next up is Ms. Sheehey-Church.

   STATEMENT OF COLLEEN SHEEHEY-CHURCH, NATIONAL PRESIDENT, 
                 MOTHERS AGAINST DRUNK DRIVING

    Ms. Sheehey-Church. Thank you. Good morning, Chairman 
Thune, Senator Peters, and members of the Committee. On behalf 
of millions of drunk driving victims across the country, thank 
you for the opportunity to testify today and really be a 
witness on the critical issue of self-driving cars. You and the 
Committee are to be commended for your leadership on highway 
safety.
    Like so many others before me, I came to Mothers Against 
Drunk Driving after my 18-year-old son, Dustin, was killed by a 
drunk and drugged driver. Dustin was sober. Dustin was wearing 
a seatbelt while riding in the back seat of a car. That vehicle 
crashed, went airborne, flew in the air and landed in the 
Connecticut River. Dustin could not escape and drowned on July 
10, 2004. It was a senseless death and a 100 percent 
preventable crime.
    Dustin's story is my story. But it does represent thousands 
and thousands of stories of victims and survivors in every 
state in the country. MADD has changed the culture. In 1980, 
over 51,000 people were killed on America's roadways, and over 
20,000 people were killed each year due to drunk driving.
    Since then, MADD has worked to pass tough drunk driving 
laws in all 50 states and at the Federal level. The 21 drinking 
age, a national .08 standard, zero tolerance laws for underage 
drivers, and ignition interlock laws are just a few of the 
things that we have achieved together since 1980.
    Total traffic deaths in 2015 were over 35,000. This was an 
increase of 7.2 percent over 2014 and represented the largest 
increase in 50 years. Unfortunately, preliminary numbers for 
2016 show another substantial increase in traffic deaths. That 
alone must serve as a wake-up call to the Nation.
    According to the National Highway Safety Administration, 94 
percent of traffic deaths occur because of human behavior. That 
means that 33,000 deaths occurred in 2015 due to the driver. 
Many, if not all, of these were preventable. It breaks my heart 
to deliver messages like that.
    In 2006, MADD launched a new initiative called the Campaign 
to Eliminate Drunk Driving, and I know that our goal is 
ambitious, but to literally eliminate drunk driving in America. 
Our campaign is based on four prongs: number one, to support 
our law enforcement; number two, to have ignition interlocks 
for all convicted drivers; number three, the development of 
advanced vehicle technologies; and, four, grass root support 
for all these efforts. That third initiative, that third prong, 
is why I'm here today to witness.
    We have been pleased to work with this Committee in support 
of the Driver Alcohol Detection System for Safety, also known 
as DADSS, and progress has been steady, and I would ask this 
Committee to help expedite DADSS by encouraging program 
partners to have the technology ready for vehicle integration 
as soon as possible. But today, I'm here to be a witness on 
AVs.
    Autonomous vehicles represent the other technology that 
actually presents an enormous potential to eliminate drunk 
driving and other behavioral traffic deaths. MADD strongly 
supports this technology and hopes it will begin as soon and as 
safely as possible.
    But I need to be clear. MADD is not an expert on the 
intricacies of the technology. My panelists are. But we are 
absolutely a huge stakeholder. Technology will ultimately be 
the way we eliminate drunk driving. Autonomous vehicles are 
vital in helping us achieve our goal.
    There are some principles that MADD recommends as Congress 
and the administration address this issue. Number one, support 
Federal regulatory framework. It doesn't make sense for states 
to pass laws or to regulate the safety of autonomous vehicles. 
It is critical that the Congress and the administration provide 
the necessary guidance and regulations to the autonomous 
vehicle community in order to allow a very safe national roll-
out.
    Number two, support existing state regulatory systems. The 
state role in autonomous vehicles is to continue what they do 
for conventional vehicles today--titling, registration, 
insurance requirements. The states should not regulate AV 
safety because they lack the technical expertise to do so.
    Number three, we support Level 4 and 5 autonomous 
technologies. For MADD's purposes, it is important that these 
vehicles achieve the Level 4 and 5 automation to ensure drunk 
drivers are separated from driving the vehicle.
    Number four, supporting and evaluating the technology as it 
evolves over time. NHTSA's Autonomous Vehicle Policy--this data 
can be used to enhance the safety benefits of the technology.
    In closing, I thank you for the opportunity to testify 
before this Committee. The promise of safe self-driving cars is 
very exciting, particularly for those of us who have seen the 
devastation that human error in driving can bring. I urge the 
Committee to hold a hearing on the need to address the increase 
in traffic fatalities and work with the Safety Committee and 
NHTSA to put these words into actions, and I look forward to 
working with this Committee on the issue and answer any 
questions later.
    [The prepared statement of Ms. Sheehey-Church follows:]

   Prepared Statement of Colleen Sheehey-Church, National President, 
                     Mothers Against Drunk Driving
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee,

    On behalf of millions of drunk driving victims across the country, 
thank you for the opportunity to testify before the Senate Commerce 
Committee on the critical issue of self-driving cars. We were pleased 
to work with you and the Committee on the FAST Act. You and the 
Committee are to be commended for your leadership on highway safety.
    Like so many others before me, I came to Mothers Against Drunk 
Driving after my 18-year-old son Dustin was killed by a drunk and 
drugged driver. Dustin was sober and wearing a seatbelt while riding in 
the back seat of a car. The vehicle crashed and flipped into the 
Connecticut River. Dustin couldn't escape and drowned. It was a 
senseless death and a 100 percent preventable crime.
    Dustin's story is my story. But it represents thousands and 
thousands of stories of victims and survivors in every state in the 
country. I travel to those states and talk to those who suffer. . . and 
there is one thing that each of them wants . . . NO MORE VICTIMS.
    In 1980, a bereaved mother who had lost a child to the needless 
crime of drunk driving decided enough was enough. Together with a group 
of other moms, she formed Mothers Against Drunk Driving to tell the 
country that drunk driving is not a joke, it is a crime. Together with 
thousands of other victims, the public and law makers heard our plea 
and as a result, laws and attitudes were changed.
Changing the Culture
    We changed the culture. In 1980, 51,091 people were killed on 
America's roadways and over 20,000 people were killed each year due to 
drunk driving. Since then, MADD has worked to pass tough drunk driving 
laws in all 50 states and at the Federal level. The 21 minimum drinking 
age, a national .08 BAC standard, zero tolerance laws for underage 
drivers, and ignition interlock laws are just a few of the things we 
have achieved together since 1980.
    As a result, drunk driving deaths have been cut in half since our 
founding. That's what culture change and tough laws have achieved, but 
it's not nearly enough. Thirty-seven years after MADD taught the Nation 
it is not acceptable to drink and drive, one third of all traffic 
deaths, over 10,000 people, are caused because of drunk drivers.
    Total traffic deaths in 2015 were 35,092. This was an increase of 
7.2 percent over 2014 and represented the largest increase in 50 years. 
Preliminary numbers for 2016 show another substantial increase in 
traffic deaths.
    This must serve as a wakeup call to the Nation.
    According to the National Highway Traffic Safety Administration, 94 
percent of all traffic deaths occur because of human error. That means 
about 33,000 deaths occurred in 2015 due to the driver. Many if not all 
of these were preventable.
Campaign to Eliminate Drunk Driving
    In 2006, MADD launched a new initiative called the Campaign to 
Eliminate Drunk Driving. Our goal is ambitious, to literally eliminate 
drunk driving in America so there are no more victims.
    Our Campaign is based on four prongs: support for law enforcement, 
ignition interlocks for all convicted drunk drivers, development of 
advanced vehicle technologies, and grassroots support for these 
efforts.
    The third initiative, advanced technology, is why I'm here today.
    In 2008, NHTSA and the Automotive Coalition for Traffic Safety 
(ACTS) formed an ambitious program called the Driver Alcohol Detection 
System for Safety, or DADSS. DADSS seeks to create a passive in-vehicle 
alcohol detection system which would prevent an impaired driver at .08 
or higher from starting his or her vehicle. The Insurance Institute for 
Highway Safety has estimated that the DADSS technology could save 7,000 
lives per year. We were pleased to work with you and the Committee 
through MAP-21 and the FAST Act to authorize this technology. Progress 
has been steady and I would ask this committee to help expedite DADSS 
by encouraging program partners to have the technology ready for 
vehicle integration by the end of the FAST Act authorization in Fiscal 
Year 2020.
Autonomous Vehicles
    Autonomous Vehicles represent the other technology that presents an 
enormous potential to eliminate drunk driving and other behavioral-
related traffic deaths. MADD strongly supports this technology and 
hopes it will begin as soon and as safely as possible.
    Let me be clear, MADD is not an expert on the intricacies of this 
technology, but we are absolutely a stakeholder. Technology will 
ultimately be the way we eliminate drunk driving autonomous vehicles 
are vital in helping us achieve our goal.
    There are some key principles that MADD recommends as Congress and 
the administration address this issue:

    Support Federal regulatory framework. It doesn't make sense for 
states to pass laws or regulate the safety of autonomous vehicles. It 
is important that the playing field be level and states should leave 
the self-driving car safety issues to the automotive safety experts at 
the federal level. To that end, it is critical that the Congress and/or 
the administration provide the necessary guidance and regulations to 
the autonomous vehicle community in order to allow a national roll-out 
of this technology. Emphasis must be placed on ensuring that the 
technology is safe, and that processes are followed to ensure that 
rigorous safety standards are followed, and that effective methods for 
educating the public on technologies are developed. We believe the DOT/
NHTSA Autonomous Vehicle Policy issued last year is a good beginning 
for providing safety guidance to those companies developing Highly 
Automated Vehicles. MADD and others in the traffic safety community 
look forward to working with the Committee to help ensure that public 
safety is of the highest priority, that the development of the 
technology continues at a rapid pace, and that future public acceptance 
comes to fruition.
    Support existing state regulatory system. The state role in 
autonomous vehicles is to continue doing what they do for conventional 
vehicles today. This includes titling, registration, insurance 
requirements, etc. States should not regulate the safety of autonomous 
vehicles because they do not have the technical expertise to do so and 
their involvement could hinder the technological progress in the 
deployment of this life-saving technology.
    Support for level four and five autonomous technologies. For MADD's 
purposes, it is important that vehicles achieve level four and level 
five automation (i.e., vehicles that do not require a human driver in 
at least certain environments or under certain conditions). Drunk 
driving is arguably the biggest killer on our roadways. Alcohol and 
drug impairment have lasting effects, so it is imperative for maximum 
safety that the car be able to completely take control and remove the 
driver from driving.
    Support for evaluating the technology as it evolves. The Autonomous 
Vehicle Policy includes provisions for recording and sharing 
information on system capabilities and data on events, incidents, and 
crashes. These data can be used to enhance the safety benefits of the 
technology and should be standardized, anonymous, absent of propriety 
information, and made available not only to the Federal Government but 
also to states, researchers, and the public.
Closing
    In closing, thank you for the opportunity to testify before this 
committee. In the last two years, traffic deaths have seen the largest 
increases in 50 years. This should alarm us all. While great progress 
has been made in reducing traffic deaths, over 35,000 people died in 
2015. This is unacceptable. The promise of safe, self-driving cars is 
very exciting, particularly for those of us who have seen the 
devastation that human error and driving can bring. I want to add, 
however, that we must not sit back and wait for technology to solve the 
public health epidemic on our roads. There are actions we can take 
today, this month, this year that will make an enormous impact and save 
lives. I urge the Committee to hold a hearing on the need to more 
aggressively address the increase in traffic fatalities, and work with 
the safety community and NHTSA to put words into action.
    Longer-term, Autonomous Vehicle technology provides the opportunity 
to eliminate traffic deaths, including drunk driving fatalities. There 
is a major role for the Federal Government to play in ensuring that 
these vehicles are safe. It is also important to create a national 
regulatory framework to ensure that the technology can move forward and 
build public support.
    MADD will continue to strongly support the safe development of this 
technology and work to build public acceptance for the adoption of 
autonomous vehicles so that people understand the safety benefit of 
these cars with regard to behavioral safety.
    Thank you again for including MADD in this panel. I look forward to 
working with this committee on this issue and am happy to answer any 
questions you might have.

    The Chairman. Thank you, Ms. Sheehey-Church, for sharing a 
deeply personal and painful experience and your effective 
advocacy.
    Ms. Sheehey-Church. You're welcome.
    The Chairman. Mr. Maddox?

  STATEMENT OF JOHN M. MADDOX, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, AMERICAN CENTER FOR MOBILITY

    Mr. Maddox. Good morning. Thank you, Chairman Thune, 
Ranking Member Peters, for your interest in automated vehicles 
and your leadership on this issue, and I certainly thank you 
for the opportunity to speak in front of you today about key 
steps for creating a much safer and more efficient 
transportation system for the United States of America.
    The American Center for Mobility is a nonprofit public-
private partnership. That's a mouthful. We are building a 
world-leading facility for innovation, testing and product 
development, and to act as a national proving ground for 
automated vehicles in Ypsilanti, Michigan.
    First and foremost, we are focused on safety, on public 
safety, including testing and validation of these technologies, 
including vehicles and infrastructure. In addition to testing, 
our mission is to accelerate the development of standards, 
voluntary and Federal regulation, that is, and to provide 
educational opportunities for the workforce of the future, for 
STEM K-12 programs, and the public, in general.
    Our past transportation system has served us well over the 
last 100 years but is showing signs of strain. Every year, we 
endure a national tragedy of tens of thousands of Americans, 
individuals, losing their lives on our roads in the United 
States. That's the numerical equivalent of 10 September 11 
attacks or seven Iraq wars every year on our soil. In many 
cities, we see ever-increasing congestion with accompanying 
loss of productive time, loss of time, wasted energy, and 
unnecessary greenhouse gas emissions. Largely, we have come to 
accept these as the status quo.
    It is clear we need a significant change in our 
transportation system going forward, and safety must be 
everyone's first focus. My colleagues and the Chairman have 
cited the statistics. I won't do that again. But it is clear 
that this technology can help by reducing human error. In 
addition, transportation really is the lifeblood of our economy 
and our society. The ability to move people efficiently and 
goods is critical to the social and economic well-being of the 
U.S. and will help us remain competitive with other 
international economies.
    Because of this promising safety potential and economic 
benefit, the U.S. should focus clearly and specifically on 
developing and deploying connected automated vehicle technology 
in a responsibly expedient manner. AV technology is being 
developed very rapidly by industry, as we know, but also aided 
by key frameworks and research from government and academia. 
Other countries, including China and the EU, are currently 
working on HAV programs, very significant programs.
    Our voluntary standards have proven to be a key early step 
in the development of almost every safety technology. These 
voluntary standards often form the basis for Federal FMVSS; 
therefore, it is critical to accelerate voluntary standards in 
order to ensure safe deployment of HAVs. SAE International--the 
Society of Automotive Engineers International--has begun to 
promulgate basic standards, but many additional voluntary 
standards are needed immediately, including scenario catalogs, 
test procedures, mapping, labeling, cybersecurity, to name a 
few. The complexity of AV technology will require innovative 
thinking for testing simulation, validation, and certification 
tools to support these vehicles and infrastructure.
    Voluntary standards must also be accelerated for purposes 
of avoiding a patchwork, as even a small number of differing or 
conflicting regulations would significantly inhibit the 
development of AV technology. Consumers' interests would not be 
served if they could not operate their vehicle or share a 
vehicle across state lines. Certainly, differing standards 
would put the U.S. in a compromised position compared to other 
countries and regions around the world.
    It may be prudent to consider the adoption of a Federal 
FMVSS framework standard that establishes key foundational 
requirements, such as definitions, manufacturer identification, 
reporting processes, et cetera; however, it is too early to 
promulgate detailed vehicle performance or equipment standards 
as the needed technical requirements to do so are not 
sufficiently developed, and, currently, there is no agreement 
within the technical and stakeholder community on the nature or 
specifics of such requirements.
    U.S. DOT's Automated Vehicle Proving Ground Program, AVPG 
for short, is important to the safe development of HAVs. The 
AVPG program with 10 designated sites across the United States 
provides key infrastructure and framework for the development 
of AV tools, products, standards, data sharing in a rapid and 
collaborative fashion. These proving grounds can form the 
backbone of the Federal Government's framework for supporting 
HAVs. This program will be a critical asset to ensure the focus 
on safety in HAVs while ensuring the U.S. remains competitive.
    The need for HAV data collection will continue after 
initial deployment, and exemptions are important to allow that 
data generation. According to U.S. DOT, a number of existing 
FMVSS contain requirements that conflict with or do not allow 
basic HAV design. In order to enable early product development 
and regulatory data gathering and to enable HAVs, in general, 
it's important that Congress and the U.S. DOT review that 
authority and implement a solution for exempting compliance of 
a sufficiently substantial number of vehicles. It does remain 
imperative for HAVs that the petitioner demonstrate that the 
exempted vehicle provides an equivalent level or better of 
safety through sufficient data and analysis.
    In closing, I'd like to offer three recommendations. One, 
that U.S. DOT be authorized and funded to create collaborative 
voluntary industry standards to support safe deployment. Two, 
the AVPG program should be funded as important infrastructure 
for HAVs. And, lastly, Congress should consider revising 
NHTSA's exemption authority and ensuring appropriate FTE head 
count to implement these key programs.
    I appreciate this opportunity and look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Maddox follows:]

            Prepared Statement of John M. Maddox, President 
       and Chief Executive Officer, American Center for Mobility
    On behalf of the American Center for Mobility, it is an honor to 
provide testimony about the future of automated vehicle (AV) and 
transportation technology, and key steps for creating a much safer and 
more efficient transportation system.
    This testimony will focus on the need to maximize the benefits of 
new transportation technologies for the United States, while ensuring 
safe deployment on public roads. It will explain how voluntary 
standards inform Federal regulation, and how these can be accelerated 
through coordinated industry and government collaboration, including 
the USDOT Automated Vehicle Proving Ground (AVPG) Program. It will also 
describe the need for new tools and data, including practical 
flexibility in the NHTSA Part 555 exemption program to enable the near-
term development and long-term deployment of these safety-beneficial 
highly automated vehicle (HAV) technologies.
    The American Center for Mobility is a non-profit public/private 
partnership. We are building a world-leading facility for innovation, 
testing and product development, to act as a national proving ground 
for future mobility. First and foremost, we are focused on public 
safety, including the safe testing, validation, and self-certification 
of connected and automated vehicle and infrastructure mobility 
technology. In addition to testing, our mission is to accelerate the 
development of standards, and to provide educational opportunities. ACM 
incorporates a purpose-built test track environment directly integrated 
with active on-road highway corridors, simulation laboratories, and a 
combined corporate/academic technology park campus to facilitate 
effective industry, government and academic collaboration and 
information sharing, as well as a focus on educating the mobility 
workforce for the future, STEM K-12 programs, and educating the public 
in general.
It is clear we need a significant change in our transportation system.
    Our past transportation system has served us well over the last 100 
years, but is showing signs of strain. Every year we endure a national 
tragedy of tens of thousands of Americans losing their lives on our 
roads, in urban, suburban, and rural areas. That is the numerical 
equivalent of over ten September 11 Attacks, or seven Iraq Wars, every 
year. In many cities, we see ever-increasing congestion, with 
accompanying loss of productive time, wasted energy, and unnecessary 
greenhouse gas emissions. Largely we have accepted these undesirable 
outcomes as the status quo. It is clear we need a significant change, 
and we are now on the cusp of introducing connected automated vehicle 
(CAV) technology that can begin that change.
    Safety must be everyone's first focus. NHTSA's census of fatal car 
crashes<SUP>(1)</SUP> shows that 35,092 people lost their lives in 
2015. Historically, human error or actions account for, or contributed 
to, 94 percent of these fatal crashes.<SUP>(2)</SUP> By reducing the 
effects of human error, connected and automated vehicles have the 
promising potential to reduce or even eliminate these fatal outcomes by 
avoiding the crash scenario altogether.
Because of promising safety potential, the United States should focus 
        on developing and deploying CAV technology in the most 
        responsibly 
        expedient manner possible.
    Transportation is the lifeblood of our economy and society. The 
ability to efficiently and effectively move people and goods is 
critical to the social and economic well-being of the United States, 
and will help us remain competitive with other international economies. 
The United States covers a very large geographic area, and part of our 
industrial and economic strength is that we can transport people and 
goods across that large area in a safe, efficient, and economical 
manner. In addition to safety benefits, CAV technology provides the 
opportunity for a ``systems approach'' to transportation, with 
substantial potential improvements in mobility, energy use, equity in 
transportation, and positive impact on the Nation's economy.
    AV technology is being developed very rapidly, largely led by 
industry, but aided by key frameworks, research, and support from 
Government and Academia. While we have one hundred years of experience 
with human-driven vehicles, we need to gather experience and data with 
automated vehicles in a much shorter timeframe. Inherently, automated 
vehicles will be data-rich due to the basic operational need to sense, 
analyze, and act on data that is generated continuously through 
operation. We need the initial experience of operating these vehicles 
in sufficiently substantial numbers to generate the broad data across a 
multitude of scenarios and environmental operating conditions necessary 
to ensure safety, and to scale the technology to full deployment.
    Over the last decades, automotive safety technology has progressed 
significantly, and that progression has resulted in the savings of 
hundreds of thousands of American lives.<SUP>(3)</SUP> The development 
and introduction of each technology has required a very thorough 
engineering process, including research, testing, product development, 
verification, validation, standardization, certification, education, 
and in-use monitoring. Even the simplest of technologies, the seat 
belt, was conceived, designed, and introduced through this phased 
process. Many safety technologies developed by industry and government 
through this process have become mandated through regulation by Federal 
Motor Vehicle Safety Standard (FMVSS).
    Modern safety technologies have become more and more complex. 
Airbags and Supplemental Restraint Systems (SRS), Automatic Braking 
Systems (ABS), Electronic Stability Control (ESC), Forward Crash 
Warning (FCW), Lane Departure Warning (LDW), Crash Imminent Braking 
(CIB), and Vehicle-to-Vehicle Communication (V2V) have required ever-
greater developmental efforts, and are subject to factors outside the 
control of the vehicle alone. However the basic engineering processes 
listed above have proven capable of developing these systems to an 
extremely robust level that is befitting of a life-saving technology. 
AV technology will likely be the most complex automotive safety 
innovation yet deployed, however the basic process honed over the last 
decades will serve as a capable and required starting point.
    Voluntary standards have proven to be a key step in the development 
of all of these safety technologies. Industry and Government research 
and testing generate the basic scientific and technical knowledge for a 
new technology. This leads to standardization of key definitions, 
designs, test procedures, validation models and methods, and 
certification protocols that enable a new technology to be 
commercialized. Often, these become codified in voluntary industry 
standards, such as by SAE International and other Standards Development 
Organizations (SDOs). Occasionally, but often for safety technologies, 
these voluntary standards form the basis for Federal regulations as 
codified by FMVSS, as shown in Figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

It is critical to accelerate voluntary standards in order to ensure 
        safe 
        deployment of AVs.
    AV technology is being developed and is advancing at a faster rate 
than the traditional standards process can fully accommodate. SAE 
international has begun to promulgate basic standards, such as taxonomy 
and definitions, which have already served as the basis for the Federal 
AV Guidance. Additional voluntary standards are needed immediately to 
ensure that these new approaches in testing, validation, data 
collection, data-sharing, privacy, cybersecurity, and others areas are 
developed to ensure safety, while not inhibiting or stalling the 
technology development. These standards will also likely form the 
technical basis for future FMVSS requirements for vehicle performance 
or equipment.
    It is critical to accelerate these voluntary standards in order to 
ensure safe deployment of AVs. From now through 2025, AV development 
will continue to move very rapidly, and initial voluntary standards 
must be in place by that time-frame to support the first significant 
vehicle deployments. Other countries and regions, including China and 
the European Union, are funding and working diligently on standards 
efforts to support their deployments and industry partners. The 
complexity of AV technology will require innovative thinking for 
testing, simulation, validation, standardization, and certification 
tools and methodologies to support these standards.
    Voluntary standards must also be accelerated for purposes of 
creating a collaborative, unified common approach, and avoiding a 
patchwork of standards or regulations that could inhibit or stall the 
technology development. Even a small number of differing or conflicting 
standards or regulations would significantly inhibit the development of 
AV technology. Consumers' interests would not be served if they could 
not operate their vehicle, or a shared vehicle, across state lines. 
Differing standards could certainly limit the safety, equity, and 
economic benefit of automated vehicles, and would put the U.S. in a 
compromised position compared to other countries and regions around the 
world.
    It is also important to consider that the pursuit of voluntary 
standards does not preclude the promulgation of State or Federal 
standards. Indeed it may be prudent to consider the adoption of a 
Federal FMVSS framework standard that establishes key foundational 
requirements, such as definitions, manufacturer identification and 
reporting processes, data reporting requirements, exemption processes, 
consumer notification and privacy, enforcement requirements, etc. 
However it is too early to promulgate significantly detailed vehicle 
performance or equipment standards, as the needed technical 
requirements are not sufficiently developed, and currently there is no 
agreement within the technical and stakeholder community on the nature 
or specifics of such requirements. Additionally, the premature 
promulgation of not-fully-developed safety standards could result in a 
``false sense of safety,'' whereby manufacturers or consumers may 
believe that the technology is more ready or capable than it actually 
is, simply because it is advertised as meeting safety standards.
    State regulations are also ultimately necessary for full scale AV 
deployment. The traditional State roles dictating operational 
requirements, such as insurance, registration, training and licensing, 
driving enforcement, etc., are still required, and appropriate, for 
AVs. States may also want to proscribe new regulations that require HAV 
owners or fleet operators to make sure safety-critical vehicle control 
recalls are completed in a timely manner. However, creating state-by-
state standards for vehicle performance or equipment could result in 
this undesirable patchwork, and should be avoided for reasons described 
above. Additionally, the creation of state-by-state vehicle performance 
or equipment requirements may also contribute to the ``false sense of 
safety'' discussed above.
USDOT's Automated Vehicle Proving Ground (AVPG) program provides key 
        infrastructure and framework for safe deployment of CAVs.
    USDOT's Automated Vehicle Proving Ground (AVPG) program provides 
key infrastructure and framework for the development of CAV products, 
tools, and standards in a rapid and collaborative fashion. This will be 
a critical asset to ensure safe deployment, as well as ensuring that 
the U.S. remains competitive in AV industry and deployment. This AVPG 
Program was established very recently, and has the mission to serve as 
a Community of Practice (CoP) to enable USDOT, industry, and other 
stakeholders to develop, test, and validate AV products, standards, and 
supporting tools.
    This CoP will convene and enable stakeholders from companies, 
government agencies, academia, facilities, consumer groups, and other 
organization, to share best practices and innovations for testing 
operator safety, facility design concepts and details, facility 
operational best practices and lessons learned, data acquisition and 
analysis system concepts, and testing and analysis equipment best 
practices and standards. This intellectual capital will form the basis 
for voluntary standards and mandatory regulation.
    AV testing and validation must occur through three coordinated 
approaches: Closed-Track testing, On-Road testing, and Simulation, as 
shown in Figure 2 below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is crucial that AV testing and development programs include 
three key complementary and fully integrated tools: (1) Test-track and 
laboratory tests that validate full vehicles, systems, and components, 
under realistic, variable, repeatable, and controlled conditions; (2) 
on-road tests that verify the systems' robustness in real life 
situations, including some that can't be implemented, or even imagined, 
in the above tools; and (3) detailed simulations, including roadway, 
traffic, vehicle, sensors, drivers, infrastructure, etc. that 
mathematically model the millions of technology and environmental 
variations.
    These testing tools and methodologies must be used in combination 
in an iterative fashion. Simulation results help prioritize and define 
the initial round of test-track tests. The test-track allows a safe, 
controllable, and repeatable environment for development of 
functionality in numerous scenarios, and provides sufficient confidence 
to begin on-road testing, but can never accommodate all scenarios. On-
road testing provides identification and validation to real-world 
behavior, including unanticipated, key scenarios, but often does not 
allow repeatability, so key critical scenarios must be reproduced in 
simulation and track testing. This process must be rigorously planned 
and executed to validate artificial intelligence as a substitute for 
decades of experience of a human driver. These new methodologies are 
not yet fully defined, and are the subject of intense research and 
rapid development.
    USDOT's AVPG program contains a combination and range of track, on-
road, and simulation facilities and capabilities across wide geographic 
areas and environmental conditions. This range of capabilities is 
important for the development of these products and tools in a rapid 
and collaborative fashion, and will be a critical asset to generate 
experience and data to ensure the safety of AV products and that the 
U.S. remains competitive in AV industry and deployment.
    AVs present both challenges and opportunities regarding data and 
data sharing, requiring that a large amount of data and information be 
sensed, acquired, amalgamated, analyzed for rapid decision-making in a 
wide variety of travel scenarios and environmental conditions, while 
protecting consumer privacy and ensuring cybersecurity. This data must 
then be acted upon through control decisions and operational 
monitoring. This same data can enable understanding of what is going 
right, or wrong, with an AV, and if shared, provides an opportunity for 
many vehicles to learn from the experience of one. While data best 
practices for AVs are still under significant development by vehicle 
manufacturers, testers, suppliers, government agencies, and service 
operators, generally, these data practices will likely include 
established processes and tools for the collection of in-use event, 
incident, and vehicle information data for crashes, malfunctions, 
degradations, failures, and unintended operation outside established 
operational domains, while maintaining and protecting consumer privacy 
and manufacturer/tester confidentiality and security. It is expected 
that this information will become extremely useful for vehicle 
development and operations activities, especially in early years of 
deployment, as well as accident/event reconstruction purposes.
    The AVPG Program will be critical infrastructure for developing 
concepts, structures, processes, tools, and programs to enable and 
implement these data sharing activities that are required for safe 
deployment, while maintaining consumer privacy and system 
cybersecurity.
    For these reasons, the AVPG Program overall will provide the 
foundation and program for the development of safe testing, operation, 
and deployment, including the necessary voluntary standards and 
mandatory regulations. As described above, significant work will need 
to be undertaken by expert technical and policy communities to 
theorize, prioritize, draft, and codify these standards in a 
coordinated yet accelerated manner. U.S. investment in AVPG 
infrastructure, facilities, equipment, and programs is a vital 
necessity to ensure safe deployment of AVs, and to keep the U.S. 
competitive with other major auto-manufacturing countries who are 
investing in similar facilities and infrastructure at a much more rapid 
pace.
HAV Data collection will continue after initial deployment, and 
        Exemptions are important to allow that data generation.
    HAV data collection and analysis must also extend through the 
initial years or even decade(s) of deployment. In addition to data 
gathered and analyzed throughout the product development and validation 
process, it will be critical to gather data in the initial years of 
product deployment, and perhaps even continuing ad infinitum. HAVs, 
like human drivers, must be capable of operating in a wide variety of 
travel scenarios and environmental conditions. No amount of testing and 
simulation can guarantee that every possible scenario has been 
encountered before initial deployment, just as human driver education 
cannot accomplish that before a driver is licensed. Secondly, setting 
of standards, especially government regulation is always aided by the 
collection and analysis of real-world safety experience and data. 
Because of this it is imperative to create, collect and analyze in-use 
data for initial deployments of these HAV vehicles.
    According to a 2016 NHTSA/Volpe study,<SUP>(4)</SUP> a number of 
existing FMVSS contain requirements that either conflict with, or do 
not allow, basic HAV design tenets, especially related to human 
operated controls. In order to enable that early product deployment and 
regulatory data gathering, and to enable HAVs in general for their 
significant safety and mobility potential, it is important that 
Congress and USDOT review the current authority, and identify and 
implement a solution for exempting compliance of a sufficiently 
substantial number of vehicles to FMVSS requirements that do not 
pertain to HAV design or operation.
    CFR 49 Part 555 currently allows NHTSA to temporarily exempt 
petitioning manufacturers' vehicles from certain FMVSS requirements, 
based on one or more of four situations:

  (1)  Substantial economic hardship

  (2)  Facilitation of development of new safety features

  (3)  Facilitation of development of new ``low-emission'' features or 
        vehicles

  (4)  Inability to sell a vehicle with an overall equivalent or 
        greater level of safety

    It could be argued that initial deployment of HAVs would already be 
covered by situations 2, 3, and 4. However the number of vehicles (up 
to 2,500) and the time duration (up to 2 years) for the exemption is 
somewhat limited, and may not serve the need of collecting a sufficient 
body of data to ensure safe operation, and ultimately create 
appropriate FMVSS requirements.
    Notably, and importantly, situations 2, 3, and 4 include the 
requirement that the petitioner demonstrate an equivalent or better 
level of safety, as compared to a non-exempted fully conforming 
vehicle, as part of the information for NHTSA's consideration.
    As part of this recommended Congressional and USDOT review, it 
should be debated whether situation 1 is applicable or advisable as an 
exemption rationale for HAVs, especially since this basis does not 
require the demonstration of an equivalent level of safety.
    Regardless of the rationale for exemption, it remains imperative 
for HAVs that the petitioner demonstrate, ideally through test-track, 
on-road, and simulation data, that the exempted vehicle clearly 
provides an equivalent or better level of safety, and that NHTSA have 
the final judgment that that requirement is met. Lastly, NHTSA must be 
authorized and adequately funded, including appropriate FTE levels, to 
ensure that this exemption program can be enacted fully and 
expeditiously so that it meets its full intent.
Closing
    In closing, I wish to reiterate that we are entering a new era for 
a greatly improved transportation system built on key technologies. The 
United States must embrace and invest in these technologies to provide 
increased safety, mobility, and equity for the travelling public, as 
well as support the economic competitiveness of our automotive industry 
and our country.
    I urge Congress to consider the following:

  <bullet> Authorize and fund USDOT to direct, fund, and collaborate on 
        voluntary industry standards, including testing, validation, 
        cybersecurity, privacy, and self-certification tools and 
        methodologies, including appropriate FTE to implement this 
        program.

  <bullet> Authorize and fund the USDOT AVPG program to provide 
        facilities and opportunities for product development, 
        standardization, education, and public-private partnerships.

  <bullet> Consider revising NHTSA's exemption authority to enable HAV 
        deployment and early data collection, and authorize and fund 
        appropriate FTE to implement this program.

    I appreciate this opportunity very much. Thank you for your 
attention.
About The American Center for Mobility
    The American Center for Mobility's proving ground is designated by 
USDOT as part their AVPG Program. ACM's core mission is to enable the 
safe development of automated vehicles as part of a future 
transportation system. To perform that mission, ACM is committed to 
develop and share safety-related approaches, information, and data in 
both test facility design and test operations, as well as explore and 
create data sharing opportunities for non-confidential, non-PI, testing 
and operation data, as part of a similarly-committed Community of 
Practice, while maintaining and protecting consumer privacy and 
manufacturer/tester confidentiality and security.
    With $110M in direct or incorporated investment, and leveraging an 
additional $115M of regional assets, ACM is designed to be the premiere 
national proving ground for shared-use mobility and advanced automotive 
testing. Founded in early 2016, ACM is a joint initiative among the 
State of Michigan, including the Michigan Department of Transportation 
(MDOT) and Michigan Economic Development Corporation (MEDC), the 
University of Michigan (U-M), Business Leaders for Michigan (BLM), and 
Ann Arbor SPARK. ACM incorporates private funding in partnership with 
public funding from the State of Michigan. ACM is strategically located 
in southeast Michigan and is recognized as a centerpiece of the state's 
``Planet M'' initiative representing the collective mobility efforts 
across the state defining Michigan as the global center of mobility.
    ACM's testing and validation capability is based on real-world 
representative testing environments designed to address a wide range of 
variations of pre-crash scenarios, including variable but controllable 
critical near miss scenarios. This testing is critical to the proper 
development and validation of CAV products and will serve AV 
developers' needs for both hardware and software. ACM's testing assets 
will also be critical to the work of government agencies and academic 
researchers collaborating on safety, mobility, and energy aspects of a 
CAV-based transportation system.
    The American Center for Mobility program will focus on three 
activity pillars that are critical to CAV safety: testing/validating, 
standard setting, and education. CAV technology, including 
communication, infrastructure, and cyber security, is developing very 
rapidly. All three of these key ``pillar'' activities should be 
advanced simultaneously to ensure that the technology is developed to 
maximize safety, mobility, energy, transportation equity, and other 
benefits.
    ACM is working with other facilities, government agencies, 
academia, industry, and like-minded experts, to share best practices 
and innovations for testing operator safety, facility design concepts 
and details, facility operational best practices and lessons learned, 
data acquisition and analysis system concepts, and testing and analysis 
equipment best practices and standards. ACM is convening operators and 
designers of other test facilities to lead the effort in the formation 
of this Community of Practice. ACM is partnering with standards 
organizations, such as SAE International, IEEE, ISO, NIST, ASTM, and 
others in these sharing discussions at the appropriate time, and will 
work with those bodies to enable voluntary standards as appropriate.
    ACM's mission includes the acceleration of these voluntary 
standards through convening and the creation of laboratories designed 
specifically for AV testing and standardization. ACM has partnerships 
in place with SDOs which will enable an accelerated process that will 
allow the standard setting experts to convene at ACM and participate in 
testing and demonstrations that inform the strategy, details, and 
ultimately decisions on the standards that are created. ACM provides a 
unique venue to contemporaneously develop and validate standards in 
rapid cycles and serve as a convening center where industry, 
government, SDOs, and other interested stakeholders can collaborate and 
accelerate the development of critical standards.
    Through its ability and focus to convene technical experts, 
numerous automotive development users, and standards bodies, ACM will 
establish a user group to develop a uniform approach or voluntary 
standard to data sharing. While it is unlikely that any manufacturer or 
tester will share all of its vehicle and incident data, this user group 
will act to establish a process to share noteworthy scenarios, and to 
define a subset of data and data retrieval/access methods, that they 
can agree to share. ACM will fully protect consumer and public privacy 
and security, and will take steps to ensure that any data or 
information sharing activities do not violate, hinder, or compromise 
integrity of any consumer privacy/security agreements or arrangements 
put in place by manufacturers, testers, agencies, public entities, or 
by ACM itself. Similarly, ACM commits to maintaining the 
confidentiality and security of proprietary confidential business 
information and data on behalf of its users, testers, and private 
partners.
    ACM will lead the formation of a specific Community of Practice 
focused on safe CAV testing, as a proposed subgroup of the 
International Committee for Proving Ground Safety (ICPGS) established 
to enable the rapid sharing of information, best practices, and data 
including the following aspects: Best safety practices specific to CAV 
testing, including vehicles, infrastructure and communication; driver 
training (remote and in vehicle); safe conduct of testing and 
operations; safety management plans and protocols; common safety 
incident reporting protocol; and common data format and agreement to 
share non-proprietary/non-confidential data.
    ACM fully supports the establishment of a network of experts and 
commits to providing engaged expertise through comments, meetings, 
workshops, and more formal activities including volunteered 
participation in an expert committee. In addition, the ACM facility 
will serve a very important purpose to educate the current and next 
generation of engineers, policy-makers, lawyers, and strategists and, 
in league with a consortium of universities and community colleges, 
will develop a curriculum to ensure that expertise is generated and 
available for hiring or appointment throughout industry, government, 
and academia.
References
    (1) National Highway Traffic Safety Administration (2016, August). 
DOT HS 812 318 2015 Motor Vehicle Crashes: Overview
    (2) National Highway Traffic Safety Administration (2015, 
February). DOT HS 812 115 Critical Reasons for Crashes Investigated in 
the National Motor Vehicle Crash Causation Survey
    (3) National Highway Traffic Safety Administration (2015, January). 
DOT HS 812 069 Lives Saved by Vehicle Technologies and Associated 
Federal Motor Vehicle Safety Standards 1960-2012
    (4) USDOT John A. Volpe National Transportation Systems Center 
(2016, March) DOT-VNTSC-OSTR-16-03 Review of Federal Motor Vehicle 
Safety Standards for Automated Vehicles; Identifying potential barriers 
and challenges for the certification of automated vehicles using 
existing FMVSS--Preliminary Report

    The Chairman. Thank you, Mr. Maddox.
    Let me direct this question to the entire panel. In order 
to realize the safety benefits of self-driving vehicles, 
manufacturers and new market entrants must be able to test and 
deploy on public roads and across multiple states. 
Traditionally, as Mr. Bainwol pointed out, the Federal 
Government has regulated the vehicle while states have 
regulated the driver. While I believe that states have a role 
to play in the deployment of these vehicles, we must be careful 
to avoid a patchwork of regulations, as a number of you have 
pointed out.
    So the question is: Would you support a Federal framework 
governing the safety of these vehicles? We'll start with Mr. 
Bainwol and move across the panel.
    Mr. Bainwol. Short answer, sure, absolutely.
    Mr. Csongor. The answer would be yes, especially if it 
simplifies our ability to deploy and test across the different 
states. So, of course, the devil would be in the details, but 
we test today in California, New Jersey, and we're able to 
deploy and test vehicles, and there are certain standards that 
are completely fine and very logical. I think the devil is in 
the details, but I would agree with a framework of that nature.
    Ms. Sheehey-Church. An even shorter answer would be, 
obviously, yes, we do, but I'll broaden it just a little bit. 
To avoid that patchwork, you know, of state requirements, it's 
important to make sure that we balance the technology and the 
regulation. So in saying that, it's important that NHTSA, the 
auto industry, and safety advocates really get together and 
make sure that the collaboration is key and ongoing, along with 
the data that we will be taking and looking and watching. But 
the short answer is absolutely.
    Mr. Maddox. And, last, I would add a fourth yes to that 
question, for sure. I think it's a necessary step, as I talked 
about, to be able to create the data that we need to validate 
these vehicles and, importantly, to educate the public about 
what they can and can't do. I think a framework would be a very 
good first step.
    The Chairman. Many of the regulatory challenges for the 
testing and deployment of self-driving vehicles stem from the 
fact that current Federal motor vehicle safety standards, as 
written, don't take into account self-driving vehicles. With an 
increasing number of auto manufacturers and new market entrants 
looking to test and deploy this technology in the next few 
years, many have expressed the need for exemptions from certain 
Federal standards to deploy vehicles on public roads.
    I guess this would be perhaps more specifically for Mr. 
Bainwol, Mr. Csongor, and Mr. Maddox. But why is the expansion 
of current exemptions important, and how will that inform 
future standards?
    Mr. Bainwol. It's vitally important. We look at this as a 
multipronged approach to maximize this transition. On the one 
hand, you have to have Federal uniformity, but you also need 
exemptions in a substantial number to generate--really, for two 
reasons. One is to generate the test data so that we can get to 
the point where we can deploy with confidence that's data 
driven.
    Second, there's a massive economic commitment here. This is 
billions of dollars of R and D. In order to make it 
economically attractive, to make the math work, you've got to 
be able to deploy--not just test, but deploy, and it's going to 
take time for the final rules to be written, and in this 
interim period, you need a mechanism to deploy. So you need it 
for two reasons, testing to prove a concept and, second, to 
make sure that the math works on the capital investment.
    The Chairman. Mr. Csongor?
    Mr. Csongor. I think the expansion of the Federal 
exemptions, particular to NVIDIA and to someone who is 
developing the underlying computer technology that would make a 
self-driving car possible--in my remarks, I commented on the 
connection between getting to that level of safety and the 
amount of data that's generated, and that we can ensure that 
the data that's generated is as diverse as possible and that we 
can get it as quickly as possible in order to deploy it.
    I know that other issues will come up with regard to the 
data, including cybersecurity and privacy. All of these are 
important issues. But in terms of the Federal guidelines, from 
a development point of view, access and development of that 
data is critical to the safety of the car fleet.
    The Chairman. Mr. Maddox?
    Mr. Maddox. I would echo that, perhaps with a bit more 
specific thought. Certainly, we need a significant amount of 
in-use data to validate the technology and to give the vehicles 
a chance to experience a given scenario and learn from it, and 
then maybe even educate other vehicles or other manufacturers 
how to handle that scenario. That's the way we learn as humans 
to drive. We're taught the basics. We can't experience every 
scenario before we're let loose, if you will.
    But with automated vehicles, we need a significant amount 
of data, and the number of vehicles to gather that data will 
need to be substantial. So for that reason, I think raising the 
numbers of vehicles that could be exempted would be a very 
positive step.
    The Chairman. Final question, Ms. Sheehey-Church. And, 
again, I want to express my sympathy to you for your family's 
loss and just appreciate you being here today to testify.
    In your testimony, you highlighted the fact that, 
tragically, the highest percentage of deaths that occur on U.S. 
highways are due to drunk driving and are, therefore, 
preventable. Can you elaborate on how you see self-driving cars 
being part of the solution to drunk driving?
    Ms. Sheehey-Church. Absolutely, Chairman. When we look at 
the numbers, the 35,000, and you break it down, very simply, 
10,000, as you said, for drunk driving. But the opportunity for 
autonomous vehicles will allow for all those other human 
behavioral errors and including drunk driving--again, MADD is 
there--our mission is to eliminate drunk driving, and we'll 
look and support any advanced technology.
    So when we look at AV, it was something that we said--it's 
an emerging technology that just has to be done, because it 
will not only take care of the other behavioral errors that are 
happening, you know, the drowsy or sleepy or seatbelts or 
speeding, but it will allow also drunk driving. What we want to 
do at MADD, we want to stop--we separate the drinking from the 
driving. With AV, we're going to separate the driver from the 
vehicle itself. And, again, we're looking at Level 4 and 5 when 
I answer that question.
    The Chairman. Thank you.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman, and thank you to 
all of our witnesses for excellent testimony and we appreciate 
all four of you being here today.
    This first question is for Mr. Maddox. Prior to becoming 
the CEO of the American Center for Mobility, you developed and 
implemented a connected and automated vehicle public-private 
research and development partnership with the University of 
Michigan. You and I are very familiar with the auto industry, 
and we know that it is very competitive. Competition is healthy 
as it leads to better products.
    But we also know that in this new era of transportation 
innovation, we're going to have to see an awful lot of 
collaboration between the industry. We know part of these 
technologies are connected vehicles that are going to be 
talking to each other, and a General Motors vehicle needs to 
talk to a Toyota on the road and to a Ford and a Nissan, et 
cetera, et cetera. That's a whole new business model in terms 
of some of the ways in which we use proving grounds and test 
vehicles, and we need to have that collaboration to eventually 
inform safety standards for development.
    So my question to you is: How will the American Center for 
Mobility facilitate this work? What are some of the partners? 
How are you bringing industry together? How is it also 
necessary for us to use facilities like the American Center for 
Mobility to go much broader than the auto industry?
    Mr. Maddox. I'll start with that last one first. Certainly, 
the American Center for Mobility and the other nine designated 
proving grounds around the United States--we are key 
infrastructure. To prove these vehicles out, we need to do both 
on-road driving, simulation, and certainly track testing, and 
the proving grounds are the facilities to do that testing.
    More importantly, as you point out, it's the facility--it's 
a convening location for these companies and different 
industries to come together and develop the technology 
consistently and collaboratively. At the American Center for 
Mobility, we certainly are working with auto makers and Tier 1 
suppliers, but, in addition, communications companies, 
technology companies, insurance companies. They all have a 
stake in understanding how the products work, how they don't 
work, and to develop them so that they actually work together 
for the public.
    Importantly, we believe, all of those industries as well as 
government has a stake in educating the public about what the 
technology does or does not do, how it functions, what its 
implications are. So these proving grounds also will serve as a 
locale for educating the future workforce, the public, in 
general, as well as each other.
    Senator Peters. It's obviously very important to be doing 
all of that, and it's important for us to move the development 
forward, but also to understand that we're in a global economy. 
We're going to have significant global competitors. A number of 
other countries are also racing to get to this technology, and 
whoever gets there first or is very early to get there will 
have a significant competitive advantage.
    Tell us a little bit about these centers, like the American 
Center for Mobility. Where are other countries, who are our 
competitors, and do we have to really get moving even quicker?
    Mr. Maddox. That is absolutely right. Other countries are 
moving very quickly. This technology was largely invented in 
the United States, and I think we're still in the lead on a 
technical level. However, when you look at the funding and the 
activities and the programs that other countries--China, Korea, 
Japan, the European Union--China alone has built two facilities 
already and has plans for five more for a total of seven.
    They are, like us, focusing on technology development and 
standardization, because they know that the countries and the 
regions that set those standards will certainly create an 
opportunity for their industries that other countries don't 
necessarily have. So we see that activity. We see them coming 
to Ypsilanti, coming to Michigan, coming to other facilities 
around the United States on a regular basis. We know it's going 
on.
    Senator Peters. Thank you.
    Mr. Csongor, I'd like to have you elaborate a little bit on 
some of the comments you made in your testimony related to 
artificial intelligence, deep learning, machine learning, and 
why really moving this technology forward in the auto industry 
is critical, not just for autos, not just for the incredible 
advances in safety, which we've already articulated, but for 
the entire economy and for every industry. It has been 
described to me that this auto technology is the moon shot for 
artificial intelligence, and when that happens, we'll be able 
to have incredible advances in every industry imaginable.
    Is that accurate? Where do you see this going? Why is it 
important to get it right with autos?
    Mr. Csongor. I think that's very accurate, Senator Peters. 
I don't think it's an over-exaggeration or hyperbole to say 
that AI is the fourth industrial revolution, and what that 
means is that everything will change, and it's specifically 
targeted, as any industrial revolution, against problems that 
exist within society. Many of the problems that we have can be 
broken down to computational problems. The pursuit of a cure 
for cancer is a computational problem.
    We have enormous amounts of data being generated in every 
field across so many industries. We just can't make sense of 
the data. What's really required and the real--I think the 
really critical role of AI is to get insight from large amounts 
of data. So if you gather large amounts of data on speech, you 
can understand idioms of human speech. You can create automatic 
translation literally out of a Star Trek episode, where you're 
able to speak one language and you hear another language out 
the other side.
    You can collect information on the oceans and have an AI 
agent that sifts through the data to look for important trends. 
And, of course, you can break down the world--highways, roads--
and then sift through that data, and then be able to identify 
all the important things that matter to driving a self-driving 
car.
    Just imagine trying to break down the world into objects, 
all the objects that we see when we drive a car. Imagine that 
you had to have a person write manually software code to 
describe what that object is. This is a stop sign. This is a 
stop sign at an angle. This is a stop sign at night. This is a 
stop sign that's covered with snow. We're able as humans to 
recognize objects even though they're hidden or what we call 
occluded, and deep neural networks are very good at that kind 
of thing.
    So I think that as we as a society evolve into a world 
where we have lots of data, I think the ability of AI to 
provide insight in that data is going to provide breakthroughs 
everywhere across every industry.
    Senator Peters. Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman, thank you and Senator Peters not 
only for the hearing but for your efforts to determine 
guidance.
    The panel gets your blood flowing, excited about the 
potential of what this means, not just for driverless vehicles, 
but as you're describing what it means for us as a society, a 
country, and a world. I'm having trouble putting my hands 
around what it means in rural America. Incidentally, I come 
from a place in which driving is still enjoyable. We look for 
it. There's still occasionally Sunday drives, and then you add 
to that farm equipment, and it is a different environment.
    So, first, I would start by asking do we see this as 
something that is, at least for the foreseeable future, limited 
to cities and interstate travel?
    Mr. Csongor. Maybe I can take a quick shot. There are two 
comments I'd like to make. First of all, the use of AI in a 
car, in our vision at NVIDIA, can really accomplish two things. 
The first thing is the AI can drive the car for you if you 
want. We all refer to a self-driving car as one thing, but in 
actuality, this technology will likely be deployed in small 
steps toward a big vision.
    The big vision is a self-driving car that can drive very 
largely autonomously, but I think the idea of a self-driving 
car that can drive anywhere, absolutely anywhere, is not true. 
If you drop a self-driving car in the middle of Greenland, it 
will not drive on its own, just like a human would not be able 
to drive on their own.
    So one part, I think, is you already have solutions on the 
road today, and then you're going to see every year products 
come out that are better and better and better, and they'll 
have more and more features and more and more capability. 
However, in addition to self-driving, we actually believe that 
the AI can be a co-pilot, or think of it as a guardian angel. 
So with a camera inside the car that's connected to the cameras 
outside the car, for example, we can track the position of the 
driver's head, their gaze, if they happen to be looking to the 
side and a pedestrian steps off on the right, but you're 
driving, the AI can say, ``Attention, there's a pedestrian on 
the right.''
    So the use of this technology, I think, is not just limited 
to self-driving but also to assisting the driver and being 
there in case you'd like to drive because you enjoy driving.
    The second comment is regarding your question on rural 
areas. The system that I described to you on the self-driving 
does not require that the car be continuously in connection 
with a central computer. So in the system that I described, the 
algorithms are tested with massive amounts of data, and then 
they're over-the-aired to your PC.
    So imagine your computer that you can get an update on, and 
once you have the update, you can go anywhere with the 
computer, and then at some point, you get back to an area where 
you have a connection, and then as soon as you have a 
connection, if there's an update, then you can do it. So I 
think the architecture of the self-driving car that we're all 
working toward does not require you to be in continual 
connection.
    Senator Moran. Thank you.
    Mr. Bainwol?
    Mr. Bainwol. If I can add perhaps a less sophisticated 
answer, if you're in Russell, Kansas, you may not have the same 
level of ride sharing ultimately. But you certainly will 
benefit from the access questions. You know, if you're blind or 
disabled in Russell, Kansas, it's the same benefit to be able 
to get a self-driving vehicle to take you to your destination. 
So that's part one.
    Part two is, ultimately, this is all about crash avoidance, 
and it doesn't matter where you are, crash avoidance inures to 
the benefit of everybody. So you're avoiding accidents, you've 
got the property damage issues, you've got the time issues, you 
have the fuel savings questions, but, most of all, you have the 
saving of life.
    So I would argue that there are certain applications that 
may be more prevalent in urban centers. But as a bottom line, 
this is good for rural America just as much as it is for urban 
America.
    Senator Moran. Thank you very much. Let me see if I can one 
more question. The question is related to insurance. I chair 
the Subcommittee that has jurisdiction over insurance in this 
Committee.
    Let me ask you, Mr. Bainwol. The question really is: what's 
the private sector role in insurance? Volvo stands out to me. 
In 2015, they announced that the company would accept full 
liability whenever one of its cars is in autonomous mode. 
What's the industry's expectations? And then, second, what's 
the request of Congress? What's required here in regard to 
insurance?
    Mr. Bainwol. Well, the insurance piece has a couple of 
different dimensions. There's the question of liability, and 
certainly on the question of aftermarket, the OEMs would like 
to be protected from aftermarket adjustments to the vehicle. I 
think there is a range of perspectives on liability on the 
system itself from the OEMs, and that's something that we're 
just going to have to work through. There obviously is a tort 
system in place as well as broad enforcement authority, and 
that does govern behavior in terms of the introduction of 
technologies and the risk taking.
    The other point on insurance that we often hear about is 
that premiums will go down, and, ultimately, that may, some 
say, damage the insurance industry, but at the end of the day, 
if you have fewer accidents, that's a good thing, and claims 
will go down.
    When Volvo introduced the XC60 originally in the U.S. five 
or six years ago, it was the only vehicle that had automatic 
braking on the sport utility. No others did, and all of the 
sport utilities that Volvo introduced did. So you had a nice 
control group, and it was found that the incidence of claims 
for the first six months was 27 percent down. So automation has 
really a fantastic opportunity to change the very essence of 
the relationship, and the need for insurance will go down. But, 
ultimately, the payout on insurance will also go down.
    Senator Moran. Thank you all very much. It's nice to get 
excited about something as compared to worrying about 
something. This gets me excited. Thank you.
    The Chairman. I think this probably gets your staff and 
your family more excited than you, Senator Moran.
    [Laughter.]
    The Chairman. He may not be out there driving on his own.
    Senator Cortez Masto is up next.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, and thank you for this 
incredible panel and discussion.
    Two weeks ago, I was back in Nevada, and I had the 
opportunity to walk through the Tesla site and plant that we 
have there and drive in one of their autonomous vehicles. The 
technology was absolutely incredible. I am very, very excited 
about this phase.
    One of the interesting aspects that I've seen in 
transportation, particularly in Nevada, is the concept of smart 
communities. I want to follow up on what you're saying, because 
what we were talking about and what I heard was that these 
autonomous vehicles are just one part of a larger community--of 
smart communities, the Internet of Things and the connection of 
things. I'm actually working on legislation to try and continue 
that momentum for our communities to invest in smart 
communities.
    I wonder if anyone could elaborate on how you see this 
fitting into that larger goal of smart communities that I know 
so many communities are looking at right now.
    Mr. Maddox. I'll start, if that's okay. Yes, we believe 
that smart vehicles, automated vehicles, connected vehicles are 
an important piece of a smart community, and really, a smart 
community is all about data, how you collect data, and, 
importantly, how you use data, and that is a very difficult 
challenge. Certainly, automated vehicles and the way that we'll 
move people, the way that we'll move goods will be a huge 
contribution of that data source to that overview of how a 
smart city is operating. So we know that these automated 
vehicles will be that important piece.
    The question is: how do you integrate all this data 
together? And, frankly, we don't know that anyone has got that 
real answer yet. That's one of the key reasons that we need to 
do these early deployments so that we can actually get 
experience with the vehicles in that smart city setting and 
figure out how to use that data.
    Mr. Csongor. First, I just want to comment on your ride in 
the Tesla. I actually own one myself, and I share your 
enthusiasm. It is not a new feature like a seat warmer or a 
premium sound system. Traffic has just such a terrible effect 
on your life that the absence of having to drive in it just 
improves the quality of your life. So I do believe that beyond 
safety, it's just delightful to have.
    With regard to smart cities, NVIDIA has actually invested 
very heavily in extending our technology into smart cities. In 
many of the applications that you look at, whether it's 
consumer applications from Facebook or Google or whether it's 
self-driving cars or smart cities, there are common elements of 
technology. For example, all of these feature and require the 
ability to do image recognition, intelligent analysis of video.
    So, for example, there's a concept called IVA, intelligent 
video analysis. So being able to sift through lots of data to 
be able to understand, either for security purposes or for 
crowd management or, you know, things like this, a lot of these 
same algorithms can be applied into smart city types of things.
    Beyond that, there are other communication methods, vehicle 
to vehicle, vehicle to infrastructure, where you can have cars 
communicating with traffic lights, and, in theory, in theory, 
the logical extension of all of these would be a society where 
you don't have traffic lights or stop signs, that you're able 
to have traffic flow completely naturally, intersecting with 
each other. So there's quite an enormous amount of potential in 
combining AI elements in the vehicle as well as the city, 
because the infrastructure would have to expand to support a 
world where you had autonomous vehicles and you can realize a 
lot more benefits.
    Senator Cortez Masto. Thank you. I know my time is running 
out here.
    Very quickly, first of all, Ms. Church, thank you for what 
you do. I had the opportunity to work very closely with not 
only MADD but Stop DUI in Nevada, and thank you for that 
collaboration, because it wasn't just drunk driving. It was 
distracted driving, it was driving under the influence that we 
worked very hard to eradicate, and I think this technology will 
help us address this issue, working closely with law 
enforcement.
    I think the data, besides insurance, will also help law 
enforcement on so many levels that we can't even contemplate 
right now. But one of them I do have a concern about is 
cybersecurity space, this space of how we address hacking into 
this technology. Do you think that, right now, we are 
adequately staffing, and are we already preparing to address 
cybersecurity needs as we build this infrastructure out? I'll 
open it up for anyone.
    Mr. Bainwol. So cyber is a real concern. It's one that 
everyone shares. The fundamental proposition here is big data 
provides an opportunity for great benefit, but we've got to 
find a way to maximize the benefit and minimize the challenges, 
and cyber falls into that category.
    Several years ago, the OEMs came together and formed an 
ISAC as other sectors have. What was unique was that we did it 
in advance of an event, and to date, there has still not been a 
market event. There has been wide hacking, but not a malevolent 
attack. We've been fortunate--knock on wood. But as we formed 
the ISAC, we promulgated best practices. The product cycle of 
vehicles starts with security by design.
    So we can always do more. It's not a static moment. This is 
a journey, and the challenge will grow over time. But there's a 
commitment to meet that challenge.
    Senator Cortez Masto. Thank you.
    Mr. Csongor. Of course, the subject of cybersecurity is 
extremely important, and I know that there has been publicized 
instances of vehicles that were hacked; however, I do think 
it's important to note that the automobile is in the middle of 
transformation. It was not very long ago when the most 
sophisticated computer in that car was the radio. The 
automotive is now becoming a computer, and in that recognition, 
that's a challenge, and it's something that we have to do.
    But the good news is this is not the world's first 
computer. The computer industry has been building computers for 
50 or 60 years, and they're used largely in autonomous vehicles 
today. The aircraft that we fly today are powered by computers. 
They're secure. There's computers powering every facet of our 
society and our lives.
    So I believe that there is a lot of knowledge on 
cybersecurity. It just needs to be applied to automotive. 
NVIDIA has been developing solutions for 20 years. If we did 
not provide secure functionality in our computers, we would not 
be in business. So I think this is a matter of application.
    Mr. Bainwol. And we have about 18 suppliers in our ISAC, 
and we welcome you joining the party.
    Senator Cortez Masto. Fantastic.
    Mr. Maddox. One last comment, if I could, on cybersecurity. 
If we think about cybersecurity, we should consider security of 
the entire transportation system. Certainly, the vehicle is 
part of that, but so is the infrastructure, the traffic 
controls, signs, and growing increasingly, even our personal 
mobile devices will be part of that mobility infrastructure. So 
when we think about cyber, we should consider cyber for all of 
that.
    Senator Cortez Masto. Great. Thank you so much. Oh, please.
    Ms. Sheehey-Church. I'm obviously not the engineer on this 
panel, but I know that MADD is looking at this issue and knows 
that the auto industry itself is taking it very seriously. We 
look at maximizing societal benefits while minimizing the 
disbeliefs about it or minimizing the benefits about it, but 
the fact is that the Auto ISAC is tracking and sharing and is 
accountable of all the intelligence that we started in January 
2016.
    So the possibility is obviously always there, but they are 
really overcoming the threats with the help of our automakers 
and their suppliers. So I think they will have a good track 
record going forward.
    Senator Cortez Masto. Thank you. Thank you all.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Gardner?

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman, and thanks to all 
of you for being here today.
    I was going to share my Sunday drive routine with Senator 
Moran in the 1971 International Harvester Travelall that I 
finally got running. So the only autonomous thing about that is 
its consistent breakdowns.
    Mr. Bainwol, I'll direct this question to you. Colorado has 
been one of the states at the forefront of autonomous vehicle 
technology. The Colorado Department of Transportation has been 
pursuing rolling out their new RoadX program. It uses 
innovative transportation systems to improve traffic flow and 
modernizes the infrastructure itself to allow autonomous 
vehicles to move safely and effectively.
    It's incredibly important as you drive up to the mountains 
from the airport when you fly in to ski. There's really only 
one way that you can get there quickly, and it's a little bit 
of a chokepoint at times. In October of last year, a fully 
autonomous truck made a commercial shipment from Fort Collins, 
Colorado, to Colorado Springs, and because it was Colorado, of 
course, it was a shipment of--no, not that. It was beer.
    [Laughter.]
    Senator Gardner. With Colorado as one of the fastest-
growing states in the nation, I'm excited about the 
opportunities created by autonomous vehicles to reduce 
congestion and prevent accidents. In your testimony, you talked 
about timelines for Tiers 3, 4, and 5 highly autonomous 
vehicles. You talked about Tier 5 and that it can operate 
seamlessly anywhere, and a person can drive--you know, anywhere 
a person can drive a conventional vehicle, and that you think 
it would hit the roads around 2025. But going on with your 
testimony, you talk about how you don't think these vehicles 
will make up a majority of the cars on the road for three 
decades or so.
    So what are the first sort of changes that we will see in 
things like urban planning as autonomous vehicles hit the 
market?
    Mr. Bainwol. You're asking the tricky but correct question, 
because we're going to have a situation of fleet mix for 
decades. The estimates and timing were actually Moody's, not 
ours, but it's all predicated on the reality that the average 
age of a car is 11 years old. So if you go down to the 20th 
percentile, they're really old cars, and so once you introduce 
the technology, it takes a long time to wind its way through 
the fleet.
    So planners have to deal with a transition that's going to 
occur for 20 or 30 years, and there's no magic answer. Part of 
it depends on how aggressive a city or a state approaches it. 
Part of it is not knowing exactly what the adoption is going to 
be. There are fundamental questions. We don't know whether VMT 
is going to go up or go down. We don't know whether car 
ownership is going to decline and by how much versus ride 
sharing.
    So there are lots of open issues here, and you almost have 
to place a bet and then try to mobilize and accelerate the 
future. There are lots of crazy things. I met with a very 
provocative nuclear physicist who talks about the future all 
the time, and his comment, unrelated to his profession, was 
that at some point in the future, metros will become basically 
parking stations, because the last mile value of autonomy will 
be so cheap that metro systems will end up collapsing, so 
they'll become storage for something else. What do you do about 
parking, and how long will that transition take?
    So I don't really have a great answer. But the question is 
profoundly on target, and planners are going to have to wrestle 
with this question in a really profound way.
    Senator Gardner. I'm happy if anybody else wants to take a 
shot at that. Now, the technology you were talking about--is it 
Csongor? Is that how you say it?
    Mr. Csongor. It's pronounced Csongor.
    Senator Gardner. Will AI be able to pronounce that?
    [Laughter.]
    Mr. Csongor. Probably not.
    Senator Gardner. All right. Please go ahead if you have 
anything else.
    Mr. Csongor. I think one of the interesting next ripple 
effects as a result of AV, autonomous vehicles, will be a big 
problem in our cities and our infrastructure, which is parking 
lots. Today, a lot of urban sprawl is caused by the fact that 
every building has to have a parking lot right beside it, 
because the people driving don't want to walk for a long period 
of time.
    NVIDIA is actually--we're building a new corporate building 
in Santa Clara, and if you look at it, there's no parking lot 
on the outside. Now, the parking lot will be underground, but 
the AV capability introduces the possibility of being able to 
free up a lot of land, to eliminate a lot of this sprawl, and 
then to simply have an autonomous vehicle go park and it 
doesn't matter to you how far away it is, as long as it's 
somewhere close by. So I think that's an exciting----
    Senator Gardner. Well, I look forward to carrying on the 
conversation about the rollout of Tier 5 and other technologies 
and the integration of Federal, state, and local regulations 
and policies as we move forward.
    Really, Mr. Bainwol, to your point of whether a metro or 
something like that is necessary as we're pursuing 
appropriations to put billions of dollars into certain public 
infrastructure projects, at what point does the intersection of 
cost to benefit, because of AV technology, start impacting 
those decisions? So that's a question we're going to have to 
answer.
    So thanks very much for your time.
    The Chairman. Thank you, Senator Gardner.
    Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Chairman, for holding this 
hearing, and I want to thank our panelists for their testimony 
here today. I really appreciate it.
    Today, private industry is taking the lead in developing 
many of the standards that are driving how we talk about 
automated vehicles. For example, the Society of Automotive 
Engineers has issued standards defining six levels of 
automation. Many governmental bodies, including our Department 
of Transportation in the Federal automated vehicles policy, 
have adopted or referenced those standards.
    That strikes me, generally speaking, as a good model to 
continue as technology is still developing. That said, if we're 
to preclude states from enacting safety standards for fear of a 
patchwork of regulations, something that's been invoked here 
today, we may need to have some minimum level of reporting to 
NHTSA.
    Are you concerned--anyone can speak to this--that new 
entrants and startups in the industry might have difficulty 
working with NHTSA?
    Mr. Bainwol. Concern may not be the right word. But I think 
everybody who wants to enter the space ought to. The rule set 
should be technology neutral, and at the end of the day, for 
common opportunity, there should be a common obligation to meet 
the safety standards. The entire enterprise is predicated on 
the notion that we're going to improve safety, NHTSA's reality 
is a positive reality. We've had 50 years of safety standards, 
and the CDC describes the outcome as one of the great public 
health achievements of the century. So we want to recognize the 
value that that system provides and make sure that everybody 
complies.
    Senator Young. So we see this across industry sectors, 
right, where the incumbents oftentimes play an important and 
constructive role in developing new standards, but sometimes 
those standards are also tailored to advantage their business 
models, right? They have to answer to shareholders. They're 
publicly traded companies.
    So to ensure as much dynamism, as much innovation, so we 
can best serve the consumer markets, which all of us want, are 
there specific steps that anyone has in mind that can be taken 
to ensure that we're responsive to these new startups?
    Mr. Maddox. I'll add to that, if I could. Certainly, 
voluntary standards are a critical step. I discussed that a 
little bit earlier. The key thing we need to ensure is that 
those voluntary standards efforts are really directed and 
focused on an outcome that can result in a FMVSS and result in 
the ability of manufacturers, be they new or existing, to 
deploy their vehicles so that we can learn from them.
    So I think the critical piece is that U.S. DOT, NHTSA, 
perhaps directly, should work together with SAE and ITE for 
traffic engineering and IEEE for communications to make sure 
that those voluntary standards efforts are directed to be 
something that could be useful for a future FMVSS standard.
    Senator Young. Mr. Csongor? If I said that correctly?
    Mr. Csongor. It's OK. The Cs are like Ch.
    Senator Young. All right. Csongor. All right, sir.
    Mr. Csongor. It's OK. Startups are an important part of any 
technological disruption. They're a hotbed of innovation, a 
hotbed of ideas. When I joined NVIDIA in 1995, we were one of 
them, and because of the climate that was made possible by our 
government and by Silicon Valley, we were able to grow and make 
a difference in the world. So our DNA is wired to not just 
permit, but encourage the development of breakthrough 
technology on top of our platform.
    When we work with startups, they are all aware of standards 
from committees or industries, ASIL ratings, and they are able 
to work with them. I think as long as regulation creates 
reasonable compliance rules for reporting information and 
things like this, I think that we're going to have no problem 
and we're going to enjoy a lot of benefits from the startups.
    Senator Young. Thank you.
    Mr. Maddox, as I conclude here, you know, you might imply 
or infer from my previous line of questioning that I'm 
concerned about Congress or Federal agencies or, frankly, some 
incumbents putting their thumb on the scale to the disadvantage 
of others. SAE is obviously at the forefront of developing many 
of the voluntary standards you've discussed. Are there other 
standards development organizations that should be part of the 
conversation as we move forward, domestically or 
internationally?
    Mr. Maddox. Certainly, if you think of a future 
transportation system as a system, which includes vehicles, 
roads, communication systems, then there are other standards 
organizations like Institute for Transportation Engineers, ITE, 
based here in the U.S.; IEEE for communications. Those will be 
critical to bring together, and now we're talking about a very 
difficult lift, but an important one, which is getting 
standards bodies to talk to one another, just like the vehicle 
manufacturers and the other technologies have to. So those are 
critical stakeholders in the standards game.
    Certainly, there is an international standards effort, and 
we always have a goal to try to harmonize vehicle standards and 
other standards internationally. It's very difficult to do 
that, but the best time, the best opportunity to do that is 
when the technology is nascent. So we should involve those 
other international bodies also.
    Senator Young. Well, thank you. It sounds like we need some 
standards for the various standards organizations discussing 
these topics together.
    Thank you.
    The Chairman. Thank you, Senator Young.
    Senator Inhofe is up next.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    So that a lot of the people here and at the table be aware 
of it, one of the problems we have is we have lots of meetings 
happening at the same time, and it happens that half the 
members of this committee are also on Environment and Public 
Works, and we're meeting at the same time. So if I ask 
something that has already been asked, you can just be 
offended.
    [Laughter.]
    Senator Inhofe. Mr. Csongor, to facilitate the deployment 
of autonomous vehicles, there's a lot of conversation about the 
types of Federal regulations that should be in place. One thing 
I'm concerned about that DOT is guilty of is setting up a kind 
of system where new technology cannot be quickly adopted 
because of an onerous approval system. This is exactly what 
happened with FAA. When we get some things as innocuous as 
applying GPS into an iPad system that you can use, it actually 
took years to get that done. So I am concerned about this, 
because, you know, that's government.
    Does that concern you, too? And tell me why if it does not. 
What can we do now to put something in place to keep up with 
this?
    Mr. Csongor. I think that the path that we're going down, 
which is--and the spirit of this Committee, I think, is not 
just to ensure the safety, but you can feel that the spirit of 
this committee is to make sure that development work goes on, 
whether it's from infrastructure or startups or all the people 
here on this panel, and that we can streamline the effort to do 
it.
    So I feel that we all understand the goal. We understand 
the benefits of what's being--what's at stake, and there might 
be just a few small steps, you know, to focus on first, and I 
had mentioned it earlier in my comments, but I'll cover it 
again. The nature of the technology of an autonomous vehicle 
through AI is one where access to large amounts of data that's 
very diverse is very important. So it has been mentioned a 
number of times, but, certainly, unified regulations and then 
enforcement through NHTSA to provide that single unified 
compliance would dramatically help us in developing cars.
    Senator Inhofe. I'm glad to hear you say that your 
observation is that this Committee has a reputation of getting 
things done and avoiding some of the unnecessary steps that 
other bureaucracies do. So I think this committee should be 
complimented, and I think you are accurate when you say that.
    Now, when you talk about all the data that's going to be 
necessary, Oklahoma is proud to be a data center state, and 
Google has a massive facility that we're very proud of. It's in 
Pryor, Oklahoma. It's supplied with power from the GRDA, Grand 
River Dam Authority, in Oklahoma, the entity that generates 
power off of a large lake.
    Autonomous vehicles will be collecting all kinds of data, 
pictures, and video every second that they're in operation, and 
this is going to require vast amounts of data stored at 
facilities like Google's. But what we don't want is the wrong 
people to get ahold of that.
    Have you discussed in some detail safeguards that can be 
made? Because that threat is out there. There will be a lot of 
the wrong people wanting access to stuff that we don't want 
them to have access to. What are your thoughts about that?
    Mr. Csongor. I agree with you very much. I can speak on 
behalf of NVIDIA, and I can talk to some of the steps that we 
take or the protocols that we put in place. First of all, the 
data that we collect, we use for one purpose and one purpose 
only, and that's to improve AI algorithms so that you can have 
a safer car. We regard any of the information that is collected 
as a part of that data as private information. We don't share 
it with anybody unless we have a very secure way of sharing 
that data.
    The data collected in our vehicles, if it's updated in a 
system where you have an over-the-air update, the transmission 
of the data, the upload and the download, is encrypted. And 
then within the building, there's a multilayer security 
protocol, ranging from the building security and the server 
infrastructure, and then within the server, there are various 
layers of firewall. So I won't get into all the details. I 
think that, again, the data that we collect, we treat as if 
it's the data that is our secrets, the secrets of our use and 
everything, and then we protect it as such.
    Senator Inhofe. Sure. Well, you don't need to detail any 
more of it, but it sounds like you're on to this and you 
recognize that the problem exists, and you're in a position to 
take care of it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Inhofe.
    Senator Hassan?

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair and Ranking Member.
    To the panel, thank you all for being here this morning.
    When many individuals discuss the development and scaling 
of automatic vehicles, it's often in the context of breaking 
down barriers for individuals who are not currently able to 
drive a vehicle. In 2015, the National Council on Disabilities 
released a report titled ``Self-driving Cars: Mapping Access to 
a Technology Revolution.'' This report recognized the promise 
that this technology holds for individuals with disabilities 
while at the same time highlighted some challenges of 
independent use of these vehicles, such as the integration of 
accessibility and assistive technology, mapping system 
accuracy, and equipment failure.
    Keeping these challenges in mind, I'd ask anybody on the 
panel who would like to address it: What role do you see in 
automated vehicles providing greater access for individuals who 
experience disabilities? And then the add-on to that is that 
we've seen time and again that advanced technology best serves 
individuals who need it most when those individuals are part of 
the development process to ensure accessibility. So what can 
the industry and local, state, and Federal Government do to 
ensure that people with disabilities are included in the 
development and rollout of this technology, from licensing 
issues, insurance, design, usability?
    Mr. Maddox. I'll start.
    Senator Hassan. Sure.
    Mr. Maddox. I wholeheartedly agree that automated vehicle 
technology could be extremely beneficial for those who don't 
have access to transportation for many different reasons. 
Equity in transportation is something that I think, over the 
next 20 years, we will build a greater and greater, more 
thorough understanding of and a more comprehensive solution set 
than we have today. There's no question about it. Automated 
vehicles will play a strong role in that.
    I think it's critical if we think about how to accelerate 
automated vehicles--and this is really Level 4, Level 5, the 
highly automated vehicles. Demonstration programs really are 
key. We need to actually put them on our streets, first in 
small numbers, but in ever-increasing numbers. That will 
provide the opportunity for this group of folks who don't have 
equitable access now to really experience the technology, and 
it does come back to consumer education. It is critical to 
educate every transportation user, and that's probably 
everybody in this room, for sure, if we walk or drive to work 
or to the office.
    So I think that really involving that community--the best 
way to do it is through demonstration programs where they can 
learn firsthand and provide input to the designer of the 
vehicle or the system.
    Senator Hassan. Thank you.
    Mr. Csongor?
    Mr. Csongor. This is a subject particularly dear to my 
heart. My mother lives in a retirement community, and I've had 
a chance to talk to them, and they're very excited about this 
potential. I think that one of the interesting applications of 
AV vehicle technology is actually even beyond the self-driving 
cars that he mentioned, but also in the introduction of 
autonomous scooters or shuttles.
    We're working with startup companies in shuttles and 
scooters that actually have the potential to be deployed much 
sooner to these people, and the reason being that, for example, 
if you had shuttles within a community, a retirement community, 
it's what we call a geo-fenced area. You don't have to have it 
operate all over the world. So the potential for rapid 
deployment to help these types of communities is actually very 
exciting.
    Senator Hassan. Anybody else want to comment? Mr. Bainwol?
    Mr. Bainwol. I'd just add that's precisely the right point. 
In a geo-fence context, it's going to happen sooner rather than 
later. To realize the full potential of what you're asking 
really is Level 5, though, and as we've talked about, the 
transition is a long one. So from a congressional perspective, 
if that's the focus, then the mission is to accelerate that day 
that we get to Level 5, and that means public policy that is 
geared toward accelerating the future.
    Senator Hassan. I would just ask you all--as we think about 
piloting, getting upfront input from people who experience 
disabilities before the product is finalized is really, really 
critical. We see this right now. We're having to upgrade and 
change a lot of existing technology for accessibility purposes, 
and if you can include the community sooner rather than later, 
I think it streamlines the whole process, and you learn that 
when you address issues with people with disabilities, you 
often address convenience and other issues for the general 
public as well.
    Because I am running out of time, I will make sure we 
submit this question to you all in writing. But, you know, the 
other thing that strikes me is as we discuss infrastructure, 
generally, for transportation in this country, it would be very 
useful to get your input about what a new generation of 
infrastructure should include, whether it has particular kinds 
of street lights, cameras, clear roadway lines, adequate 
signage, et cetera, to accommodate these vehicles. And I'll 
look forward to your written answers to that. Thank you very 
much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hassan.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
having this hearing.
    Ms. Sheehey-Church, I want to thank you for coming from 
Connecticut, from Madison, where I believe you live, and for 
sharing your really tragic story about your son. As a father of 
four, I can't imagine your loss. It's every parent's worst 
nightmare. So I'm particularly grateful that you've come to 
Washington, but also for your tremendous work and that of 
Mothers Against Drunk Driving throughout Connecticut and our 
Nation.
    I've been very, very privileged and proud to work with MADD 
over many years as Attorney General and now as a U.S. Senator 
and know full well that too many families have been devastated 
by this continuing scourge. We tend to focus on the issue of 
the moment while young people, really people of all ages, 
continue to perish as a result of this fully preventable 
condition.
    I would like to ask you perhaps if you could reflect why we 
should be especially careful about semi-autonomous vehicles and 
the possibility that it may create a false sense of security?
    Ms. Sheehey-Church. Thank you, Senator Blumenthal. I think 
in the beginning when I talked about MADD's concerns and MADD's 
four principles, we were really looking at 4 and 5. That's the 
level that we have to look at, because zero through 3 does have 
the capability of human interaction. So I'll borrow a phrase 
from my colleague here that when we talk about artificial 
intelligence in that 4 and 5, it really does go far beyond what 
humans can do.
    So when I look at AVs myself, and I take out my role as 
National President, and I look at my role as a parent or as a 
mom, and I look at AVs--and, again, just relating myself to the 
4s and 5s--there needs to be a cure to stop 35,000 deaths 
that--not only drunk driving deaths, but there are also 
behavioral traffic-related deaths--that we have the opportunity 
to have a cure here, and the AVs themselves, the 4s and 5s, 
could actually be that vaccine that we could utilize across the 
country to save more lives. So I'd have to answer it, in terms 
of self-driving, I'm really looking at 4 and 5 as being that 
vaccine over time.
    Senator Blumenthal. And do you think it's important that 
NHTSA make sure that certain safety features are mandatory in 
all vehicles so that drivers and individuals know what to 
expect, not only for their sake, but for the sake of people who 
are driving on the road unaware about the lack of those safety 
features?
    Ms. Sheehey-Church. Oh, absolutely. I mean, just like with 
seatbelts, when we needed to educate, it's like we're educating 
on ignition interlocks right now. So now the consumer 
acceptance will only come with pure education on what AVs can 
do. So it's really--I beg that NHTSA and the auto industry and 
safety advocates really sit at the table and all have a 
collaborated effort in bringing the AVs--we all want the same 
thing. We want safety. Safety comes first. So when I say that, 
you know, before anything is rolled out in masses, that safety 
is our number one concern, and every one of these individuals 
in the auto industry, safety advocates, have to be at that 
table to be able to collaborate together.
    Senator Blumenthal. Mr. Maddox, how do we make sure that 
voluntary standards regarding safety are adopted?
    Mr. Maddox. I think the key there is that we enter into the 
activity to create those voluntary standards with a number of 
outcomes in mind, certainly one of them being the creation--the 
support for the creation of FMVSS. So if you look at the 
history of safety technology over the decades, every major 
safety technology on our vehicle today started with that 
voluntary standard approach.
    So if we use that, there's no reason we can't continue that 
process that works for automated vehicles. It is much more 
complex. As Mr. Csongor has pointed out, the data involved here 
is far, far higher--in order of magnitude, higher than prior 
safety technologies. So the key is for NHTSA, U.S. DOT, the 
auto industry, and other stakeholders to really get together 
and decide what's the end game, what voluntary standards would 
be needed to enable the technology to be deployed at scale, 
and, very specifically, which pieces of those voluntary 
standards would inform future Federal regulations.
    Senator Blumenthal. Thank you. Thank you all for being 
here. I appreciate your excellent testimony today.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. Thank you for being 
here.
    I wanted to thank you, specifically, for your work, Ms. 
Sheehey-Church. As you know, as a former prosecutor, I did a 
lot of work with MADD, and we passed finally in Minnesota the 
felony DWI law, which was helpful, and I am supportive of your 
words about how technology can help as well.
    Mr. Bainwol, I think I would start with you. As you know, 
fully autonomous vehicles are still a few years out. What 
technology is on the road now to intervene if a driver is 
distracted behind the wheel?
    Mr. Bainwol. Good question. There are----
    Senator Klobuchar. It's hard to find questions to ask after 
everyone has asked them. So I really appreciate that. Thank 
you.
    Mr. Bainwol. Yes. So you did a good job. So, generally, 
crash avoidance technologies are the answer to your question. 
Automatic braking is probably the best example, where the car 
will brake for the driver if the driver is not engaged soon 
enough. Drivers should not drive in a distracted situation. We 
shouldn't rely entirely on the car to make up for human error.
    There's a human responsibility here, and there's no 
question that, as a society, we can do the same kinds of things 
we did with MADD, the success of MADD, that kind of changed the 
culture. We need to do the same with distraction. But there are 
technologies that will help, and emergency braking is probably 
the best example.
    Senator Klobuchar. I think so.
    Mr. Maddox, as we see these changes coming upon us, what 
are some of the steps that can be taken to ensure consumers 
understand this with some of the current changes that are 
there? I just picture people running cars and not used to it or 
people getting a new car. I know I had the same car for--now my 
car confessions occur--for 12 years, a Saturn. It was great, 
and then it got a hole where I put the brake down in the 
actual----
    [Laughter.]
    Senator Klobuchar. So I got a new car, which I truly enjoy, 
a Malibu, and it has some of the brakes--if you go over the 
lane a little bit, it sort of jerks you back, and at first, 
even though they told me about it, it was a surprise. So I'm 
just picturing some of this. How do you educate consumers?
    Mr. Maddox. I think that is another great question. 
Certainly, I would commend--NHTSA has undertaken a program. I 
think it's called My Car Does What?, and it's actually being 
implemented----
    Senator Klobuchar. That seems like a perfect thing for me.
    Mr. Maddox. Exactly, I think, for a lot of us, as a matter 
of fact, even us experts. We don't get to drive every car with 
every little nuance of technology. So I think that educating 
the consumers on what their vehicle does and what it doesn't 
do----
    Senator Klobuchar. And the limits as well. Senator Hoeven 
and I have led a lot of efforts on distracted driving and got a 
bill passed just recently with Senator Thune's help. Thank you. 
It was part of the FAST Act, which allowed some of the grants 
to go out for education efforts to the states on distracted 
driving. For a while, only one state was getting the money: 
Connecticut.
    [Laughter.]
    Senator Klobuchar. So I think this will have to be a major 
part of the effort.
    Mr. Maddox. Yes. In fact, I would add that with the 
automated vehicle proving ground program, we are looking at how 
to utilize those 10 sites to do that consumer education. 
Imagine--what we're considering in Michigan is that on the 
second Sunday or the fourth Sunday in every month, we would 
invite the public in and let them actually experience this 
technology in a vehicle--maybe they don't own it yet--because, 
really, driving it and experiencing it is worth a thousand 
words and pictures.
    Senator Klobuchar. Let me just go to a few quick questions 
for you, Mr. Maddox.
    Mr. Maddox. Sure.
    Senator Klobuchar. Ensuring that highway construction 
workers are safe in a work zone is critical to the testing and 
deployment of connected automated vehicles. Since work zones 
often temporarily block off lanes and redirect traffic flow, 
they can be difficult to navigate, even for experienced 
drivers. Do you believe it would improve safety if temporary 
traffic control devices could send safety related information 
to the sensors on the vehicles?
    Mr. Maddox. Absolutely. In fact, it's a great V to I 
application. The V to I and V to V really are critical for 
automated vehicles, also.
    Senator Klobuchar. OK. Thank you. Last question. Senator 
Hoeven and I also worked on a bill to make it clear that the 
owner of a vehicle also owns any information collected by an 
onboard event data recorder. It was signed into law also as 
part of the FAST Act.
    Mr. Maddox, connected vehicles will collect and share large 
amounts of data. What protections should be in place to keep 
consumers' personal information secure?
    Mr. Maddox. I can't say that I've got a comprehensive 
answer to that question at this point. I do believe that we do 
need to establish rules on that data ownership, and it does 
seem that the owner or the operator of the vehicle should be 
the owner of the data.
    Senator Klobuchar. And, obviously, for emergencies and for 
crash sites and things like that, you would want more 
information to go to the authorities.
    Thank you very much, and I appreciate all of you.
    Senator Peters [presiding]. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thanks to 
the witnesses.
    This industry, I think, is estimated to generate something 
like $7 trillion by 2050, so we certainly want to continue to 
see the innovation and are proud that Washington and Kirkland, 
Washington, specifically, have also been some of the early 
adopters to enabling this kind of testing.
    I wanted to ask you, Mr. Csongor, about working with the 
trucking industry, particularly PACCAR. You know, from the 
aviation side, these efficiencies have got pilots doing very 
little manual operation of our airplanes, and these kinds of 
innovations can also reduce the demand on drivers. But the 
obvious efficiencies that we need to get out of freight is very 
important for my state, very important for the movement of 
freight.
    What do you think that this will do to help us on 
efficiencies?
    Mr. Csongor. That's a great question. We actually, I think, 
as you may know, are working with PACCAR, and we had actually 
shown a video and demonstrated a PACCAR truck running on 
basically a computer very similar to this one. So the truck is 
able to drive and maintain in the lanes, and the deployment of 
this product is up to PACCAR and to decide how they want to do 
it and what the policy is. But the capability, certainly, to 
reduce driver fatigue and to assist the trucker is certainly 
there and could be deployed fairly soon.
    Now, it's very hard to predict the evolution of jobs with 
the introduction of this technology. The role of a pilot has 
changed, but the job remains. So with regard to the trucking 
industry, I think the most immediate benefit would be trucker 
fatigue. But then the actual implementation of it and how it 
affects it I would have to defer to someone from that industry.
    Senator Cantwell. What about fuel efficiency? That's not in 
the target?
    Mr. Csongor. Oh, it is. As you can imagine, having a 
computer driving, it would obviously be able to drive more 
efficiently than a human would and do it with very little 
effort. So I think that there is also financial benefits to the 
truckers beyond safety.
    Senator Cantwell. Fuel efficiency for us in the Northwest 
is a very big issue because we have some of the highest gas 
prices in the Nation as our supply comes from Alaska and is a 
somewhat limited market. Anything that helps us drive 
efficiencies on fuel is very, very important for us in 
maintaining what is one in three jobs related to trade.
    Being a big importer of a lot of products, moving them 
through the country cost effectively or moving agricultural 
products out of the Midwest through our ports--all of this is 
about reducing fuel costs and efficiencies to make operations 
more successful. If we don't, it goes to Canada or somewhere 
else. I don't know if anybody else, perhaps Mr. Maddox, wanted 
to comment on that.
    Mr. Maddox. I would like to comment on that, actually. I 
totally agree with you. You know, the cost of moving goods, 
especially in a large geographic area of the United States, 
really is critical. It's a critical economic issue, 
competitiveness issue for us. Automated and connected 
technology can enable truck platooning, which brings 
significant fuel economy and potential savings, and up even in 
the 10 percent range. That's a number unheard of with most 
other vehicle efficiency technologies that are on the near 
horizon.
    Senator Cantwell. You want to elaborate on platooning a 
little bit?
    Mr. Maddox. I'm sorry. My apologies. Platooning is where 
one vehicle follows another very closely. In the case of a 
truck, it could be anywhere as short as 15 feet but probably 
more like 25 to 40 feet behind the leading truck. Automation 
with connection can enable that technology with or without a 
driver in the lead--certainly in the lead vehicle or the 
following vehicles.
    The key point, though, is the efficiency benefit, if it's 
the following trucks, as well as the leading truck. So any 
technology that could deliver a 10 percent fuel savings has to 
be examined in great detail, especially for a country the size 
of the United States.
    Senator Cantwell. Well, thank you for bringing that up. I 
really do think it is about competitiveness, and I know we have 
many challenges. I know here, we're always saying, ``This is 
Washington and we want to regulate,'' and I keep saying, ``I'm 
from Washington and we want to innovate.'' And the innovation 
aspect of this is critically important, so I hope our state 
continues to innovate in this area.
    Thank you.
    Senator Peters. Thank you, Senator Cantwell.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Senator Peters, very much, and I 
thank the panelists today. I think this has been a very 
productive discussion we've had here.
    I'm particularly interested in autonomous and semi-
autonomous vehicles because Rio Rancho, New Mexico, is home to 
a major Intel semiconductor fabrication plant, and Intel's 
facility is an economic anchor for that city and central New 
Mexico as a whole, providing high-paying jobs to New Mexico 
STEM graduates. This facility in Rio Rancho, this Intel 
facility, makes some of the semiconductors used in modern high-
tech vehicle technology. So I'm going to be following this very 
closely and look forward to, if there are additional questions, 
submitting some to the record.
    But my first question is to Ms. Sheehey-Church and has to 
do with the safety aspects of autonomous vehicles. This 
technology has the promise to reduce crashes and fatalities, as 
you've talked about a little bit here, including those from 
drunk driving. As you know, I've worked with MADD for many 
years, going back to my service as Attorney General in New 
Mexico. We had a comprehensive package that we put in, working 
with MADD, that really reduced drunk driving and drunk driving 
deaths in New Mexico.
    I'm sure that MADD is looking past the industry hype and 
enthusiasm and is focused on safety and saving lives. So while 
the benefits of self-driving technology for drunk driving are 
obvious at first blush, we must remember that the intoxicated 
person could be sitting at the wheel of an autonomous vehicle 
and could take over at any time, especially if there's an issue 
that requires human intervention. Some states have proposed 
laws on this topic.
    Should an autonomous vehicle be required to have technology 
to prevent an intoxicated person from taking control of the 
wheel?
    Ms. Sheehey-Church. Senator, that's a great question, and I 
don't know if I have the full answer to it, whether they will 
or will not have that. I know that DADSS in itself in AV 
vehicles, the 4 and 5 levels, are great complements to each 
other, but in terms of digging deeper into the AV 
technicalities, I'm not a technical expert. I only play one on 
TV. So I can't tell you what exactly is going to be in that. 
I'd have to probably defer to one of my colleagues to see if 
that was going to be. But I'm in full agreement that if that 
individual can take over at any time, that is a concern, 
obviously, for MADD.
    Senator Udall. Yes. And you mentioned DADSS, and that's a 
very important part of this as developing technology----
    Ms. Sheehey-Church. Absolutely.
    Senator Udall.--so that vehicles won't be turned over to an 
intoxicated person. Now, what are your key recommendations for 
Congress and Federal agencies to ensure that this technology 
develops so we can realize the safety potential of autonomous 
vehicles to eliminate drunk driving deaths?
    Ms. Sheehey-Church. I go back, Senator, to the four 
principles that I said in my written testimony. It is really 
looking at and supporting the Federal regulatory framework. 
There's the need for that, and also supporting the existing 
state systems that we have. See, you're not listening and 
that's why you're tapping him on the shoulder, because I would 
do that if I was up there.
    [Laughter.]
    Senator Udall. No----
    Senator Markey. We're both listening.
    Senator Udall. Yes. We're both listening.
    Ms. Sheehey-Church. Just kidding. Just kidding. And, 
really, the support on MADD's side for Levels 4 and 5 is really 
looking at that in terms of the technologies, but also really 
supporting and evaluating the technology and the data that we 
need to get, evaluating the data as this whole thing evolves. I 
know we've got skeptics on the fence. We are not going to 
dismiss that. But I think the more that NHTSA, the governing 
bodies, the auto industry, and the safety advocates can sit at 
the same table, we can start to overcome those, and, obviously, 
from MADD's point of view, we'd like to overcome them sooner 
rather than later.
    Senator Udall. Do any of the other panelists have comments 
on the safety issue?
    Mr. Csongor. The safety issue, I think, is very important, 
as we've talked about, and I very much agree with what she 
said. The safety issue on both protection of the data as well 
as protection of the system is something that I think will be 
solved, like we've solved other computer problems--a 
combination of industry standards and the right regulations 
that help support them, and I think working together, and I 
think the devil is in the details.
    Senator Udall. Thank you very much.
    Senator Peters. Thank you, Senator Udall.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. Sheehey-Church, we were--believe me, I was listening 
very intently.
    Ms. Sheehey-Church. I'm only kidding. It's that kind of--
like a squirrel, I'm looking at anybody.
    Senator Markey. No, no, I know it. I was run over by a car 
when I was five years old, and nothing will focus you so much 
on an issue like vehicle safety as event like that. So I thank 
you for all your great work, historic work, on these issues 
over the years.
    Autonomous vehicles are just computers without drivers. 
That's all they are. And as we move to the future, we then have 
to ensure that we are going to build in all of the human values 
that we want to see built into these new computers that will be 
riding around on the streets of America.
    Senator Blumenthal and I, in 2013 and again last year, 
asked 20 automakers what they're doing to protect these 
computers on wheels. Here's what we learned. We learned that 
thieves no longer need a crowbar to break into your car. They 
just need an iPhone. A few years ago, we witnessed firsthand 
how easily cars can be hacked. We watched as hackers remotely 
took control of the brakes, the steering, and the acceleration 
of a Jeep Cherokee. Chrysler had to recall 1.4 million vehicles 
to fix this cybersecurity problem.
    Rather than addressing the cybersecurity problems after a 
hack has occurred, we must ensure that robust cybersecurity 
protections are built into the design, the construction, and 
operation of these transportation technologies, particularly as 
we move into this new era very quickly. That's why Senator 
Blumenthal and I have introduced legislation once again, the 
Spy Car Act, that directs NHTSA and the Federal Trade 
Commission to establish Federal standards to secure our cars 
and to protect our privacy.
    We should not have to choose, as Americans, between being 
connected and being protected. This should not be a tension. 
These issues should all be solved before the new era unfolds. 
So, if you could, each panelist, just give me your answer as to 
whether or not you believe cars should have mandatory 
cybersecurity standards, including hacking protections that 
protect all access points in a car; data security measures that 
prevent unwanted access to all collected information; and 
hacking mitigation technologies that can detect, report, and 
stop hacking attempts in real time. Should that be a 
requirement so that these hackers can't get into the system?
    Mr. Bainwol, yes or no? Should we have those standards?
    Mr. Bainwol. The short answer is no. The longer answer is 
we share your concern and we share your objective, but we think 
that the best way to realize your objective is to have a 
dynamic approach, and our fear is that standards would become 
obsolete very quickly.
    Senator Markey. I appreciate that, but I don't agree with 
you.
    Mr. Csongor--you need dynamic mandatory standards. You're 
right. The standard could keep getting raised, but to have no 
standard would be extremely dangerous. That's the world I grew 
up in, with no seatbelts, no airbags, the steering wheel made 
out of metal, and so that just can't be the standard as we move 
into this computer world, from my perspective.
    Mr. Csongor?
    Mr. Csongor. Senator Markey, I'd certainly agree with the 
goal that you're describing. I'm not sure about the 
implementation of it, particularly when you talk about the 
ability of the car to be able to heal itself or to be able to 
solve the problem. We don't know what we don't know, and 
cybersecurity is not something that we fix once and then it's 
done.
    Senator Markey. Exactly.
    Mr. Csongor. It's something that you're battling 
continuously.
    Senator Markey. Exactly. And should the industry be 
mandated to be fighting it continuously? Should that be part of 
the NHTSA rules?
    Mr. Csongor. Right. I think the only question is just 
what's the right balance and----
    Senator Markey. Right. But the balance should be that it 
can't be hacked and that the constant high standard that the 
industry has to meet is one that protects against that. Do you 
think that's a reasonable goal to set?
    Mr. Csongor. I think that's a reasonable goal.
    Senator Markey. Thank you.
    Let me ask you, Ms. Sheehey-Church. Do you agree with that?
    Ms. Sheehey-Church. Senator, I think it's a reasonable 
expectation, but in the position that I am and with the staff 
that we work with as we work with the panelists, I'm not at 
this time able to answer the question on what could be put on 
to the NHTSA for regulations on hacking. I appreciate the 
question.
    Senator Markey. I got you.
    Ms. Sheehey-Church. I think it's a serious concern, but I 
can't answer it at this time.
    Senator Markey. Mr. Maddox?
    Mr. Maddox. I think the nature of the risk for 
cybersecurity is changing so quickly, voluntary standards, 
frankly, have a better opportunity to keep up with that 
changing risk than any regulation could. Second, I do believe 
that we need to think about transportation cybersecurity as a 
system--security in our vehicles, security in our traffic 
control, security in our signs, security even in the 
communication systems that we rely on increasingly for 
transportation. So I think voluntary standards would likely 
have a more effective result.
    Senator Markey. I think the history, though, shows that 
with airbags and with seatbelts, et cetera, unless there's a 
mandate, it's just not accomplished unless you actually pass 
laws out of this committee nationally. The industry moves 
slowly, and so the best players move voluntarily. The worst 
players don't, and the worst players are the ones that cause 
all the damage out on the highways. So you need to have, you 
know, those protections so that there is that minimum standard.
    And I think that, you know, just as part of this 
conversation, it's good as we start in this era that we begin 
to have this discussion, because to a certain extent, there's a 
repetition syndrome, where the industry is going to be 
promoting all the wonderful aspects of it, but there's a 
Dickensian aspect to the Internet, which is what we're talking 
about here, just to talk about computers. It's the best of 
technologies and it's the worst of technologies. It's a 
technology that can enable and ennoble and it's a technology 
that can degrade and debase and harm families. So it's both at 
the same time.
    Talking about all the great things has to be accompanied by 
what we're going to do to minimize the bad things that can 
happen. By ignoring that discussion, we ignore the central 
concerns that families will have about safety and there will be 
a lot of concerns families are going to have about autonomous 
vehicles and the safety of their children in those vehicles.
    From my perspective, what I want to hear in the weeks, 
months, and years to come is that any standards would require 
computers on wheels to constantly update and patch themselves 
for any vulnerabilities. I believe that has to be mandatory. 
You can't just leave it up to any one auto manufacturer to do 
it. You have to have every one of the players accepting that as 
a responsibility. Otherwise, the streets won't be safer. These 
vehicles will be very dangerous. These vehicles will be hacked. 
These vehicles will subject families to the kind of tragedies 
that we're trying to protect against.
    So you have to build in both simultaneously. I mean, it's 
the best and the worst, you know, in any technology, and each 
technology is only as good as the values which we, as a people, 
animate those technologies with. How high of a standard do we 
want to make sure that we protect families against the downside 
of that technology. And, by the way, that's every technology. 
None of them are exempt from that kind of a situation.
    That will be my concern going forward, because I obviously 
want to see a revolution occur, but not with kind of 
panglossian glasses that ignore the fact that there are 
vulnerabilities. I know what happens when those safeguards are 
not in place.
    Thank you, Mr. Chairman.
    Senator Peters. Thank you, Senator Markey.
    Before we close out the hearing, I need to take care of a 
little housekeeping, if you could bear with me. I would ask 
unanimous consent to include in the record letters from 
stakeholders providing additional perspective on today's 
hearing, including a statement from the Advocates on Highway 
and Auto Safety, the American Car Rental Association, 
Continental, the Property Casualty Insurers Association of 
America, and Uber Technologies, Incorporated. Hearing no 
objection.
    [The information referred to can be found in the Appendix.]
    Senator Peters. One final note. The hearing record will 
remain open for 2 weeks. During this time, Senators are asked 
to submit any questions for the record. Upon receipt, the 
witnesses are requested to submit their written answers to the 
Committee as soon as possible.
    So in closing, I just want to thank our four witnesses for 
what I think was incredible testimony dealing with incredible 
technology that will surely be transformative. Thank you for 
your time today. We look forward to working with you in the 
years ahead.
    With that, this hearing is now adjourned.
    [Whereupon, at 12 p.m., the hearing was adjourned.]

                            A P P E N D I X

        Prepared Statement of Jacqueline S. Gillan, President, 
                 Advocates for Highway and Auto Safety
Introduction
    Advocates for Highway and Auto Safety (Advocates) is a coalition of 
public health, safety, and consumer organizations, insurers and 
insurance agents that promotes highway and auto safety through the 
adoption of Federal and state laws, policies and regulations. Advocates 
is unique both in its board composition and its mission of advancing 
safer vehicles, safer drivers and safer roads. We respectfully request 
that this statement and the comments Advocates submitted to the public 
docket in response to the National Highway Traffic Safety 
Administration (NHTSA) ``Federal Automated Vehicles Policy'' (AV 
Guidelines) Notice and Request for Comments,<SUP>i</SUP> which are 
attached, be included in the hearing record.
---------------------------------------------------------------------------
    \i\ 281 F.R. 65703 (Sept. 23, 2016); DOT Docket No. NHTSA-2016-
0090.
---------------------------------------------------------------------------
Motor Vehicle Deaths are Climbing
    According to the Federal Government, each year motor vehicle 
crashes kill tens of thousands and injure millions more at a cost to 
society of over $800 billion.<SUP>ii</SUP> Unfortunately, deaths 
resulting from motor vehicle crashes are on the rise. According to 
NHTSA, in 2015 our Nation experienced the largest percentage increase 
of motor vehicle deaths in nearly fifty years.<SUP>iii</SUP> More than 
35,000 people were killed on our Nation's roads, representing a 7.2 
percent upturn.<SUP>iv</SUP> Preliminary information for the first nine 
months of 2016 appears to be even worse, indicating an 8 percent rise 
in fatalities compared to the same time period in 2015.<SUP>v</SUP> 
Advocates firmly believes that automated vehicle (AV) technology has 
the potential to make significant and lasting reductions in this 
mortality and morbidity toll.
---------------------------------------------------------------------------
    \ii\ The Economic and Societal Impact of Motor Vehicle Crashes, 
2010 (Revised), HS 812 013, U.S. DOT, NHTSA (May 2015 (Revised)), 
available at http://www-nrd.nhtsa.dot.gov/Pubs/812013.pdf. (NHTSA Cost 
of Motor Vehicle Crashes Report).
    \iii\ National Center for Statistics and Analysis, 2015 motor 
vehicle crashes: Overview, Report No. DOT HS 812 318, National Highway 
Traffic Safety Administration (Aug. 2016).
    \iv\ Id.
    \v\ National Center for Statistics and Analysis, Early Estimate of 
Motor Vehicle Traffic Fatalities for the First 9 Months of 2016, Report 
No. DOT HS 812 358, National Highway Traffic Safety Administration 
(Jan. 2017).
---------------------------------------------------------------------------
Advocates Has Consistently Promoted Advanced Technologies in Vehicles 
        to Save Lives and Prevent Injuries
    Advocates has always enthusiastically championed vehicle safety 
technology and for good reason. It is one of the most effective 
strategies for preventing deaths and injuries. NHTSA has estimated that 
since 1960, over 600,000 lives have been saved by motor vehicle safety 
technologies.<SUP>vi</SUP> In 1991, Advocates led the coalition that 
supported bipartisan legislation sponsored by former Senators John 
Danforth (R-MO) and Richard Bryan (D-NV) that included the airbag 
mandate in the Intermodal Surface Transportation Efficiency Act (ISTEA) 
of 1991.<SUP>vii</SUP> As a result, by 1997, every new car sold in the 
United States was equipped with a front seat airbag and the lives saved 
have been significant. In fact, airbags save over 2,000 lives 
annually.<SUP>viii</SUP>
---------------------------------------------------------------------------
    \vi\ Lives Saved by Vehicle Safety Technologies and Associated 
Federal Motor Vehicle Safety Standards, 1960 to 2012, DOT HS 812 069 
(NHTSA, 2015); See also, NHTSA AV Policy, Executive Summary, p. 5 
endnote 1.
    \vii\ Pub. L. 102-240 (Dec. 18, 1991).
    \viii\ National Center for Statistics and Analysis, Lives Saved in 
2015 by Restraint Use and Minimum-Drinking-Age Laws, National Highway 
Traffic Safety Administration, Report No. DOT HS 812 319 (Aug. 2016).
---------------------------------------------------------------------------
    Advocates continued to build on this success by supporting 
additional lifesaving technologies as standard equipment in all 
vehicles in other legislation and regulatory proposals. These efforts 
included: tire pressure monitoring systems;<SUP>ix</SUP> rear outboard 
3-point seat belts;<SUP>x</SUP> electronic stability 
control;<SUP>xi</SUP> rear seat belt reminder systems;<SUP>xii</SUP> 
rear view cameras;<SUP>xiii</SUP> brake transmission 
interlocks;<SUP>xiv</SUP> seat belts on motorcoaches;<SUP>xv</SUP> 
electronic logging devices;<SUP>xvi</SUP> and, crash avoidance systems 
such as automatic emergency braking. These safety advances have saved 
hundreds of thousands of lives and have been accomplished because of 
the bipartisan leadership of the Members of the Senate Commerce, 
Science and Transportation Committee.
---------------------------------------------------------------------------
    \ix\ Transportation Recall Enhancement, Accountability, and 
Documentation (TREAD) Act, Pub. L. 106-414 (Nov. 1, 2000).
    \x\ Anton's Law, Pub. L. 107-318 (Dec. 4, 2002).
    \xi\ Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU), Pub. L. 109-59 (Aug. 10, 2005).
    \xii\ Id.
    \xiii\ Cameron Gulbransen Kids Transportation Safety Act of 2007, 
Pub. L. 110-189 (Feb. 28, 2008).
    \xiv\ Id.
    \xv\ Moving Ahead for Progress in the 21st Century (MAP-21) Act, 
Pub. L. 112-141 (Jan. 3, 2012).
    \xvi\ Id.
---------------------------------------------------------------------------
NHTSA Has a Statutory Duty to the Public to Ensure the Safety of 
        Autonomous Vehicles
    Fifty years ago, Congress passed the National Traffic and Motor 
Vehicle Safety Act of 1966 because of concerns about the death and 
injury toll on our highways.<SUP>xvii</SUP> The law required the 
Federal Government to establish Federal motor vehicle safety standards 
(FMVSS) to protect the public against ``unreasonable risk of accidents 
occurring as a result of the design, construction or performance of 
motor vehicles.'' <SUP>xviii</SUP> While motor vehicles have changed 
dramatically since that time and will continue to do so in the future, 
the underlying premise of this prescient law and NHTSA's safety mission 
have not.
---------------------------------------------------------------------------
    \xvii\ Pub. L. 89-563 (Sept. 9, 1966).
    \xviii\ Title 49, U.S.C. Sec. 30102.
---------------------------------------------------------------------------
    Unfortunately, NHTSA has chosen to issue only ``voluntary 
guidelines'' for the development of AVs. Voluntary guidelines are not 
legally binding, are unenforceable and, therefore, are inadequate to 
ensure safety and protect the public. Manufacturers may choose to 
deviate from the guidelines or ignore them entirely at any time and for 
any reason including internal corporate priorities such as cost or 
marketing considerations. In addition, some entities may choose to 
follow the guidelines while others may not, creating a dangerous 
patchwork of noncompliance. Consumers and NHTSA also have no legal 
recourse against a manufacturer's failure to follow the guidelines. 
NHTSA cannot bring an enforcement action, force a statutory recall, or 
even influence a voluntary recall for failure to abide by the 
guidelines.
A Functional Safety Approach is Essential to Provide the Framework for 
        the Design, Development and Deployment of Autonomous Vehicle 
        Technology
    Before the widespread introduction of AV technology to the 
commercial marketplace and deployment on public roads, NHTSA must 
establish basic safeguards to protect the public. Advocates strongly 
recommends that AV manufacturers be required to meet a ``functional 
safety standard'' to guarantee safety to the maximum extent feasible of 
the overall system performance. While manufacturers will still have to 
certify vehicles meet all applicable FMVSS that address the mechanical 
operation of vehicle safety systems, a functional safety standard would 
apply to the AV operating system to ensure that the controlling 
software performs as designed.
    Functional safety is a well-known process by which a product is 
designed, developed, manufactured and deployed to ensure that the 
product, as a whole, will function safely, as intended, and will 
prevent or mitigate misuse which could lead to unsafe conditions. A 
similar process is currently utilized by the Federal Aviation 
Administration (FAA) in portions of its regulations to ensure safety 
while encouraging innovation.<SUP>xix</SUP>
---------------------------------------------------------------------------
    \xix\ See, e.g., 14 USC Subpart F--Equipment, Sec. Sec. 25.1301, 
Function and installation, and 25.1309, Equipment, systems, and 
installations.
---------------------------------------------------------------------------
    Additionally, the submission of a Safety Assessment Letter (SAL) 
must be mandatory and not at the whim or choice of a manufacturer. 
There is too much at stake to allow optional and discretionary 
adherence. Under a functional safety standard, a manufacturer must 
certify to NHTSA through the mandatory submission of a SAL that the AV 
has been tested to ensure that it will operate properly and safely 
under the conditions the vehicle is designed to encounter (i.e., 
congestion, weather and road conditions, human/machine interface and 
vehicle interaction with other road users). The mandatory submission of 
the SAL should include all information required by the Secretary of 
Transportation including test results and data to support the 
conclusion that the AV system functions as designed. This submission 
should also include any negative test results and data that may 
indicate the AV system did not always function as designed along with 
information and data indicating how these issues were resolved by the 
manufacturer. In addition, any and all documentation regarding how 
cybersecurity threats were addressed should be included.
    Prior to introduction of the AV system into the stream of commerce, 
NHTSA would review the SAL, test results and data, and then consult 
with the manufacturer. The manufacturer would be required to respond to 
any questions or concerns from the agency. This process is intended to 
allow NHTSA to bring to the manufacturer's attention any issues and/or 
problems the agency identifies in the SAL information, tests results 
and data supplied by the manufacturer prior to introduction of the AV 
system into the marketplace. This process would provide NHTSA with 
technical information about products coming to market and provide AV 
manufacturers with technical feedback in an efficient and effective 
process. The SAL and the questions raised by NHTSA, however, are not 
intended as pre-market approval. The manufacturer, after having 
responded to the agency's inquiries, may introduce the AV system into 
the stream of commerce.
Additional Authorities and Resources are Critical
    Regulating AVs presents unique challenges for NHTSA, and those 
issues warrant the agency being given additional tools to protect 
against potentially catastrophic defects. Flaws or viruses in computer 
software of AVs could adversely affect thousands of vehicles 
simultaneously. The NHTSA, therefore, must be given imminent hazard 
authority in order to expedite the grounding of vehicles that the 
agency has identified as having a potentially dangerous software 
problem that could lead to crashes, deaths and injuries. Also, because 
of the potential serious nature of any software problem that could 
affect thousands of vehicles and result in deaths and injuries, the 
ability to levy criminal penalties is essential. Criminal penalties 
will deter manufacturers and suppliers from knowingly and willfully 
permitting the manufacture and sale of AV systems with flawed software 
operating systems that could pose a danger to human life in the event 
of a crash.
    Providing further broad statutory exemptions from the FMVSS for AVs 
is both unnecessary and unwise. There is already a statutory process in 
place for manufacturers to seek an exemption from the FMVSS that 
Congress enacted only two years ago. Pursuant to Section 24404 of the 
Fixing America's Surface Transportation (FAST) Act <SUP>xx</SUP> 
codified at 49 USC Section 30112(b)(10), manufacturers of AVs are 
permitted an unlimited number of vehicles that can be exempt from one 
or more of the FMVSS for testing or evaluation. Exempt vehicles under 
this provision may not be sold or resold to the public. Furthermore, 
under 49 USC Section 30113 a manufacturer may receive an exemption from 
compliance with the FMVSS for the sale of a vehicle for not more than 
2,500 vehicles to be sold in the United States in any 12-month period. 
Until a functional safety standard is applied to AVs, this cap should 
not be raised from its current level.
---------------------------------------------------------------------------
    \xx\ Pub. L. 112-141 (Dec. 4, 2015).
---------------------------------------------------------------------------
    Manufacturers may seek appropriate exemptions under the current 
process until NHTSA revises the FMVSS for level 4 and 5 AVs. However, 
while level 4 and 5 AVs may be exempt from parts of certain FMVSS or 
other regulations, much of the performance standards for safety systems 
would still apply. For example, even if a brake pedal is not needed for 
AV control, the rest of the brake system requirements in FMVSS 135 will 
still be needed to ensure the AV controls can stop the vehicle within 
the required stopping distance. Even for level 4 and 5 AVs, 
manufacturers will still have to certify to most performance 
requirements of the existing FMVSS. However, because level 2 and 3 AVs 
will still require significant operation by a human driver, these 
vehicles should not be exempt from compliance with the current body of 
FMVSS and regulations.
    Vehicle and technology companies are already putting some AVs out 
on public roads and beginning to market these systems to the public. 
The development of AV technology is not just taking place in the United 
States. In fact, AVs are being tested throughout the globe in places 
such as the United Arab Emirates and Singapore.<SUP>xxi</SUP> Vehicles 
imported from overseas have to meet the requirements of the FMVSS. 
However, if only voluntary guidelines are in place for AVs, foreign 
companies and entities may export products that are dangerously unsafe 
and NHTSA will have little recourse. In addition, some in the motor 
carrier industry have predicted that automated technology will be 
placed in trucks before passenger vehicles.<SUP>xxii</SUP> The 
potential for an 80,000 pound rig using untested and unregulated 
technology on public roads is a very real scenario if NHTSA continues 
to merely rely on voluntary guidelines and the ``good intentions'' of 
manufacturers introducing automated technology.
---------------------------------------------------------------------------
    \xxi\ 2025 AD Newsletter, MIDDLE EAST COMBATS ROAD DEATHS WITH 
DRIVERLESS CARS (Nov. 2016) available at: https://www.2025ad.com/the-
week-in-ad/arab-emirates-driverless-cars/; Andrew Hawkins, One of 
Europe's largest carmakers will test its self-driving cars in 
Singapore, The Verge (May 3, 2017).
    \xxii\ Seth Clevenger and Eric Miller, ATA's Chris Spear Calls for 
Industry to Embrace Technology, Transport Topics (Mar. 2, 2017).
---------------------------------------------------------------------------
    It is essential that NHTSA immediately adopt a functional safety 
standard to minimize public exposure to unreasonable risks of motor 
vehicle crashes involving these experimental systems. For example, the 
fatal crash of a Tesla Model S in Florida in May 2016, could have been 
averted had a functional safety standard required due diligence testing 
of the Autopilot System prior to deployment. The driver was using the 
Tesla Autopilot system when the vehicle passed under the side of a 
truck trailer that was turning across the highway, resulting in the 
fatality of the driver. After the crash, Tesla admitted to NHTSA that 
it had considered misuse of the Autopilot system including distracted 
driving and the use of the system outside preferred environments and 
conditions. Under a functional safety standard, if the misuse was 
foreseeable, Tesla would be required to address the misuse prior to 
confirmation to NHTSA that the vehicle was safe.
Recommendations:

  <bullet> NHTSA must require that manufacturers meet a ``functional 
        safety standard'' to guarantee safety of AVs before they are 
        introduced into the marketplace.

  <bullet> Manufacturers must be required to submit a Safety Assessment 
        Letter (SAL) that confirms that the AV has been tested to 
        ensure it operates safely. The SAL should include all of the 
        test results and data to support the conclusion that the AV 
        system functions as designed.

  <bullet> NHTSA should be given the additional tools of imminent 
        hazard authority to protect against potentially catastrophic 
        defects with AVs and criminal penalties to ensure manufacturers 
        do not willfully mislead or misinform the agency.

  <bullet> Providing further broad statutory exemptions from the FMVSS 
        for AVs is both unnecessary and unwise. Until NHTSA revises the 
        FMVSS for level 4 and 5 AVs, manufacturers may seek appropriate 
        exemptions under the current process.
Autonomous Vehicles Must Have Adequate Cybersecurity and Privacy 
        Standards to Protect the Public and Must Share Information on 
        Critical Events
    A failure to adequately secure AV systems and to protect against 
cyber-attacks could endanger AV passengers, non-AV motorists, 
pedestrians, bicyclists and other vulnerable roadway users. It could 
also clog roads, stopping the movement of goods and hindering the 
responses of emergency vehicles. NHTSA should identify cybersecurity 
problem areas and require specific responses from manufacturers as to 
how those are being addressed. Problem areas could include subjects 
such as global position system (GPS) signal loss or degradation, 
spoofing, and off-line and real time hacking of single vehicles or 
fleets of vehicles. AV cybersecurity should be tested as part of the 
functional safety standard to ensure that the vehicle cybersecurity 
system operates as designed. The potential and real risk of a 
malevolent computer hack impacting hundreds or thousands of AVs, 
perhaps whole model runs, makes strong cybersecurity protections a 
crucial and essential element of AV design.
    Additionally, data sharing among manufacturers is essential to 
improve overall safety among AVs. Data and information about known 
flaws or problems encountered during development and while in use must 
be shared among manufacturers and with NHTSA and the public to ensure 
that all AV systems are learning about problems in real time and can 
benefit from the experience of other AV systems. This type of 
collaborative development is already taking place in the industry with 
the creation of the Automotive Information Sharing and Analysis Center 
(ISAC). Data sharing will expedite solutions to unusual or unique 
safety problems and ensure they are readily identified and corrected.
    Similarly, AVs should be subject to binding privacy standards to 
ensure that data is not abused. The recording and sharing of data will 
be critical to achieving the safest performance of AVs. Keeping the 
public informed as to the importance of sharing data and ensuring their 
privacy will also be critical to ensure public participation and 
acceptance. The industry and regulators must guarantee that data is 
protected and only used for the purposes of improving safety, and not 
for other commercial uses, such as the marketing of products based on 
vehicle location, which could turn the public against data sharing.
Recommendations:

  <bullet> AVs must have adequate cybersecurity and privacy standards 
        to protect the public.

  <bullet> AVs should be subject to binding privacy standards to ensure 
        that consumer data is not used for purposes other than 
        improving the safety and security of AVs.
The Development of Autonomous Vehicles Must Be Transparent or Public 
        Confidence in the Technology Will Suffer
    The development and deployment of AVs as well as NHTSA's role in 
regulating this technology must be open and transparent. All non-
propriety communications and responses between the agency and a 
manufacturer as it relates to any issues involving AVs must be made 
available for public review and scholarly research. All data generated 
from the testing and deployment of AVs, except for trade secrets and 
private individual information must also be made public. Lack of 
transparency will severely undermine the public's confidence in this 
new technology and inhibit its widespread adoption.
    Opinion polls already show strong public skepticism and hesitation 
about AVs and those doubts are surely warranted. Over the last few 
years, automakers have hidden from the American public and regulators 
safety defects that have led to numerous unacceptable and unnecessary 
deaths and injuries as well as the recall of tens of millions of 
vehicles. Consumer acceptance of this technology is critical to the 
success of fully realizing the lifesaving potential of AVs. Trial by 
error on public roads and risking public safety is neither the 
appropriate nor the responsible approach to encouraging the development 
and deployment of AVs. In fact, a national survey commissioned by 
Kelley Blue Book found that a large portion of the public is resistant 
to accepting AVs. Fifty-one percent of respondents replied that they 
prefer to have full control of their vehicle, even if it's not as safe 
for other drivers. Additionally, awareness of the higher levels of 
vehicle autonomy is limited, with 6 out of 10 people saying they know 
little or nothing about AVs. For half of the respondents, the 
perception of safety and personal comfort with autonomous technology 
diminished as the level of autonomy increased. In fact, 80 percent 
believed that people should always have the option to drive themselves, 
and nearly one in three respondents said they would never buy a level 5 
vehicle.<SUP>xxiii</SUP>
---------------------------------------------------------------------------
    \xxiii\ Kelly Blue Book, Future Autonomous Vehicle Driver Study 
(Sept. 2016).
---------------------------------------------------------------------------
    A recent study conducted by the Massachusetts Institute of 
Technology garnered similar results. Only 13 percent of those polled 
reported that they would be comfortable with vehicle ``features that 
completely relieve the driver of all control for the entire drive.'' 
<SUP>xxiv</SUP> In addition, 59 percent of respondents reported that 
the maximum level of automation that they would be comfortable with 
were ``features that actively help the driver, while the driver remains 
in control.'' <SUP>xxv</SUP> The reluctance and hesitation of the 
public to embrace AVs will not be abated if the technology fails, the 
government regulators are viewed as standing on the sidelines and 
manufacturers have not done due diligence in conducting adequate 
testing before rushing to the marketplace. Consumers expect, and in 
fact, demand that the Federal Government prohibit the introduction of 
dangerous products to the marketplace whether it be drugs, food, toys, 
or driverless cars.
---------------------------------------------------------------------------
    \xxiv\ H. Abraham, B. Reimer, B. Seppelt, C. Fitzgerald, B. Mehler 
& J. Coughlin, Consumer Interest in Automation: Preliminary 
Observations Exploring a Year's Change, Massachusetts Institute of 
Technology, AgeLab, White Paper (2017-2), p. 6 (May 2017).
    \xxv\ Id.
---------------------------------------------------------------------------
Recommendations:

  <bullet> All non-propriety communications and responses between the 
        agency and a manufacturer as it relates to any issues involving 
        AVs must be made available for public review and scholarly 
        research.
States Must Not be Preempted from Acting to Protect their Citizens 
        Especially in Light of NHTSA's Failure to Regulate Automated 
        Vehicles to Date
    Advocates agrees with the statutory mission of NHTSA to regulate 
the design and performance of motor vehicles to ensure public safety 
which, in modern day terms, includes autonomous vehicles and 
technology. However, unless and until NHTSA issues comprehensive 
standards and regulations to govern the AV rules of the road, states 
have every legal right, indeed a duty to their citizens, to fill the 
regulatory vacuum with state developed proposals and solutions for 
ensuring public safety. NHTSA, by issuing only guidelines, has left the 
field of AV safety open to the states to fulfill their traditional role 
of protecting the health and welfare of their citizens. As the National 
Conference of State Legislatures (NCSL) noted in its comments to 
NHTSA's guidelines, ``Without any indication on forthcoming Federal 
regulations regarding the safe operation of HAVs, states may be forced 
to fill the gap in order to ensure the safety of public 
roadways.''<SUP>xxvi</SUP> Moreover, the Pennsylvania Department of 
Transportation stated in its comments to the guidelines that ``Yes, 
there should be consistent treatment of highly automated vehicles 
nationwide. However, where the adoption of `safety standards' being 
applied to highly automated vehicle testing is totally voluntary (as 
opposed to self-certifying as against a regulatory framework in the 
FMCSS) [sic], what level of comfort does that give to the states and 
their citizens that their transportation and law enforcement agencies 
are properly discharging their duty to ensure that highly automated 
vehicles are in fact safe?'' <SUP>xxvii</SUP>
---------------------------------------------------------------------------
    \xxvi\ William T. Pound, Executive Director, National Conference of 
State Legislatures, Public Comments on Federal Automated Vehicles 
Policy, Docket No.: NHTSA-2016-0090 (Nov. 21, 2016).
    \xxvii\ Leslie R. Richards, Secretary of Transportation, 
Commonwealth of Pennsylvania, Letter to Secretary Foxx and 
Administrator Rosekind, Docket No.: NHTSA-2016-0090 (Nov. 21, 2016).
---------------------------------------------------------------------------
Recommendations:

  <bullet> Until NHTSA issues comprehensive standards and regulations 
        to govern the AVs, states must not be precluded from filling 
        the regulatory void with state developed solutions to protect 
        their citizens.
NHTSA Needs Additional Resources
    The increase in motor vehicle fatalities combined with the demands 
being placed on NHTSA with regards to the advent of AV technology 
necessitates an increase to the agency budget. While the FAST Act did 
provide some additional resources, it is still inadequate to manage the 
myriad of challenges facing the agency. Today, 95 percent of 
transportation-related fatalities, and 99 percent of transportation 
injuries, involve motor vehicles on our streets and highways. Yet, 
NHTSA receives only one percent of the overall U.S. Department of 
Transportation (DOT) budget. NHTSA will face even greater challenges in 
the future as AVs continue to develop and are introduced into the 
market. For NHTSA to exercise proper oversight over AVs, the agency 
will need to hire more staff with technical expertise. Moreover, given 
that crashes impose a comprehensive cost to society of $836 billion, 
$242 billion of which is direct economic costs such as lost 
productivity, medical costs and property damage, it is critical to 
advance serious measures to combat a serious problem.<SUP>xxviii</SUP>
---------------------------------------------------------------------------
    \xxviii\ NHTSA Cost of Motor Vehicle Crashes Report.
---------------------------------------------------------------------------
Recommendation:

  <bullet> NHTSA must be given additional funding in order to meet 
        demands being placed on the agency with regard to the advent of 
        AV technology.
Conclusion
    Autonomous vehicles have the potential to change our Nation's 
ability to protect motorists and other road users. It is critically 
important that we do everything possible to advance this life-saving 
technology in as safe and expeditious manner possible. Advocates 
believes that autonomous vehicles will not only change our lifestyles 
but it may, once and for all, change our ability to achieve meaningful 
and lasting reductions in the death and injury toll on our streets and 
highways.
                                 ______
                                 
              Summary of Statement of Jacqueline S. Gillan
    Each year motor vehicle crashes kill tens of thousands and injure 
millions more at a cost to society of over $800 billion. Advocates for 
Highway and Auto Safety (Advocates) firmly believes that autonomous 
vehicle (AV) technology has the potential to make significant and 
lasting reductions in this mortality and morbidity toll.
    The National Highway Traffic Safety Administration (NHTSA) has a 
statutory duty to ensure the safety of AVs. Unfortunately, NHTSA has 
chosen to issue only ``voluntary guidelines'' for the development of 
AVs. Voluntary guidelines are not legally binding, are unenforceable, 
and are inadequate to ensure safety and protect the public.
    Vehicle and technology companies are already putting some AVs out 
on public roads and beginning to market these systems. The development 
of AV technology is not just taking place in the United States. In 
fact, AVs are being tested throughout the globe in places such as the 
United Arab Emirates and Singapore. Under current law, vehicles 
imported from overseas have to meet the requirements of the Federal 
Motor Vehicle Safety Standards (FMVSS). However, with only Federal 
voluntary guidelines, foreign companies and entities may export 
products that could be dangerously unsafe and NHTSA will have little 
recourse. In addition, some experts predict that automated technology 
will be placed in trucks before passenger vehicles. The potential for 
an 80,000 pound truck using untested and unregulated technology on 
public roads is a very real scenario if NHTSA relies on voluntary 
guidelines and the ``good intentions'' of AV manufacturers.
    A functional safety approach is essential to provide the framework 
for the design, development and deployment of autonomous vehicle 
technology. A similar process is currently utilized by the Federal 
Aviation Administration (FAA) in portions of its regulations to ensure 
safety while encouraging innovation.
    Advocates agrees with the statutory mission of NHTSA to regulate 
the design and performance of motor vehicles to ensure public safety 
which, in modern day terms, includes AVs and technology. However, 
unless and until NHTSA issues comprehensive standards and regulations 
to govern the AV rules of the road, states have every legal right, 
indeed a duty to their citizens, to fill the regulatory vacuum with 
state developed proposals and solutions for ensuring public safety. 
NHTSA's voluntary guidelines have left the field of AV safety open to 
the states to fulfill their traditional role of protecting the health 
and welfare of their citizens. Other commenters to NHTSA on voluntary 
guidelines expressed a similar criticism about this regulatory vacuum 
including the National Conference of State Legislatures (NCSL) and the 
Pennsylvania Department of Transportation.
Advocates' Recommendations:
  <bullet> NHTSA must require that manufacturers meet a ``functional 
        safety standard'' to guarantee safety of AVs before they are 
        introduced into the marketplace.

  <bullet> Manufacturers must be required to submit a Safety Assessment 
        Letter (SAL) that confirms that the AV has been tested to 
        ensure it operates safely. The SAL should include all of the 
        test results and data to support the conclusion that the AV 
        system functions as designed.

  <bullet> NHTSA should be given the additional tools of imminent 
        hazard authority to protect against potentially catastrophic 
        defects with AVs and criminal penalties to ensure manufacturers 
        do not willfully mislead or misinform the agency.

  <bullet> Providing further broad statutory exemptions from the FMVSS 
        for AVs is both unnecessary and unwise. Until NHTSA revises the 
        FMVSS for level 4 and 5 AVs, manufacturers may seek appropriate 
        exemptions under the current process expanded by Congress in 
        the FAST Act (Pub. L. 114-94).

  <bullet> AVs must have adequate cybersecurity and privacy standards 
        to protect the public.

  <bullet> AVs should be subject to binding privacy standards to ensure 
        that consumer data is not used for purposes other than 
        improving the safety and security of AVs.

  <bullet> All non-propriety communications and responses between the 
        agency and a manufacturer as it relates to any issues involving 
        AVs must be made available for public review and scholarly 
        research.

  <bullet> Until NHTSA issues comprehensive standards and regulations 
        to govern the AVs, states must not be precluded from filling 
        the regulatory void with state developed solutions to protect 
        their citizens.

  <bullet> NHTSA must be given additional funding in order to meet 
        demands being placed on the agency with regard to the advent of 
        AV technology.
                                 ______
                                 
                      Advocates for Highway and Auto Safety
                                                   December 2, 2016

DOT Docket No. NHTSA-2016-0090
Docket Management Facility
U.S. Department of Transportation
Washington, DC.
      Request for Comment on ``Federal Automated Vehicles Policy''
                    Notice and Request for Comments
             81 Federal Register 65703, September 23, 2016
    Advocates for Highway and Auto Safety (Advocates) files these 
comments in response to the National Highway and Traffic Safety 
Administration (NHTSA) notice and request for public comment on the 
``Federal Automated Vehicle Policy.'' \1\ (NHTSA AV Policy). Simply 
because AV technology has the potential to evolve rapidly over time 
does not justify NHTSA abdicating its statutory mission of regulating 
motor vehicles to ensure public safety.\2\
---------------------------------------------------------------------------
    \1\ Request for Comment on ``Federal Automated Vehicles Policy,'' 
81 FR 65703 (Sept. 23, 2016).
    \2\ In general the term AV refers to all autonomous vehicles 
including those vehicles that NHTSA refers to as highly autonomous 
vehicles (HAVs) except as noted.
---------------------------------------------------------------------------
    Fifty years ago, Congress passed the National Traffic and Motor 
Vehicle Safety Act of 1966 because of concerns about the death and 
injury toll on our highways. The law required the Federal Government to 
establish Federal motor vehicle safety standards (FMVSS) to protect the 
public against ``unreasonable risk of accidents occurring as a result 
of the design, construction or performance of motor vehicles.'' \3\ 
While cars have changed dramatically and will continue to do so in the 
future, the underlying premise of this prescient law and the NHTSA's 
safety mission has not.
---------------------------------------------------------------------------
    \3\ Title 49, U.S.C. Sec. 30102.
---------------------------------------------------------------------------
    Advocates has always enthusiastically championed technology and for 
good reason. It is one of the most effective strategies for reducing 
deaths and injuries. NHTSA has estimated that since 1960, hundreds of 
thousands of lives have been saved by motor vehicle safety 
technologies.\4\
---------------------------------------------------------------------------
    \4\ Lives Saved by Vehicle Safety Technologies and Associated 
Federal Motor Vehicle Safety Standards, 1960 to 2012, DOT HS 812 069 
(NHTSA, 2015); See also, NHTSA AV Policy, Executive Summary, p. 5 
endnote 1.
---------------------------------------------------------------------------
    In 1991, Advocates led the coalition that succeeded in having the 
airbag mandate included in the Intermodal Surface Transportation 
Efficiency Act (ISTEA) of 1991.\5\ As a result, by 1997, every new car 
sold in the United States was equipped with a front seat airbag and the 
lives saved have been significant. In fact, airbags save over 2,000 
lives annually.\6\ Advocates continued to build on our success by 
pushing lifesaving technologies in other bills and regulatory 
proposals. These efforts included tire pressure monitoring systems,\7\ 
rear outboard 3-point seat belts,\8\ electronic stability control,\9\ 
seat belt reminder systems,\10\ rear video cameras,\11\ brake 
transmission interlock,\12\ seat belts on motorcoaches,\13\ electronic 
logging devices \14\ as well as other important safety improvements 
such as rollover crash avoidance and automatic emergency braking. These 
safety advances have saved countless lives.
---------------------------------------------------------------------------
    \5\ Pub. L. 102-240 (Dec. 18, 1991).
    \6\ National Center for Statistics and Analysis, Lives Saved in 
2015 by Restraint Use and Minimum-Drinking-Age Laws, National Highway 
Traffic Safety Administration, Report No. DOT HS 812 319 (Aug. 2016).
    \7\ Transportation Recall Enhancement, Accountability, and 
Documentation (TREAD) Act, Pub. L. 106-414 (Nov. 1, 2000)
    \8\ Anton's Law, Pub. L. 107-318 (Dec. 4, 2002).
    \9\ Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU), Pub. L. 109-59 (Aug. 10, 2005)
    \10\ Id.
    \11\ Cameron Gulbransen Kids Transportation Safety Act of 2007, 
Pub. L. 110-189 (Feb. 28, 2008).
    \12\ Id.
    \13\ Moving Ahead for Progress in the 21st Century (MAP-21) Act, 
Pub. L. 112-141 (Jan. 3, 2012).
    \14\ Id.
---------------------------------------------------------------------------
    According to the latest statistics from the National Highway 
Traffic Safety Administration (NHTSA), 35,092 people were killed on our 
Nation's roads in 2015.\15\ This represents a 7.2-percent increase from 
2014 and is the largest percentage increase in nearly fifty years.\16\ 
Injuries resulting from crashes also increased to 2.44 million from 
2.34 million in 2014.\17\ Advocates is hopeful that automated vehicle 
technology has the potential to significantly reduce this carnage. 
However, the safety benefits of AVs will be realized gradually as the 
widespread adoption of the technology will take years.
---------------------------------------------------------------------------
    \15\ National Center for Statistics and Analysis, 2015 motor 
vehicle crashes: Overview, Report No. DOT HS 812 318, National Highway 
Traffic Safety Administration (Aug. 2016).
    \16\ Id.
    \17\ Id.
---------------------------------------------------------------------------
Introduction/Overview\18\
---------------------------------------------------------------------------
    \18\ Due to the complexity of the issues involved and the length of 
the NHTSA AV policy, Advocates' comments exceed the 15 page limit 
pursuant to Title 49, C.F.R. Sec. 553.21.
---------------------------------------------------------------------------
    The NHTSA AV Policy points out that under current law and 
regulation, vehicle and equipment manufacturers are under no legal duty 
to provide information to the agency about a new technology, in advance 
of production and sale into the U.S. market, unless it fails to comply 
with an applicable FMVSS or raises a compliance question regarding 
existing regulations.\19\ The NHTSA AV Policy does nothing to change 
the legal responsibility or duty that vehicle and equipment 
manufacturers owe to NHTSA or the public. The NHTSA has the authority, 
however, to require motor vehicle manufacturers, and other entities 
supplying auto equipment, parts and electronic systems for AVs, to 
conduct tests and perform analyses to document and verify that an AV 
system performs safely and as designed. That type of documentation 
should be required by rule rather than as part of the voluntary safety 
assessment letter that the agency now requests manufacturers to 
voluntarily submit to the agency.
---------------------------------------------------------------------------
    \19\ Federal Automated Vehicles Policy: Accelerating the Next 
Revolution in Roadway Safety, 12507-091216-v9, p. 48 (NHTSA, Sept. 
2015) (NHTSA AV Policy), available at http://www
.nhtsa.gov/nhtsa/av/index.html.
---------------------------------------------------------------------------
    Furthermore, the development and deployment of automated vehicles 
as well as the agency's role in regulating this technology must be open 
and transparent. Therefore, all communications and responses between 
NHTSA and a manufacturer as it relates to any issues involving 
automated vehicles must be made available for public review and 
scholarly research. In addition, all data generated from the testing 
and deployment of AVs, except for trade secrets and private individual 
information must be made public. In the past few years, automakers have 
hidden from regulators and the American public safety defects that have 
led to unnecessary deaths and injuries as well as the recall of 
millions of vehicles. This troubling lack of transparency should not be 
allowed to infect the development of driverless vehicles. Lack of 
transparency will severely undermine the public's confidence in this 
new technology and inhibit its adoption by the public regardless of its 
perceived benefits.
I. Vehicle Performance Guidance for Automated Vehicles
The Guidance
    Advocates' two main objections to the proposed performance guidance 
are that the guidance is not mandatory and that there is a lack of 
specificity. In its current state, the non-mandatory guidance is such 
that any information willingly provided by industry in the safety 
assessment letters regarding compliance with the guidance may be 
incomplete, sparse, or at best so varied from letter to letter as to 
render the information collected useless in terms of agency review and 
developing future regulation. As detailed below, the guidance should be 
reconfigured around the concept of a functional safety approach to the 
design, development, and deployment of autonomous vehicles of all 
levels.\20\ The guidance must be specific in terms of minimal reporting 
requirements and should establish those requirements based on a planned 
path toward future regulation. Failure to do this will only leave the 
Federal agency charged with ensuring motor vehicle and public safety 
further behind the technology.
---------------------------------------------------------------------------
    \20\ Levels in this case refer to the levels of automation as 
defined by SAE J3016 and adopted by the NHTSA. Although the NHTSA 
distinguishes between SAE Level 0-2 and 3-5 AVs, the agency 
acknowledges that ``this distinction does not change many of the areas 
in which the manufacturers . . . should apply elements of this Guidance 
during product development, testing, and deployment.'' NHTSA AV Policy, 
p. 31.
---------------------------------------------------------------------------
Scope
    As indicated ``all individuals and companies manufacturing, 
designing, testing, and/or planning to sell automated vehicle systems 
in the United States'' \21\ must consider the guidance. Similarly, the 
guidance must be applied to all AVs, including light-, medium-, and 
heavy-duty vehicles. The guidance must apply to both test-and 
production-level vehicles, specifically those which are sharing the 
road with the general public.\22\ The reality is that while testing of 
AVs on public roads is a necessity, to increase real-world data 
collection and improve development, AVs are sharing the road with other 
highway users who have not been informed of the testing, are unwitting 
participants to the testing, and may be exposed to crash risks without 
prior informed consent. AVs that are being tested as well as the routes 
they will travel should be conspicuously marked so that they are easily 
identifiable to the public. For these reasons, AVs used for research 
and testing on public roads, as well as AVs sold to the public, must 
all be subject to a rigorous functional safety process and requirements 
to ensure that the public will not be exposed to an unreasonable crash 
risk.
---------------------------------------------------------------------------
    \21\ NHTSA AV Policy, p. 11. These comments use the term 
``manufacturers'' to represent all entities intended to be covered by 
the scope of the NHTSA AV Policy.
    \22\ The public must be given the opportunity to give meaningful 
informed consent to the testing of AVs on public roads. Among other 
things, AVs that are being tested as well as the routes they will 
travel should be conspicuously marked so that they are easily 
identifiable to the public. In addition, as required by Federal 
regulation for research involving human subjects, cities and states 
that permit testing of AVs should have in place an Institutional Review 
Board to monitor that the testing of AVs to protect the rights all of 
the subjects involved in the testing. See: 45 CFR 46 (2009).
---------------------------------------------------------------------------
Overview: DOT's Vehicle Performance Guidance
    In terms of content, the NHTSA AV Policy covers many of the 
important aspects necessary to achieve safety of AVs. However, the 
organization of the guidance appears disjointed and should be revised 
to conform more closely to a functional safety approach. In its present 
format, the guidance could be read as indicating that the individual 
guidance sections could be tackled as separate, independent issues 
when, in reality, a comprehensive and cohesive systems engineering 
approach must be taken in order to achieve the safe deployment of AVs.
    Almost all portions of the guidance represent, to some degree, 
aspects of functional safety. Functional safety is a process by which a 
system is designed, developed and deployed to ensure that the system, 
as a whole, operates correctly and safely in response to inputs, 
errors, and failures. Functional safety is applied throughout the life-
cycle of a system, from hazard analysis during design through auditing 
of performance after deployment. Only through ubiquitous adoption of a 
functional safety approach to the development of AVs can the safety and 
benefits of this technology be achieved. Advocates recommends that 
NHTSA reorganize the guidance into a framework focusing on a functional 
safety approach that identifies how each of the guidance components fit 
into the functional safety framework. The following is an example of 
how different sections of the guidance could be reorganized into a 
functional safety approach:

  <bullet> System Design

    <ctr-circle> Operational Design Domain \23\
---------------------------------------------------------------------------
    \23\ Operational design domain (ODD) refers to how the AV system 
will detect and respond to the driving environment.

    <ctr-circle> Object and Event Detection and Response \24\
---------------------------------------------------------------------------
    \24\ Object and event detection and response (OEDR) refers to how 
the AV system will perform when a problem with the system itself is 
encountered.

---------------------------------------------------------------------------
  <bullet> Hazard Analysis

    <ctr-circle> Mechanical

  <bullet> User

      <ctr-circle> Human Machine Interface (HMI)

      <ctr-circle> Consumer Education and Training

  <bullet> External

      <ctr-circle> Cybersecurity

      <ctr-circle> Federal, State, Local Laws

      <ctr-circle> Ethical Considerations

  <bullet> Risk Reduction

    <ctr-circle> Post-Crash Behavior

    <ctr-circle> Fall Back (Minimal Risk Condition)

  <bullet> Design Validation

    <ctr-circle> Validation Methods (simulation, track, on-road 
            testing)

  <bullet> Performance Verification/Auditing

    <ctr-circle> Data Recording and Sharing
Safety Assessment Letter to NHTSA
    The NHTSA must make the reporting of AV information mandatory. 
Voluntary submission of information will not succeed because AV 
manufacturers are under no legal duty to report completely and fairly. 
While Advocates agrees with the underlying concept of the proposed 
Safety Assessment submission, there are three major problems with the 
Safety Assessment guidance as proposed in the NHTSA AV Policy. First, 
at the outset, the NHTSA undermines its effort by describing the Safety 
Assessment information to be provided as merely ``outlining'' how the 
manufacturer submitting the information is meeting the areas of concern 
in the NHTSA AVPolicy guidance.\25\ The agency then refers to the 
Safety Assessment submission as a ``summary letter.'' \26\ In fact, the 
agency guidance allows manufacturers to merely check-off a box for each 
area of requested information that indicates whether the manufacturer's 
AV system ``Meets'', ``Does not meet'', or ``is not applicable'' to 
each particular guidance area of the NHTSA AV Policy. In essence, if a 
manufacturer voluntarily responds at all, it could just check the 
appropriate response in each area without providing any substantive 
information or content whatsoever. Although the agency states that it 
expects responses to be ``concise and complete[,]'' \27\ nothing in the 
guidance indicates that the agency is seeking detailed information in 
an initial response.
---------------------------------------------------------------------------
    \25\ NHTSA AV Policy, p. 15.
    \26\ NHTSA AV Policy, p. 16
    \27\ NHTSA AV Policy, p. 16.
---------------------------------------------------------------------------
    Second, as proposed, the request for the Safety Assessment 
submission lacks specificity as to what type of information the agency 
wants and that the manufacturer should submit. Requests for information 
contain only vague descriptions that may or may not receive accurate 
and complete responses. The agency approach to the Safety Assessment 
submission letter is to allow the manufacturer to provide as much or as 
little information as the manufacturer deems to be in its self-
interest. In fact, the agency states that, after the initial 
submission, the agency ``might request more detailed information on 
Guidance areas to better assess safety aspects of the HAV systems.'' 
\28\ It is critical that the agency should try to obtain complete and 
detailed information from the outset. In its present non-mandatory 
form, the agency will have little recourse to compel manufacturers to 
provide additional information if the agency is not satisfied with the 
initial response. Follow-up requests may well extend beyond the four-
month lead-time that the NHTSA AV Policy suggests is needed to review 
manufacturer submissions prior to testing on public roads.\29\ In 
addition, such requests impose additional burdens on NHTSA's resources.
---------------------------------------------------------------------------
    \28\ NHTSA AV Policy, p. 16.
    \29\ NHTSA AV Policy, p. 16.
---------------------------------------------------------------------------
    Third, the NHTSA does not seek any uniformity of the substantive 
content for the Safety Assessment information. Responses from 
manufacturers can take many forms and use distinctive nomenclature that 
will slow down if not stymie the agency's evaluation of the 
information. The agency should categorize the types of information it 
seeks in each guidance area in order to better be able to compare 
implementations of industry standards, guidance, best practices, 
testing, protocols, and analyses.\30\ Doing so will make the 
information gathered more useful to the public, industry, and 
government alike.
---------------------------------------------------------------------------
    \30\ The lack of specificity with the Early Warning Reporting (EWR) 
perfectly illustrates what can happen when the agency fails to provide 
proper specification for the information it seeks. The vague categories 
of the EWR have enabled the industry to hide questionable performance 
and dangerous defects. (EWR: Elective Warning Reports--When 
Manufacturers Don't Report Claims, Safety Research & Strategies, Inc., 
Apr. 8, 2014, available at http://www.safety
research.net/blog/articles/ewr-elective-warning-reports-when-
manufacturers-dont-report-claims)
---------------------------------------------------------------------------
    Finally, regarding the timeline for Safety Assessment responses, 
four months is excessive to develop a Safety Assessment letter for 
products already on the road, and for which all documentation should 
readily be available. This is particularly important as the initial 
response may not be sufficiently detailed and may require the agency to 
make an additional follow up request for more information. Likewise the 
demand that letters be provided four months prior to testing should be 
evaluated to ensure that the agency and the public have ample time to 
review the documents, especially if a vehicle is to be tested on public 
roads. For similar reasons, Advocates concurs that updates to the 
Safety Assessments are needed, and should be required, when updates are 
made to AV systems. However, the process and requirements for updating 
Safety Assessments should be specific and uniform to ensure that the 
information gathered is beneficial to the public, industry and 
regulators.
Cross-Cutting Areas of Guidance
Data Recording and Sharing
    The collection and sharing of data with the public, the NHTSA, and 
within the industry will be critical to achieving the highest levels of 
safe AV performance. Similar to the way in which current crash 
databases are used to inform current safety regulation and vehicle 
design, an AV performance database would benefit all parties. NHTSA 
should maintain a public database that details any and all crashes 
involving an AV. The sharing of both incident (crash) and near incident 
(near-miss) data would enable the industry to review performance of 
other AV systems and improve their own performance, especially for edge 
cases.\31\ Likewise, the agency should use the data to develop specific 
sets of scenarios which AV systems must be able to address as part of 
future guidance and eventual regulation. The data to be collected and 
shared must be more specific than ``all information relevant to the 
event and performance of the system.'' \32\ This vague description 
leaves too much room for interpretation which could result in 
disjointed and unusable information from which limited insights could 
be gained. Importantly, specification of data to be recorded and shared 
should address industry concerns around intellectual property. For 
example, making sure that the data from an incident where an AV fails 
to see the side of a white truck crossing its path is of critical 
importance to the development of all AV systems as it identifies a 
scenario which could cause problems and lead to risks. This sharing of 
data or feedback loop, must be done to ensure that each AV system does 
not have to learn only from its individual failures but can be improved 
based on the failures or successes experienced by other AV systems.
---------------------------------------------------------------------------
    \31\ Edge Cases are those problems or situations that occur very 
infrequently or at the operational boundary. These are cases each 
manufacturer's vehicles may only see once, but the information about 
that situation would benefit all systems because of its rarity.
    \32\ NHTSA AV Policy, p. 18.
---------------------------------------------------------------------------
    Essential to gathering accurate and reliable technical data on AV 
system performance and failure is the need to require all such data to 
be captured and collected. While each manufacturer may voluntarily 
provide information that is collected for internal use, information 
about AV system performance on public roads must be provided to the 
NHTSA on a real time basis and made available to the public. In the 
meantime, the NHTSA must also require that Event Data Recorders (EDR) 
or other systems are able to collect and record all essential data on 
AV systems so that in the event of a crash or other failure the vehicle 
systems status data will be available to the agency, crash 
investigators, researchers and the vehicle owner. Advocates recommends 
that the agency complete the rulemaking to mandate EDRs in all 
passenger vehicles, and revise the current requirements in the EDR 
rule, 49 C.F.R. Sec. 563, to require additional data collection on all 
AV systems.
Privacy
    Privacy will be a key factor in ensuring acceptance of AVs by the 
public. As noted above, the recording and sharing of data will be 
critical to achieving the safest performance of AVs as quickly as 
possible. Keeping the public informed as to the importance of sharing 
data and ensuring their privacy will be similarly critical to ensure 
participation. The industry and regulators must guarantee that data is 
protected and only used for the purposes of improving safety, and not 
for other commercial uses which could turn the public against data 
sharing.
System Safety
    Functional safety should provide the framework for the overall 
approach to the guidance and future regulation. In almost all areas of 
the guidance, it will benefit all parties involved if the requirements 
of the safety assessment were more specific in terms of standards, 
guidance, best practices, and design principles about which the agency 
would like information. The industry could then respond as to whether 
and how they have implemented any of those practices. Requiring the 
specific and uniform reporting of data by manufacturers will enable the 
agency to understand how each of the guidance areas, practices, 
standards, etc., are being implemented across the industry. It will 
also allow the agency to work towards establishing regulation to 
require their implementation.
Vehicle Cybersecurity
    Cybersecurity is an important aspect of AV development which must 
be addressed as part of functional safety. Again, the guidance is vague 
on the information it would like to receive from the industry. 
Specificity and uniformity will be the keys to evaluation of AV system 
information by the NHTSA and to informing the public. The agency should 
identify problems areas and require specific responses from 
manufacturers on how those are being addressed. Problem areas could 
include subjects such as GPS signal loss/degradation/spoofing, and off-
line and real time hacking of single vehicles or fleets of vehicles. As 
with all other performance data, the sharing of data in terms of 
cybersecurity will improve overall safety and ensure that all vehicles, 
regardless of manufacturer, are afforded the same level of security. 
This is even more important when the aspect of connected vehicles is 
concerned as any weak link in the chain could leave many more vehicles 
vulnerable to programming errors or hacking. The potential risk of a 
single software error, or malevolent computer hack impacting hundreds 
or thousands of AVs, perhaps whole model runs, makes appropriate 
cybersecurity a crucial and indispensable element of AV design.
Human Machine Interface
    The user interface is an essential aspect of the development and 
deployment of AVs. In the functional safety approach, the human/machine 
interface (HMI) presents both a source for and means of addressing 
hazards stemming from the user. As some products currently on the road 
have demonstrated, poor HMI design can lead to dangerous and deadly 
situations. For example, if an AV requires a human occupant to 
participate in the driving process, it must be designed to ensure that 
the human occupant is engaged, aware, and informed of the operational 
status of the vehicle particularly in time critical settings. Simply 
informing drivers that they must remain engaged or placing information 
in the owner's manual as to the limitations of the AV system are not a 
sufficient or acceptable substitute for engineering solutions that are 
effective in maintaining the engagement of the human operator. This is 
true even if the operator signs a statement indicating that they have 
read the manual. In a functional safety approach the hazard of driver 
engagement should be managed through monitoring and warning systems to 
ensure drivers are engaged to the level necessary for the system to 
operate safely. A system which fails to account for all sources of risk 
and hazard, especially the transition from or to a human operator, 
would not be functionally safe and should be evaluated by the agency 
before the AV system is certified by the manufacturer for use on public 
roads.
Crashworthiness
    Compliance with the FMVSS is mandatory and should remain so. In the 
future, as new seating configurations are proposed, the NHTSA may be 
required to adapt the FMVSS to ensure that occupants are provided the 
same minimal levels of crashworthiness protection currently afforded by 
all vehicles. Leaving occupant safety in AVs to the ``due care'' of the 
industry is a step backward that is fraught with problems and opens the 
door for making trade-offs with safety. Furthermore, concerning AV 
compatibility, the agency should establish regulatory requirements 
rather than relying on voluntary agreements. In the end, it is 
foreseeable that AVs will share the road with traditionally operated 
vehicles with human drivers for an extended time and, despite any AV 
advances, will likely still be involved in crashes which will require 
the vehicle design to ensure that it protects occupants and crash 
partners alike.
Consumer Education and Training
    Consumer education and training are imperative to ensure safe 
deployment of AVs. Failure to fully familiarize consumers with needed 
operational and safety information, or to properly train vehicle owners 
who may have to take over operation of the AV at some point, could 
result in rejection of AVs by the public and more importantly lead to 
crashes. As end users of the product, even if they are not involved in 
the driving task at all, consumers will ultimately decide the fate of 
AVs. Consumer education and training in all aspects of AV operation are 
critical to success.
    Advocates agrees with the NHTSA's statements and observations in 
the guidance that manufacturers develop education and training programs 
for employees, dealers, distributors and consumers.\33\ This is 
especially necessary for Level 3 (and lower) AVs in which the driver 
may need to take over control of the vehicle when the operational 
limits of the AV system have been reached. The suggestion in the NHTSA 
AV Policy that consumers who purchase AVs should receive training on 
the operational capabilities and limitations of the AV system they 
purchase, along with an on-the-road demonstration prior to taking 
possession of the AV would be beneficial. However, the agency should 
take the next step and offer specific solutions and develop prototype 
program materials to guide manufacturers in this effort.
---------------------------------------------------------------------------
    \33\ Advocates is aware of instances in which dealership sales 
personnel were unfamiliar with the capabilities of the AV systems they 
were demonstrating to customers.
---------------------------------------------------------------------------
    The agency must also consider the need for standardizing the 
operation of AVs or their functions, and requiring training and 
education/information from the manufacturers or as part of the state 
policy for licensing to ensure that, until such time as drivers are no 
longer required, that lack of education or training do not undermine 
the safety benefits of AVs.
    Furthermore, while all relevant information must be included in the 
vehicle owners' manual, there is a clear need, especially for vehicles 
that may require the intervention of a driver or which can have their 
operational capabilities updated significantly, for important features 
of the AV system operation to be delivered to consumers in other ways. 
The agency should consider requiring instrument panel instructions/
notifications that must be read and accepted before the AV can begin 
operating, and a separate AV system tutorial that can be viewed on 
board the AV when not in operation or on other personal data devices. A 
comprehensive approach to AV education and training is essential for 
the success of AV adoption.
Certification
    Manufacturers will still be responsible to self-certify that their 
AV meets all Federal and state requirements as well as operates safely 
and as designed. Manufacturers and other responsible entities will need 
to keep both the NHTSA and consumers aware of the operation, 
capabilities, and limitations of AV systems that are on the road. With 
the possibility of over the air (wireless) updates which could change 
the operation of AVs overnight, it will be essential for manufacturers 
to provide updated Safety Assessments to the NHTSA regarding any 
changes that affect the certification of the vehicle. Clear 
instructions regarding any changes must also be conveyed to the vehicle 
owner and operators.
Post-Crash Behavior
    As part of functional safety, AVs must be able to recognize 
failures and address them or enter a failsafe mode. Controlling post-
crash behavior to prevent the operation of AVs systems after damage to 
sensors is part of addressing a crash which is a known hazard. 
Similarly, it is important for the repair and re-certification of AV 
systems to be well established to ensure only safe AV systems are 
allowed back onto public roads.
Federal, State and Local Laws
    In terms of functional safety, complying with Federal, State, and 
local laws is a known aspect of an AV systems design and expected 
operation. Variation in laws between jurisdictions is another known 
operational parameter that must be considered and addressed by AV 
manufacturers. It would appear that compliance with Federal, State, and 
local laws would be part of the operational design domain (ODD) and the 
object and event detection and response (OEDR), rather than a stand-
alone topic of the guidance. Additionally, the NHTSA should consider 
the impact of the variation in transportation laws, road designs, lane 
marking, signage, etc. on the implementation of AVs and the benefits 
which could be derived from seeing uniformity across the country.
Ethical Considerations
    Conflicts between the objectives of safety, mobility, and legality 
could occur in the operation of AVs; however, the guidance is vague on 
the specific means by which these conflicts will be resolved. Merely 
stating that solutions to these issues ``should be developed 
transparently using input from Federal and State regulators, drivers, 
passengers and vulnerable road users . . .'' \34\ is not sufficient to 
ensure that dangerous products are not placed on the road now. Until 
such time as these ``algorithms'' are developed and proven, the safety 
objective should guide decisions. It is for this reason that the 
collection and sharing of data on vehicle operation will be important. 
The NHTSA must be more forthcoming with regard to how it will approach 
AV designs in which the manufacturers have opted to make different 
decisions in balancing these ethical considerations.
---------------------------------------------------------------------------
    \34\ NHTSA AV Policy, p. 26.
---------------------------------------------------------------------------
Automation Function
    Specification of the conditions under which an AV system will 
operate (ODD), how the AV system will detect and respond to the driving 
environment (OEDR), and how the AV system will perform when a problem 
with the system itself is encountered (fall back (minimal risk 
conditions)), are all part of the design aspect of a functional safety 
approach. For each system and the system overall, specifying which 
conditions a system can operate within, what the expected response is, 
and what happens when all else fails are essential parts of the design, 
hazard analysis, and hazard mitigation/elimination aspects of 
functional safety. The NHTSA must ensure that it collects sufficient 
information and test data/results to confirm that the manufacturer has 
done its safety due diligence and to validate that these aspects of the 
AV system are operating safely and as designed.
Operational Design Domain
    Defining an ODD and translating that information to the NHTSA and 
specifically the consumer will be important to ensure that user error 
is reduced and that limitations in the operation of AV systems both 
within and outside of the ODD can be identified. Specificity and 
uniformity in reporting will improve the ability for this information 
to be used to develop future regulation and inform the public. It is 
also important that manufacturers consider specifying not only the ODD 
(where the system will work) but to clearly define the operational 
boundaries for the consumer. As discussed in previous sections, simply 
informing the consumer is not adequate from a functional safety stand 
point and should be supplemented with engineering solutions, including 
properly designed HMI, to ensure that opportunities for error or 
misunderstanding that could pose a crash risk are eliminated.
Object and Event Detection and Response
    Within its ODD, each AV system must be expected to detect and 
respond to all scenarios which could affect safe operation. This 
includes interactions with other vehicles, pedestrians, cyclists, 
animals, and other objects. The NHTSA provides a limited list of 
behavioral competencies for normal driving and references a number of 
scenarios for crash avoidance and other hazards (construction, disabled 
vehicles, etc.). Advocates believes that this type of specific listing 
of scenarios which all AVs, as appropriate based on each particular AV 
system ODD, should be addressed as part of the safety assessment. With 
sufficient, uniform data sharing, manufacturers should be aware of all 
scenarios that AVs should address as part of their safety assessment. 
The agency should work towards a functional safety requirement which 
would include specifications of scenarios which must be addressed by an 
AV system, depending on the ODD, and which could be tested to ensure 
compliance.
Fall Back (Minimal Risk Condition)
    As noted above in the discussion of post-crash behavior and in 
other sections, establishing fail safe conditions and operation is yet 
another part of functional safety. Once hazards and risks are 
identified and then eliminated, mitigated, or guarded against, and 
warnings are provided, the final step is to ensure that a system can 
recognize a failure or when it is operating outside of its ODD and 
return the system to a failsafe operation. However, having a failsafe 
design should not just be a recommendation. As with nearly all other 
parts of the guidance, AVs must be functionally safe, including having 
failsafe modes. These modes will be especially important in the early 
rollout of AVs when unknown risks have not yet been adequately 
identified through data collection and sharing.
Validation Methods
    Performance validation is another step in the functional safety 
process. The NHTSA Safety Assessment must include specific tests and 
validation methods which the AV manufacturers must confirm have or have 
not been used, with a description and documentation of the methods the 
manufacturer did use to validate its AV system. Manufacturers should be 
required to provide information on all methods beyond those listed by 
the agency which will inform and enable the agency so it can update 
future versions of the list. Again, data collection and sharing will 
also be critical to performance validation to ensure that performance 
on the road and in the hand of the public is matching the performance 
predicted by the design.
Guidance for Lower Levels of Automated Vehicle Systems
    All manufacturers of AV systems should be required to meet 
functional safety requirements for the design, development, and 
deployment of AVs. Almost all of the current guidance fits into what 
should be required in a comprehensive functional safety approach. Lower 
levels of automation should not be exempt from having to thoroughly 
apply the process.
    Advocates supports ODD, OEDR, and minimal risk conditions applying 
to lower level AV systems. Every AV system has conditions under which 
it is designed to operate and its operation is specified. While the 
details may not be as extensive as that of a higher level (3-5) system, 
this is not an exception but rather a modification. Finally, a failsafe 
mode is still necessary even if it is not as drastic as those for 
higher level AVs. Uniformity in application of the functional safety 
process across all levels of AVs is necessary to ensure safety and 
inform the agency and the public.
Next Steps: Activities to Improve, Expand and Oversee the Guidance
    It is critical that the NHTSA move swiftly towards effective 
regulation before the technology becomes ubiquitous. Abandoning the 
regulatory process is not a solution. A concerted and coordinated 
effort between agencies, branches of government, industry and the 
public will be necessary to achieve the goals of bringing AVs to market 
and doing so safely.
II. Model State Policy
    The stated purpose of the model state policy is to ``create a 
consistent, unified, national framework'' for AV regulation, yet the 
framework is so loose it is difficult to envision consistent 
outcomes.\35\ In fact, this framework, because it lacks so many 
necessary details, will create a patchwork of state standards which 
stands in stark contrast to the stated goals of the model policy. The 
NHTSA fails to include a timeline for suggested evaluations and actions 
that states need to complete. While the model policy acknowledges that 
states must undertake changes and improvements to transportation 
infrastructure in order to ensure the safe operation of AVs, it fails 
to instruct the states on what specific upgrades are needed. In 
addition, the model policy does not set any standard for crash 
reporting deadlines or data requirements which will be crucial to state 
regulation of the testing and deployment of AVs. Not only are the 
paucity of details contained in the model policy of great concern, the 
proposal also contains several critical shortcomings on its face that 
must be rectified.
---------------------------------------------------------------------------
    \35\ NHTSA AV Policy, p. 37.
---------------------------------------------------------------------------
Introduction
    Advocates agrees with the statutory mission of NHTSA to regulate 
the design and performance of motor vehicles including AV technology 
and vehicles to ensure public safety. However, so long as the agency 
chooses to issue merely voluntary guidance to address safety and 
regulatory issues on emerging AV technology, states have every legal 
right to fill the regulatory vacuum with state developed solutions. 
NHTSA, by issuing only guidelines, has left open the field of AV safety 
that can and must be filled by the states. As such, each state can 
currently dictate (and some already are) what tests it deems acceptable 
and what constitutes an acceptable or successful result. This 
decentralized process leaves an incredible amount of variability in 
standards and interpretation. Advocates urges the agency to issue 
regulations to govern the safety assessment process and other 
regulatory appropriate aspects of AVs that the agency has exercised 
with respect to the safety of non-automated motor vehicles.
    NHTSA should partner with states to properly train and educate 
drivers on the proper use of AV systems; however, specific focus should 
be placed on training dealership sales personnel and vehicle buyers and 
drivers on the capabilities and limits of AVs including when a driver 
must retake control of an AV after disengagement of the autonomous 
system.
    NHTSA should take a leadership role and work with the states to 
ensure enhanced requirements for AVs. The inadequate maintenance of an 
AV, particularly out of date software, could have disastrous 
consequences on its operation and public safety. These concerns merit 
that AVs receive a heightened standard of care from state regulators 
tasked with ensuring that all vehicles registered in a state are 
properly maintained.
Model State Policy
    The NHTSA must require, and recommend that state law reinforce, the 
need for AVs to be designed to comply with all aspects of state motor 
vehicle and traffic laws. Furthermore, NHTSA should work with the 
Federal Highway Administration, the Federal Motor Carrier Safety 
Administration and the states to ensure that AVs are compliant with all 
highway and traffic requirements. Mandating this uniformity will 
greatly reduce the opportunity for errors by AVs when dealing with the 
current patchwork of state requirements or guidelines such as lane 
widths, road markings, and signage.
    In terms of defining who the ``driver'' of an AV is the NHTSA AV 
Policy contains an apparent inconsistency. For level 3 AV systems, 
where the human driver has to be able to take over control of the 
vehicle, states should define the ``driver'' of the vehicle as the 
human operator of the vehicle not the AV system as proposed in the 
model state policy. NHTSA asserts that States should generally deem the 
AV system to be the ``driver'' of the vehicle for SAE Levels 3-5.\36\ 
Later in the guidance, however, the NHTSA indicates that States should 
continue to regulate the ``human'' driver for AV ``technologies that 
are less than fully automated, SAE levels 3 and lower.'' \37\ For a 
level 3 vehicle where a driver is still tasked at various times with 
the operation of the vehicle, when the vehicle reaches its operational 
limits, the driver of such a vehicle must continue to be defined as the 
human operator.
---------------------------------------------------------------------------
    \36\ NHTSA AV Policy, p. 39.
    \37\ NHTSA AV Policy, p. 43.
---------------------------------------------------------------------------
Administrative
    Advocates supports the establishment of a jurisdictional automated 
safety technology committee in each state as outlined in the model 
policy. However, the committees should be balanced and include strong 
representation from safety and consumer representatives as permanent 
official members. Placing these representatives on the Committee will 
foster public confidence in the testing and deployment of AVs in their 
state and will encourage acceptance of the technology as it becomes 
more prevalent. In addition, these representatives can provide a unique 
and invaluable perspective to the Committee as they consider numerous 
issues affecting consumers and public safety.
Jurisdiction Permission to Test
    The lead state agency tasked with regulating AVs should prohibit 
the testing of AVs in safety sensitive areas such as school and 
construction zones as outlined in the model state policy. The 
malfunction of an AV while testing in such areas would be catastrophic. 
In addition, authorizations given for testing should be renewed on an 
annual basis due to the number of issues that could evolve during the 
course of a year involving experimental vehicles using such rapidly 
developing technology that could receive and require programming 
changes and updates at any time. Moreover, any authorization should 
immediately be reviewed after a notice of a crash involving an AV 
covered by the permit.
Testing by the Manufacturer or Other Entity
    As outlined in the model state policy, not only should all crashes 
involving test vehicles be reported to the applicable state regulatory 
body, but any and all safety critical events such as near misses or 
operational malfunctions should also be disclosed to state regulators 
and the public. State regulatory bodies cannot accurately assess the 
progress of AVs and their ability to operate on public roads without 
this full and accurate picture of the performance of AVs during 
testing.
Law Enforcement Considerations
    Advocates concurs with NHTSA's statement that ``[f]or vehicles that 
offer less than full automated capabilities, there is potential for 
increased distracted driving.'' \38\ Despite these obvious concerns, 
the agency continues to merely issue guidelines rather than regulations 
to govern in-vehicle and nomadic electronic devices that contribute to 
distracted driving, an issue that has long been identified by the 
safety community and the agency and supported by numerous research 
studies as a major public health epidemic.\39\ For AVs that are less 
than fully automated, states must be encouraged to enact robust laws to 
govern any and all in vehicle distractions.
---------------------------------------------------------------------------
    \38\ NHTSA AV Policy, p. 45.
    \39\ Distraction.gov, NHTSA.
---------------------------------------------------------------------------
III. NHTSA's Current Regulatory Tools
Rulemaking Authority
    The NHTSA's most broad-ranging authority to influence and govern 
motor vehicle safety, and to eliminate unreasonable risks to the 
public, is through proposing a standard to govern conduct and 
performance through a public rulemaking process. This is, and has been 
since the inception of the agency, the approach used to ``adopt new 
standards, modify existing standards, or repeal an existing standard.'' 
\40\ The establishment through regulation of safety standards for motor 
vehicle safety and related technology performance requirements is the 
standard and established agency procedure. The current body of 
lifesaving Federal motor vehicle safety standards (FMVSS) has been 
constituted through this process and procedure.
---------------------------------------------------------------------------
    \40\ NHTSA AV Policy, p. 49.
---------------------------------------------------------------------------
    Public notice-and-comment rulemaking provides a number of important 
benefits. The regulated industry and the public receive a concise, 
detailed statement of agency plans and proposed rules, including 
testing procedures and performance requirements. It requires the agency 
to master detailed technical issues and to organize the analysis of 
benefits and costs of a proposed rule. The regulated entities and the 
public are afforded an opportunity to evaluate and analyze the proposal 
and provide focused feedback to the agency, including posing questions 
regarding matters that may require greater clarity as well as critical 
feedback on technical aspects of the rule. Rulemaking affords all 
stakeholders, including the public and the regulated industry, the 
platform for making broad, general philosophical statements regarding 
the agency proposal, as well as the avenue to address narrow, technical 
issues. The regulatory process clarifies the agency's intent as to what 
will be subject to a particular regulation and how the agency intends 
to regulate an aspect of motor vehicle equipment or operation. This is 
important to reach a general agreed understanding of the issue and 
assure only sound, well-reasoned requirements are imposed on the 
regulated industry. While rulemaking may, by its nature, take longer 
than other existing regulatory tools (e.g., interpretation letters or 
exemption petitions), rulemaking according to the agency ``enables the 
Agency to make the broadest and most thorough changes to governing 
regulations, and gives the public the greatest opportunity to 
participate in the Agency's decision-making process.'' \41\ In fact, 
the NHTSA states that rulemaking may be the best approach to address 
``a motor vehicle or equipment design [that is] substantially different 
from anything currently on the road [for which] compliance with 
standards may be very difficult or complicated . . .'' \42\ This 
description directly applies to the development and installation of 
AVs.
---------------------------------------------------------------------------
    \41\ NHTSA AV Policy, p. 50.
    \42\ NHTSA AV Policy, p. 49.
---------------------------------------------------------------------------
    The future reliability and public acceptance of AVs would benefit 
greatly from regulatory action that sets a fair and level playing field 
for industry and, at the same time, provides transparency and oversight 
for the introduction of AVs into the motor vehicle fleet. While the 
NHTSA has not regulated every aspect of motor vehicles, crucial safety 
and operating systems have been regulated as part of the FMVSS or other 
pertinent regulations for decades. There is no clear and compelling 
reason why AV technology should be treated any differently or given 
greater leeway than previous mechanical or electronic technological 
innovations. Furthermore, there is no reason to believe that AV 
technology differs in any meaningful degree from the developments and 
improvements that have been routinely regulated over the past 50 years 
of automotive development. The agency cannot evade its statutory duty 
simply because the new technology seems complicated or highly 
technical.
    The NHTSA has expressed its view that ``only after new technology 
is developed and proven does the Agency establish new safety standards. 
* * * Strong safety regulations and standards are a vital piece of 
NHTSA's safety mission and the Agency will engage in rulemaking related 
to automated safety technologies in the future.'' \43\ While Advocates 
understands that, at present, there may not be sufficient information 
and data to establish minimum performance requirements for some aspects 
of AV systems, that does not mean that the agency should defer from 
regulating those aspects of AV performance that are already known but 
which are not yet regulated, such as autonomous emergency braking (AEB) 
systems. Moreover, NHTSA is not precluded from requiring manufacturers 
to adopt a functional safety process that will ensure appropriate 
testing of AV systems will be conducted to prove the systems' safe 
performance within the design parameters of the particular AV system.
---------------------------------------------------------------------------
    \43\ NHTSA Enforcement Guidance Bulletin 2016-02: Safety-Related 
Defects and Automated Safety Technologies, Final Notice, NHTSA, 81 FR 
65705, 65706 (Sept. 23, 2016).
---------------------------------------------------------------------------
    The NHTSA has an obligation to the public to ensure that new, 
highly complex AV systems will perform safely. At this time the NHTSA 
should require each vehicle manufacturer, or other company producing 
the computer logic and software, to adopt a functional safety process 
that requires comprehensive testing of AV systems that the agency can 
review. This would ensure that the manufacturers are under a legal 
obligation to perform appropriate due diligence to disclose the results 
to the agency prior to motor vehicles equipped with AV system's being 
placed in the stream of commerce.
    The agency can and should require manufacturers, as part of the 
self-certification requirement, to certify that sufficient functional 
safety testing and analysis has been performed to establish that the AV 
system will perform safely and as designed. To accomplish this, the 
agency should require all AV system manufacturers, by regulation, to 
adopt a functional safety process to conduct state-of-the-art testing 
and analysis to establish that the AV system performs safely and meets 
or exceeds all aspects of the systems design parameters. Such a 
requirement is intended to allow the manufacturer to document that its 
AV system(s) has been fully and extensively tested and that all 
critical features, including the programming software, operate 
properly. There must be a modicum of regulatory oversight by NHTSA to 
ensure that the AV system manufacturers are acting responsibly and have 
not taken any short-cuts in the rush to market.
    Advocates' call for a regulation to require functional safety 
testing and analysis is based on empirical evidence. The May 7, 2016 
crash of a Tesla Model S equipped with the Autopilot AV system feature 
is a real world example of why such regulatory action is necessary as 
well as the timely notification to NHTSA is essential.\44\ Tesla has 
stated that it required drivers to acknowledge that they would remain 
engaged in the driving task. A functional safety analysis would have 
required Tesla to evaluate what happens when the system fails to 
identify a road hazard, when the driver is not engaged in the driving 
task, or when both failures occur simultaneously all of which are 
foreseeable. Functional safety requires consideration of all 
foreseeable and feasible failure modes, as well as unlikely and low 
probability failure modes. Blaming the driver for failing to heed a 
warning, or for over reliance on the AV system, is inexcusable when 
technological means of mitigating the risks of sensor failures and 
human behavior are available.
---------------------------------------------------------------------------
    \44\ The Tesla Autopilot System has been the subject of 
investigation in other crashes, including another fatal crash in China 
in January of 2016, Neal Boudette, Autopilot Cited in Death of Chinese 
Tesla Driver, The New York Times (Sep. 14, 2016).
---------------------------------------------------------------------------
    The risk classification for failures in this and similar systems 
being developed must be very stringent since failure of the Autopilot 
sensors or the detection algorithm while travelling would present an 
unreasonable crash risk. Such an analysis, likely, would have led to 
requirements that additional sensors be added to the vehicle to 
mitigate the sensor ``blind spot'' created by using visual data from a 
camera with limited input from additional technologies such as radar or 
lidar. Tesla subsequently announced that it had fixed the problem 
through a new software update to the Autopilot System.\45\ This flaw 
would have and should have been detected by Tesla during a functional 
safety analysis of the Autopilot System. Without such a required 
analysis, there may be other instances where readily detectible and 
foreseeable problems were not identified until after a crash occurs.
---------------------------------------------------------------------------
    \45\ Louis Hansen, Tesla turns to radar in upgrade of Autopilot, 
The Mercury News (Sept. 11, 2016). In fact, Tesla has not provided any 
evidence that the problem has been fixed.
---------------------------------------------------------------------------
    The functional safety analysis might also have resulted in 
additional driver engagement requirements such as driver monitoring and 
warning systems, and stronger driver reengagement methods to ensure 
driver readiness to retake control of the vehicle. In the functional 
safety analysis, Tesla would have been required to research, test, and 
examine not just the Autopilot sensor array, but driver reengagement 
readiness to prove that the design enabled drivers to either remain 
engaged in the driving task (as Tesla stated was necessary) or that re-
engagement could be successfully accomplished in a safe manner. In 
fact, after the fatal crash the company instituted more warnings to the 
driver to remain alert while the Autopilot System is engaged.\46\ It is 
the NHTSA's responsibility to require functional safety certification 
to eliminate the types of system failures that resulted in a fatality 
and eliminate the need for ``after the fact'' improvements which should 
have been anticipated.
---------------------------------------------------------------------------
    \46\ Id.
---------------------------------------------------------------------------
    While the NHTSA's proposed voluntary submission of a letter 
(addressed above) has many of the hallmarks of what is needed to be 
reported to the agency, a regulation must, first and foremost, require 
manufacturers of AV systems for motor vehicles to adopt a functional 
safety process that will ensure that the manufacturer tests its AV 
system appropriately and comprehensively. Second, documentation of all 
test results, those that establish the functional safety of the system, 
as well as any information that indicates the failure of the AV system 
to fulfill functional safety parameters, must be provided to NHTSA in 
advance of placing the AV system or AV equipped vehicle in the stream 
of commerce. Finally, these aspects must be made mandatory, rather than 
voluntary, in order to ensure that the manufacturers are legally 
obligated to adopt an effective functional safety process and to supply 
all relevant information to the agency.
Enforcement Authority
    In relation to the NHTSA's enforcement authority, the NHTSA AV 
Policy states that ``when vulnerabilities of [automotive] technology or 
equipment pose an unreasonable risk to safety, those vulnerabilities 
constitute a safety-related defect'' \47\ that can spur the agency to 
investigate and take remedial action including ordering the 
manufacturer to conduct a safety recall.\48\ Moreover, the agency's 
enforcement authority applies `` `notwithstanding the presence or 
absence of an FMVSS for any particular type of advanced technology.' '' 
\49\ Advocates strongly supports the NHTSA's enforcement efforts to 
investigate, identify and recall noncompliant or defective vehicles. 
Advocates views the enforcement role played by the agency as critical 
to ensuring that motor vehicles, once in use, perform safely. However, 
the agency position begs the question as to why the agency would forego 
issuing a prospective regulation to improve the safety performance of 
production models and eliminate safety flaws in AV systems before they 
are sold to the public. The NHTSA's enabling statute recognizes that 
the agency must act in a proactive manner to avoid and reduce crashes, 
injuries and deaths in the first place.\50\ Rather than relying 
entirely on its enforcement authority, the agency should also be 
actively ensuring through regulatory, as opposed to only voluntary, 
action that AV systems are produced without production flaws before the 
AV systems are sold to the public, placed in the stream of commerce, 
and then subsequently have to be recalled.
---------------------------------------------------------------------------
    \47\ NHTSA AV Policy, p. 50.
    \48\ NHTSA AV Policy, p. 50.
    \49\ NHTSA AV Policy, p. 50, citing NHTSA Enforcement Guidance 
Bulletin 2016-02: Safety-Related Defects and Automated Safety 
Technologies, 81 FR 65705, 65707 (September 23, 2016).
    \50\ 49 U.S.C. Sec. 30101.
---------------------------------------------------------------------------
    The historic and well-founded approach of the NHTSA has been to 
require, in the first place, specific minimum performance requirements 
or standards that vehicle manufacturers must certify that each vehicle 
meets. These standards raise the quality and safety performance of 
motor vehicles before sale to the public. While its enforcement 
authority does permit the agency to investigate and recall vehicles for 
safety defects even if there is no underlying performance standard, the 
lack of an underlying performance standard may complicate the exercise 
of the agency's enforcement authority. This is a significant concern 
for electronically controlled systems and software where a specific 
flaw or malfunction may be more difficult to identify. If there is no 
underlying requirement or process, manufacturers will be far less 
cautious about ensuring the operating safety of the vehicle prior to 
sale.
    Finally, although the NHTSA's enforcement authority is extensive, 
safety flaws may take years to identify and recall. This has been the 
situation with a number of safety recalls. In 2000, congressional 
hearings and the media revealed hundreds of needless deaths and 
injuries caused by the Firestone/Ford Explorer defective tire fiasco 
because of delayed agency action. Again, for the same reason, in 2009, 
families were put at unacceptable risk due to the Toyota sudden 
acceleration problem. In the past several years, the public has learned 
about the cover-ups and deception by General Motors which knowingly 
used faulty ignition switches that have been linked to at least 169 
deaths and many more injuries because of long delayed agency 
action.\51\ Furthermore, the defective air bags manufactured by Takata 
have resulted in millions of vehicle recalls and have caused at least 
11 deaths in the U.S. and numerous injuries because, in part, of 
delayed agency action.\52\
---------------------------------------------------------------------------
    \51\ Angelo Young, General Motors Ignition Switch Flaw Death Toll 
Rises To 169 Following Personal Injury Settlement; Penalty Costs Top 
$2.1B, International Business Times (Sept. 17, 2015)
    \52\ Ryan Beene, 11th U.S. death related to Takata airbags reported 
by Honda, Automotive News (Oct. 20, 2016).
---------------------------------------------------------------------------
    Although its enforcement powers are necessary, they are not 
executed immediately after a safety defect involved crash occurs. It 
may then take months or years to establish that a defect exists and 
what the defect is and then more time to convince the manufacturer that 
a recall is appropriate and, even then, further negotiation to ensure 
that the scope of the recall is adequate, and all that time assumes 
that a remedy is available. Thus, while the agency's enforcement 
authority is necessary and essential, to identify safety defects, it 
does not provide the prophylactic safety effect of standards and 
regulations.
Exemption Authority
    Advocates is concerned with the NHTSA AV Policy's discussion of the 
use of exemption authority and proposed expansion of that authority. 
Compliance with safety standards must be maintained to ensure that all 
consumers are afforded a minimal level of safety. Advocates concurs 
with the agency statement that ``[g]eneral exemptions do not excuse 
non-compliance with applicable standards simply because doing so would 
be inconvenient or inconsistent with the manufacturers' preferred 
vehicle design.'' \53\ However the agency in its discussion regarding 
expanding its general exemption authority considers not only increasing 
the number of vehicles and duration of the exemptions, but also 
mentions the possibility of moving towards relaxed limitations or even 
eliminating numerical limits for exempt vehicles altogether.\54\ 
Advocates strongly opposes this idea which will compromise safety.
---------------------------------------------------------------------------
    \53\ NHTSA AV Policy, p. 55.
    \54\ NHTSA AV Policy, p. 76.
---------------------------------------------------------------------------
    As Advocates' comments on countless past general exemptions have 
shown, particularly from the FMVSS, the standard for proving that an 
alternative approach represents an equivalent level of safety to the 
existing regulatory requirement is murky.\55\ Furthermore, Advocates is 
concerned that expansion of the exemption authority would lead to an 
alternative path around FMVSS compliance. Advocates concurs with the 
agency's expressed concern that ``it would be important to guard 
against overuse of the exemption authority which might displace 
rulemaking as the de facto primary method of regulating motor vehicles 
and equipment.'' \56\ For this reason alone, the expansion of exemption 
authority should be avoided. This is not the intent of the agency's 
organic statute, its current exemption authority, or the preferred 
means by which the agency should ensure public safety. Advocates 
recommends that the agency focus on efficiently addressing current 
regulatory shortcomings and adapting current requirements through 
rulemaking rather than eviscerating the rules through exemptions.
---------------------------------------------------------------------------
    \55\ Most exemption requests are supported by little or no 
substantive data that meets the equivalent level of safety legal 
standard.
    \56\ NHTSA AV Policy, p. 76 (emphasis added).
---------------------------------------------------------------------------
IV. Modern Regulatory Tools
Safety Assurance
    The discussion of Safety Assurance in the NHTSA AV Policy document 
confirms that the NHTSA could establish, by rule, a mandatory Safety 
Assurance requirement ``to demonstrate that motor vehicle 
manufacturers' and other entities' design, manufacturing, and testing 
processes apply NHTSA performance guidance, industry best practices, 
and other performance criteria and standards to assure the safe 
operation of motor vehicles, before those vehicles are deployed on 
public roads.'' \57\ This could apply to level 0-2 vehicles as well as 
level 3-5 AVs as well. The agency makes clear that ``NHTSA could 
implement many safety assurance tools without additional statutory 
authority.'' \58\ Advocates completely agrees and urges the agency to 
pursue this course of requiring manufacturers to establish a functional 
safety based assessment process to be reviewed by the agency. The 
adoption of a required safety assurance process for AVs would still be 
consistent with the manufacturer self-certification procedure required 
by existing law.\59\ Manufacturers would have to comply with the safety 
assessment process and allow NHTSA an opportunity to review the AV 
documentation and request additional information. However, following 
the agency review the manufacturer would be able to self-certify the 
AVs as under current law. The agency would not itself pre-test 
prototype AVs to ensure that they conform to the FMVSS and the 
verifications contained in the manufacturer safety assessment.
---------------------------------------------------------------------------
    \57\ NHTSA AV Policy, pp. 70-71.
    \58\ NHTSA AV Policy, p. 71.
    \59\ Title 49, U.S.C., Sec. 30115.
---------------------------------------------------------------------------
Pre-Market Approval Authority
    Pre-market approval would allow the agency to conduct testing on 
prototype vehicles and to ensure no AVs are marketed without approval. 
This may be particularly important for highly complex electronic 
aspects of vehicle control and to allow examination of computer 
programming and logic. However, it is an entirely different regulatory 
system that exists currently at the NHTSA. Regardless, the safety 
assessment aspect of the agency guidance could be put into place by 
rule, without the need for pre-market approval legislation.\60\
---------------------------------------------------------------------------
    \60\ The NHTSA's discussion of a hybrid approval process that would 
combine self-certification of existing FMVSS and pre-market approval by 
the NHTSA, or a third party expert supervised by the agency, for AV 
features that are not subject to an FMVSS or regulation, still require 
Congress to pass pre-market legislation.
---------------------------------------------------------------------------
Cease and Desist Authority
    Advocates strongly supports the enactment of legislation to afford 
the NHTSA cease and desist authority to immediately remediate imminent 
hazards. This authority, possessed by other regulatory administrations, 
including the Federal Motor Carrier Safety Administration, would allow 
the agency to expedite taking action in the event that a serious 
problem or defect poses an immediate danger to public safety. In a 
number of previous and recent safety recalls, the agency might have 
invoked such authority to ground vehicles that pose a significant 
unreasonable risk to public safety. Imminent hazard authority would 
still require some measures of due process and court review to ensure 
that the agency does not act impetuously, but would allow a faster 
response to address a serious safety problem.
Post Sale Authority to Regulate Software Changes
    Advocates agrees with the NHTSA that the agency currently has 
authority to regulate software changes that update vehicle programming 
and could affect the basis for the original vehicle certification. As 
the software governing an AV is part of the vehicle or vehicle 
equipment, the agency has authority to regulate changes that could 
affect vehicle safety systems and that could result in a defect or give 
rise to an unreasonable risk to safety. The agency should require by 
regulation any post sale software update be submitted to NHTSA and made 
available for public review with a summary of the changes that were 
implemented.

                                      Jacqueline S. Gillan,
                                                         President.

                                            Joan Claybrook,
                                                 Consumer Co-Chair,
                                        Former NHTSA Administrator.
                                 ______
                                 
              Statement of American Car Rental Association
    The American Car Rental Association (ACRA) respectfully submits 
this statement for the record of the Senate Commerce, Science and 
Transportation Committee's hearing on ``Paving the Way for Self-Driving 
Vehicles'' on Wednesday, June 14, 2017.
    ACRA is the national representative for over 98 percent of our 
Nation's car rental industry. ACRA's membership is comprised of over 
300 car rental companies, including all of the brands you would 
recognize such as Alamo, Avis, Budget, Dollar, Enterprise, Hertz, 
National and Thrifty. ACRA members also include many system licensees 
and franchisees mid-size, regional and independent car rental companies 
as well as smaller, ``mom & pop'' operators. ACRA members have over two 
million registered vehicles in service, with fleets ranging in size 
from one million cars to ten cars.
    ACRA's members strongly support the development and gradual 
deployment of ``Highly Automated Vehicles'' (HAVs) to improve 
transportation safety and reduce property damage and personal injury 
and deaths associated with vehicle accidents. However, the introduction 
of HAVs is a complex technical and public policy challenge. This 
challenge will require policymakers to address and incorporate existing 
safety, consumer protection, privacy and liability issues into a 
changing vehicle population that includes HAVs--while at the same time 
maintaining flexibility to accommodate new and evolving legal issues 
unique to HAVs that may not be apparent today.
    The members of the ACRA purchase one out of every nine new cars 
sold in the United States each year--almost 2 million vehicles in 2016. 
To the extent that HAVs are introduced into the private passenger motor 
vehicle fleet in the next decade, ACRA members will be at the forefront 
of HAV deployment and on the front lines of the education of car rental 
customers with respect to interacting with HAVs safely.
    The Promise and Challenges of Autonomous Vehicles--The widespread 
introduction of HAVs promises to reduce the number of deaths (about 
40,000/year in the United States) and injuries (hundreds of thousands 
every year in the United States) caused by motor vehicle accidents--
over 90 percent of which are caused by human error. But this promise is 
not without challenges in many complex areas, including thorny public 
policy issues that have been debated by many interested parties for 
decades, including:

  <bullet> Liability--Federal and State liability statutes generally 
        hold the driver of a motor vehicle liable for injuries and 
        property damage caused by that driver's negligence. With 
        respect to HAVs, there is no ``driver'' per se and thus 
        determining responsibility for injuries and other harm become 
        problematic. Federal and State policymakers should consider 
        assigning liability for accidents caused by HAVs to the 
        entities most capable of addressing design and functionality 
        shortcomings in HAVS--in most cases, the vehicle and software 
        designers and manufacturers, rather than the humans occupying 
        the vehicle or the fleet owners.

  <bullet> Ownership of Motor Vehicles--As we move towards an era of 
        widespread HAV deployment, our notions of motor vehicle 
        ownership likely will undergo a revolutionary change. Instead 
        of owning our personal automobile, or renting a minivan for a 
        family vacation, or boarding a bus for a ride to school, or 
        hailing a taxi--all of these activities may be undertaken with 
        different types of HAVs which may or may not be owned by an 
        individual, a school district, or a fleet operator. Resolving 
        vehicle ownership issues, including maintenance, accident 
        reporting, data recording and sharing, and other heretofore 
        unaddressed issues with respect to HAVs will need to be 
        discussed and resolved.

  <bullet> Taxes and Fees--HAVs hold the promise of eliminating 
        distinctions between rental cars, taxis, ride-hailing services 
        and individual motor vehicle ownership. With the introduction 
        of HAVs, responsibilities must be apportioned for paying 
        Federal and State motor fuel excise taxes, State and Local fees 
        on car rentals, ride-hailing services and taxis, and State and 
        Local vehicle registration and sales taxes.

  <bullet> Harmonization--The customers of ACRA members cross state 
        lines in their current rental cars without restrictions and 
        likely will anticipate the ability to do the same with respect 
        to HAVs rented from ACRA members. As a result, a myriad of 
        complex and perhaps contradictory State laws or regulations 
        with respect to technical, safety or operational standards for 
        HAVs should be avoided wherever possible. Continued State 
        regulation of HAVs in traditional areas such as licensing, 
        registration and insurance requirements would not in most 
        instances pose impediments to the introduction of HAVs in 
        ACRA's opinion.

  <bullet> Privacy--Federal and State regulators have started to 
        wrestle with the difficult challenges of maintaining individual 
        privacy with respect to data generated by today's increasingly 
        complex and technologically advanced motor vehicles and 
        promoting transportation safety and enforcement of Federal and 
        State laws. Such thorny privacy issues will only be multiplied 
        with HAVs, and ACRA urges policymakers to preserve the right of 
        vehicle owners to control and own the data generated by HAVs.

  <bullet> Cybersecurity--The increased automation of motor vehicles, 
        leading ultimately to deployment of HAVs, heightens the risk of 
        cyber-attacks on single cars or groups of vehicles. Such risks 
        must be managed by vehicle manufacturers and designers. 
        However, the same technology that opens HAVs to cyber-attacks 
        may hold the promise of reducing motor vehicle theft and other 
        crimes involving vehicles. The cybersecurity issues related to 
        HAVs must be balanced between protection of the vehicle's 
        occupants and aiding law enforcement agencies in crime 
        prevention and the apprehension of criminals.

  <bullet> ``Training'' of HAV Users--Unless an individual purchases an 
        HAV and is briefed by the seller on the operation of the 
        vehicle (much as is done at many vehicle dealerships today when 
        a vehicle is purchased), most consumers' first interaction with 
        an HAV likely will be in a car rental transaction or other 
        short-term use scenario such as a taxi or ride-hailing use. 
        Manufacturers of the HAVs' hardware and software must assume 
        responsibility for providing consumers with a training manual 
        or user interface presentation upon entry into the HAV. Placing 
        this training requirement on the manufacturer will be much more 
        efficient and effective than a requirement that the owners--
        whether individuals or fleet management companies--of the HAVs 
        provide this training on the use and operation of the HAV.

    Special Attention to Data/Information Ownership and Control--ACRA 
posits that the owners of HAVs--whether an individual, a corporate 
entity, or a fleet management company--and their agents (such as 
property and casualty insurers) must retain full, real-time access and 
control over the personal and vehicle information associated with and 
generated by HAVs.
    Such information access and control must include data ``read'' and 
``write'' capabilities, as well as authenticated, remote command and 
control of a stationary vehicle. In addition, owners of HAVs with 
multiple users, such as consumers with multiple drivers in the same 
family, or car rental companies with many customers using one HAV, must 
be provided with a secure and simple means of erasing personal 
information from the info-entertainment systems of all vehicles, 
including HAVs.
    Currently, the owner of a motor vehicle has full ownership over the 
personal information stored in that vehicle and the vehicle information 
generated by and stored by the vehicle. Such a data ownership construct 
must continue as we transition to HAVs to protect consumer privacy, to 
ensure that the safety promise of HAVs is fully realized, to promote 
competition, and to permit owners of HAVs to manage the information 
generated by their vehicles--whether it is one HAV owned by an 
individual or 100,000 HAVs owned by a car rental company.
    Some stakeholders may suggest that access to personal and vehicle 
data must be limited to hardware or software providers in order to 
fully deploy HAVs. Such a closed silo of access to vehicle information 
would represent a complete public policy reversal of decades of 
consumer and privacy protection. The proponents of such a closed data 
system have not advanced convincing arguments as to why they should be 
granted a monopoly on this data--a monopoly that would be in place even 
when the hardware or software company doesn't own the HAV in question.
    ACRA looks forward to working with the Committee and all 
stakeholders to formulate a personal and vehicle information and data 
access public policy for HAVs that is consistent with consumer 
protection and privacy principles while at the same time achieving the 
safety goals promised by HAVs.
    Thank you for the opportunity to present this statement for the 
record at this hearing. ACRA stands ready to work with the members of 
the Committee and all State and Federal legislators and regulators, as 
well as the many stakeholders interested in the development and 
introduction of HAVs, in the months and years ahead.
                                 ______
                                 
                       Statement from Continental
    Continental is a leading Tier 1 supplier that develops intelligent 
technologies for transporting people and their goods. We provide our 
automotive customers with sustainable, safe and affordable solutions 
that enhance automotive safety. In 2016 we generated more than $43 
billion in sales within our five divisions, Chassis & Safety, Interior, 
Powertrain, Tires, and ContiTech. Continental employs more than 20,000 
employees in the U.S. at more than 80 facilities located in 27 states 
and has more than 220,000 employees in 55 countries worldwide.
    In 2015 there were more than 35,000 lives lost in the U.S. due to 
traffic crashes. Projections for 2016 are expected to increase to more 
than 40,000 fatalities, a level we haven't seen in a decade. While this 
is an alarming number, it is even more startling at a global level--
more than 1.2 million people die in roadway crashes and another 50 
million are injured. This is unacceptable and reversing this trend is 
what motivates each and every employee at Continental.
    In the last 45 years the U.S. has experienced a relative declining 
trend in traffic fatalities with respect to an increased number of 
vehicles on the road and number of miles driven. This is due in large 
part to improved vehicle safety technologies. In the early 1970s the 
number of injuries and fatalities were at an all-time high. The 
introduction of the seat belt helped to reduce the total number of 
traffic fatalities by 10,000 in a few short years. In 1983, the number 
of fatalities was the lowest in 20 years due to the introduction of 
anti-lock braking systems. As numbers began to rise again, the airbag 
became standard in vehicles reducing injuries and fatalities down to 
its lowest number in 30 years. The introduction of electronic stability 
control in the mid-1990s helped to reduce traffic accidents to the 
lowest number in 50 years. Continental projects new crash-avoidance 
technologies will once again reverse the recent increase in fatalities 
as the auto industry moves toward a more widespread implementation of 
Advanced Driver Assist Systems (ADAS).
    Innovation has always been at the heart of the automotive industry. 
From the original concept of the automobile in the late 1800s, the mass 
production lines pioneered in Detroit, to today, the automotive 
industry has always invested in research and development to make their 
products safer, more reliable and more affordable. Today, we are 
witnessing the automotive industry evolve from a crashworthiness 
mindset, where manufacturers try to make the passenger cabin more 
survivable in the event of an accident towards a crash avoidance 
mindset--after all, the best way to survive a crash is to avoid one in 
the first place.
    Continental, and our dedicated employees, are committed to 
developing Safe and Dynamic Driving technologies towards Vision Zero. 
Vision Zero means a future with zero traffic fatalities, injuries and 
ultimately zero accidents. Such a future can only be achieved with the 
help of innovative active and passive safety, driver assistance, and 
automated driving technologies. As Continental brings these 
technologies to market, we exhaustively test products, and subsystems, 
as part of a larger system of advanced driving assistance technologies 
that will be integrated with a variety of components by original 
equipment manufacturers.
    Our Vision Zero philosophy is embedded in each technology we 
develop as we continue to enable automated driving. At Continental, we 
describe our systems approach through three primary actions--sense, 
plan, and act. Whether the technology simply assists the driver like 
many systems on the road today, or ultimately takes over the driving 
task completely, it first must SENSE the surrounding environment and 
gather the necessary data that can be interpreted. Sophisticated sensor 
systems can help eliminate human error and distractions by providing 
360-degree awareness of the road at all times. The data gathered from 
the sensors is then analyzed to identify obstacles or hazards. Our 
systems then dynamically develop a PLAN to determine how to assist the 
driver. Once that plan is in place, the systems will ACT to execute the 
plan to safely and comfortably pilot the vehicle and in certain cases 
avoid a hazard or crash situation. Our Sense, Plan, Act approach is the 
foundation behind Continental's active safety and Advanced Driver 
Assistance System technology, and is a key component to advancing 
automated driving systems. We believe that when fully automated driving 
is possible, traffic fatalities can be reduced by 90 percent because 
that is the percentage of accidents that are caused by human error.
    Continental has been an active participant globally in policy 
discussions and initiatives with governments, automotive industry 
partners, trade associations and other standard setting organizations. 
The collaborative efforts to help establish consistency within the 
emerging self-driving market has been crucial to the advancement of 
automated driving technologies. Continental is currently engaged with 
the Department of Transportation's Smart Cities Program. Several of our 
divisions are working together to develop a highly sophisticated 
intersection in Columbus, Ohio, with vehicle and integrated 
infrastructure technologies that will help save the lives of vehicle 
occupants as well as pedestrians while improving transportation 
efficiency in urban environments. We support the National Highway 
Traffic Safety Administration's recent adoption of the SAE 
International definitions of automation, as we believe it is beneficial 
to helping educate the public in order to distinguish between different 
automated technologies and garner public acceptance.
    Continental is one of the leading suppliers in this market, with a 
complete portfolio of technologies for all defined levels of 
automation. Each innovative safety feature undergoes an extensive 
testing process before becoming available to the market. As a supplier, 
we currently develop a multitude of innovative technologies that can 
save lives and enhance the driving experience under the Level 0 to 
Level 2 definitions of automation. These products are designed based on 
the needs of our customers to assist the driver in interpreting the 
surrounding environment and control the vehicle in order to prevent an 
accident from occurring.
    Continental has been integral in the deployment of current crash 
avoidance technologies such as lane keep assist, rear back up assist, 
automatic emergency braking, and adaptive cruise control, to name a 
few. These crash avoidance technologies are the building blocks to 
higher levels of automated driving and need to be embraced as crash 
avoidance technologies that save lives. All of these technologies can 
be found throughout the fleets of most vehicle manufacturers.
    As the industry moves forward towards Level 3 automation technology 
and beyond, Continental is positioned to supply public and personal 
transportation needs with the safest and most advanced technology 
available on the market. The world and the behavior of drivers within 
it are ever changing, and the vehicle must adapt to these changing 
trends. Our children seem to rely on smartphones more so than vehicles. 
Living in a world of distractions has become commonplace. Automotive 
technology must be developed accordingly. That is why Continental has 
put a great deal of effort into Human Machine Interface technology. We 
want the driver to be aware of their surroundings, be aware of what the 
systems in the vehicle are doing, and be aware of when it is safe to 
relinquish control of the vehicle and when to reengage with the 
vehicle. In addition to informing the occupants, keeping them safe, and 
pedestrians safe, we must also secure the systems within the vehicle. 
As part of system development for Highly Automated Driving, we focus on 
redundancy of vehicle safety systems. That is why we are developing 
complimentary systems and technologies that support existing safety 
systems in the vehicle's architecture.
    Since 2011, we have continued a pursuit of testing and developing 
highly automated driving with next generation technologies like 
automated parking, cruising chauffeur and a complete self-driving 
vehicle in combination with V2V/V2X technology. We were the first 
supplier in the U.S. to be awarded a testing license for automated 
vehicles in Nevada and are currently testing our third generation 
automated vehicle on highways and roads throughout the country and 
around the world. We are currently integrating sophisticated 
technologies such as high resolution flash lidar, which will expand the 
vehicle's detection capabilities. This is the same technology that has 
been deployed on space shuttles at the most advanced technical level, 
and we are working to utilize its potential for road applications. But, 
our continued efforts in this direction would benefit greatly from an 
investment in infrastructure that promotes vehicle to X communication, 
a dedicated spectrum communication band that can be utilized by current 
and future safety systems, and harmonization of safety laws that allows 
for the full real world testing of these technologies.
    The challenges in broadly testing this new and innovative safety 
technology across the country are great. The industry currently faces 
considerable uncertainty on state and Federal requirements that would 
require clarification from the Federal Government's exclusive authority 
to regulate all motor vehicles. The safe commercial deployment of 
potential life saving technology depends on the ability to extensively 
test on public roads under all conditions. In order to envision a 
future of full automation, the government must review Federal motor 
vehicle safety standards that would allow for vehicles that may not be 
under the full control of a driver at all times. Similar to the need of 
improved road conditions as automobiles transitioned from rural 
landscapes to metropolitan areas in the early 1900s, we need a road 
infrastructure that complements automotive advancements, and a legal 
framework that supports a new system of mobility.
    The automotive world is one of excitement. Software developers are 
becoming automotive suppliers, automotive companies are becoming 
software developers, and our vehicles are becoming our smart-device. 
The world of mobility has the capability of expanding to unimaginable 
independence and personal freedom without sacrificing the safety of 
future generations. Continental stands at the ready, alongside our 
industry colleagues, to work with the Committee and Congress in helping 
construct laws that foster innovation, enable mobility, and create a 
safer environment for the public.
                                 ______
                                 
     Statement of Property Casualty Insurers Association of America
    The promise of ``self-driving'' vehicles to improve road safety and 
mobility continues to generate debate about the appropriate regulatory 
framework for the testing and deployment of such vehicles. While 
determining how our existing vehicle regulatory systems need to change 
is very important, there is a fundamental mismatch between the public 
perceptions that auto accidents and insurance costs are decreasing with 
the stark reality that our roads are becoming increasingly dangerous 
resulting in rising costs. Auto accident deaths have increased by 14 
percent over the last two years, and the number of people injured on 
our roads has increased by more than 12 percent since 2014. Someday in 
the future self-driving cars may reduce the number of accidents and 
deaths. However, the potential of automated vehicle technology stands 
in sharp contrast to what is happening on our roads today. The Property 
Casualty Insurers Association of America (PCI) is composed of 1,000 
member companies, representing the broadest cross section of insurers 
of any national trade association. PCI members write $202 billion in 
annual premium, 35 percent of the Nation's property casualty insurance. 
That figure includes over $97 billion, or 42 percent of the auto 
insurance premium written in the United States. PCI's has analyzed the 
recent increase in auto insurance claim frequency and found strong 
correlations with traffic congestion and distracted driving, weaker 
correlations from increasing populations of novice and older drivers, 
and some correlation with liberalized marijuana laws. While it is 
important to prepare for the automated vehicle of the future, we urge 
policymakers to continue to focus on the auto safety challenges that 
face us today such as distracted and impaired driving. The FAST Act 
provides for continuing efforts to increase public awareness and 
improving enforcement as well as establishing an enforceable impairment 
standard for drivers under the influence of marijuana. These are 
critically important measures for reducing accidents, injuries and 
deaths on our Nation's roads. The importance of addressing these issues 
was also the subject of a 2016 bipartisan letter from 23 members of 
congress urging prompt implementation of these provisions of the FAST 
Act by the Department of Transportation.
    Increasing automation of driving functions will mean that some 
motor vehicle laws and regulations will need to be changed to 
accommodate the testing and deployment of self-driving cars. Testing 
requirements, guidelines and standards for use on public roads should 
set clear expectations for the public and provide clear direction for 
technology developers and manufacturers for compliance. Modifications 
to existing auto safety laws and motor vehicle safety standards should 
be rare and limited to only the highest levels (i.e., fully autonomous) 
of automated driving and should clearly define the levels of automation 
to which the modification applies. Clear and effectively enforced auto 
safety laws and vehicle standards can save lives on our roads today 
and, when applied to automated driving systems, develop public 
confidence that will ultimately determine if the technology realizes 
its potential.
    The National Highway Traffic Safety Administration's (NHTSA) 
``Federal Automated Vehicle Policy,'' is intended to provide guidance 
for states on the testing and deployment of highly automated vehicles 
(HAV's). This policy guidance briefly references insurance yet does 
raise issues that are important to the automobile insurance market as 
it seeks to adapt and develop new products to meet consumer's needs 
that should be considered in any policy discussion of self-driving 
vehicles.
Recognition of State Regulation of Insurance and Liability Issues
    NHTSA's policy identifies as Federal responsibilities: setting and 
enforcing safety standards for motor vehicles, recalls, promoting 
public awareness and providing guidance for the states. NHTSA's policy 
also recognizes that it is the state's role to license drivers and 
vehicles, enforce traffic laws and regulate motor vehicle insurance, 
tort and criminal liability issues as they pertain to automated 
vehicles. PCI shares the view that the states should continue to have 
primacy on motor vehicle insurance and liability issues as they do 
today, and we support NHTSA's recognition of that role.
    NHTSA's policy also repeats the recommendation from its 2013 
guidance that entities testing automated technology should provide 
proof of financial responsibility coverage of at least $5 million. PCI 
has not taken a position on this coverage requirement. But as highly 
automated vehicles (HAV's) are deployed for public, states will need to 
consider what, if any, changes need to be made to the states existing 
motor vehicle financial responsibility laws.
Data Collection and Access
    As policymakers consider what data should be collected and retained 
by automated vehicles it is essential for providing customer service 
that the rules provide for reasonable access to that data for insurers 
for claims handling and underwriting purposes. In many auto accidents, 
apportionment of liability is likely to hinge upon whether a human 
driver or the vehicle itself was in control and what actions either the 
driver or the vehicle did or did not take immediately prior to the loss 
event. Access to data for insurers will speed claims handling and 
potentially avoid disputes that could delay compensation to accident 
victims. Access to historical anonymized data on the different 
automated vehicle systems will also be important to help insurers 
innovate and develop new insurance products as the nature of the risk 
changes.
Conclusion
    Automated driving technology holds great promise for the future, 
and implementing clear policies on the Federal and state roles in 
regulating automated vehicle technology and ensuring that insurers have 
access to vehicle data on reasonable terms to efficiently handle 
claims, develop products and underwriting methods are an essential 
first step toward that future. However, policymakers must not lose site 
of the auto safety issues that face us today. We look forward to 
working with policymakers at the Federal and state level to reduce 
accidents on our roads today and in future.
                                 ______
                                 
                                                       Uber
                                                      June 13, 2017
Hon. John Thune, Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson, and members of the 
            Committee:

    We appreciate the opportunity to provide written testimony on the 
future of self-driving or automated vehicle technology.
    Self-driving cars have the potential to bring unimaginable benefits 
to cities, and drastically improve quality of life for millions of 
people around the world. But it is a relatively young and rapidly 
changing field. How policymakers choose to regulate this space will 
play a critical role in determining whether the full potential of this 
technology will be realized.
About Uber
    Uber is a technology company with a simple vision: make safe and 
affordable transportation available everywhere, for everyone and 
everything at the push of a button. Since our founding, we have worked 
to change the way people think about mobility, and continue to use 
technology to connect people and goods to places. Today, 75 percent of 
the U.S. population lives in a county where they have access to Uber.
    Two years ago, we established our Advanced Technologies Group in 
Pittsburgh, Pennsylvania. And today, we employ one of the strongest 
self-driving engineering groups in the world, with the practical 
experience that comes from 1.2 billion miles traveled on roads every 
month through our ridesharing and delivery services in hundreds of 
cities, and world-class manufacturing partners.
    Our goal is to make safe self-driving cars available to people 
everywhere. After thorough testing and evaluation in closed settings--
and on-road testing with employees--we began operating Self-Driving 
Ubers on public roads in Pittsburgh last September, giving uberX riders 
an opportunity to experience self-driving technology for themselves. In 
February, our Self-Driving Ubers started picking up passengers in 
Tempe, Arizona.
    Before any rider experiences our technology, we validate it in 
simulation, monitor it on a closed test track, and test it on-road 
without passengers. In addition, we ensure that trained operators are 
in the driver's seat for each release of the nascent technology to 
continually monitor and learn from the performance of the system. We 
believe that the deployment of self-driving cars will only succeed if 
we are able to learn from real-word situations. It also provides us 
with an opportunity to gain and preserving user trust. Through our 
Pittsburgh and Tempe operations, we are accomplishing both.
    While we have not yet deployed fully self-driving cars--i.e. 
vehicles that operate without a driver--we hope to do so in the coming 
years. Our hope is that by transitioning to fleets of self-driving 
cars, we can help save more than a million lives each year around the 
world, reduce parking and traffic on roads, open up more land for 
commercial and residential development, reduce carbon emissions 
overall, and reduce the cost of transportation for average 
households.\1\<SUP>,</SUP>\2\ According to the University of Texas, 
these self-driving-led improvements could lead to cost savings of over 
$1.4 trillion per year in avoided car crashes, reduced congestion 
delays, and productivity gains en route.\3\
---------------------------------------------------------------------------
    \1\ ITF study, SDV future requires vehicle fleet less than 10 
percent of its current size: http://www.itf-oecd.org/sites/default/
files/docs/15cpb_self-drivingcars.pdf
    \2\ UC Berkeley study, SDVs with EVs could reduce emissions per 
vehicle mile by more than 90 percent https://drive.google.com/a/
uber.com/file/d/0BzdDAOtdz76gUTFlX0x1bERnN2M/view?usp=sharing
    \3\ https://mobilitylab.org/2017/03/20/autonomous-vehicles-safety-
add-traffic/
---------------------------------------------------------------------------
    To unlock these outcomes, it's critical that our regulatory 
environment does the following:

  1.  Enables and encourages shared vehicle operation and use (through 
        ridesharing or commercial vehicle fleets) in addition to the 
        traditional direct-to-consumer sales model for passenger 
        vehicles;

  2.  Acknowledges the differences between self-driving software and 
        traditional vehicle equipment software and sets the appropriate 
        rules for each;

  3.  Does not fundamentally re-balance powers between local and 
        Federal authorities that regulate vehicle safety or tie the 
        industry to standards that are still evolving.
Encouraging shared vehicle operation and use
    To date, policies addressing passenger vehicle operation and use 
have largely been based on a traditional manufacturer-sold, owner-
operated model. But that is not the approach that many technology 
companies and automakers are taking for self-driving cars. Rather, 
companies are investing in shared, self-driving fleets because the 
model creates far more potential for the faster and safer development 
of self-driving technologies for several reasons:

  <bullet> First, the sheer expense of owning and operating a self-
        driving car, which is expensive and difficult to build, makes 
        the technology cost-prohibitive for most households. The vast 
        majority of people will encounter, experience, and become 
        familiar with this technology through shared self-driving 
        fleets that are deployed through a ridesharing network. In 
        addition to gaining access at a more affordable cost, a fleet 
        approach will also provide access to higher quality sensing and 
        computing features that will be continually updated.

  <bullet> Second, a world where people simply trade the cars they have 
        today for self-driving ones will neither reap the benefits of 
        less congestion and pollution, nor eliminate the expense of 
        owning a car. The International Transport Forum has studied the 
        potential of shared self-driving cars, and proposed that a city 
        that moves to a shared, self-driving future will require a 
        vehicle fleet less than 10 percent its current size.\4\
---------------------------------------------------------------------------
    \4\ http://www.itf-oecd.org/sites/default/files/docs/15cpb_self-
drivingcars.pdf

  <bullet> Third, fleet operators will be better equipped to ensure the 
        safe use of self-driving cars than individual owner-operators. 
        In a direct-to-consumer model, an owner-operator would be 
        responsible for maintaining hardware and downloading software 
        updates to improve the safety of his or her vehicle. He or she 
        would also be responsible for making decisions about when, 
        where, and how to operate the vehicle. By contrast, a fleet 
        operator has the ability to hire qualified professionals, 
        perform vehicle maintenance on a daily basis if necessary, 
        update both software and hardware, and impose operational 
        restrictions on use of all the vehicles in the fleet. For 
        example, if a fleet operator understood that a particular route 
        was difficult for self-driving cars, that operator could 
        mandate navigational paths around that route; similarly, an 
        operator could restrict the use of self-driving cars during 
---------------------------------------------------------------------------
        difficult weather conditions.

  <bullet> Finally, a fleet approach allows companies to control how 
        cars are deployed to ensure they only operate in conditions 
        that the cars are capable of handling. Companies are then able 
        to adjust the operating conditions and improve the software as-
        needed. Today, Self-Driving Ubers only run along certain roads 
        that have been pre-selected based on software capabilities and 
        corresponding road conditions; these roads have been mapped in 
        advance and programmed to take road signs and other 
        infrastructure into account. By contrast, self-driving cars 
        sold to individuals must be able to operate on all roads and 
        under all conditions before they are distributed.

    Our decision to operate self-driving cars using a ridesharing 
fleet, rather than following the end-consumer model traditionally used 
by automotive manufacturers, is a natural byproduct of these facts.
    To be clear, this vision of the future does not reflect a dispute 
between technology companies and traditional automakers. Many 
traditional automakers have also indicated they are interested in 
pursuing various types of fleet models--such as Mercedes Boost and GM 
Maven. So as policymakers consider legislation addressing self-driving 
and automated technologies, it is critical they take the benefits of a 
paradigm shift from private car ownership to shared self-driving cars 
into account.
Self-driving software cannot be regulated the way other vehicle 
        equipment is
    The embedded software (e.g., Ford SYNC or cruise control 
technology) in today's motor cars sold to end consumers is installed 
once and rarely--if ever--updated. By contrast, self-driving software 
(e.g., maps, routes, sensing and perception) must be updated frequently 
for safety and security. NHTSA's guidance last year demonstrated a 
desire to regulate self-driving technology under its authority over 
motor vehicle equipment and embedded software, but the proposed 
approach overlooks the fundamental difference between self-driving 
software and the software traditionally embedded in motor vehicle 
equipment.
    A regulatory development and enforcement process that takes months 
or years to complete may be sensible for embedded software that cannot 
be easily updated after a vehicle is sold. But this process should not 
prohibit companies from upgrading their self-driving software daily. 
Given the speed of our learnings, and the safety/security concerns each 
software update may address, voluntary standards imposed by industry 
groups will prove more effective than regulatory enforcement (more on 
those standards below). Overly burdensome restrictions on software 
updates will only reduce the pace at which safety/security improvements 
are deployed, and NHTSA is neither equipped nor staffed to keep pace 
with how rapidly these updates must roll out. Ultimately, this will 
prevent the safest technology from making its way onto the roads as 
quickly as possible.
    As a parallel example, most technology companies already have 
security teams focused on identifying vulnerabilities and preventing 
them from being exploited by patching each flaw quickly after it is 
discovered. If a software review process is required each time a 
vulnerability in self-driving software is discovered, that would impede 
developers' abilities to keep self-driving cars secure by pushing 
timely updates.
    While we appreciate that NHTSA's proposed process (Federal 
Automated Vehicles Policy (Docket No. NHTSA-2016-0090) may have been 
motivated by a goal to develop a flexible framework that would adapt to 
the rapidly changing technology, we believe it will have the opposite 
effect. Their approach treats this software as one would a rigid 
product with infrequent (if any) changes, instead of a constantly 
evolving technology. It also does not take into consideration the idea 
that self-driving cars may only be deployed in certain pre-defined 
scenarios that companies deem their software ready to address (e.g., 
specific routes). Instead of establishing a burdensome oversight 
process, the agency's focus should be on defining what results 
companies must achieve for a specific use-case instead of how they are 
achieved.
Self-driving technology does not warrant re-balancing state and Federal 
        powers
    In the United States, Federal authorities have always regulated 
motor vehicle equipment, while regulating drivers who operate vehicles 
has always been in the purview of individual states. The states, as a 
result, have long been an incubator for innovative regulatory 
approaches to improve driver safety. For example, states have enacted 
laws combating driver distraction by setting rules around cell phone 
use and texting, which apply to the driver's behavior while operating 
the vehicle. States determine what rules of the road are most 
appropriate for their constituents and their environment, and tailor 
their own regulation of driver behavior and vehicle use to meet local 
needs.
    Uber has experienced first-hand how innovation at the state and 
local level allows for the creation of rules tailored to the local 
environment. We were able to work with regulators in Florida to develop 
a framework that suited the state's needs--one that was ultimately very 
different from the framework used in New York City, and different still 
from the one used in Chicago. As a result, within five years over 75 
percent of the U.S. population has access to ridesharing, and has 
enjoyed the benefits that come with greater access to affordable, 
reliable transportation.
    Similarly, as self-driving software begins to take the role of the 
human driver, states should be allowed to continue to investigate, 
innovate, and pilot different approaches as they deem appropriate. 
States have always defined the standard by which humans are licensed to 
drive on state roads, and evaluate a human's ability to maneuver 
driving tasks. For example, some (but not all) states require drivers 
to demonstrate an ability to parallel park a vehicle. In keeping with 
that approach, states should evaluate a self-driving car's ability to 
successfully maneuver those tasks.
    However, some entities have argued that self-driving cars will 
cross state borders and that a national framework is necessary. We 
believe that self-driving software should be able to determine a 
vehicle's location and adapt to local requirements as needed--
particularly if there are specific local dynamics at play like 
inclement weather conditions. In addition, we recognize the role of 
Congress and NHTSA in setting high-level, universal standards, and look 
forward to working with officials and other industry stakeholders on 
that process.
    Relatedly, industry itself often quickly settles on best practice 
safety standards in working groups. For example, ISO 26262, an 
international standard for road vehicle functional safety, is currently 
being updated to address self-driving technology. In addition, a new 
standard called SoTIF or Safety of the Intended Function has been 
drafted specifically to address the complexities of self-driving 
systems. And as former Administrator Rosekind himself highlighted 
during the November 16, 2016 U.S. Senate Appropriations Committee 
hearing on ``The Automated and Self-Driving Vehicle Revolution,'' over 
20 automakers agreed to emergency braking features well ahead of the 
regulatory requirement, and industry came together to develop best 
practices on cybersecurity. This approach is preferable, not only 
because technology changes so rapidly, but also because it ensures one 
technology is not favored over another.
    This is also why commonly-used standards like the levels of 
automation set by the SAE must be allowed to shift as technology 
changes--with industry input--rather than be codified in law. The SAE 
levels were intended to describe the various levels of automation so 
that developers could self-classify the types of technology they were 
building. They were never intended--and were not drafted--to be binding 
legal standards. Companies are already working simultaneously on 
technologies that fall under different levels of automation. For 
example, refining street maps and routing information for human drivers 
to use while operating vehicles that require human input and monitoring 
does not preclude a company from developing high-definition maps and 
autonomy software that allows vehicles to perceive their surroundings 
and navigate without human driver input. Multiple investments allow 
companies to leapfrog certain levels as they become obsolete. It's 
possible that in the future, none of the levels of automation will 
require human input as technology advances.
Recommendations
    Even under relatively optimistic scenarios, we likely will not see 
self-driving cars become a significant portion of the U.S. vehicle 
fleet for many years. In the coming years, 17 million new vehicles will 
be sold per year, only a small number of which will be self-driving 
cars; self-driving cars will only be a small proportion of the overall 
U.S. fleet of over 250 million vehicles for years to come. These facts 
suggest that--despite the heavy interest among regulators, media, and 
the public--elaborate guidance or hasty regulation of self-driving cars 
would be inappropriate. The tremendous potential of this technology--
for instance, to remove the human choice or error tied to 94 percent of 
crashes--can best be achieved through alternative approaches.
    Since conventional vehicles will occupy the vast majority of new 
vehicles for the foreseeable future, we encourage Congress and the DOT 
to focus their attention and limited agency resources on higher-impact 
efforts that can serve all road users regardless of levels of 
automation. For example, ensuring that funding is going toward adopting 
Complete Street Design Standards, building uniform pavement without 
potholes, and creating protected bike lanes or separations for 
pedestrian walkways that calm traffic and reduce potential interactions 
between vehicles and bikers or pedestrians.
    To be clear, a dramatic `smart infrastructure' overhaul is not 
necessary for self-driving deployment. Rather, Congress should focus on 
doing what it already does best: maintaining our road infrastructure, 
which has been underfunded for some time, and needs $3.6 trillion in 
repairs by 2020.\5\ In fact, focusing too heavily on `smart 
infrastructure' could generate costly investments and will slow down 
the adoption of self-driving cars and limit their use to only those 
places able to afford costly connected infrastructure adoption.
---------------------------------------------------------------------------
    \5\ American Society of Civil Engineers, http://
www.infrastructurereportcard.org/
---------------------------------------------------------------------------
    Finally, to the extent Congress and NHTSA choose to allocate 
resources specifically to self-driving matters now, we recommend that 
the agency investigate amending outdated FMVSS to address self-driving 
cars. Nearly half of the FMVSS have some reference to the driver, 
driving controls, or driver seating position, and NHTSA has not laid 
out a time-frame for amending them. If they remain unchanged, these 
likely will be an impediment to the development and design of self-
driving cars, make product planning more difficult, and potentially 
force companies to include equipment that could make self-driving cars 
less safe.
    Uber thanks Chairman Thune, Ranking Member Nelson, Senator Peters 
and other members of the Committee for highlighting the importance of 
policy frameworks that enable companies able to deploy self-driving 
cars safely and rapidly. We appreciate the opportunity to provide input 
on how governments and companies can work together to maximize the 
benefits of this technology, and look forward to working with members 
of the Committee and others to make it a reality.
            Sincerely,
                                             Eric Meyhofer,
                         Head of Advanced Technologies Group (ATG),
                                                Uber Technologies, Inc.
cc: Hon. Gary Peters, Commerce Committee Member
                                 ______
                                 
                                                     March 29, 2016

Moody's forecasts U.S. adoption of self-driving cars `several decades' 
                                  away

                             Reuters Staff

    WASHINGTON (Reuters)--Near-universal adoption of self-driving cars 
in the United States is likely by around 2055 and poses a long-term 
threat to auto insurance companies, Moody's Investors Service said in a 
research report released Tuesday.
    The report forecasts that fully autonomous or driverless cars could 
be a common option on U.S. vehicles by about 2030 and is likely to be 
standard on all new vehicles sold around 2035.
    That would lead to the technology being in a majority of cars on 
U.S. roads by around 2045.
    ``Accident frequency will fall sharply over time, and will 
ultimately translate into significantly
    lower premiums and consequently lower profits for auto insurers,'' 
the report said.
    The Moody's report estimates that over the next five to 10 years, 
automotive technologies like automatic emergency braking are likely to 
boost insurance profitability as they may reduce crashes but not lead 
to an immediate reduction in rates.

http://www.reuters.com/article/us-moody-s-autos-selfdriving/moodys-
forecasts-u-s-adoption-of-self-driving-cars-several-decades-away-
idUSKCNOWV220
                                 ______
                                 
                      Electronic Privacy Information Center
                                      Washington, DC, June 13, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

RE: Hearing on ``Paving the Way for Self-Driving Vehicles''

Dear Chairman Thune and Ranking Member Nelson:

    We write to your regarding the upcoming hearing ``Paving the Way 
for Self-Driving Vehicles,'' \1\ on the privacy and safety risks of 
connected and autonomous vehicles. For more than a decade, the 
Electronic Privacy Information Center (``EPIC'') has warned Federal 
agencies and Congress about the growing risks to privacy resulting from 
the increasing collection and use of personal data concerning the 
operation of motor vehicles.\2\
---------------------------------------------------------------------------
    \1\ Paving the Way for Self-Driving Vehicles, 115th Cong. (2017), 
S. Comm. on Commerce, Science, and Transportation, https://
www.commerce.senate.gov/public/index.cfm/press
releases?ID=B7164253-4A43-4B70-8A73-68BFFE9EAD1A (June 14, 2017).
    \2\ See generally EPIC, ``Automobile Event Data Recorders (Black 
Boxes) and Privacy,'' https://epic.org/privacy/edrs/. See also EPIC, 
Comments, Docket No. NHTSA-2002-13546 (Feb. 28, 2003), available at 
https://epic.org/privacy/drivers/edr_comments.pdf (``There need to be 
clear guidelines for how the data can be accessed and processed by 
third parties following the use limitation and openness or transparency 
principles.''); EPIC, Comments on Federal Motor Vehicle Safety 
Standards; V2V Communications, Docket No. 2016-0126 (Apr. 12, 2017), 
https://epic.org/apa/comments/EPIC-NHTSA-V2V-Communications.pdf 
[hereafter ``V2V comments'']; EPIC, Comments on the Benefits, 
Challenges, and Potential Roles for the Government in Fostering the 
Advancement of the Internet of Things, Docket No. 160331306-6306-01 
(June 2, 2016), https://epic.org/apa/comments/EPIC-NTIA-on-IOT.pdf; 
EPIC, Comments on Federal Motor Vehicle Safety Standards: ``Vehicle-to-
Vehicle (V2V) Communications,'' Docket No. NHTSA-2014-0022 (Oct. 20, 
2014), https://epic.org/privacy/edrs/EPIC-NHTSA-V2V-Cmts.pdf; EPIC, 
Comments on the Privacy and Security Implications of the Internet of 
Things (June 1, 2013), https://epic.org/privacy/ftc/EPIC-FTC-IoT-
Cmts.pdf; EPIC et al., Comments on the Federal Motor Safety Standards; 
Event Data Recorders, Docket No. NHTSA-2012-0177 (Feb. 11, 2013), 
https://epic.org/privacy/edrs/EPIC-Coal-NHTSA-EDR-Cmts.pdf; EPIC, 
Comments, Docket No. NHTSA-2004-18029 (Aug. 13, 2004); https://
epic.org/privacy/drivers/edr_
comm81304.html.
---------------------------------------------------------------------------
    EPIC was established in 1994 to focus public attention on emerging 
privacy and civil liberties issues. EPIC engages in a wide range of 
public policy and litigation activities. EPIC testified before the 
House of Representatives in 2015 on ``the Internet of Cars.'' \3\ 
Recently, EPIC urged the Ninth Circuit of Appeals to protect the right 
of consumers to pursue safety issues with connected vehicles.\4\ As 
EPIC explained in that case:
---------------------------------------------------------------------------
    \3\ Statement of Khaliah Barnes, hearing on The Internet of Cars 
before the House Committee on Oversight and Government Reform, November 
18, 2015, https://epic.org/privacy/edrs/EPIC-Connected-Cars-Testimony-
Nov-18-2015.pdf.
    \4\ Brief of Amicus Curiae EPIC, Cahen v. Toyota Motor Corporation, 
No. 16-15496 (9th Cir. Aug. 5, 2016), https://epic.org/amicus/cahen/
EPIC-Amicus-Cahen-Toyota.pdf.

        ``Connected vehicles'' expose American drivers to the risks of 
        data breach, auto theft, and physical injury. The internal 
        computer systems for these vehicles are subject to hacking, 
        unbounded data collection, and broad-scale cyber attack. 
        Despite this extraordinary risk, car manufacturers are 
        expanding the reach of networked vehicles that enable third 
        party access to driver data and vehicle operational systems.\5\
---------------------------------------------------------------------------
    \5\ Id.

    EPIC will also be participating in the FTC/NHTSA workshop on 
privacy and security issues in connected cars later this month.\6\
---------------------------------------------------------------------------
    \6\ Connected Cars: Privacy, Security Issues Related to Connected 
Automated Vehicles, Federal Trade Commission, https://www.ftc.gov/news-
events/events-calendar/2017/06/connected-cars
-privacy-security-issues-related-connected.
---------------------------------------------------------------------------
    Connected vehicles pose substantial safety and privacy risks. To 
date there have been several high-profile accidents involving self-
driving car including:

  <bullet> A bicyclist was struck by an autonomous driving car after it 
        suddenly activated its brakes;\7\
---------------------------------------------------------------------------
    \7\ Patrick May, Robot-Human Smackdown: Self-Driving Car and 
Bicyclist Collide in San Francisco, The Mercury News, Jun. 9, 2017, 
http://www.mercurynews.com/2017/06/09/robot-
human-smackdown-self-driving-car-and-bicyclist-collide-in-san-
francisco/.

  <bullet> Uber recently suspending its ``self-driving'' program in 
        Arizona after one of the company's vehicles struck a car with 
        passengers inside.\8\ The Uber vehicle was in self-driving 
        mode, presumably ``Level 3'';
---------------------------------------------------------------------------
    \8\ Mike Isaac, Uber Suspends Tests of Self-Driving Vehicles After 
Arizona Crash, New York Times, Mar. 25, 2017, https://www.nytimes.com/
2017/03/25/business/uber-suspends-tests
-of-self-driving-vehicles-after-arizona-crash.html; Steven Overly, Uber 
Self-Driving Car Flipped On Side In Arizona Crash, Chicago Tribune, 
Mar. 25, 2017, http://www.chicagotribune
.com/bluesky/technology/ct-uber-self-driving-car-crash-20170325-
story.html.

  <bullet> A self-driving car failed to stop at a red light at a busy 
        intersection;\9\ and
---------------------------------------------------------------------------
    \9\ Mike Isaac & Daisuke Wakabyashi, A Lawsuit Against Uber 
Highlights the Rush to Conquer Driverless Cars, New York Times, Feb. 
24, 2017, https://www.nytimes.com/2017/02/24/
technology/anthony-levandowski-waymo-uber-google-lawsuit.html.

  <bullet> A Tesla owner was recently involved in an accident when the 
        autopilot failed recognize a lane shift in a construction zone, 
        resulting in a collision with a construction barrier.\10\
---------------------------------------------------------------------------
    \10\ Antti Kautonen, Tesla Driver Blames Autopilot for Barrier 
Crash, Autoblog, Mar. 3, 2017, http://www.autoblog.com/2017/03/03/
tesla-autopilot-barrier-crash/.

    These accidents should alarm the Committee and the public, but they 
are only one of myriad issues with autonomous vehicles. Wide-scale 
malicious automobile hacking is no longer theoretical.\11\ Although a 
full-scale remote car hijacking is certainly a serious risk to car 
owners and others,\12\ hijacking is not the only risk posed by 
connected car vulnerabilities.\13\ Connected cars leave consumers open 
to car theft, data theft, and other forms of attack as well. These 
attacks are not speculative; many customers have already suffered due 
to vulnerable car systems. For example, criminals have exploited 
vulnerabilities in connected cars to perpetrate car ``ransomware'' 
scams, ``where a car is disabled by malicious code until a ransom is 
paid.'' \14\
---------------------------------------------------------------------------
    \11\ Brief of Amicus Curiae EPIC, Cahen v. Toyota Motor 
Corporation, No. 16-15496 (9th Cir. Aug. 5, 2016), available at https:/
/epic.org/amicus/cahen/EPIC-Amicus-Cahen-Toyota.pdf.
    \12\ See, e.g., Andy Greenberg, Hackers Remotely Kill a Jeep On the 
Highway--With Me in It, Wired (July 21, 2015), https://www.wired.com/
2015/07/hackers-remotely-kill-jeep-highway/.
    \13\ See Bruce Schneier, The Internet of Things Will Turn Large-
Scale Hacks Into Real World Disasters, Motherboard (July 25, 2016), 
http://motherboard.vice.com/read/the-internet-of-
things-will-cause-the-first-ever-large-scale-internet-disaster 
(explaining that information systems face three threats: theft (i.e., 
loss of confidentiality), modification (i.e., loss of integrity), and 
lack of access (i.e., loss of availability)).
    \14\ Nora Young, Your Car Can be Held for Ransom, CBCradio (May 22, 
2016), http://www.cbc.ca/radio/spark/321-life-saving-fonts-ransomware-
cars-and-more-1.3584113/your-car
-can-be-held-for-ransom-1.3584114.
---------------------------------------------------------------------------
    Car manufacturers must adopt data security measures. Early 
mitigation of threats to public safety may reduce auto fatalities, spur 
innovation, and result in safer vehicles.\15\ There should be great 
concern that each of autonomous car maker wants to be the first to have 
their vehicle available to the public can poses substantial safety 
risks.\16\ A functioning autonomous vehicle does not mean security and 
the race to be the first with a functioning, marketable autonomous 
vehicle jeopardizes the safety and security of consumers.
---------------------------------------------------------------------------
    \15\ See generally, Ralph Nader, Unsafe at Any Speed (1965).
    \16\ Mike Isaac, Lyft and Waymo Reach Deal to Collaborate on Self-
Driving Cars, New York Times, May 14, 2017, https://www.nytimes.com/
2017/05/14/technology/lyft-waymo-self-dri
ving-
cars.html?rref=collection%2Fsectioncollection%2Ftechnology&action=click&
contentCollection
=technology&region=stream&module=stream_unit&version=latest&contentPlace
ment=3&pgtype
=sectionfront; Alex Davies, Detroit Is Stomping Silicon Valley in the 
Self-Driving Car Race, Wired, Apr. 3, 2017, https://www.wired.com/2017/
04/detroit-stomping-silicon-valley-self-driving-car-race/.
---------------------------------------------------------------------------
    Recently, Charlie Miller, whose research led Chrysler to recall 1.4 
million vehicles after he hacked into a Jeep,\17\ stated the danger in 
self-driving ridesharing and taxi services stating that ``Autonomous 
vehicles are at the apex of all the terrible things that can go wrong . 
. . Cars are already insecure, and you're adding a bunch of sensors and 
computers that are controlling them . . . If a bad guy gets control of 
that, it's going to be even worse.'' \18\ The potential risks that 
connected cars pose to the driver, as well as the potential risk to the 
public, cannot be understated.
---------------------------------------------------------------------------
    \17\ Andy Greenberg, After Jeep Hack, Chrysler Recalls 1.4 Million 
Vehicles for Bug Fix, Wired, Jul 24, 2015, https://www.wired.com/2015/
07/jeep-hack-chrysler-recalls-1-4m-vehicles-bug-fix/; Andy Greenberg, 
Hackers Remotely Kill A Jeep on the Highway--With Me In It, Wired, Jul. 
21, 2015, https://www.wired.com/2015/07/hackers-remotely-kill-jeep-
highway/; Andy Greenberg, The Jeep Hackers Are Back To Prove Car 
Hacking Can Get Much Worse, Wired, Aug. 1, 2016, https://www.wired.com/
2016/08/jeep-hackers-return-high-speed-steering-acceleration-hacks/.
    \18\ Andy Greenberg, Securing Driverless Cars From Hackers Is Hard. 
Ask The Ex-Uber Guy Who Protects Them, Wired, Apr. 12, 2017, https://
www.wired.com/2017/04/ubers-former-top-hacker-securing-autonomous-cars-
really-hard-problem/.
---------------------------------------------------------------------------
    In paving the way for the development and deployment of self-
driving cars this Committee should be aware of the National Highway 
Traffic Safety Administration's recent proposals that would pre-empt 
states from being involved in this process. Historically, Federal 
privacy laws have not preempted strong state protections or enforcement 
mechanisms.\19\
---------------------------------------------------------------------------
    \19\ See e.g., Electronic Communications Privacy Act; Right to 
Financial Privacy Act; Cable Communications Privacy Act; Video Privacy 
Protection Act; Employee Polygraph Protection Act; Telephone Consumer 
Protection Act; Driver's Privacy Protection Act; Gramm-Leach-Bliley 
Act.
---------------------------------------------------------------------------
    However, NHTSA recently proposed issuing a new Federal Motor 
Vehicle Safety Standard for vehicle-to-vehicle communications \20\ and 
the Federal Automated Vehicle Policy envisions NHTSA issuing FMVSS's as 
connected cars are developed.\21\ However, under the Vehicle Safety Act 
the states are pre-empted from issuing any standards for vehicle 
performance if it is not identical to an existing FMVSS that regulates 
the same aspect of performance.\22\ As EPIC recently explained to the 
NHTSA:
---------------------------------------------------------------------------
    \20\ Federal Motor Vehicle Safety Standards; V2V Communications, 82 
Fed. Reg. 3,854 (Jan. 12, 2017).
    \21\ Nat'l Highway Traffic Safety Admin., Federal Automated 
Vehicles Policy (Sep. 2016).
    \22\ ``When a motor vehicle safety standard is in effect under this 
chapter, a State or a political subdivision of a State may prescribe or 
continue in effect a standard applicable to the same aspect of 
performance of a motor vehicle or motor vehicle equipment only if the 
standard is identical to the standard prescribed under this chapter.'' 
49 U.S.C. Sec. 30102(b)(1).
---------------------------------------------------------------------------
        States have a unique perspective allowing them to develop 
        innovative programs to protect consumers. As [connected car] 
        technology evolves, the states should be allowed to operate as 
        laboratories of democracy--a role they have traditionally held 
        in the field of privacy.\23\
---------------------------------------------------------------------------
    \23\ V2V comments at 10.
---------------------------------------------------------------------------
    The Committee must make clear that the states must continue to have 
the same pivotal role for developing privacy regulations that they have 
traditionally held.
    EPIC urges this Committee to take these accidents and security 
flaws into account as it examines the future of transportation as it 
relates to these vehicles. In addition to the substantial privacy 
concerns that connected cars present,\24\ these recent incidents show 
that there are substantial safety concerns to everyone on the road. 
National minimum standards for safety and privacy are needed to ensure 
the safe deployment of connected vehicles.
---------------------------------------------------------------------------
    \24\ 8 U.S. Gov. Accountability Office, GAO-14-649T, Consumers' 
Location Data: Companies Take Steps to Protect Privacy, but Practices 
Are Inconsistent, and Risks May Not be Clear to Consumers (2014), 
http://gao.gov/products/GAO-14-649T; Jeff John Roberts, Watch Out That 
Your Rental Car Doesn't Steal Your Phone Data, Fortune, Sep. 1, 2016, 
http://fortune.com/2016/09/01/rental-cars-data-theft/.
---------------------------------------------------------------------------
    Auto manufacturers have a particular responsibility to ensure the 
safety of drivers. Mr. Mitch Brainwol from the Alliance of Automobile 
Manufacturers should be asked:

  <bullet> What are automobile manufacturers doing to ensure data 
        security in connected cars?

    Mr. Rob Csongor from NVIDIA Corporation should be asked:

  <bullet> What information is NVIDIA collecting on drivers?

  <bullet> What is NVIDIA doing to secure driver data?

  <bullet> What cybersecurity measures has NVIDIA adopted to minimize 
        the risk that its cars can be hacked?

    We ask that this Statement be entered in the hearing record. EPIC 
looks forward to working with the Committee on these issues.
            Sincerely,
                                             Marc Rotenberg
                                                     EPIC President
                                       Caitriona Fitzgerald
                                                   EPIC Policy Director
                                                 Kim Miller
                                                 EPIC Policy Fellow
                                 ______
                                 
        Prepared Statement of John Bozzella, President and CEO, 
                 Association of Global Automakers, Inc.
    On behalf of the Association of Global Automakers (``Global 
Automakers''), I am pleased to provide the following statement for the 
record of the Senate Committee on Commerce, Science, and Transportation 
hearing entitled ``Paving the Way for Self-Driving Vehicles.'' We 
commend Chairman Thune, Ranking Member Nelson, and Senator Peters for 
their commitment to pursue bipartisan legislation on automated vehicles 
as reflected in their recently released principles.
    Global Automakers represents international automobile manufacturers 
that design, build, and sell cars and light trucks in the United 
States. Our automaker members have invested $56 billion in U.S. 
facilities and directly employ 98,500 employees located throughout the 
United States. Global Automakers' members have 28 manufacturing 
facilities in twelve states and built 4.6 million vehicles in the 
United States in 2016, a 41 percent increase in production in the last 
decade. Global Automakers and our member companies are committed to 
creating the safest, cleanest and most technologically advanced 
vehicles on the road.
    The automotive industry is making major investments in the research 
and development of automated vehicle technology here in the United 
States, and Global Automakers thanks the Committee its interest and 
proactive approach to vehicle automation. As you know, the Department 
of Transportation (DOT) has demonstrated Federal leadership and 
established a process to provide assurance that safety is being 
addressed at the national level through the issuance of its Federal 
Automated Vehicles Policy. At the same time, a number of states around 
the country are pursuing policies to regulate automated vehicles. 
Therefore, it is important and timely that the Committee is focusing 
its attention on this subject. With the right policies, the United 
States can continue to lead in the development of these technologies 
and bring their benefits to the American people as quickly as possible.
    Automated vehicle systems can save lives, enhance mobility, improve 
transportation efficiency, and reduce fuel consumption. Public policy 
should spur this innovation, encourage testing, and permit nationwide 
deployment of vehicles across all levels of automation. Decisions made 
today will determine how fast and how far our systems evolve, and 
inconsistent policy approaches--particularly as they relate to vehicle 
characterization, performance, and design--could have long-lasting 
consequences. Only the Federal Government can ensure a framework that 
encourages and enables the development of highly automated vehicles, 
and it should work with state and local policymakers to provide 
guidance and establish clear policy roles and responsibilities.
    The United States has long recognized that the automobile market is 
a national market and that manufacturers' success rests on the ability 
to sell vehicles that can be operated in all fifty states. The U.S. 
further recognizes that vehicle safety is a national priority, and the 
Motor Vehicle Safety Act has set clear limits on the role of states in 
regulating the design of motor vehicles. As opposed to the regulation 
of conventional vehicles comprised primarily of mechanical systems, 
automated vehicles have systems that rely as much on software as on 
hardware. This presents new challenges for policymakers and regulators. 
To address these emerging issues, DOT has established a nimble and 
flexible approach to oversee the safe testing and deployment of 
automated driving systems. In addition to the Federal Policy, the 
National Highway Traffic Safety Administration (NHTSA) maintains 
existing authority over motor vehicle safety to exercise recall and 
enforcement powers to address areas where there is deemed to be an 
unreasonable risk to safety. Unfortunately, while NHTSA examines 
potential future regulatory action for automated vehicle systems, the 
current scope of the Motor Vehicle Safety Act does not explicitly 
prevent states from developing disparate requirements in the absence of 
Federal standards.
    Global Automakers support efforts by Congress and the 
Administration to ensure that there is a consistent national approach 
to automated vehicle policy in the United States and clarify the 
respective roles of federal, state and local governments. As stated in 
the Federal Automated Vehicle Policy, the primary roles and 
responsibilities of the Federal Government include setting Federal 
Motor Vehicle Safety Standards (FMVSS), ensuring compliance with 
standards, investigating defects, and issuing guidance for 
manufacturers and other entities. In contrast, state responsibility 
focuses on issues related to the operation of those vehicles on their 
roads, such as driver licensing and responsibility, vehicle 
registration, and insurance. This approach has supported decades of 
improvement in motor vehicle safety. Preempting state laws and 
regulations that prescribe design and performance standards for 
automated vehicles would help spur the further development, testing and 
deployment of this life-saving technology.
    Congress can also help expedite automated technology deployment by 
providing NHTSA with authority to exempt an increased number of highly 
automated vehicles from standards that would otherwise limit their 
deployment. Existing regulations, understandably, did not envision the 
emergence of automated vehicle technology, and as a result there is 
uncertainty when seeking to certify a vehicle that is designed to 
operate without the engagement, or possibly the presence, of a driver. 
As noted in a March 2016 report by the U.S. DOT Volpe Center, there are 
a number of FMVSS that may limit the deployment of automated vehicles 
due to either explicit or implicit references to the presence of human 
driver.
    Similarly, while expanded exemptions may provide greater 
opportunities for the deployment of automated vehicle systems in the 
short-term, it may not provide the necessary long-term certainty for 
manufacturers. It is therefore important that the Federal Government 
identify any outdated standards that may unnecessarily limit innovation 
and work collaboratively with industry and other stakeholders to update 
those standards to accommodate automated systems.
    Global Automakers and our member companies believe that automated 
vehicle technologies can provide significant benefits, and we look 
forward to working with the Committee to help bring these benefits to 
the American people. If policymakers can ensure an environment where 
innovation is permitted to thrive, automated vehicles can truly 
transform vehicle transportation.
                                 ______
                                 
  Statement of the National Association of Mutual Insurance Companies
    The National Association of Mutual Insurance Companies (NAMIC) is 
pleased to provide comments to the Senate Committee on Commerce, 
Science, and Transportation as it considers the hurdles for testing 
deployment of successful automated driving systems (ADS) deployment and 
the roles state and Federal governments will play in promoting 
innovation and American competitiveness. We appreciate the Committee's 
focus on this important matter with the potential to greatly impact the 
domestic U.S. property/casualty insurance industry.
    NAMIC is the largest property/casualty insurance trade association 
in the country, with more than 1,400 member companies representing 39 
percent of the total market. NAMIC supports regional and local mutual 
insurance companies on main streets across America and many of the 
country's largest national insurers. NAMIC member companies serve more 
than 170 million policyholders and write more than $230 billion in 
annual premiums. Our members account for 54 percent of homeowners, 43 
percent of automobile, and 32 percent of the business insurance 
markets.
    NAMIC fully supports ADS innovation and competitive development 
that enhances safety. In this context, ADS innovation will be the 
deliberate application of information, imagination, and initiative by 
which new ideas are generated and converted into greater driving 
safety. It is important to note, however, that while technology is a 
key part of ADS innovation, it is not the only part. Especially in the 
case of a revolutionary change in mobility as will occur with ADS, 
successful and fruitful outcomes will only materialize when innovative 
approaches to cybersecurity, regulation, consumer behavior, and market 
practices. Integrating innovative practices, operations, rules, and 
regulations will be just as necessary to ADS innovation as technology.
    With respect to ADS, NAMIC has participated in National Highway 
Traffic Safety Administration (NHTSA) panels relating to state 
jurisdiction and pre-market approval, serves as a Board Member of the 
Advocates for Highway and Auto Safety, and is working with the 
Insurance Institute for Highway Safety supporting the Virginia Tech 
Transportation Institute as part of the National Cooperative Highway 
Research Program.
Automated Driving Technology
    Enthusiastic advocates of ADS contend that its ability to address 
driver error is its greatest purpose. NHTSA attributes 94 percent of 
all car crashes on human error, and ADS advocates infer or directly 
state that ADS will eliminate that human error, and thus the 
overwhelming majority of car crashes. That oft-cited 94 percent comes 
from NHTSA's ``Critical Reasons for Crashes Investigated in the 
National Motor Vehicle Crash Causation Survey'', which reported data 
from The National Motor Vehicle Crash Causation Survey conducted from 
2005 to 2007. The critical reason, which is the last event in the crash 
causal chain, was assigned to the driver in 94 percent (<plus-minus>2.2 
percent) of the crashes in that survey. NHTSA defines the `critical 
reason' as only the immediate reason for the critical pre-crash event, 
and simply the last failure in the causal chain of events leading up to 
the crash.
    Critical reasons were broadly classified into recognition errors, 
decision errors, performance errors, and non-performance errors:

  <bullet> Recognition error, which includes driver's inattention, 
        internal and external distractions, and inadequate 
        surveillance, was the most frequently assigned critical reason 
        (41 percent <plus-minus>2.2 percent).

  <bullet> Decision error, such as driving too fast for conditions, too 
        fast for a curve, false assumption of others' actions, illegal 
        maneuver and misjudgment of gap or others' speed accounted for 
        about 33 percent (<plus-minus>3.7 percent) of the crashes.

  <bullet> In about 11 percent (<plus-minus>2.7 percent) of the 
        crashes, the critical reason was performance error such as 
        overcompensation, poor directional control, etc.

  <bullet> Sleep was the most common critical reason among non-
        performance errors that accounted for 7 percent 
        (<plus-minus>1.0 percent) of the crashes.

  <bullet> Other driver errors were recorded as critical reasons for 
        about 8 percent (<plus-minus>1.9 percent) of the drivers.

    These above definitions are relevant to the proposed application of 
ADS as a remedy to these specific errors. The central premise behind 
the development and broad application of ADS technology is that ADS 
will have fewer of these specific recognition errors, decisions errors, 
performance errors and other errors than human drivers represented by 
the survey. ADS function that results in significant reductions in 
these specific errors should have a corresponding reduction in crashes 
and result in greater vehicle and personal safety.
The Hurdles for Testing and Successful ADS Deployment
    ADS may have the potential to be much safer than human drivers, and 
could result in a dramatic decrease in crashes and highway deaths. But 
ADS are also under development, complex, and include numerous known and 
unknown hazards as well as unintended consequences. There are literally 
millions of related technological and policy questions as well as 
questions related to liability, cybersecurity, vehicle connectivity, 
and infrastructure.
    Possibly the most challenging area is how ADS technology will deal 
with the transitional period, when human drivers share the road with 
ADS and continue to make the same and new recognition errors, decisions 
errors, performance errors and other errors. As policies and 
regulations are made toward enabling this ambitious ADS safety 
environment, communicating relevant data and analysis is critical to 
verify the safest transition from human-controlled to automated 
driving.
    The technical challenges to ADS testing and successful development 
are vast and complex; too vast and complex to even begin to enumerate 
here. But even if these thousands of technical challenges can be 
successfully addressed, ADS will not be adopted unless consumers can be 
convinced that ADS use will be safe and reliable. Recent surveys by 
both the Massachusetts Institute of Technology (MIT) and J.D. Power 
have indicated that consumer comfort or trust in full automation 
appears to actually be declining. A shift away from trust in automation 
was observed across all age groups, and most notably in younger age 
ranges (which had been most open to ADS in the past). Roughly half of 
those surveyed stated that they would never purchase an ADS vehicle.
    As consumers learn more about ADS, they appear to have more 
questions rather than answers. A critical hurdle for ADS deployment is 
that consumers lack relevant information to adequately gauge the 
performance and potential benefits of ADS. Consumers will require 
objective assessment and evaluation of just how much safer ADS are than 
human drivers, and in what conditions. Consumer acceptance will require 
expert collection and evaluation of data and analysis on the ADS as 
designed, as well as objective data and analysis from crashes involving 
ADS.
    The history of the auto insurance industry provides ample evidence 
of that experience and expertise, as well as the commitment of the 
insurance industry to enhancing driving safety. A critical requirement 
for the testing and successful development of ADS will be insurers 
using their decades of expertise to provide objective data-based safety 
evaluations. This will require ADS companies to collect uniform ADS 
design and safety information and make that information available to 
insurers to enable an objective assessment of ADS safety. Insurers will 
also need access to ADS information and data--including crash and 
incident information and data--that is timely, complete, and useful.
    The insurance industry also supports organizations dedicated to 
understanding crash risk and furthering safety enhancements. The 
Insurance Institute for Highway Safety is the premier organization 
dedicated to reducing the losses--deaths, injuries, and property 
damage--from crashes on the Nation's roads. The Highway Loss Data 
Institute provides scientific studies of insurance data representing 
the human and economic losses resulting from the ownership and 
operation of different types of vehicles and by publishing insurance 
loss results by vehicle make and model. Advocates for Highway and Auto 
Safety is an alliance of safety groups and insurance companies working 
together to make America's roads safer.
State and Federal Roles to Ensure Safety While Promoting Innovation and 
        American Competitiveness
    Promoting innovation and competitiveness will require joint 
development of state and Federal rules and regulations. NAMIC advocates 
that the roles of states and Federal authorities would best facilitate 
ADS safety development as follows:

  1.  The Federal Government--through NHTSA--should have the authority 
        to make determinations for the required performance and safety, 
        as well as data integrity, of ADS.

  2.  States and localities should have the authority to make the 
        determinations of the registration, licensing, and operation of 
        ADS in that state/locality.

  3.  States should retain the regulation of ADS insurance for the 
        vehicle and/or operator.

  4.  States should define and address ADS personal liability issues in 
        state/tort law and regulation in line with existing liability 
        constructs. States and Federal authorities should have the 
        authority to define and address ADS liability issues in law and 
        regulation.

  5.  States and Federal authorities working together should make clear 
        and workable data security and privacy requirements for 
        vehicles with ADS.

    In summary, NAMIC supports ADS development, and insurers are 
leading advocates toward 100 percent adoption of safe ADS. The 
realistic support of the potential for greater safety requires that the 
business of insurance put forth significant effort to objectively 
identify and analyze facts and data that comes naturally in the 
business of insurance. The development and adoption of ADS will require 
substantial policy and structure changes, which will also require the 
same factual analysis and review. As the primary rationale for ADS 
development is reducing vehicle crashes, injuries and fatalities, it is 
important that insurers have an active role in the assessment and 
communication of those benefits.
    NAMIC greatly appreciates the opportunity to provide this testimony 
to the Committee and looks forward to working with the Committee in the 
development of ADS policy and regulation.
                                 ______
                                 
                                          Consumer Watchdog
                                                      June 14, 2017

Sen. John Thune, Chairman
Sen. Bill Nelson, Ranking Member
Senate Committee on Commerce, Science, and Transportation
Washington, DC.

Re: Hearing: ``Paving the Way for Self-Driving Vehicles''

Dear Chairman Thune and Ranking Member Nelson,

    We are writing on behalf of Consumer Watchdog, a national 
nonpartisan, nonprofit public interest group to submit our just-issued 
report, ``Self-Driving Vehicles: The Threat to Consumers,'' into the 
formal written record of the Commerce Committee's public hearing titled 
``Paving the Way for Self-driving Vehicles.''
    We must also express our deep dismay at the Committee's failure to 
include any representatives of consumer groups among the witnesses 
called to speak at the hearing. The witness panel includes a spokesman 
for auto manufacturers, a representative of a company developing robot 
car technology, and organization developing a test center for robot car 
technology. A spokesman for MADD has the laudable, but narrow, agenda 
of combating drunk driving. This is an industry-dominated panel with no 
representatives of auto safety or consumer protection organizations.
    As our report shows, robot cars operating without mandatory safety, 
security, privacy and ethical standards will pose unprecedented risks 
to the American public. Lost in the hyperbole over robot cars is a 
realistic assessment of the likely costs to both consumers and 
taxpayers particularly over the coming decades, when robot cars and 
human drivers will share a ``hybrid highway.''
    That period will feature complex interactions between people, 
computers, cars and public streets and freeways, during which today's 
liability protections and rules restraining insurance rates and unfair 
practices by insurance companies will become especially important. To 
deal with the challenge posed by autonomous vehicle technology, 
Consumer Watchdog believes six principles must be adopted. They are:

        1. Protect the civil justice system. The state-based civil 
        justice system--open courts, impartial judges and citizen 
        juries--is fully equipped to handle the determination of legal 
        responsibility as our transportation system evolves over the 
        coming decades. Disputes over who is at fault in a crash 
        involving a self-driving car or truck will require the full 
        power of civil justice system, with its procedural safeguards 
        of an impartial judge, full public transparency, and trial by 
        citizen juries, to investigate and publicly expose the cause of 
        crashes, compensate the victims for deaths, injuries and 
        property damage, punish the wrongdoer, and force manufacturers 
        to make changes in their products to prevent future harm. When 
        their autonomous technologies fail, hardware and software 
        manufacturers must be held strictly liable. Lawmakers should 
        reject legislation to limit or restrict state consumer 
        protection laws. Manufacturers must not be permitted to evade 
        these consumer protections by inserting arbitration clauses, 
        ``hold harmless'' provisions or other waivers in their 
        contracts.

        2. Enact stronger state consumer protections against insurance 
        company abuses. According to a 2013 report by the Consumer 
        Federation of America, ``California stands out from all other 
        states in having the best insurance regulatory system for 
        protecting consumers.'' Enacted by California voters in 1988, 
        California's insurance reform law provides precisely the 
        stronger protections consumers will require in the era of robot 
        vehicles. The reforms, known as Proposition 103, have protected 
        motorists (along with homeowners, renters, businesses and 
        medical providers) against unjust insurance rates (including 
        product liability insurance rates) and anti-consumer and 
        discriminatory practices. The law's emphasis on rewarding 
        drivers with lower insurance premiums based on their safety 
        record, their annual mileage, their driving experience, and 
        other rating factors within their control that are 
        ``substantially related to the risk of loss,'' will be critical 
        in the new automotive era. Proposition 103's mandate for public 
        disclosure and public participation in regulatory matters are 
        essential components of a system that will be trusted by 
        consumers.

        3. Enact auto safety standards. Private companies cannot be 
        trusted to develop and deploy robot cars and trucks without 
        rules. The Federal auto safety agency or other relevant Federal 
        agencies, or in their absence, state auto safety agencies, must 
        develop standards for the testing and deployment of the 
        multiple technologies required by robot vehicles. These 
        standards must address safety; security; privacy and the 
        software that determines the robot's actions in the event of an 
        impending collision and as it makes life and death decisions. 
        They must be enforceable by consumers in courts of law.

        4. Stronger laws are needed to protect consumers' privacy. The 
        laws have not kept pace with the evolution of technology and 
        the collection and monetization of consumers' personal data. 
        Hardware and software manufacturers and insurance companies 
        must be barred from utilizing tracking, sensor or 
        communications data, or transferring it to third parties for 
        commercial gain, absent separate written consent (which should 
        not be required as a condition of accessing the services of the 
        vehicle/manufacturer, and which should be revocable by the 
        consumer at any time).

        5. Bar Federal interference in state consumer protection laws. 
        Neither Congress not Federal agencies should be permitted to 
        preempt or override stronger state based civil justice, 
        insurance reform or auto safety laws.

        6. Respect democratic and human values. The sponsors of self-
        driving vehicles have promoted the myth that machines are 
        infallible in order to justify the wholesale departure from a 
        panoply of norms that form founding principles for the nation, 
        beginning with the rule of law; individual and corporate 
        responsibility; long held legal principles that distinguish 
        between human beings and property; and the transparency of 
        public officials and institutions that is a hallmark of 
        democracy. The strategy of substituting robot values for human 
        values has reached its apotheosis in the determination by robot 
        car company executives to program computers to make life and 
        death decisions, and to keep that decision-making process 
        secret. Lawmakers will need to impose the rule of law and other 
        attributes of American democracy upon the executives of the 
        hardware and software companies that manufacture self-driving 
        cars.

    In conclusion, Congress must not succumb to the siren song of the 
autonomous car developers who are over promising what autonomous 
vehicle technology can do today. We call on you to require the 
development of enforceable Federal safety performance standards. 
Responsible regulation goes hand-in-hand with innovation. Voluntary 
``standards'' in the auto industry have repeatedly been proven to be 
weak and insufficient. Safety must come before the automakers' bottom 
lines. Consumer Watchdog calls on you to enact the necessary 
regulations to protect the safety of our highways.
            Sincerely,

Harvey Rosenfield     John M. Simpson         Joan Claybrook
Founder               Privacy Project         Former President Public
                       Director                Citizen and Former NHTSA
                                               Administrator
 

                                 ______
                                 

                         Self Driving Vehicles

                        The Threat to Consumers

                          By Harvey Rosenfield

                           Table of Contents
1.0 Introduction
2.0 Robot Cars Will Pose Unprecedented Safety, Security, and Privacy 
        Risks
  2.1 Risk: Defective Hardware and Buggy or Biased Software
  2.2 Risk: Privacy and Security
  2.3 Risk: Regulatory Failure
  2.4 Current Status of Robot Cars
  2.5 Current Status of Intelligent Transportation Infrastructure
  2.6 The ``Driverless Divide''
  2.7 The ``Hybrid Highway''
3.0 The Personal Responsibility System and Self-Driving Vehicles
  3.1 Tort liability
  3.1.1 Negligence
  3.1.2 Product liability
  3.1.3 Common Carrier Liability
  3.1.4 Liability Scenarios
    TABLE: Legal System--Risk/Liability Matrix
  3.2 Insurance
  3.2.1 Insurance and autonomous vehicles
  3.2.2 The Proposition 103 Model
4.0 The Industry Agenda to Roll Back Consumer Rights
  4.1 Restrictions on liability laws to encourage ``innovation''
  4.2 Restrictions on liability laws to ``lower insurance rates''
  4.3 Repealing protections against insurance company price gouging and 
        discrimination
5.0 Guiding Principles
                                 ______
                                 
1.0 Introduction
    Self-driving vehicles have become a cultural and political 
phenomenon. To peruse the breathless headlines is, like a ride in Marty 
McFly's DeLorean, to experience the sensation of visiting a wondrous 
future. Millions of hours previously wasted in traffic, searching for a 
parking spot or waiting in line at the DMV, will be restored to us, 
while we sit back in our passenger seats, dine, work or watch movies as 
robots whisk us around. It's a world in which there are virtually no 
car accidents, because infallible computers will replace impatient, 
emotional, tired, distracted, all too error-prone human beings.
    And, wondrously, there will be no need to write another check to 
the auto insurance company. In the highly unlikely event that anything 
goes wrong, the robot car manufacturers will stand behind their 
products and pick up the tab, no questions asked.
    Not so fast.
    America is decades away from a completely ``self-driving'' 
transportation system. But the insurance and auto industries are 
already preparing to exploit the prospect of self-driving robot cars 
and trucks so they can force Americans to pay more for insurance on the 
cars they own or lease, and roll back state consumer protection laws so 
that when their self-driving vehicle gets in a crash, it will always be 
the consumer's fault.
    The sparkly chimera of robots replacing human drivers--freeing 
people to spend their drive time more enjoyably and productively--has 
captivated the public and media, driven by self-interested auto 
manufacturers and software developers. But there has been very little 
public discussion of whether self-driving vehicles will coexist or 
collide with long-standing principles of accountability, transparency, 
and consumer protection that collectively constitute the Personal 
Responsibility System.
    The Personal Responsibility System is a set of state-based 
liability and insurance laws that dispenses justice: First, by 
regulating insurance companies to mandate fair auto insurance premiums 
and rate setting practices that emphasize a motorist's safety record 
rather than surrogates for wealth, race or creed. Second, by 
encouraging the safe manufacture, marketing and operation of cars and 
trucks. Third, by determining fault and compensation for, deaths, 
injuries and property damage caused by defective cars or the negligent 
operation of vehicles. Fourth, by making sure that auto insurance 
companies handle crash claims fairly by paying promptly and fully.
    At the intersection of the Personal Responsibility System, 
insurance laws and robot cars, California is of particular interest. 
Sweeping reforms passed by the voters in November 1988, known as 
Proposition 103, have protected motorists (along with homeowners, 
renters, businesses and medical providers) against excessive rates, and 
discriminatory practices by insurance companies that have historically 
targeted individuals they deem ``undesirable'' based on their race, 
religion, or income. Thanks to Prop 103, California is the only state 
in the Nation where the average auto insurance premium went down 
between 1989 and 2010, according to a report by the Consumer Federation 
of America, saving motorists alone over $100 billion in premiums since 
1989;\1\ CFA's report concluded that ``California stands out from all 
other states in having the best regulatory system for protecting 
consumers.''
---------------------------------------------------------------------------
    \1\ ``What Works? A Review of Auto Insurance Rate Regulation in 
America,'' Consumer Federation of America, November 12, 2013.
---------------------------------------------------------------------------
    Dating back to the American Revolution and enshrined in the Bill of 
Rights, the Personal Responsibility System has made the American 
marketplace a paragon of safety, fairness and prosperity.
    But insurance companies and automakers now say that it's outdated 
and incompatible with self-driving vehicles.
    They argue that America can dispense with the civil justice 
system--open courts, impartial judges and citizen juries--because these 
core consumer protections will ``chill this promising technology 
[autonomous vehicles] and the huge advances in overall public safety it 
promises,'' as the leading lobbying group for corporate defendants 
recently put it.\2\ That the manufacturing and insurance industries are 
exploring ways in which they can limit or shift their responsibility is 
not particularly surprising, given that safety-related costs and claims 
are likely to increase as the result of the new, riskier and so-far 
unregulated technologies. However, these strategies--historically 
employed by industries seeking a government bailout of risks--undermine 
competition and distort incentives in the marketplace.
---------------------------------------------------------------------------
    \2\ U.S. Chamber of Commerce Institute for Legal Reform, ``Torts of 
the Future: Addressing the Liability and Regulatory Implications of 
Emerging Technologies,'' March 2017, p.2
---------------------------------------------------------------------------
    The insurance industry is also opportunistically targeting consumer 
protections against insurance company abuses like overcharging 
consumers and discrimination, claiming they will be unnecessary once 
self-driving vehicles arrive. In California, insurance companies are 
using robot cars as the excuse to challenge Proposition 103. As a 
recent report explained, ``Over three decades, insurance companies have 
spent millions of dollars trying to chip away at Prop 103's regulations 
both through litigation and at the ballot box--with little success. 
Now, however, the industry has found a new source of optimism in a 
different phrase: driverless cars.'' \3\
---------------------------------------------------------------------------
    \3\ C. Miller, ``Driverless Cars Give Insurers New Vehicle to 
Criticize California's Rates Law,'' The Recorder, May 19, 2017 (http://
www.therecorder.com/home/id=1202786779265/Driverless-Cars-Give-
Insurers-New-Vehicle-to-Criticize-Californias-Rates-
Law?mcode=1202617072607&cur
index=0).
---------------------------------------------------------------------------
    And if history repeats itself, the insurance and auto lobbies may 
ask the Trump Administration to impose Federal rules that would 
override the Personal Responsibility Laws of the fifty states.
    Even a cursory analysis of the risks that robot cars and trucks 
will pose over the coming years shows that the industries' argument is 
wrong. Issues of corporate responsibility, liability and insurance will 
become far more important as self-driving vehicles are rolled out.
    To understand the crucial role that the Personal Responsibility 
System will play in the coming decades, two points are critical.
    First, a fully autonomous transportation system is decades away at 
best. No completely self-driving vehicle is offered for sale today, and 
notwithstanding a great deal of marketing hype, no manufacturer has set 
a firm date when it will market a passenger vehicle that is able to 
operate in all conditions without human intervention, or, importantly, 
what it will cost to buy.\4\ Indeed, the system of vehicle-to-vehicle, 
vehicle-to-satellite, and vehicle-to-road sensor communications 
infrastructure that would enable tens of millions of vehicles to 
simultaneously, securely and autonomously operate in proximity to each 
other on streets and highways without human intervention is barely in 
the planning stages. Nor is there any consensus on how local, state and 
Federal governments will pay for it. After all, most municipalities 
these days are struggling to fill potholes. And it is far from clear 
that every American consumer is going to be ready to abandon America's 
love affair with the open highway, or to surrender the steering wheel 
to a machine that is going to cost many thousands of dollars more than 
today's vehicles.
---------------------------------------------------------------------------
    \4\ A number of automakers have proclaimed they will sell 
autonomous vehicles over the next few years, but are short on the 
specifics. Ford has announced it intends to have a ``fully autonomous'' 
vehicle for commercial ride-sharing or ride-hailing applications by 
2021, but according to the fine print the vehicle will offer only 
``high,'' not ``full,'' automation. (https:// media.ford.com/content/
fordmedia/fna/us/en/news/2016/08/16/ford-targets-fully-autonomous-
vehicle-for-ride-sharing-in-2021.html.)
---------------------------------------------------------------------------
    Even if we assume that someday fully autonomous vehicles will be 
safe enough to deploy, and that all Americans will be ready and able to 
surrender the steering wheel,\5\ for the foreseeable future traditional 
vehicles driven by humans will share a ``hybrid highway'' filled with 
cars and trucks of widely varying degrees of automation and autonomy. 
Relatively few of them will be truly self-driving.
---------------------------------------------------------------------------
    \5\ It is more likely that self-driving vehicles, when they become 
available, will be initially adopted by commercial enterprises such as 
ride-sharing operations.
---------------------------------------------------------------------------
    Second, the argument that robot cars and trucks will virtually 
eliminate crashes is based on a fallacy: that machines are infallible. 
It makes sense that carefully tested automation technologies will 
improve the safety of cars and trucks in the future. However, 
completely self-driving cars don't exist yet and we don't know how they 
will change transportation patterns once they arrive. So for the 
moment, the claim that robot vehicles will dramatically reduce 
vehicular deaths, injuries and property damage is simply speculation.
    But we know this: machines make mistakes--sometimes catastrophic 
mistakes. Consider the automation-related mass disasters that have 
befallen the commercial airline industry in recent years, 
notwithstanding its self-avowed goal of zero tolerance for failure. 
Google/Waymo boasts that its computer-controlled test vehicles have 
logged the equivalent of over 300 years of human driving experience.\6\ 
But the duration of testing that would be required in order to match 
the safety tolerance of commercial airplanes is 114,000 years.\7\
---------------------------------------------------------------------------
    \6\ See https://x.company/waymo/ (last visited June 12, 2017).
    \7\ See B.W. Smith, Automated Driving & Product Liability, 2017 
Mich. St. L. Rev. 1, at 31 re ``at least a billion hours of testing,'' 
also citing Philip Koopman & Michael Wagner, Challenges in Autonomous 
Vehicle Testing and Validation, 4 SAE Int'l. J. Transp. Safety 15, 15-
16 (2016).
---------------------------------------------------------------------------
    In any case, even if robot cars and trucks someday become 100 
percent safe, we can say with certainty that in the short term, 
autonomous vehicles will pose new and unprecedented risks as they 
interact with traditional cars and trucks on the hybrid highway.
    The #1 safety threat posed by self-driving vehicles is bugs or 
biases built into the robots' brains.
    A crucial and controversial component of the self-driving car or 
truck is the set of algorithms that will determine how the vehicle 
responds when confronted with an unexpected, life-threatening emergency 
such as children playing in the street, pedestrians, roadside 
construction, and weather conditions. Initially these rules will be 
programmed by corporate engineers; eventually the engineers will teach 
the cars how to think for themselves using artificial intelligence, so-
called ``machine learning.''
    These algorithms will be responsible for life and death decisions 
that will place their financial interests in conflict with their 
customers' lives. But Google and other software developers have refused 
to disclose to the public or regulators the robot values that they are 
programming into their computers to replace human values and judgment. 
When Google's self-driving vehicle sideswiped a bus in Mountain View, 
California, the company called it a ``misunderstanding'' between the 
bus driver and the robot.\8\ A software ``misunderstanding,'' even at 2 
m.p.h., cannot be dismissed. Just as occurs every day on our roadways, 
the robot will confront situations in which the choice is not whether 
to smash into someone, but rather who to hit--an oncoming vehicle, a 
pedestrian in a crosswalk, a mom pushing her infant in a stroller on 
the sidewalk?
---------------------------------------------------------------------------
    \8\ M. McFarland, ``For The First Time, Google's Self-Driving Car 
Takes Some Blame For A Crash,'' Washington Post, February 29, 2016 
(https://www.washingtonpost.com/news/innovations/wp/2016/02/29/for-the-
first-time-googles-self-driving-car-takes-some-blame-for-a-crash/
?utm_term=.f19f6bdc6f4d).
---------------------------------------------------------------------------
    Other risks include failures in the extremely complex hardware 
(Google and other companies' robot test vehicles have been involved in 
multiple accidents and hundreds of near-misses \9\); privacy breaches 
(now endemic in the United States \10\); criminal hacking or even 
terrorist cyber attacks involving hundreds or thousands of vehicles, as 
the FBI has warned.\11\
---------------------------------------------------------------------------
    \9\ See Section 2.4.
    \10\ See Section 2.2.
    \11\ See Section 2.2.
---------------------------------------------------------------------------
    When one or more of these serious risks inevitably results in a 
crash on the ``hybrid highway,'' the inquiry into what caused the crash 
and who is responsible will include the manufacturers of the automated 
vehicle's hardware and software. There is no reason to believe that 
they or their vendors will respond any differently than they do today: 
deny their liability and attempt to shift the blame to the human 
driver. Indeed, in the limited experience so far, the companies that 
have deployed robot technologies have not readily accepted 
responsibility for their crashes and near-misses. This is particularly 
true of Tesla, which has denied responsibility for two fatalities 
involving its ``Auto Pilot'' software.\12\ While some car companies 
have stated that they will assume liability for the failure of their 
robot technologies, nothing's in writing, and their pledge appears to 
be conditioned on a determination that their technology was at 
fault.\13\
---------------------------------------------------------------------------
    \12\ See Section 2.4.
    \13\ See Section 3.1.4.
---------------------------------------------------------------------------
    Crashes aside, consumers who own or lease self-driving vehicles 
will face far greater responsibility for vehicle maintenance than they 
bear today. Self-driving vehicles will be extraordinarily reliant on 
external sensors--the eyes and ears of the robot car's brain. An 
accidental driveway ding in a sensor could have deadly consequences 
when the vehicle is on the road. What happens if the consumer fails to 
download a software update? No one has suggested that manufacturers 
will be prepared to assume liability for a crash caused by the 
consumer's failure to maintain the vehicle's operational status.
    That leads us right back to the Personal Responsibility System of 
insurance and liability laws.
    With the heightened risks that the new automated technologies will 
pose over the coming years, the legal requirement that manufacturers be 
held strictly liable for defective products, a mainstay of America's 
consumer protection regime, will remain essential. Disputes over fault 
will require the full power of the civil justice system, with its 
procedural safeguards of an impartial judge, full public transparency, 
and trial by citizen juries, to investigate and publicly expose the 
cause of crashes, compensate the victims for deaths, injuries and 
property damage, punish the wrongdoer, and force manufacturers to make 
changes in their products to prevent future harm.
    For the same reasons, protections against abusive practices by 
insurance companies will be critical. So long as motorists face legal 
responsibility for the proper maintenance and safe operation of 
vehicles they own, lease, rent or control, they will require the same 
liability insurance coverage that they purchase today. Pointing to the 
new risks of the Hybrid Highway, and the greater costs of repairing the 
automation technology, insurance companies will no doubt ask their 
customers to pay more for it. Preventing insurance companies from 
overcharging motorists, and from high-tech forms of redlining that rely 
on manipulation of data about each customer, will necessitate forceful 
consumer protections such as those contained in Proposition 103.
    The proponents of autonomous vehicles like to describe themselves 
as ``disruptors,'' and take pride in refusing to accept the norms of 
what they deride as the decrepit status quo. But behind the scenes, 
industry players are employing decidedly Old World lobbying and 
political strategies to avoid public and regulatory scrutiny and 
oversight, while at the same time urging lawmakers to pass legislation 
that would limit or even eliminate their legal accountability to 
injured consumers.
    Consumer Watchdog, a non-profit founded in 1985, has deep roots 
working for the public interest on the issues that will be of 
tremendous concern to consumers as automated vehicles evolve: civil 
justice and corporate accountability; public safety; the premiums and 
underwriting practices of the insurance industry; the diminishing 
privacy of consumers in the digital age; and the importance of 
government oversight, public scrutiny and participation in decision-
making.
    This report will discuss the safety, security and other risks posed 
by robot cars; why the consumer protections of the Personal 
Responsibility System will be critical in the coming decades as self-
driving vehicles come ``on line''; and the campaign by insurance 
companies, automakers and possibly even the Federal Government, already 
underway, to undermine those essential consumer protections.
2.0 Robot Cars Will Pose Unprecedented Safety, Security, and Privacy 
        Risks
    The safety of driverless vehicles should be the paramount concern 
of the auto and insurance industries, if for no other reason than flaws 
and failures in automated vehicle systems will impose potentially 
enormous, even catastrophic liability upon hardware and software 
manufacturers in the event their products cause harm, and lead to more, 
and more costly, insurance claims.
    In this context, it's worthwhile to consider the current state of 
American vehicle safety. Car crashes in the United States killed 35,092 
and injured over 2.44 million people in 2015;\14\ including property 
damage, the total estimated economic cost of car crashes was estimated 
at $242 billion in 2010.\15\ There were a record 801 separate recalls 
involving 63.7 million vehicles in 2014, and 613 recalls of 40 million 
vehicles as of mid-2015.\16\ Three of the largest recalls in recent 
years concern vehicle safety failures--defective GM ignition 
switches,\17\ exploding Takata airbags,\18\ and unintended acceleration 
in Toyota vehicles \19\--that have taken hundreds of American lives.
---------------------------------------------------------------------------
    \14\ NHTSA, 2015 Motor Vehicle Crashes: Overview (August 2016).
    \15\ NHTSA, The Economic and Societal Impact Of Motor Vehicle 
Crashes, 2010 (Revised May 2015).
    \16\ NHTSA, 2014 Vehicle Recalls by Manufacturer (available at 
http://www.safercar.gov/Vehicle+Owners/vehicle-recalls-historic-recap); 
2015 data: Statement Of Joan Claybrook Consumer Co-Chair Advocates For 
Highway And Auto Safety, on ``Examining Ways To Improve Vehicle And 
Roadway Safety'' before the Committee On Energy And Commerce 
Subcommittee On Commerce, Manufacturing And Trade, October 15, 2015, p. 
2.
    \17\ ``NHTSA Admits Faults In GM Investigation,'' Detroit News, 
June 5, 2015 (http://www.detroitnews.com/story/business/ autos/general-
motors/2015/06/05/gm-nhtsa-report/2854
0239/); ``Why General Motors' $900 Million Fine For A Deadly Defect Is 
Just A Slap On The Wrist,'' Washington Post, September 17, 2015 
(https://www.washingtonpost.com/news/ business/wp/2015/09/17/why-
general-motors-900-million-fine-for-a-deadly-defect-is-just-a-slap-on-
the-wrist/).
    \18\ ``Everything You Need to Know about the Takata Airbag 
Recall,'' Consumer Reports, December 23, 2015 (http://
www.consumerreports.org/cro/news/2014/10/everything-you-need-to-know-
about-the-takata-air-bag-recall/index.htm?loginMethod=auto).
    \19\ ``Toyota Says It's Settled 338 Cases So Far In Acceleration 
MDL,'' Law360, July 22, 2015 (http://www.law360.com/articles/681915/
toyota-says-it-s-settled-338-cases-so-far-in-acceleration-mdl).
---------------------------------------------------------------------------
    The unprecedented number of recalls in recent years suggests a 
dangerously cavalier attitude toward public safety on the part of 
vehicle manufacturers. It raises serious concerns as to whether 
manufacturers are presently, or will be, capable of building safe robot 
cars and trucks, which will far exceed the complexity and 
sophistication of today's vehicles.
    When assessing whether autonomous vehicles will ever be 100 percent 
safe, consider the transportation sector in which automation is by far 
the most advanced and the concern for safety is arguably greater than 
in any other: commercial air travel. Recent airline disasters cast 
doubt on whether one hundred percent reliance on ``fly-by-wire'' 
technology will ever be safe.\20\
---------------------------------------------------------------------------
    \20\ The crash of Asiana Flight 214 at San Francisco airport in 
2013 killed two passengers and injured 181 others; investigators have 
determined that the pilots did not understand the highly automated 
flight systems and were unable to recover control of the plane when a 
crash was imminent. (M. Wald, ``Pilots in Crash Were Confused About 
Control Systems, Experts Say,'' New York Times, December 11, 2013.) An 
Air France jetliner disappeared into the Atlantic off the coast of 
South America in 2009, killing 216 passengers and a crew of twelve, 
including three pilots; again, the black box revealed that the pilots 
did not understand the plane's automated functions, some of which had 
failed. (See W. Langewiesche, ``The Human Factor,'' Vanity Fair 
(October, 2014) (http://www.vanityfair.com/business/2014/10/air-france-
flight-447-crash)).
---------------------------------------------------------------------------
    To our knowledge, no one has suggested that the manufacturers of 
robot cars can or will aim for that level of safety; the former head of 
NHTSA suggested in 2016 that autonomous vehicles will merely be twice 
as safe as human-driven cars.\21\ By definition, that leaves a lot of 
carnage on America's streets.
---------------------------------------------------------------------------
    \21\ K. Naughton, ``Regulator Says Self-Driving Cars Must Be Twice 
as Safe,'' Reuters, June 8, 2016 (https://www.bloomberg.com/news/
articles/2016-06-08/u-s-auto-regulator-says-self-driving-cars-must-be-
twice-as-safe.)
---------------------------------------------------------------------------
    No one disputes that the evolution of motor vehicle technology has 
the potential to prevent deaths, injuries and property damage. New 
technologies such as automatic emergency braking, lane keeping, 
collision warning, and assisted parking are already doing so, and 
indeed should be made standard equipment in all vehicles. The point is 
that the gradual automation of driving will introduce a new set of 
risks. These risks will necessarily be far broader than those posed by 
vehicles today--suggesting that the ramifications for liability and 
insurance will be significant. A fully autonomous robot-based 
transportation system will likely reduce the number of crashes caused 
by human error, but that does not tell us anything about the overall 
impact of a fully autonomous system.\22\
---------------------------------------------------------------------------
    \22\ See B. W. Smith, Automated Driving & Product Liability 2017 
Michigan State Law Review 1 for a careful but admittedly provisional 
analysis suggesting simplistic assumptions about costs and savings may 
be incorrect.
---------------------------------------------------------------------------
2.1 Risk: Defective Hardware and Buggy or Biased Software
    The core hardware components of an autonomous vehicle are the 
computer and sensors. An array of electronic devices--presently, radar, 
lidar, and video--will be responsible for detecting the external 
conditions that the vehicle must navigate: road signs, and in their 
absence street markings; other vehicles (including bicycles, 
motorcycles, trucks); pedestrians (including seniors, and children); 
pets; traffic lights; street and highway signs; road construction; law 
enforcement activities; weather (fog, snow or heavy rainfall) and other 
natural phenomena (such as trees). The on-board computer system will 
collect the data from these inputs as well as external communications 
sources such as other vehicles, intelligent highways (more on that 
below) or satellite based traffic control systems, process the 
information and make decisions in a few milliseconds (a millisecond is 
1/1000 of a second) that are presently executed by humans. Scientists 
have estimated that the human brain is thirty times faster than the 
fastest super computer;\23\ it takes a neuron 0.5 milliseconds to 
transmit a signal \24\ and 13 milliseconds for the brain to process an 
image.\25\ A truly driverless vehicle must be capable of fully 
replicating and processing the immense data stream currently processed 
by the human brain, such as hand gestures, the facial expressions of 
other motorists and pedestrians, and a virtually infinite number of 
other variables in the interior and external driving environment.
---------------------------------------------------------------------------
    \23\ H. Hsu, ``Estimate: Human Brain 30 Times Faster than Best 
Supercomputers,'' IEEE Spectrum, August 26, 2015 (http://
spectrum.ieee.org/tech-talk/computing/networks/estimate-human
-brain-30-times-faster-than-best-supercomputers.)
    \24\ http://news.mit.edu/2014/in-the-blink-of-an-eye-0116
    \25\ http://www.makeuseof.com/tag/geeks-weigh-in-does-a-human-
think-faster-than-a-computer/
---------------------------------------------------------------------------
    Software will analyze the sensor and communications data flow and 
instruct the vehicle how to navigate. A particularly critical function 
of the software will be to replace the judgment of human motorists not 
just to avoid collisions but also to comply with traffic laws and 
rules. It will therefore be necessary for the software in driverless 
vehicles to make the split-second life and death decisions that human 
drivers make today when a collision is unavoidable. Confronted with the 
prospect of imminent harm to passengers in other vehicles, pedestrians, 
or the occupants of the AV itself, how will the self-driving software 
decide which course to take? On what basis will the software make such 
decisions? Who will it kill?
    These life and death deciding programs will be coded by human 
engineers working for private corporations, at least initially.
    Will engineers program their computers with human ethics as well as 
a database of traffic laws? When Mercedes announced that its software 
would protect the occupants of Mercedes vehicles at the expense of 
everyone else, it provoked a public firestorm that led Mercedes to 
amend its statement.\26\
---------------------------------------------------------------------------
    \26\ ``Self-Driving Mercedes-Benzes Will Prioritize Occupant Safety 
over Pedestrians,'' Car and Driver Blog (http://blog.caranddriver.com/
self-driving-mercedes-will-prioritize-occupant-safety-over-pedestrians/
).
---------------------------------------------------------------------------
    Will companies like Google, that have developed real-time facial 
recognition software, write algorithms to avoid harm to high net worth 
individuals, thus limiting their own liability? We simply do not know, 
because there are no rules that specify the answers to these questions, 
and software companies like Google consider their algorithms highly 
proprietary and steadfastly refuse to disclose the decision-making 
principles, values or formulae that determine the vehicle's actions.
    Eventually, the engineers will teach the robot cars and trucks how 
to learn for themselves, a form of Artificial Intelligence called 
``machine learning.'' Once robots are taught how to learn for 
themselves, their decision-making process will be further removed from 
human oversight.
    What we can say, with certainty, is that bugs in commercial 
software are frustratingly rampant, and take notoriously long for their 
manufacturers to eradicate. Consumers are unlikely to tolerate becoming 
``beta testers'' for driverless vehicles, serving as human guinea pigs 
when the consequences are not a lost page of text but a loss of life.
2.2 Risk: Privacy and Security
    Modern cars have become computers on wheels, collecting significant 
amounts of data about the vehicle and the habits of the motorist that 
drives them; some insurance companies have installed ``black boxes'' in 
the vehicles they insure to track vehicle location, speed and other 
metrics.\27\ By definition, evolving automation technologies will 
collect, process and communicate vast amounts of information. The 
recipients of the data stream will include, eventually, other vehicles 
and likely the government agencies that operate the intelligent 
transportation grid.
---------------------------------------------------------------------------
    \27\ Markey, Sen. Edward J., ``Tracking and Hacking: Security and 
Privacy Gaps Put American Drivers at Risk;'' https:// 
www.markey.senate.gov/imo/media/doc/2015-02-06_MarkeyReport-
Tracking_Hacking_CarSecurity%202.pdf, last accessed Nov. 28, 2015. 
Consumer Watchdog has warned that ``black box'' data recorders in 
vehicles could be misused in ways that threaten motorists' privacy. See 
http://www.consumerwatchdog.org/feature/pay-you-drive-workshop-
comments-california-department-insurance.
---------------------------------------------------------------------------
    The data is extremely valuable to hardware/software manufacturers 
and insurance companies, but could prove costly for consumers.

  <bullet> Auto makers and software designers will want the data for 
        performance monitoring and safety improvement purposes, but 
        also to dispute their liability for crashes.

  <bullet> Google and other data collection companies will also want to 
        enhance the vast digital dossiers they already compile on each 
        American by including where motorists are going and what 
        they're doing, so advertisers can target their products, and 
        perhaps even subject motorists to continuous locality-based 
        advertising as their vehicle chauffeurs them through the 
        streets.

  <bullet> Insurance companies will seek data from cars to determine 
        who was at fault in an accident. But, increasingly utilizing 
        ``big data,'' insurance companies will also seek to use the 
        data they collect to make underwriting decisions, enabling them 
        to avoid certain customers they deem too risky--a form of the 
        notorious historical practice of redlining- and to set premiums 
        so as to maximize profits rather than price risks, a highly 
        controversial practice known as ``price optimization.'' \28\
---------------------------------------------------------------------------
    \28\ Letter from Robert Hunter, Consumer Federation of America, to 
state insurance regulators, December 9, 2016 (http:// consumerfed.org/
testimonial/cfa-calls-insurance-commissioners-attention-unfair-price-
optimization-practices/); ``CFA's Hunter Reacts in Actuarial Battle: 
Allstate's Plan Is Price Optimization,'' Carrier Management, November 
29, 2016 (http://www.carrier
management.com/features/2016/11/29/161466.htm).

    As data becomes increasingly valuable, it increasingly becomes a 
target. Data breaches involving the accounts of billions of users 
reflect the hacking epidemic in recent years.\29\ These incidents 
demonstrate that only to the extent the legal system imposes 
significant financial liability for such breaches will data collectors 
be motivated to undertake the expensive hardening of their systems to 
prevent third-party data incursions.
---------------------------------------------------------------------------
    \29\ K. Sheridan, ``Data Breaches Exposed 4.2 Billion Records In 
2016,'' Information Week, January 25, 2017.
---------------------------------------------------------------------------
    It's not just the data that is vulnerable in increasingly automated 
vehicles. The interconnected vehicles of the future will themselves be 
subject to criminal and even terrorist hijacking. In 2015, two security 
researchers managed to remotely hack into a 2014 Jeep Cherokee from a 
laptop ten miles away and disable critical functions such as the 
accelerator, paralyzing the car.\30\ Fiat Chrysler had to recall 1.4 
million vehicles to fix the Jeeps' vulnerabilities.\31\ Another 
research firm reported its was able to remotely take control of a Tesla 
Model S and unlock the door of the car, take over control of the 
dashboard computer screen, move the seats, activate the windscreen 
wipers, fold in the wing mirrors and apply the brakes while the vehicle 
was in motion--from ten miles away. Tesla uploaded an over-air 
``software update'' to fix the vulnerability--ten days later.\32\
---------------------------------------------------------------------------
    \30\ U.S. Says Only Jeeps Had Hacker Vulnerability Via Radios, 
Associated Press, Jan. 9, 2016 (http://www.wsj.com/articles/u-s-says-
only-jeeps-had-hacker-vulnerability-via-radios-1452372453).
    \31\ ``Autonomous cars to have `thousands of security risks,' '' 
Autocar, 12 September 2016 (http://www.autocar.co.uk/car-news/industry/
autonomous-cars-have-`thousands-security-risks').
    \32\ S. Khandelwai, ``Hackers take Remote Control of Tesla's Brakes 
and Door Locks from 12 Miles Away,'' Hacker News, September 20, 2016 
(http://thehackernews.com/2016/09/hack-tesla-autopilot.html?utm_so. . 
.e+Hackers+News+-+Security+Blog%29&_m=3n.009a.1326.en0ao
0609g.rxj.)
---------------------------------------------------------------------------
    In March 2016, the F.B.I. issued a warning to vehicle manufacturers 
stating: ``it is important that consumers and manufacturers are aware 
of the possible threats and how an attacker may seek to remotely 
exploit vulnerabilities in the future.'' \33\ The F.B.I. pointed out 
that hackers could gain access through a vehicle's cellular, USB, 
Bluetooth, or Wi-Fi Internet connections: ``An attacker making a 
cellular connection to the vehicle's cellular carrier--from anywhere on 
the carrier's nationwide network--could communicate with and perform 
exploits on the vehicle via an Internet Protocol (IP) address.'' \34\
---------------------------------------------------------------------------
    \33\ ``Motor Vehicles Increasingly Vulnerable To Remote Exploits,'' 
Federal Bureau of Investigation, March 17, 2016 (http://www.ic3.gov/
media/2016/160317.aspx#fn1).
    \34\ Id.
---------------------------------------------------------------------------
    A wide variety of criminal misconduct could be facilitated via 
hacking of automated and fully autonomous vehicles, ranging from 
smuggling, to kidnapping, to homicide. A systemic attack on the 
intelligent highway system could result in catastrophic loss of life 
and by orchestrating traffic jams, grind commerce literally to a halt, 
with serious financial repercussions.
2.3 Risk: Regulatory Failure
    Failure to properly regulate the safety of self-driving vehicles is 
rapidly becoming another serious safety risk. Congress enacted the 
National Traffic and Motor Vehicle Safety Act of 1966 (NTMVSA) fifty 
years ago ``to reduce traffic accidents and deaths and injuries 
resulting from traffic accidents.'' The analysis of the proposed 
legislation by the U.S. Senate concluded that:

        The promotion of motor vehicle safety through voluntary 
        standards has largely failed. The unconditional imposition of 
        mandatory standards at the earliest practicable date is the 
        only course commensurate with the highway death and injury 
        toll.\35\
---------------------------------------------------------------------------
    \35\ Committee Report on S. 3005, The Traffic Safety Act of 1966, 
June 23, 1966, at 274.

    The central safety focus of the NTMVSA, and NHTSA's activities 
since its creation, has been the promulgation, after careful study and 
a public hearing process, of Federal Motor Vehicle Safety Standards. 
However, in an unprecedented departure from its statutory mission, 
NHTSA entered into an unprecedented ``voluntary agreement'' with twenty 
auto manufacturers in March 2016 to allow the industry to self-regulate 
the sale of three safety technologies, known as Automatic Emergency 
Braking (AEB), that assist cars in braking to avoid or limit the damage 
from collisions.\36\ NHTSA rejected a petition by Consumer Watchdog and 
other consumer advocates to require manufacturers to install even 
established safety technologies, such as Automatic Emergency Braking, 
as standard equipment in light vehicles--which NHTSA itself has 
acknowledged would prevent tens of thousands of deaths and serious 
injuries annually.\37\
---------------------------------------------------------------------------
    \36\ ``U.S. DOT And IIHS Announce Historic Commitment Of 20 
Automakers To Make Automatic Emergency Braking Standard On New 
Vehicles,'' NHTSA (Press Release) March 17, 2017(https://www.nhtsa.gov/
press-releases/us-dot-and-iihs-announce-historic-commitment-20-
automakers-make-automatic-emergency). See Consumer Watchdog's letter to 
NHTSA criticizing this action: http://www.consumerwatchdog.org/
newsrelease/consumer-advocates-demand-federal-agency-act-auto-safety-
petition).
    \37\ NHTSA, Request for Comments, New Car Assessment Program, 
Docket No. NHTSA-2015-0119, p. 110-118. In 2016, Consumer Watchdog and 
other advocates formally petitioned NHTSA to promulgate a safety 
regulation making AEB standard equipment. Ultimately NHTSA denied the 
petition. For more information: http://www.consumerwatchdog.org/search/
apachesolr
_search/NHTSA%20AEB?filters=type%3Anewsrelease).
---------------------------------------------------------------------------
    The decision marked a radical departure from the agency's 
traditional mission. NHTSA Administrator Mark Rosekind argued that, 
``the agency cannot make vehicles safe simply by imposing new 
regulations and handing down fines. . . . We're going to have to find 
new tools--that means new collaborations, new partnerships.'' \38\ 
Referencing the voluntary agreement for the deployment of AEB 
technology, NHTSA claimed that ``bypassing the regulatory process would 
save three years in making automatic braking systems standard 
equipment.'' \39\ ``The unprecedented commitment means that this 
important safety technology will be available to more consumers more 
quickly than would be possible through the regulatory process.'' \40\
---------------------------------------------------------------------------
    \38\ Exclusive: U.S., Major Automakers to Announce Safety Accord 
Friday, David Shepardson, Detroit News, January 11, 2016).
    \39\ J. Peltz, ``Automakers agree to make automatic braking a 
standard feature by 2022,'' Los Angeles Times March 17, 2016 (http://
www.latimes.com/business/autos/la-fi-hy-auto-safety-20160317-
story.html).
    \40\ Id.
---------------------------------------------------------------------------
    As recently as 2013, NHTSA had adopted a go-slow approach to self-
driving vehicles, concluding, ``At this point, it is too soon to reach 
conclusions about the feasibility of producing a vehicle that can 
safely operate in a fully automated (or `driverless') mode in all 
driving environments and traffic scenarios.'' \41\
---------------------------------------------------------------------------
    \41\ NHTSA, Preliminary Statement of Policy Concerning Automated 
Vehicles, May 15, 2013, p. 3.
---------------------------------------------------------------------------
    But in early 2016, the Secretary of the Department of 
Transportation told reporters that he ``wants to ease some of the 
regulatory restraints to make it easier for the technology to 
develop.'' \42\
---------------------------------------------------------------------------
    \42\ POLITICO, Pro Transportation Report, Friday January 15, 2016.
---------------------------------------------------------------------------
    In September 2016, NHTSA issued a 116 page ``Federal Automated 
Vehicle Policy,'' which called upon manufacturers of automated and 
self-driving vehicles to ``self-certify'' that they have considered a 
fifteen point ``checklist'' of issues related to driverless 
vehicles.\43\ NHTSA's Guidance leaves the evolution and deployment of 
automated vehicles to hardware and software manufacturers, where it 
will remain shrouded in secrecy and outside the purview of the public 
generally, and motorists in particular.
---------------------------------------------------------------------------
    \43\ NHTSA, Federal Automated Vehicles Policy, September 2016, p. 
15-16.
---------------------------------------------------------------------------
    If NHTSA's abdication of its safety responsibilities continues, the 
introduction and deployment of autonomous technologies will proceed on 
a manufacturer-by-manufacturer basis, without any enforceable, 
industry-wide standards. Without industry-wide standards, the cost of 
safety features will be prohibitive for all but the wealthiest 
consumers. The deregulated deployment of automated vehicles will 
exacerbate safety, liability and insurance issues.
2.4 Current Status of Robot Cars
    No fully autonomous passenger vehicle is presently approved for 
sale, much less being marketed. While proponents insist robot cars are 
right around the corner, more objective observers expect a step-by-step 
progression toward greater automation of vehicle functions--but with 
the driver required ultimately to assume control.
    Google, whose robot car unit is now known as Waymo, began testing 
self-driving cars in 2009. California enacted AB 1298 in 2012 requiring 
the Department of Motor Vehicles to enact self-driving vehicle 
regulations. Rules covering testing robot cars took effect in 2014 
requiring a test driver behind a steering wheel. The regulations 
required companies to get a permit, report any crashes within 10 days 
and file annual disengagement reports explaining when the self-driving 
technology being tested failed. Most of what we know about testing 
activities in California comes from the reports which the DMV, after 
pressure from Consumer Watchdog and others, posts on its website. 
Currently 21 companies have permits to test robot cars in California. 
The firms have refused requests to disclose other important 
information, including on board video and telemetry, from their 
testing.
    The disengagement reports demonstrate that the self-driving 
vehicles are not ready to be deployed, at least without human drivers 
behind a steering wheel who can seize control when the self-driving 
technology fails. The latest report shows that Google/Waymo's test 
vehicles logged 635,868 miles and the human test driver had to 
intercede 124 times.\44\ In the past, the company has said that its 
robot cars had difficulty correctly perceiving commonplace ``threats'' 
such as potholes, rain, wind and overhanging tree branches.\45\ There 
were also software glitches and instances when the human test driver 
took over because the robot car made an unwanted maneuver.\46\ In the 
February 2016 sideswipe of a city bus by a Google robot test car in 
northern California, requiring the bus to stop and its passengers to 
disembark, Google claimed that the accident was a ``misunderstanding'' 
and a ``learning experience.'' \47\ Delphi's 2016 report stated that 
its two test robot cars drove 3,125 miles in self-driving mode and had 
experienced 178 ``disengagements.'' Reasons given for disengaging 
included: construction zones; problems changing lanes in heavy traffic; 
poor lane markings; the presence of emergency vehicles, pedestrians, 
cyclists; failure to detect a traffic light and unexpected behavior 
from another driver.\48\ Mercedes, which has asserted it will deploy an 
autonomous vehicle by 2020, reported 336 disengagements in 673 
miles.\49\
---------------------------------------------------------------------------
    \44\ ``California Robot Car Disengagement Reports Show Technology 
Not Ready for Safe Deployment Without Human Driver Behind Steering 
Wheel to Take Control, Consumer Watchdog Says,'' February 1, 2017 
(http://www.consumerwatchdog.org/newsrelease/california-robot-car-
disengagement-reports-show-technology-not-ready-safe-deployment-wit).
    \45\ ``Consumer Watchdog Cites Shortcomings In Driverless Car 
Technology; Says DMV Rules For Robot Cars Must Require Steering Wheel 
So Human Drivers Can Take Over,'' March 19, 2015 (http://
www.consumerwatchdog.org/newsrelease/ consumer-watchdog-cites-
shortcomings-driverless-car-technology-says-dmv-rules-robot-cars).
    \46\ See footnote 44.
    \47\ M. McFarland, ``For The First Time, Google's Self-Driving Car 
Takes Some Blame For A Crash,'' Washington Post, February 29, 2016 
(https://www.washingtonpost.com/news/innovations/wp/2016/02/29/for-the-
first-time-googles-self-driving-car-takes-some-blame-for-a-crash/
?utm_term=.f19f6bdc6f4d).
    \48\ See footnote 44.
    \49\ Id.
---------------------------------------------------------------------------
    Tesla reported two fatal crashes in 2016 (one in Florida, one in 
China), both of which occurred while Tesla's ``Auto Pilot'' feature, 
which the company famously introduced in 2014, was engaged.\50\ Tesla 
continues to deceptively refer to its automated system ``Auto Pilot,'' 
though after the fatalities, it reprogrammed its Auto Pilot software 
to, among other changes, disengage unless the driver touches the 
steering wheel at regular intervals, indicating they are monitoring the 
vehicle.\51\ Surprisingly, NHTSA later cleared Tesla of responsibility 
for the Florida fatality, but an agency spokesperson incongruously 
noted that humans must still manually pilot a Tesla equipped with Auto 
Pilot: ``Autopilot requires full driver engagement at all times.'' \52\
---------------------------------------------------------------------------
    \50\ N. Boudette, ``Self-Driving Tesla Was Involved in Fatal Crash, 
U.S. Says,'' New York Times, June 30, 2016 (https://www.nytimes.com/
2016/07/01/business/self-driving-tesla-fatal-crash-investigation.html); 
N. Boudette, ``Autopilot Cited in Death of Chinese Tesla Driver,'' New 
York Times, September 14, 2016 (https://www.nytimes.com/2016/09/15/
business/fatal-tesla-crash-in-china-involved-autopilot-government-tv-
says.html?_r=0)
    \51\ F. Lambert, ``Tesla Autopilot `Nags' And Restrictions Under 
V8.0 Software Update--Breakdown,'' Electrek, September 22, 2016 
(https://electrek.co/2016/09/22/tesla-autopilot-nags-and-restrictions-
under-v8-0-software-update-breakdown/).
    \52\ N. Boudette, ``Tesla's Self-Driving System Cleared in Deadly 
Crash,'' New York Times, January 19, 2017 (https://www.nytimes.com/
2017/01/19/business/tesla-model-s-autopilot-fatal-crash.html). See 
Consumer Watchdog's criticism of this decision: http://www.consumer
watchdog.org/newsrelease/``midnight-action''-nhtsa-ends-probe-fatal-
tesla-florida-crash-accepting-company's-propaga.
---------------------------------------------------------------------------
    In the rush to market of so-far unregulated robot technologies, the 
adequacy of the current testing paradigm is questionable. Google/Waymo 
claims that its computer-controlled vehicles have logged 300 years of 
human driving experience. But the testing that would be required in 
order to match the safety tolerance of commercial airplanes is 
estimated at over one hundred millennia.\53\ A lower level of safety--
``a level of 80 percent confidence that the robotic vehicle is 90 
percent safer than human drivers on the road,'' would still require 11 
billion miles of testing (or about 5,000 years), according to 
researchers at the University of Michigan, which is why they are 
looking to shortcut the testing process, at least partly through 
computer simulations.\54\
---------------------------------------------------------------------------
    \53\ See Smith, Automated Driving & Product Liability, footnote 22, 
p. 31.
    \54\ S. Collie, ``Focusing On Tricky Situations Could Accelerate 
Testing Of Self-Driving Cars,'' New Atlas, May 29, 2017 (http://
newatlas.com/university-michigan-self-driving-testing-acceleration/
49768/).
---------------------------------------------------------------------------
2.5 Current Status of Intelligent Transportation Infrastructure
    The system of vehicle-to-vehicle, vehicle -to-satellite, vehicle-
to-road sensor communications--collectively referred to as vehicle-to-
everything, or ``v2e''--infrastructure that would permit tens of 
millions of vehicles to simultaneously and securely operate without 
human intervention is not even in the planning stage.
    Studies of the technology are underway, but NHTSA only just 
proposed uniform standards needed to ensure that all vehicles can 
connect with each other regardless of manufacturer in December 2016, 
and the proposal faces opposition from telecommunications companies 
that want to use wireless channels for other purposes.\55\ How to 
include pedestrians in such a system has not been resolved. Nor is 
there any consensus on how to construct such a system--much less how 
local, state and the Federal Government will cover the cost of 
upgrading the 4.12 million miles of roadway in the United States.
---------------------------------------------------------------------------
    \55\ R. Beene, ``Federal V2V Mandate Meets Growing Resistance,'' 
April 17, 2017 (http://www.autonews.com/article/20170417/OEM06/
170419865/federal-v2v-mandate-meets-growing-resistance).
---------------------------------------------------------------------------
2.6 The ``Driverless Divide''
    The affordability of automated vehicles (and the cost of insuring 
them) is an important safety issue in its own right, with profound 
consequences when it comes to assessing the impact of autonomous 
vehicles on liability and insurance.
    Because no autonomous passenger vehicles are presently for sale, 
any discussion of pricing is speculative. However, the price of robot 
cars will directly affect the rate of deployment of the vehicles; the 
higher the price, the fewer the number of people who will be able to 
afford them. Those who cannot afford them will continue to operate 
traditional cars that lack at least some safety features, placing them 
at some correspondingly greater risk in the event of a crash.
    Deployment will be further reduced because of NHTSA's abdication of 
its regulatory responsibilities, discussed above. This is because the 
Nation's auto safety regulator indicated through its 2016 ``Federal 
Automated Vehicle Policy'' that it intended to rely on industry self-
regulation for self-driving vehicles, rather than promulgate formal 
Federal Motor Vehicle Safety Standards (FMVSS) that would require all 
new vehicles be equipped with the fully autonomous capability as 
standard equipment.\56\
---------------------------------------------------------------------------
    \56\ NHTSA, Federal Automated Vehicles Policy, September 2016.
---------------------------------------------------------------------------
    Mandatory Federal safety standards create manufacturing economies 
of scale from mass production that dramatically reduce the price of the 
technology. Automakers resist industry-wide safety standards because 
they can then treat expensive safety innovations as options to be 
introduced in their most expensive vehicles, for which such options are 
priced at a premium. It is not until the features become mandated 
through the FMVSS process that they are rolled out in all vehicles 
fleet-wide, and manufacturers drop the price. Thus the cost of cars 
equipped with higher levels of automation will likely put them out of 
reach of all but the wealthiest motorists.
    Other price factors that will affect broad deployment will be car 
repair and insurance premiums. Present day automotive electronics, 
though increasingly complex, are relatively simple compared to the 
technologies that will be needed to even partly automate passenger 
vehicles. However, they have significantly raised the cost of repairs 
(and insurance) for cars of more recent vintage. \57\
---------------------------------------------------------------------------
    \57\ See, e.g., N. Brown, ``Conventional Car Repair Costs 
Increased, While Hybrids Saw a Decrease,'' CleanTechnica.com, April 13, 
2013 (http://cleantechnica.com/2013/04/15/conventional-car-repair-
costs-increased-while-hybrids-saw-a-decrease/); S. Finlay, ``More 
Technology in Cars Increases Repair Costs,'' WardsAuto.com, September 
17, 2013 (http://wardsauto.com/ dealerships/more-technology-cars-
increases-repair-costs); J. Selingo, ``Repair Shops See Roadblocks Set 
by Dealers,'' New York Times, October 25, 2006 (http://www.nytimes.com/
2006/10/25/automobiles/autospecial/25repair.html ).
---------------------------------------------------------------------------
    In other words, at least for the foreseeable future, there will be 
the equivalent of what, in the early era of personal computing, was 
described as a ``digital divide'': a significant disparity among 
Americans between those who can afford vehicles with substantial 
automation capabilities and those who cannot.
2.7 The ``Hybrid Highway''
    There are diverging estimates of the date when a fully autonomous 
vehicle--one that requires no human intervention--will be marketed to 
the American public. However, any objective analysis demonstrates that 
America is decades away from a transportation system that is completely 
automated: one in which all vehicles on the road operate autonomously, 
and there are no human drivers, no steering wheels, no brakes, nor 
other human-based control devices; in which cars are in constant 
electronic communication with each other, with ``intelligent'' road 
systems built and maintained by municipal, state and Federal 
governments, and with pedestrians equipped with their own electronic 
devices.
    The average age of vehicles on the road today is estimated at 11.5 
years.\58\ Thus, even if a vehicle capable of operating under all 
conditions without any human involvement (and absent the assistance of 
intelligent highway infrastructure) were to come to market far sooner, 
such vehicles will constitute a very modest percentage of the total 
number of vehicles on the road.
---------------------------------------------------------------------------
    \58\ Hirsch, Jerry, ``Better Quality Raises Average Age Of Cars On 
U.S. Roads To 11.5 Years,'' Los Angeles Times, http://www.latimes.com/
business/autos/la-fi-hy-ihs-average-car-age-2015
0729-story.html last accessed Nov. 4, 2015.
---------------------------------------------------------------------------
    Thus, it is clear that there will be a lengthy period in which 
motorists and robots will share the roads in a hybrid system of human-
driven and highly automated, if not autonomous, vehicles.\59\
---------------------------------------------------------------------------
    \59\ The Insurance Institute for Highway Safety and the Highway 
Loss Data Institute concurs: ``Vehicles with humans at the wheel still 
will dominate the fleet for many years. `Even if the U.S. Government 
were to require all new vehicles sold to be autonomous tomorrow, it 
would take at least 25 years until nearly 95 percent of the vehicles on 
the road would have the capability.' '' ``Robot cars won't retire 
crash-test dummies anytime soon,'' Status Report, Vol. 51, No. 8, 
November 10, 2016 (http://www.iihs.org/iihs/news/desktopnews/driver-
seat-robot-cars-wont-retire-crash-test-dummies-anytime-soon).
---------------------------------------------------------------------------
    This ``hybrid highway'' period will feature complex, potentially 
dangerous interactions between people (motorists and pedestrians), 
computer-driven cars, trucks and buses, remote-controlled drone 
vehicles, and eventually the so-called ``intelligent'' public streets 
and freeways that are supposed to help them all navigate safely.
3.0 The Personal Responsibility System and Self-Driving Vehicles
3.1 Tort liability
    The judicial branch is responsible for interpreting and applying 
laws. However, state courts \60\ also play a unique legislative role: 
they are the source of what is known as ``common law.'' Originating 
from ancient English law, and often dating back to the formation of the 
United States, common law is a body of case decisions issued by state 
courts that defines rights and remedies in the absence of any 
underlying statutory authority. State legislatures have the authority 
to amend or even repeal the state's ``common law,'' and they frequently 
do so.
---------------------------------------------------------------------------
    \60\ The sole exception is Louisiana, which is known as a ``civil 
law'' state. In Louisiana, courts lack any authority to adjudicate a 
matter absent a statute.
---------------------------------------------------------------------------
    A tort is a wrongful act that causes bodily injury or property 
damage. The common law of torts is a collection of legal rights, 
responsibilities and remedies developed and applied by civil courts 
when a wrongful act has caused harm. The purpose of tort law is to 
expose wrongdoing, compensate victims of the wrongdoing, punish the 
wrongdoers and deter future wrongdoing.
3.1.1 Negligence
    Generally, tort liability is predicated upon the following judicial 
determinations: (1) the defendant owed to the plaintiff a duty of 
reasonable care; (2) the defendant breached that duty (3) the breach 
caused damage to the plaintiff. Under the Personal Responsibility 
System established by tort law, a person or company who committed a 
tort is liable for the injuries, property damage, lost wages, physical 
pain, emotional damage any and other kind losses that arise as a 
result. Intentional wrongdoing that is considered particularly 
egregious or oppressive may be punished by punitive damages: the 
wrongdoer is penalized for such misconduct.
    Disputes over torts are typically adjudicated through the civil 
court system, which is the practical embodiment of the common law right 
to a trial by jury, one of America's most hallowed traditions. However, 
as discussed below, auto insurance has evolved as a mechanism for 
ensuring compensation without necessity of bringing legal action in 
modest disputes.
3.1.2 Product liability
    A separate set of consumer friendly rules has evolved for 
relatively more rare torts involving products that are considered 
``inherently'' dangerous, such as cars. In California, for example, a 
defendant is held strictly liable for injuries caused by such products, 
when a product was used in intended or reasonably foreseeable manner 
(includes reasonably foreseeable misuse, abuse, changes, alterations, 
etc.); was in defective condition when it left defendant's possession; 
and the defective product was the legal cause of the plaintiff's 
injuries or damages.
    Unlike regular negligence cases, in product liability disputes the 
injured consumer is not required to prove that the defendant was 
negligent, i.e., that the defendant failed to exercise reasonable care, 
or intended to cause harm. The public policy behind this variation in 
tort law is that it would be prohibitively difficult and expensive for 
a consumer to prove that the manufacturer of a product was careless in 
making the product, nor would a consumer have the ability to determine 
whether the product was defective prior to purchase. The protections of 
strict liability rules have been extended to include entities that re-
sell or distribute the products. However, defects in road design, 
construction and maintenance are sometimes governed by more restrictive 
state statutes.
    It is widely assumed that as vehicle automation progresses, and 
motorists cede driving functions to the vehicle's computer systems, 
responsibility will shift from motorists to manufacturers of the 
hardware and software, and claims will be adjudicated under product 
liability law.
3.1.3 Common Carrier Liability
    Another long established common law principle is common carrier 
liability. Common carriers are companies that transport people (or 
goods) pursuant to a license provided by a government agency. Common 
Carriers include taxis, buses and ferries. Common Carriers are held to 
a very high legal standard. Under California law, for example, ``A 
carrier of persons for reward must use the utmost care and diligence 
for their safe carriage, must provide everything necessary for that 
purpose, and must exercise to that end a reasonable degree of skill.'' 
``Common carriers are responsible for any, even slightest, negligence 
to passengers and are required to do all that human care, vigilance, 
and foresight reasonably can do under all the circumstances.''
3.1.4 Liability Scenarios
    As noted above, human-operated vehicles will remain the predominant 
form of personal transportation for the foreseeable future. Vehicles 
with wide disparities in the level of onboard technology will share the 
roads with newer vehicles containing an equally wide variety of the 
more sophisticated automation technologies. The intelligent 
infrastructure of vehicle, satellite and road communications that many 
view as integral to the safety of an autonomous transportation system 
has yet to be planned, much less constructed, and will not play any 
significant role for the foreseeable future.
    This Hybrid Highway will be the product of a hugely complex system 
of hardware and software built, marketed, maintained and operated by 
corporations manufacturing hardware and software, engineers, software 
programmers, public agencies as well as motorists.
    Compounding the threat matrix are vehicle security failures, 
ranging in consequence from privacy breaches to criminal or terrorist 
hacking; the absence of Federal safety rules to standardize 
technologies; wealth based disparities in the affordability of 
autonomous technology. Flaws and failures in any single aspect of this 
complex environment could lead to death, injury and property damage.
    Even in a distant theoretical future in which all vehicles are 
controlled by robots, the same concerns apply.
    The table below is based on the taxonomy for self-driving vehicles 
published by the Society of Automotive Engineers (SAE),\61\ which has 
been broadly endorsed as a tool for discussion of these issues. The 
table illustrates who will be responsible under some likely risk and 
liability scenarios; the leftmost column describes the SAE level of 
automation and the top row lists particular liability risks.
---------------------------------------------------------------------------
    \61\ ``Surface Vehicle Recommended Practice,'' Society of Vehicle 
Engineers (J3016), September 2016.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the table illustrates, there is no scenario in which disputes 
will not require resolution through the civil justice system. Note the 
SAE taxonomy explicitly assumes that the vehicle may issue a ``request 
to intervene'' to a human occupant of a fully self driving vehicle 
(though in the highest automation modes, the robot car or truck will 
not have an ``expectation that a user will respond'' to such a 
request). It is implicit in this analytical framework that the vehicle 
will contain the necessary equipment (steering wheel, brake pedal, 
etc.) that will enable the occupant to seize control. In other words, 
the SAE framework envisions no scenario in which a human cannot 
ultimately obtain control of a robot car. No company planning to sell 
robot vehicles has stated whether they will come equipped with the 
complement of control devices present in traditional vehicles today. 
(For purposes of shifting liability to consumers, manufacturers of self 
driving vehicles may choose to retain those devices.)
    Assume, for example, that a vehicle is capable of operating 
autonomously, but a passenger is still expected to seize control of the 
vehicle in some circumstances (Level 3-4 under the SAE taxonomy). That 
person, presumably clearly designated as such by the vehicle itself, 
will remain subject to liability for failure to intercede properly.
    Assume a vehicle is capable of full autonomous operation, but a 
person in the vehicle is still able to request that the vehicle 
``surrender control'' (SAE Level 5). Or assume that the vehicle issues 
a request for the user to intervene--even though the user is not 
expected to. In the event of a crash, a person's failure to demand 
control, or agree to accept control, could itself be the basis for 
liability.
    And as automated technologies become more sophisticated, and cars 
and trucks are able to operate autonomously from human intervention, 
manufacturers of the hardware and software will face strict liability 
for design or manufacturing defects that caused a crash.
    In all of five of the SAE scenarios, third parties, including 
manufacturers, will be permitted to dispute whether the vehicle, or the 
motorist, was responsible. Facing strict liability for crashes, 
manufacturers will certainly have an incentive to dispute their 
responsibility. And it's worth noting that in several of the most 
highly publicized crashes involving Tesla to date, the company has been 
reluctant to accept full responsibility. In a highly-publicized 
accident in which a Tesla owner died when his Tesla, on Autopilot, 
failed to recognize a truck crossing the road, Tesla went so far as to 
release ``black box'' data from a vehicle to support Tesla's position 
that the driver was at fault, not the car.\62\ Similarly, the 
ridesharing firm Uber blamed test drivers when its vehicles, illegally 
operating in self-driving mode, were caught running red lights in San 
Francisco.\63\
---------------------------------------------------------------------------
    \62\ See, for example, D. Shephardson, ``Google Takes the Blame--
Sort of--for Its Self-Driving Car Crash,'' Reuters, February 29, 2016 
http://time.com/money/4242030/google-self-driving-car-crash-fault/); 
``Tesla Says Autopilot Not to Blame in Crash With Bus in Germany,'' 
Reuters, September 29, 2016 (http://fortune.com/2016/09/29/tesla-
autopilot-crash-germany/); C. Davies, ``In New Model X Crash, Tesla 
Suggests Autopilot Not To Blame,'' Slash Gear, July 6, 2016 (https:// 
www.slashgear.com/in-new-model-x-crash-tesla-suggests-autopilot-not-to-
blame-0644
7354/).
    \63\ ``Witness Saw Uber Robot Car Drive Through Red Light Three 
Weeks Ago in San Francisco,'' Consumer Watchdog, December 20, 2016 
(http://www.consumerwatchdog.org/newsrelease/witness-saw-uber-robot-
car-drive-through-red-light-three-weeks-ago-san-francisco); J. Hood, 
``California Orders Uber's Self-Driving Cars Off The Road,'' Consumer 
Affairs, December 15, 2016 (https://www.consumeraffairs.com/news/
california-orders-ubers-self-driving-cars-off-the-road-121516.html).
---------------------------------------------------------------------------
    While a self-driving vehicle will collect vast amounts of data that 
will potentially offer enormous insight into the reasons for a crash, 
key questions may not be answered by that data. For example, did the 
vehicle correctly inform the designated passenger of the status, such 
that the passenger should have known to assume control? Did the vehicle 
fail to request human intervention? Did the vehicle improperly reject a 
user's demand for surrender of control? Would it matter to the inquiry 
what the passengers were doing at the time of the crash? It is not 
clear to what extent the vehicle will collect all the data necessary to 
determine what happened in the seconds before a crash. Will there be a 
continuously recording camera and microphone in the passenger 
compartment, such that third parties could argue the passenger was 
distracted?
    Consumers who own or lease self-driving vehicles will face far 
greater maintenance responsibilities than they bear today. For example, 
self-driving vehicles will be reliant on external sensors--the eyes and 
ears of the robot car's brain. A scrape or dent that impairs a sensor 
while the vehicle is in the driveway could lead to deadly consequences 
when the vehicle is on the road.
    Moreover, the computer brains of robot cars will inevitably require 
software updates. What happens if the consumer fails to download a 
software update, or visit the dealership if that is required? No 
potential manufacturer of a self driving vehicle has offered to assume 
liability for a crash caused, even partly, by the consumer's failure to 
maintain the vehicle's operational status.
    Each of these scenarios confirms that an inquiry into a consumer's 
``fault'' will be necessary even in the era of fully autonomous 
vehicles.
    Complicating these scenarios is the fact that hardware and software 
manufacturers consider their technology proprietary; indeed, for 
security reasons, it may be impossible for even the owner to access any 
vehicle data.
    Finally, the manufacturers of automated vehicles acknowledge their 
self-interest when it comes to liability. Not one manufacturer has 
agreed to assume all liability for the harm caused by their automated 
vehicles. Three companies have been quoted as stating that they will 
accept legal liability when their cars are in fully autonomous mode: 
Volvo,\64\ Mercedes and Google.\65\ But news reports indicate that 
Mercedes and Google added a salient limitation on their pledge: that 
``their technology is at fault.'' \66\ Of course, that caveat will 
leave the owner of the robot car exposed to liability in cases where 
the manufacturer insists the crash was not the fault of its hardware or 
software--necessitating an inquiry into the drivers' fault.
---------------------------------------------------------------------------
    \64\ M. Harris, ``Why You Shouldn't Worry About Liability for Self-
Driving Car Accidents,'' IEE Spectrum, October 12, 2015 (http://
spectrum.ieee.org/cars-that-think/transportation/self-driving/why-you-
shouldnt-worry-about-liability-for-selfdriving-car-accidents).
    \65\ M. Ballaban, ``Mercedes, Google, Volvo To Accept Liability 
When Their Autonomous Cars Screw Up,'' Jalopnik, October 7, 2015 
(http://jalopnik.com/mercedes-google-volvo-to-accept-liability-when-
their-1735170893).
    \66\ Id.
---------------------------------------------------------------------------
    The search for truth and justice in such circumstances will require 
the full powers of the civil justice system. The right to challenge 
corporate mistakes and reckless profit-driven conduct, in an impartial 
judicial forum with all the procedural protections of the civil justice 
system, starting with trial by jury, and including the strict liability 
of hardware and software manufacturers, will be critical.
3.2 Insurance
    The determination of fault and compensation for injury and property 
damage are matters made by courts. However, the evolution of the 
automobile as the predominant form of transportation in the United 
States led to the establishment of mandatory minimum auto insurance 
coverage requirements--known as ``compulsory financial responsibility 
laws''--in Massachusetts in 1927; today every state but New Hampshire 
requires such coverage. Thus motorists, as a condition of owning or 
leasing a vehicle for operation on public roads, must buy insurance 
that will cover, to at least a minimum extent, that motorist's 
liability should he or she cause injury or damage to another person or 
their property. California, for example, requires most motorists to 
obtain a policy that would pay up to $15,000 in bodily injury 
compensation per person (for a maximum of $30,000 among all injured 
parties) and $5,000 in property damage.\67\
---------------------------------------------------------------------------
    \67\ Other insurance coverage, though typically optional, is often 
purchased by consumers to protect their own vehicles against fire or 
weather damage (comprehensive coverage), or crashes that don't involve 
a third party--such as with a tree or other object (known as collision 
coverage). In states where many motorists operate without insurance, 
consumers often find it prudent to purchase ``uninsured motorist'' 
coverage, so that if they are hit by an uninsured motorist, their 
expenses are covered.
---------------------------------------------------------------------------
    In the event of a crash, persons who suffer loss or damage as a 
result of the at-fault driver make a claim upon the at fault driver's 
insurance coverage. The insurance company is required to make an 
objective determination of the fault of its insured (the exact 
requirements for that determination vary depending upon state law, and 
in California are governed by Proposition 103--see below), and pay the 
claim.
    Mandatory auto insurance coverage assures that motorists will have 
the means to provide at least a minimum level of compensation for 
modest accidents they cause--hence the term ``financial 
responsibility.'' Absent such insurance, the at-fault motorist risks a 
potentially devastating civil judgment against his or her home or other 
assets. Auto insurance also alleviates what would otherwise be a 
significant burden on courts to adjudicate even minor disputes 
involving car accidents.
    The cost of insurance and the underwriting and marketing practices 
of insurance companies have long been a source of public 
dissatisfaction and are often highly controversial. Regulation of 
insurance rates and practices is a matter of state law. The requirement 
that motorists purchase third party insurance coverage from private 
insurance companies has necessitated the establishment of consumer 
protections to assure that consumers are treated in a fair and non-
discriminatory fashion when buying insurance, and in the event an 
insurance claim has been filed. However, the degree of protections 
afforded consumers varies sharply from state to state, as a 2013 report 
by the Consumer Federation of America found.\68\
---------------------------------------------------------------------------
    \68\ ``What Works? A Review of Auto Insurance Rate Regulation in 
America,'' Consumer Federation of America, November 12, 2013.
---------------------------------------------------------------------------
3.2.1 Insurance and autonomous vehicles
    In 2015, United States-based insurance companies held a total of 
$8.4 trillion in assets.\69\ They wrote roughly $192 billion net auto 
insurance premiums nationwide in 2015 (not including commercial 
insurance) and projected they would pay $145 billion in claims.\70\
---------------------------------------------------------------------------
    \69\ ``Annual Report On The Insurance Industry,'' Federal Insurance 
Office, U.S. Department Of The Treasury (September 2016), p. 12.
    \70\ Insurance Information Institute (http://www.iii.org/fact-
statistic/auto-insurance, last visited June 12, 2017).
---------------------------------------------------------------------------
    The insurance industry initially appeared to view self-driving 
vehicles as an existential threat. Within the insurance industry, there 
has been frequent speculation, sometimes verging on panic, at the 
prospect of that revenue stream evaporating with the advent of 
accident-free, driverless vehicles: if there are no accidents, the 
industry reasoned, then why would anyone buy insurance?
    With the benefit of several years of hindsight, the insurance 
industry's immediate fears appear to have subsided. Under any 
transportation system in which a consumer is or may be required to 
operate a vehicle, or even simply to maintain it, state tort laws will 
hold them accountable. Consumers will continue to purchase insurance 
coverage to protect innocent third parties against injuries or property 
damage and to cover their own repair expenses.
    Indeed, as automation technologies enable vehicles to operate 
without human intervention, the makers of the vastly more complex 
hardware and software will face increased tort liability for 
defectively designed or manufactured products. These firms will seek to 
purchase insurance product liability insurance coverage to pay such 
claims. Self-driving cars and trucks will create new markets for 
vehicle insurance coverage that do not exist today.
    It is too early to know the full financial, economic or social 
impacts of robot cars will be at this juncture. But we do know that 
insurance coverage will remain an essential protection in the era of 
driverless vehicles.
    For consumers, the pricing of insurance, historically a significant 
concern, is likely to become a major economic factor as vehicle 
automation increases.
    As noted previously, while it seems logical that the evolution of 
auto safety systems will lead to fewer crashes, there is as yet no 
evidence behind the surmise that robot cars will lead to an overall 
reduction in crash frequency, severity or claims costs. The 
incorporation of electronics in today's cars and trucks, though 
rudimentary by comparison to the complex hardware and software needed 
to maneuver vehicles without human drivers, have already spiked repair 
costs and insurance premiums.\71\ The far greater cost of repairing 
automated vehicles will likely lead insurance companies to dramatically 
inflate the price of liability, collision and comprehensive insurance 
coverage.
---------------------------------------------------------------------------
    \71\ See Section 2.6.
---------------------------------------------------------------------------
    Moreover, risks that today are not especially relevant to cars and 
trucks--such as privacy, security or even mass terrorism--will be much 
more of a threat to robot vehicles. Insurance companies will likely 
assess the heightened risk/threat matrix of the new and untested 
technologies and the hybrid highway as a basis to argue for substantial 
rate increases in the near term.
    Finally, there is a very real danger that insurance companies will 
pursue a new form of ``redlining'' to favor motorists who can afford 
more expensive cars with expensive computer-based systems and 
discriminate against those who cannot by refusing to sell them 
insurance, or adding surcharges to the price of insurance -practices 
with pervasive historical antecedents in the insurance industry.
    Strengthened consumer protections against excessive insurance 
premiums will prove crucial for as insurance companies price the risk 
of highly automated vehicles--particularly since state insurance 
regulators often lack the authority (or desire) to bar abusive rates 
and practices.
3.2.2 The Proposition 103 Model
    According to a 2013 report by the Consumer Federation of America, 
``California stands out from all other states in having the best 
regulatory system for protecting consumers.'' \72\ Enacted by 
California voters in 1988, California's insurance reform law provides 
precisely the stronger protections consumers will require in the era of 
robot vehicles.
---------------------------------------------------------------------------
    \72\ In 1984, the California Legislature amended its financial 
responsibility law to address the growing number of uninsured 
motorists. The amendment allowed police officers to request proof of 
insurance and to cite those who did not produce it. While Californians 
were required by law to purchase insurance, California's insurance law 
did not require insurance companies to sell it to all individuals; nor 
were there any limits on the price insurance companies charged. Many 
Californians could not afford to purchase auto insurance, particularly 
in neighborhoods that were subject to insurance ``redlining,'' even if 
it was available. The inequities of the mandatory purchase requirement, 
combined with escalating auto, home and business insurance premiums, 
sparked a voter revolt that led to the passage of Proposition 103 in 
November, 1988. The measure (Insurance Code section 1861.1 et seq.) 
fundamentally rewrote California's insurance laws. For a detailed 
discussion of the origin, purposes and provisions of Proposition 103, 
see Harvey Rosenfield, Auto Insurance: Crisis and Reform, 29 University 
of Memphis Law Review 69 (Fall 1998). Much more information about 
Proposition 103 is available at www.Consumer
Watchdog.org.

  <bullet> Review of insurance rates. Proposition 103 applies to 
        automobile, homeowner, business, and all other property-
        casualty insurance. It mandated a one-time rollback to November 
        1987 levels and a further 20 percent reduction in premiums. 
        Over $2 billion in refunds were paid by insurance companies 
        under this directive. The measure requires all property-
        casualty insurance companies to open their books and justify 
        existing or proposed rate changes, subject to stringent 
        controls on insurance company profiteering, waste, and 
        inefficiency, and to obtain the Insurance Commissioner's 
        approval before such changes may take effect. Insurance 
        companies must show that their rates are based on verifiable 
---------------------------------------------------------------------------
        loss data and legitimate expenses.

  <bullet> Prohibition on anti-consumer and discriminatory practices. 
        The measure bars ``unfairly discriminatory'' rates or premiums. 
        It also subjects the insurance industry to lawsuits for 
        violation of Proposition 103's provisions and California's 
        civil rights, consumer protection and other laws.

  <bullet> Public disclosure and transparency. The law authorizes the 
        Insurance Commissioner to obtain any data--such as rate and 
        premium data--from insurance companies that is needed to 
        regulate their rates and practices. The Commissioner must 
        disclose to the public all information -that insurance 
        companies provide.

  <bullet> Public participation. The law authorizes and encourages 
        consumers to monitor and challenge existing rates, applications 
        for rate changes, or any other practices that may be unlawful, 
        either in the courts or before the California Department of 
        Insurance. Under certain conditions, the Insurance Commissioner 
        must hold a public hearing on such challenges. The law requires 
        insurance companies to pay the legal fees and expenses of 
        consumers who participate and make a ``substantial 
        contribution'' to the outcome of a legal proceeding. The law 
        also made the Insurance Commissioner, usually an appointed 
        position, an elected post.

    Preventing insurance companies from seeking unjustified rate 
increases will be critical as self-driving vehicles become more 
commonplace, particularly because initially insurance companies will 
have limited experience in assessing the risk they pose, and for that 
reason alone will seek to inflate projections of future claims and the 
cost of repairing or replacing vehicles.

  <bullet> Special protections against unfair automobile insurance 
        premiums. Particularly relevant to self-driving vehicles, 
        Proposition 103 established a special set of rules that govern 
        the pricing of automobile insurance.

        Auto insurance premiums must be determined principally by three 
        specified rating factors--the insured's driving safety record; 
        annual mileage, and years of driving experience--and, to a 
        lesser extent, by any ``optional'' rating factors that ``the 
        commissioner may adopt by regulation and that have a 
        substantial relationship to the risk of loss.'' \73\ The use of 
        any other criterion constitutes unfair discrimination and is 
        unlawful.
---------------------------------------------------------------------------
    \73\ See California Insurance Code section 1861.02(a). The current 
list of authorized optional rating factors can be found at 10 CCR 
2632.5(d).

        Making the driver's own safety record the principal determinant 
        of premiums gives motorists a strong incentive to drive safely. 
        The measure further requires insurers to offer a 20 percent 
        good-driver discount to all qualifying consumers: individuals 
        with a virtually clean driving record (one moving violation is 
        permitted) for the preceding three years. This provides a 
        further incentive for careful driving.
        Basing auto insurance premiums on a motorist's individual 
        responsibility, as reflected by their driving record, will 
        remain of paramount importance for consumers in the era of 
        self-driving vehicles, because in every conceivable scenario 
        the consumer may still bear potential liability in the event of 
        a crash.

        As today, when a motorist is driving a vehicle, they bear 
        responsibility for any injuries or property damage for which 
        they are at fault. During times when the robot is driving the 
        vehicle, the consumer occupant will very likely still have a 
        legal duty to take control in the event of an imminent 
        accident. Even when a self-driving vehicle is parked, the 
        consumer will be responsible for maintaining it in proper 
        condition. A consumer's driving safety record will be based on 
        whether the automated car can avoid tickets and accidents in 
        all these circumstances. And, as noted, the hardware and 
        software manufacturers of automated vehicles will have a 
        financial motive to dispute fault. Because there will never be 
        a 100 percent guarantee that the occupant will not be 
        responsible for a traffic violation if a vehicle fails to 
        properly stop as a pedestrian enters a crosswalk or crosses 
        into an intersection in heavy traffic or if a vehicle's sensor 
        fails, or the computer is hacked, and a crash results, a 
        motorist's driving safety record should be the predominant 
        factor is setting premiums.

        Similarly, annual mileage and years of driving experience, 
        along with several of the optional rating factors previously 
        adopted by the Commissioner, reflect the motorist's risk, 
        without regard to whether the policyholder is driving a car 
        equipped with automation technology. Cars equipped with 
        improved technology will be rated, as they are today under 
        Proposition 103, based on their repair or replacement cost for 
        purposes of comprehensive (weather damage, fire and theft) and 
        collision coverages.

        Other optional rating factors that will remain applicable: the 
        percentage use of vehicle by rated driver; type of vehicle; 
        vehicle performance capabilities, including alterations made 
        subsequent to original manufacture; and vehicle 
        characteristics, including engine size, safety and protective 
        devices, the vehicle's vulnerability to damage, repairability, 
        and installed theft deterrent devices. Cars and trucks equipped 
        with improved technology will be rated, as they are today under 
        Proposition 103, based on their repair or replacement cost for 
        purposes of comprehensive (weather damage, fire and theft) and 
        collision coverages.

    Assessing the overall impact of these reforms in its 2013 analysis, 
the Consumer Federation of America determined that California was the 
only state in the Nation where the average auto insurance premium went 
down between 1989 and 2010, saving motorists alone over $100 billion in 
premiums since the law took effect.\74\
---------------------------------------------------------------------------
    \74\ ``What Works? A Review of Auto Insurance Rate Regulation in 
America,'' Consumer Federation of America, November 12, 2013.
---------------------------------------------------------------------------
    Apart from preventing price gouging and discriminatory practices, 
Proposition 103 provides regulators and consumers with the tools and 
methodology to address other issues raised by autonomous vehicles.
    For example, as noted above, insurance companies collect 
significant amounts of data about motorists; some have begun installing 
black boxes in their vehicles to track mileage and other metrics.\75\ 
An even more troubling abuse is the recent phenomenon, previously 
noted, of insurance companies utilizing the vast trove of personal data 
collected by Google, Amazon, various credit bureaus and other firms to 
individualize a motorist's premiums based on algorithms that consider 
rating factors that have nothing to do with risk, such as the 
likelihood that a particular consumer will accept a modest overcharge 
without protest--a practice known as price optimization that is 
unlawful in nineteen states and the District of Columbia.\76\ Under 
Proposition 103, such practices can be challenged in court and 
investigated by state Department of Insurance. Acting at the request of 
the Los Angeles Superior Court, where a class action has been filed, 
the California Department of Insurance is presently investigating 
whether Farmers Insurance is engaged in the practice, which is unlawful 
under Proposition 103.\77\
---------------------------------------------------------------------------
    \75\ See footnote 27. In response to advocacy by Consumer Watchdog, 
regulations promulgated pursuant to Proposition 103 bar insurance 
companies from collecting data about the location of an insured 
vehicle, except as part of an emergency road, theft, or map service. 
See 10 CCR Sec. 2632.5(c)(2)(F)(i)5.
    \76\ See Section 2.2.
    \77\ In the Matter of the Rating Practices of Farmers Insurance 
Exchange And Mid Century Insurance Company (File No. NC-2017-00003).
---------------------------------------------------------------------------
    As another example, the evolution of the car industry into a more 
frequent litigant may create conflicts in the duties the insurance 
industry owes its policyholders. Some manufacturers of self driving 
hardware and software may purchase large quantities of insurance 
coverage against product liability suits. If so, significant conflicts 
of interest may arise: if the same insurance company sells insurance 
policies to motorists or owners of automated vehicles and to 
manufacturers, the legal duty to handle its policyholders' claims in 
good faith, which each insurance company owes its individual 
policyholders, could well collide with its financial incentive to 
protect the interests of the manufacturer that bought a product 
liability policy.
    In other words, in the era of self-driving vehicles, manufacturers 
and insurance companies may have a vested financial interest in 
protecting each other's bottom line, in which case the threat to 
consumers when it comes to crashes is that every accident will be 
treated as ``your fault.'' New rules to protect consumers against such 
conflicts will likely be necessary. Proposition 103 provides the 
Commissioner and the courts with the authority to adjudicate these 
unexpected secondary effects in an open and transparent forum.
4.0 The Industry Agenda to Roll Back Consumer Rights
    Over the last five decades, Americans have benefitted from a 
paradigm change in consumer protection. Across the economy, rules have 
been put in place to expand the rights of consumers exposed to 
physically or financially injurious products or services. Many of these 
laws, such as those barring and punishing false advertising, defective 
products, sharp financial practices, have become deeply ingrained in 
consumers' bedrock expectations of the marketplace.
    These norms have long been the target of a national attack by 
insurance companies, automakers and other powerful corporations, their 
lobbyists, and sponsored allies in academia, seeking to restrict 
consumer rights under the Personal Responsibility System. They are now 
recycling discredited anti-consumer proposals to limit corporate 
accountability, backed by big business, insurance companies and their 
network of lobbyists and academics, that have failed throughout the 
United States, and which California voters have rejected multiple times 
at the ballot box (Propositions 101, 104 and 106 in 1988; Propositions 
200, 201 and 202 in 1996).
    As noted previously, the suggestion that the transformation to a 
completely automated transportation system is imminent is a fantasy. 
But it's a fantasy that automakers and insurance companies are now 
attempting to exploit in order to press lawmakers to re-write consumer 
protection laws in their favor.
    To do so, they are replicating themes that have proven successful 
in previous campaigns.
4.1 Restrictions on liability laws to encourage ``innovation''
    Manufacturers of hardware and software are quietly proposing to 
revise liability laws and rules so as to limit their financial 
responsibility for deaths and injuries caused by their automated or 
self-driving technology. Insurance companies, which profit primarily 
through the investment of premiums, have a similar financial motive to 
press for limits on liability, since the fewer and smaller claims 
payouts leaves more premium dollars for insurance companies to invest, 
particularly in states where regulators do not have the authority to 
limit rate increases to reasonable projections of future losses.
    Among the proposals advanced by manufacturers and insurance 
companies are arbitrary caps on how much compensation juries can award 
to victims of negligence or intentional misconduct that causes deaths 
or injuries, and restrictions on how much attorneys can charge for 
their representation of such victims.\78\
---------------------------------------------------------------------------
    \78\ R. Nader, ``Suing for Justice,'' Harpers, April 2016.
---------------------------------------------------------------------------
    A different approach, adopted by the George W. Bush Administration 
although most certainly unconstitutional,\79\ called for NHTSA and 
other Federal agencies to override state consumer protection laws.\80\ 
The Obama Administration later reversed it.\81\ (The Trump 
Administration is reportedly preparing its own ``guidelines'' for self 
driving vehicles; according to the new Secretary of the Department of 
Transportation: ``We don't want rules that impede future technological 
advances.'' \82\)
---------------------------------------------------------------------------
    \79\ D. Vladek, ``The Emerging Threat of Regulatory Preemption,'' 
The American Constitution Society, January 2008.
    \80\ M. Levin and A. Miller, ``Industries Get Quiet Protection From 
Lawsuits,'' Los Angeles Times, February 19, 2006 (http://
articles.latimes.com/2006/feb/19/nation/na-preempt19)..
    \81\ P. Rucker, ``Obama Curtails Bush Policy That Let Federal Rules 
Override State Laws,'' Washington Post, May 22, 2009 (http://
www.washingtonpost.com/wp-dyn/content/article/2009/05/21/
AR2009052104016.html).
    \82\ D. Shephardson, ``U.S. Plans To Update Self-Driving Guidelines 
In Coming Months,'' Reuters, June 5, 2017 (http://www.reuters.com/
article/us-usa-selfdriving-idUSKBN18W2JR).
---------------------------------------------------------------------------
    Often, arguments in support of such proposals are couched in a 
threat: that absent such liability limits, manufacturers will not bring 
a product to the American marketplace. Thus the liability protections 
are described as ``impediments'' to innovation.
    Perhaps the most illustrative example is the liability bailout of 
the American nuclear power industry in the 1950s. After World War II, 
Americans were enamored with atomic energy; the ``peaceful use'' of the 
atom was heralded as providing electricity so inexpensive for American 
households that it would be ``too cheap to meter.'' There was catch. In 
what should have been understood as a grave warning sign of the risks 
of nuclear power, the insurance industry claimed it could not provide 
the insurance that the nascent atomic energy industry needed to cover 
its potential liability for a nuclear meltdown or other accident. 
Potential liability is what stood in the way of ``progress,'' 
supporters of nuclear power insisted. In 1957, Congress obligingly 
passed the Price Anderson Act, which immunizes the atomic energy 
industry from liability to the American public in exchange for a tiered 
fund consisting of a contribution from the nuclear industry of up to 
$13 billion, followed by an expected congressional bailout. Nuclear 
power has proven to be an economic disaster for American taxpayers and 
ratepayers.\83\ (The $13 billion limit on the nuclear industry's 
liability is woefully inadequate: the Japanese government's latest 
estimate of the cost of the 2011 meltdown at Japan's Fukushima Daiichi 
Power Plant--still underway--is $188 billion.\84\)
---------------------------------------------------------------------------
    \83\ R. Nader, ``Nuclear Power's Insanities--Taxpayer-Guaranteed,'' 
Common Dreams, September 06, 2014 (http://www.commondreams.org/views/
2014/09/06/nuclear-powers-insanities-taxpayer-guaranteed).
    \84\ Y. Obayashi and K. Hamada, ``Japan nearly doubles Fukushima 
disaster-related cost to $188 billion,'' Reuters, December 9, 2016 
(http://www.reuters.com/article/us-tepco-fukushima-costs-
idUSKBN13Y047).
---------------------------------------------------------------------------
    A report by the U.S. Chamber of Commerce's dedicated anti-liability 
law unit insists that legal liability will ``chill this promising 
technology [autonomous vehicles] and the huge advances in overall 
public safety it promises.'' \85\ It continues: ``Where liability 
exposure poses a threat to an emerging technology, legislators should 
adopt reasonable constraints on liability.'' \86\
---------------------------------------------------------------------------
    \85\ U.S. Chamber of Commerce Institute for Legal Reform, ``Torts 
of the Future: Addressing the Liability and Regulatory Implications of 
Emerging Technologies,'' March 2017, p.2.
    \86\ Id., p. 54.
---------------------------------------------------------------------------
    In a lengthy paper on legal liability and self driving vehicles 
published in 2016, RAND Corporation, which has received substantial 
funding from the insurance industry and has been a long-time advocate 
of restrictions on victim compensation rules, makes the same point:

        Current liability laws may well lead to inefficient delays in 
        manufacturers introducing AV [autonomous vehicle] technologies. 
        The gradual shift in responsibility for automobile operation 
        from the driver to the vehicle may lead to a similar shift in 
        liability for crashes from the driver to the manufacturer. 
        Recognizing this effect, manufacturers may be reluctant to 
        introduce technology that will increase their liability.\87\
---------------------------------------------------------------------------
    \87\ J. Anderson, et al., Autonomous Vehicle Technology: A Guide 
for Policymakers, RAND, 2016, p. 118.
---------------------------------------------------------------------------
4.2 Restrictions on liability laws to ``lower insurance rates''
    The insurance industry is now resurrecting a long-abandoned and 
discredited scheme known as ``no fault'' auto insurance. RAND's report 
concludes: ``Th[e] shift in responsibility from the driver to the 
manufacturer may make no-fault automobile-insurance regimes more 
attractive.'' \88\
---------------------------------------------------------------------------
    \88\ Id., p. 116.
---------------------------------------------------------------------------
    Insurance companies have long blamed liability laws for escalating 
insurance premiums, and proffered restrictions on compensation to auto 
accident victims--so-called ``no fault'' laws--as the solution. ``No 
fault'' barred or gravely limited compensation to people for so-called 
non-economic losses: principally the intangible pain and suffering 
uniquely experienced by a human being that cannot be reduced to a 
specific dollar value. In exchange, the insurance industry promised 
lower premiums and richer insurance benefits for objective out-of-
pocket losses such as medical expenses and wage loss. At its peak, 
twenty-four states had adopted some form of ``no fault'' auto 
insurance.
    As a practical matter, however, ``no fault'' proved to be a 
disaster for consumers. ``No fault'' auto insurance became vastly more 
expensive than the traditional liability system, and insurance 
companies quickly argued they needed to cut the benefits in order to 
bring prices under control.\89\
---------------------------------------------------------------------------
    \89\ H. Rosenfield, ``Auto Insurance: Crisis and Reform,'' 29 U. 
Memphis Law Review 69 (Fall 1998), p. 87-97.
---------------------------------------------------------------------------
    The turning point was the electoral contest over insurance reform 
in California. The insurance industry and its allies placed two ``no 
fault'' related proposals on the California ballot in 1988, as an 
alternative to Proposition 103. They were rejected by the voters by a 
three to one margin.\90\ Insurance companies placed another ``no 
fault'' initiative on the ballot in 1996. It, too, was decisively 
rejected, with 65 percent of Californians voting against it.\91\ Four 
states significantly altered or repealed their no-fault systems between 
1989 and 1995: Georgia, Connecticut, Pennsylvania, and New Jersey, 
experiencing rate reductions as a result.\92\ Today, only twelve states 
employ any form of ``no fault'' insurance.
---------------------------------------------------------------------------
    \90\ Id., p. 83-84.
    \91\See https://ballotpedia.org/
California_Proposition_200,_No_Fault_Automobile_Insurance_
(1996) (last visited June 12, 2017).
    \92\ H. Rosenfield, ``Auto Insurance: Crisis and Reform,'' 29 U. 
Memphis Law Review 69 (Fall 1998), p. 87-97.
---------------------------------------------------------------------------
4.3 Repealing protections against insurance company price gouging and 
        discrimination
    The insurance industry reliably opposes any form of regulation or 
consumer protection legislation, and the potentially destabilizing 
advent of self driving vehicles, with its host of unique and 
unprecedented risks to consumers, is certain to inspire the 
consideration of broader regulation at the state level. Proposition 
103's protections will no doubt be considered a model for consumers in 
other states as automated vehicles are rolled out.
    Insurance companies vehemently opposed Proposition 103 at the 
ballot box--spending a record $63 million in their campaign to defeat 
it--and many insurers have sought to evade or contest its reforms since 
they were upheld in a series of unanimous decisions by the California 
Supreme Court after the measure passed. The industry, as well as 
individual insurance companies, continues to fight the rate reductions 
and premium rollbacks in the courts.\93\ So it is hardly a surprise 
that some insurance companies hope to exploit the discussion about 
insurance and liability in the era of autonomous vehicles to argue 
that, as one industry source candidly put it, ``the Prop 103 model 
should be scrapped entirely.'' \94\
---------------------------------------------------------------------------
    \93\ ``CA Supreme Court Rebuffs Insurance Industry Assault on 
Proposition 103 Rate Protections,'' Consumer Watchdog, May 11, 2017 
(http://www.consumerwatchdog.org/newsrelease/ca-supreme-court-rebuffs-
insurance-industry-assault-proposition-103-rate-protections).
    \94\ I. Adams, ``Does Prop 103 Violate Itself?'' Personal Insurance 
Federation of California, October 21, 2014 (http://www.pifc.org/prop-
103-violate/).
---------------------------------------------------------------------------
    The industry contends that Proposition 103's protections against 
discriminatory rates and practices are outdated and will no longer be 
necessary once robots, not humans, are driving vehicles.\95\ However, 
as discussed above, no fully autonomous vehicle is available for 
purchase today, nor has any date been set for the sale of such 
vehicles, and America is decades away from a fully autonomous 
transportation system (if it ever happens). Between now and that very 
distant future, our roads will be a ``Hybrid Highway'' of vehicles with 
greatly varying degrees of automation, ranging from none to a great 
deal. So long as consumers are subject to liability for injuries and 
property damage caused by the crash of a self-driving car or truck, 
they will require insurance coverage. And so long as insurance 
companies attempt to overcharge motorists for that protection, the 
protective provisions of Proposition 103 will remain essential.
---------------------------------------------------------------------------
    \95\ Id. See also R. Peterson, New Technology--Old Law: Autonomous 
Vehicles and California's Insurance Framework, Santa Clara University 
School of Law, May 21, 2012; D. Jergler, ``Prop. 103 vs. Self-driving 
Cars Revving up in California,'' Insurance Journal, Sept. 17, 2014 
(http://www.insurancejournal.com/news/west/2014/09/17/340898.htm); I. 
Adams, ``Can Prop 103 Handle Driverless Cars?'' R Street, August 27, 
2014, (http://www.rstreet.org/2014/08/27/can-prop-103-handle-
driverless-cars/).
---------------------------------------------------------------------------
    Self driving vehicles will place the insurance industry at a 
crossroads. Rather than resist or work to undermine reform, insurance 
companies would be better advised to focus their resources on the 
extremely important consumer protection role they could choose to play 
as vehicle automation increases. Historically, the insurance industry 
has exhibited limited interest in safety and ``loss prevention,'' 
perhaps because insurers are cost-plus, cash flow based institutions: 
their profits are largely based on their projected costs, so when 
claims rise, insurers can justify charging higher premiums, and earn 
more investment income.\96\ These incentives have discouraged insurance 
companies from using their vast information database on vehicle hazards 
to alert manufacturers of vehicle dangers and press them--and 
lawmakers--for safety improvements. This moment in history, marking a 
rapid evolution in vehicle technology, is the time for the insurance 
industry to weigh in--with a commitment to strong Federal safety 
regulation, for example, and much more resources for affiliated 
organizations whose mission is public safety and loss prevention.
---------------------------------------------------------------------------
    \96\ H. Rosenfield, ``Auto Insurance: Crisis and Reform,'' 29 U. 
Memphis Law Review 69 (Fall 1998), p. 76.
---------------------------------------------------------------------------
5.0 Guiding Principles
    To protect consumers against the challenges posed by autonomous 
vehicle technology, Consumer
    Watchdog believes six principles must be adopted.
    1. Protect the civil justice system. The state-based civil justice 
system--open courts, impartial judges and citizen juries--is fully 
equipped to handle the determination of legal responsibility as our 
transportation system evolves over the coming decades. Disputes over 
who is at fault in a crash involving a self-driving car or truck will 
require the full power of civil justice system, with its procedural 
safeguards of an impartial judge, full public transparency, and trial 
by citizen juries, to investigate and publicly expose the cause of 
crashes, compensate the victims for deaths, injuries and property 
damage, punish the wrongdoer, and force manufacturers to make changes 
in their products to prevent future harm. When their autonomous 
technologies fail, hardware and software manufacturers must be held 
strictly liable. Lawmakers should reject legislation to limit or 
restrict state consumer protection laws. Manufacturers must not be 
permitted to evade these consumer protections by inserting arbitration 
clauses, ``hold harmless'' provisions or other waivers in their 
contracts.
    2. Enact stronger state consumer protections against insurance 
company abuses. According to a 2013 report by the Consumer Federation 
of America, ``California stands out from all other states in having the 
best regulatory system for protecting consumers.'' Enacted by 
California voters in 1988, California's insurance reform law provides 
precisely the stronger protections consumers will require in the era of 
robot vehicles. The reforms, known as Proposition 103, have protected 
motorists (along with homeowners, renters, businesses and medical 
providers) against unjust insurance rates (including product liability 
insurance rates) and anti-consumer and discriminatory practices. The 
law's emphasis on rewarding drivers with lower insurance premiums based 
on their safety record, their annual mileage, their driving experience, 
and other rating factors within their control that are ``substantially 
related to the risk of loss,'' will be critical in the new automotive 
era. Proposition 103's mandate for public disclosure and public 
participation in regulatory matters are essential components of a 
system that will be trusted by consumers.
    3. Enact auto safety standards. Private companies cannot be trusted 
to develop and deploy robot cars and trucks without rules. The Federal 
auto safety agency, or in its absence, state auto safety agencies, must 
develop standards for the testing and deployment of the multiple 
technologies required by robot vehicles. These standards must address 
safety; security; privacy and the software that determines the robot's 
actions in the event of an impending collision and as it makes life and 
death decisions. They must be enforceable by consumers in courts of 
law.
    4. Stronger laws are needed to protect consumers' privacy. The laws 
have not kept pace with the evolution of technology and the collection 
and monetization of consumers' personal data. Hardware and software 
manufacturers and insurance companies must be barred from utilizing 
tracking, sensor or communications data, or transferring it to third 
parties for commercial gain, absent separate written consent (which 
should not be required as a condition of accessing the services of the 
vehicle/manufacturer, and which should be revocable by the consumer at 
any time).
    5. Bar Federal interference in state consumer protection laws. 
Neither Congress not Federal agencies should be permitted to preempt or 
override stronger state based civil justice, insurance reform or auto 
safety laws.
    6. Respect democratic and human values. The sponsors of self-
driving vehicles have promoted the myth that machines are infallible in 
order to justify the wholesale departure from a panoply of norms that 
form founding principles for the nation, beginning with the rule of 
law; individual and corporate responsibility; long held legal 
principles that distinguish between human beings and property; and the 
transparency of public officials and institutions that is a hallmark of 
democracy. The strategy of substituting robot values for human values 
has reached its apotheosis in the determination by robot car company 
executives to program computers to make life and death decisions, and 
to keep that decision-making process secret. Lawmakers will need to 
impose the rule of law and other attributes of American democracy upon 
the executives of the hardware and software companies that manufacture 
self-driving cars.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                             Mitch Bainwol
    Question. There is conflicting research on whether self-driving 
cars will increase congestion and vehicle emissions overall. For 
instance, vehicle-miles traveled could increase because automation 
lowers the opportunity cost of driving. Do you think the widespread 
deployment of self-driving cars will increase congestion or vehicle 
emissions? How do we ensure that this does not happen?
    Answer. It is thought that self-driving vehicles will be initially 
deployed primarily in a ride-hailing, ride-sharing, or goods delivery 
fleet context. These vehicles will be part of Transportation as an 
Operating ecosystem that will allow better fleet management and more 
efficient transportation, which, coupled with the general trend toward 
drivetrain electrification, offers the possibility of reduced 
congestion and emissions. We are also excited about potential for self-
driving vehicles to reduce traffic fatalities, improve transportation 
efficiency, and expand mobility to traditionally underserved 
populations. We feel those reasons are quite compelling in the overall 
debate about permitting the deployment of self-driving vehicles.
    Regardless of vehicle powertrain, it would be speculative to 
definitively state that self-driving vehicle deployment will increase 
vehicle emissions or congestion. However, it is well documented that 
current advanced driver assist technologies have a positive impact on 
congestion because the technology is preventing accidents that would 
otherwise occur due to driver error.
    Note, attached is a projection from Moody's Investors Services that 
outlines the expected rate of use and ultimate saturation for HAV 
technologies, including fully autonomous vehicles.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Tammy Duckworth to 
                              Rob Csongor
    Question. Data access is an issue raised by a number of 
stakeholders, ranging from public safety advocates, law enforcement, 
insurers, and environmental organizations. Considering the importance 
of data access for liability determinations, environmental impact 
determinations, and determining how safe this technology actually is, 
how will these issues be addressed to make sure the appropriate 
stakeholders have access to relevant data that is not proprietary 
information?
    Answer. In order to develop self-driving cars and ensure they are 
safe, massive amounts of data are required to train AI neural networks. 
In addition, we will want to test them on real roads as well as 
simulated tests that will be based on data from previously driven 
miles.
    All of this data can be collected from fleets of test vehicles, as 
well as customer vehicles. NVIDIA believes that the data obtained by 
customer vehicles must be treated in a fashion that anonymizes the 
data. No personally identifiable information should be retained, but 
rather just the sensor data and other vehicle data will be maintained 
in order that the driving system can be trained.
    With respect to archiving data on the vehicle, it makes sense to 
have a data recorder that maintains recent driving activity that can be 
used to understand what happened in the case of an incident, and can be 
used to determine who is at fault.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                             John M. Maddox
    Question 1. A recent Deloitte research paper illustrates how the 
transportation industry is leveraging the wireless platform to innovate 
and grow. According to this paper, wirelessly connected self-driving 
cars could reduce travel times by nearly 40 percent and delays by 20 
percent, annually generating $447 billion in savings and saving 21,700 
lives. Can you describe the American Center for Mobility's work with 
wireless providers to speed up the delivery of self-driving vehicles?
    Answer. Our current transportation system is comprised of people, 
vehicles, and roads (infrastructure). The American Center for Mobility 
(ACM) is convinced that modern communications networks will make up a 
critical and necessary component of our future transportation system, 
right alongside people, vehicle, and roads. This modern transportation 
communications network will enable the rapid distribution and 
collection of data, forming a data backbone which will create the 
possibility for a systems-approach for the efficient flow of people and 
goods.
    Highly Automated Vehicles (HAVs) will rely heavily on this data 
backbone. HAV technology is critical to a future transportation system 
that continues to support our national economy, and deployment of these 
communications and vehicle technologies will help ensure our continued 
international economic competitiveness.
    ACM is creating a national-scale proving ground for the future of 
transportation where these future transportation products and services 
can be tested, verified, and validated. In addition to testing for 
vehicles and roads, ACM is building a facility for critical testing and 
development of the communications systems that will form this data 
backbone.
    ACM is collaborating with AT&T, and other companies who will be 
announced at a later date, to design, build, and operate a dedicated 
network so that manufacturers, developers, service providers, 
government bodies, and other stakeholders can rapidly develop and 
deploy beneficial transportation technologies in a collaborative 
fashion. This dedicated network will include, among other technologies, 
4G/LTE cellular, Dedicated Short Range Communication (DSRC), Wi-Fi, 
cloud services, edge computing, and 5G when it is ready.
    We anticipate that this transportation communications testing 
capability will be in high-demand and will enable the very rapid 
development of Connected and Automated Vehicle technology.

    Question 2. As more connected and autonomous vehicles hit the road, 
they will need to ``talk'' to each other and everything around them in 
a secure manner to realize the full potential of the technology. There 
will be an enormous growth in data as vehicles and surrounding 
infrastructure become connected. How is the American Center for 
Mobility working with the wireless industry to ensure that the wireless 
infrastructure exists to handle the vast amounts of data needs that 
will come with autonomous vehicles?
    Answer. The American Center for Mobility (ACM) is convinced that a 
modern communications network is a required component of our future 
transportation system to enable needed data systems. Highly Automated 
Vehicles (HAVs) present both challenges and opportunities regarding 
data and data sharing, as the vehicles themselves require that a large 
amount of data and information be sensed, acquired, amalgamated, 
analyzed for rapid decision-making, and acted upon through control 
decisions and operational monitoring. However, the processing, 
distribution, and eventual storage of these extremely large amounts of 
data is itself a significant challenge. It is highly unlikely that it 
will be practical to transfer and store all of the data from thousands, 
much less hundreds of thousands, of vehicles throughout the vehicle 
lifetime. Therefore, data selection and harvesting processes must be 
developed.
    ACM is working with telecom, automotive, cybersecurity, computing, 
simulation, and infrastructure industry partners to create a model 
communications system whereby they can test, develop, verify, and 
validate their key technology and offerings.
    We are also focused on partnering with key Standards Development 
Organizations (SDOs) to rapidly create, publish, and update critical 
voluntary standards around communications systems, as well as the 
vehicle and roads themselves. It is critical that we begin and 
accelerate the work to establish these voluntary standards to support 
the deployment on this technology and to help ensure our continued 
international economic competitiveness.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             John M. Maddox
    Question 1. It is reported that driving a self-driving car for an 
hour will generate four terabytes of data. This data is very valuable 
for various applications--urban planning, for example. But there are 
currently a wide variety of approaches in state legislations when it 
comes to data ownership. What do you think are good principles of data 
sharing among car operators, car manufacturers, and the government?
    Answer. Highly Automated Vehicles (HAVs) present both challenges 
and opportunities regarding data and data sharing, as the vehicles 
themselves require that a large amount of data and information be 
sensed, acquired, amalgamated, analyzed for rapid decision-making, and 
acted upon through control decisions and operational monitoring. 
However, the processing, distribution, and eventual storage of these 
extremely large amounts of data is itself a significant challenge. It 
is highly unlikely that it will be practical to transfer and store all 
of the data from thousands, much less hundreds of thousands, of 
vehicles throughout the vehicle lifetime. Therefore, data selection and 
harvesting processes must be developed.
    While data best-practices for HAVs are still under significant 
development by vehicle manufacturers, testers, suppliers, and service 
operators, generally, these data practices will eventually likely 
include established processes for maintaining privacy and proper 
ownership, while providing for the collection of in-use event, 
incident, and vehicle information data for crashes, near crashes, 
malfunctions, degradations, failures, and unintended operation outside 
established operational domains. It is expected that this information 
will become extremely useful for vehicle development, safety 
monitoring, and operations activities as well as accident/event 
reconstruction purposes. All of these types of data can be useful for 
creating appropriate safety requirements, but privacy and ownership 
principles must be maintained.
    Key principles must be established at the policy level, ideally 
federally to avoid a patchwork of requirements, and in concert with 
industry and consumer groups. The basic principles employed in today's 
vehicles are appropriate starting points, including the concept that 
the vehicle-level data ownership is dictated by vehicle ownership, 
unless voluntarily sharing is ``opted-into'' by the owner.
    Lastly, data ownership and sharing policies must also take into 
account the reality that cellular phones, tablets, wearables, and other 
devices are already collecting and transmitting large amounts and broad 
types of data, and that vehicle-based data is not the only source of 
privacy and ownership concerns in the transportation system.

    Question 2. This year, there has been a lot discussion from both 
sides of the aisle on our Nation's deteriorating infrastructure. In 
your opinion, is our physical infrastructure ready for self-driving 
cars? If not, what has to change?
    Answer. Our transportation system is the lifeblood of the U.S. 
economy. It supports all of our business and economic activities, 
including the basics of getting people to their jobs and goods to 
market. It underpins our society and our entire way of life. Our 
deteriorating infrastructure is already weighing down our economy with 
increased congestion, wasted fuel, and significant safety issues. 
Further lack of investment in our infrastructure will also hamper our 
ability to deploy Highly Automated Vehicle (HAV) technology in the long 
term at large scale and will reduce our international economic 
competitiveness.
    While our current infrastructure is less than ideal, HAVs will 
initially be able to accommodate this, much like initial automobiles 
handled horse-trails 100 years ago. But quickly our existing 
infrastructure, if left unimproved, will increasingly inhibit 
widespread deployment of HAV technology and significantly reduce 
societal benefit.
    In the short term, we should concentrate on improving the basics, 
including well-painted lane markings, high quality and consistent 
signage, and well-lit and delineated pedestrian crossings and bicycle 
lanes. We should move quickly to deploy Vehicle-to-Infrastructure (V2I) 
and Vehicle-to-Vehicle (V2V) communications systems based on DSRC and 
cellular, as well as regularly updated detailed maps to provide HAVs 
with augmented data for safety and operations.
    In the longer term, we should begin to establish best practices for 
new infrastructure designs for urban and rural areas, including managed 
lanes, further improved lane and road edge markings, traffic control 
systems, and parking.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Tammy Duckworth to 
                             John M. Maddox
    Question. Auto manufacturers and technology companies continue to 
develop and push for highly autonomous vehicles to enter our 
transportation landscape and we understand that in order to bring these 
products to market they need to be tested not only on secure test 
tracks but also on actual roads. Many of these vehicles under 
development are being designed to have little if any human intervention 
features should something arise that requires someone or something to 
take control of the vehicle.
    Is the role of insurance being addressed as autonomous vehicle 
technology is developed and how do you envision liability issues 
(product liability, strict liability, etc.) going to be addressed going 
forward as we move toward the Level 3-5 environment?
    Answer. It is true that numerous companies are developing highly 
automated vehicles for deployment and operation over the next 1-5 
years. Some of these vehicles will not require human intervention for 
normal operation. And indeed, best practices for development and full 
validation of these vehicles include a coordinated and diligent 
approach including both on-road and closed course testing, as well as a 
related computer-simulation approach.
    The role, and nature, of insurance is being considered and 
logically must be addressed in this same time period. Currently, 
insurance companies and re-insurance companies are analyzing this 
technology as they would with any new technology: examining, collecting 
data where possible, and attempting to quantify the risk and potential 
benefit of the technology. However, it is largely understood that data 
is scarce and that the examination is still in early stages. 
Predictably, insurance companies are generally not offering a public 
view of their planning and analysis efforts or results.
    The assumption in the vehicle developer community is that the 
current liability system in the U.S. will likely be in place throughout 
the near-term roll-out of the technology. However other countries and 
regions, including those with highly developed automotive industries, 
are critically examining whether other liability regimes, including 
shared liability, would provide greater societal benefit due to faster 
deployment or other means.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
